<html>
<title> - NUCLEAR TERRORISM</title>
<body><pre>[Senate Hearing 110-1038]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 110-1038
 
                        NUCLEAR TERRORISM--2008

=======================================================================


                                HEARINGS

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

          FEBRUARY 13, 2008--THE DEFENSE DEPARTMENT'S HOMELAND
                SECURITY ROLE: HOW THE MILITARY CAN AND
                           SHOULD CONTRIBUTE

 APRIL 2, 2008--NUCLEAR TERRORISM: ASSESSING THE THREAT TO THE HOMELAND

 APRIL 15, 2008--NUCLEAR TERRORISM: CONFRONTING THE CHALLENGES OF THE 
                               DAY AFTER

  MAY 15, 2008--NUCLEAR TERRORISM: PROVIDING MEDICAL CARE AND MEETING 
                      BASIC NEEDS IN THE AFTERMATH

          JUNE 26, 2008--NUCLEAR TERRORISM: PROVIDING MEDICAL
                  CARE AND MEETING BASIC NEEDS IN THE
                    AFTERMATH--THE FEDERAL RESPONSE

       JULY 16, 2008--THE GLOBAL NUCLEAR DETECTION ARCHITECTURE:
            ARE WE BUILDING DOMESTIC DEFENSES THAT WILL MAKE
                THE NATION SAFER FROM NUCLEAR TERRORISM?

SEPTEMBER 25, 2008--PREVENTING NUCLEAR TERRORISM: HARD LESSONS LEARNED 
                       FROM TROUBLED INVESTMENTS

                               ----------                              

       Available via http://www.gpoaccess.gov/congress/index.html
                       Printed for the use of the



                  U.S. GOVERNMENT PRINTING OFFICE
41-450                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


        Committee on Homeland Security and Governmental Affairs

                        NUCLEAR TERRORISM--2008
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
      Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                     Kevin J. Landy, Chief Counsel
                       Eric P. Andersen, Counsel
                      Jonathan M. Kraden, Counsel
               F. James McGee, Professional Staff Member
              Aaron M. Firoved, Professional Staff Member
               Alistair Reader, Professional Staff Member
                    Marc B. Cappellini, FBI Detailee
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Asha A. Mathew, Minority Senior Counsel
                    John K. Grant, Minority Counsel
          Keyur B. Parikh, Minority Professional Staff Member
               Christopher P. Cole, Minority FBI Detailee
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman...................  1, 33, 69, 105, 133, 167, 193
    Senator Collins........................... 3, 34, 70, 107, 134, 169
    Senator Pryor................................................    18
    Senator Akaka.............................................. 45, 195
    Senator Tester...............................................    49
    Senator Carper...............................................   100
    Senator Warner............................................. 41, 101
Prepared statements:
    Senator Obama, April 2, 2008.................................   223
    Senator Collins, September 25, 2008..........................   224

                               WITNESSES
                      Wednesday, February 13, 2008

Major General Arnold L. Punaro, USMCR (Ret.), Chairman, 
  Commission on the National Guard and Reserves..................     5
Major General E. Gordon Stump, ANG (Ret.), Commissioner, 
  Commission on the National Guard and Reserves..................    10
Lieutenant General James E. Sherrard III, AFR (Ret.), 
  Commissioner, Commission on the National Guard and Reserves....    12

                        Wednesday, April 2, 2008

Charles E. Allen, Under Secretary for Intelligence and Analysis 
  and Chief Intelligence Officer, U.S. Department of Homeland 
  Security.......................................................    35
Rolf Mowatt-Larssen, Director, Office of Intelligence and 
  Counterintelligence, U.S. Department of Energy.................    38
Matthew Bunn, Ph.D., Senior Research Associate, Belfer Center for 
  Science and International Affairs, John F. Kennedy School of 
  Government, Harvard University.................................    54
Gary A. Ackerman, Research Director, National Consortium for the 
  Study of Terrorism and Responses to Terrorism, University of 
  Maryland.......................................................    58

                        Tuesday, April 15, 2008

Hon. Ashton B. Carter, Co-Director, Preventive Defense Project, 
  John F. Kennedy School of Government, Harvard University.......    72
Cham E. Dallas, Ph.D., Director, Institute for Health Management 
  and Mass Destruction Defense, University of Georgia............    78
Roger C. Molander, Ph.D., Senior Research Scientist, RAND 
  Corporation....................................................    83
John R. Gibb, Director, New York State Emergency Management 
  Office.........................................................    87

                         Thursday, May 15, 2008

Irwin Redlener, M.D., Director, National Center for Disaster 
  Preparedness, Mailman School of Public Health, Columbia 
  University.....................................................   109
Ira Helfand, M.D., Co-Founder and Past President, Physicians for 
  Social Responsibility..........................................   112
Joseph C. Becker, Senior Vice President, Disaster Services, 
  American Red Cross.............................................   116
John Ullyot, Senior Vice President, Media Relations and Issues 
  Management, Hill and Knowlton, Inc.............................   119

                        Thursday, June 26, 2008

Hon. R. David Paulison, Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........   136
Hon. W. Craig Vanderwagen, Assistant Secretary for Preparedness 
  and Response, U.S. Department of Health and Human Services.....   138
Hon. Paul McHale, Assistant Secretary of Defense for Homeland 
  Defense and Americas' Security Affairs, U.S. Department of 
  Defense........................................................   141
James H. Schwartz, Fire Chief of Arlington County, Virginia......   145

                        Wednesday, July 16, 2008

Mark Mullen, Assistant Director for Architecture, Domestic 
  Nuclear Detection Office, U.S. Department of Homeland Security.   170
Charles Gallaway, Ph.D., Deputy Director, Domestic Nuclear 
  Detection Office, U.S. Department of Homeland Security.........   172
David C. Maurer, Acting Director, Natural Resources and 
  Environment, U.S. Government Accountability Office.............   174
Dana A. Shea, Ph.D., Specialist in Science and Technology Policy, 
  Resources, Science, and Industry Division, Congressional 
  Research Service, Library of Congress..........................   176
Robert F. Nesbit, Senior Vice President and General Manager, 
  Center for Integrated Intelligence Systems, The MITRE 
  Corporation....................................................   179

                      Thursday, September 25, 2008

Eugene E. Aloise, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................   196
Vayl S. Oxford, Director, Domestic Nuclear Detection Office, U.S. 
  Department of Homeland Security................................   198
Thomas S. Winkowski, Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................   199
Thomas B. Cochran, Ph.D., Senior Scientist, Nuclear Program, 
  Natural Resources Defense Council, Inc.........................   202
Richard L. Wagner, Jr., Ph.D., Chairman, Nuclear Defense Working 
  Group, Center for the Study of the Presidency (testifying in 
  his personal capacity).........................................   204

                     Alphabetical List of Witnesses

Ackerman, Gary A.:
    Testimony....................................................    58
    Prepared statement...........................................   405
Allen, Charles E.:
    Testimony....................................................    35
    Prepared statement...........................................   379
Aloise, Eugene E.:
    Testimony....................................................   196
    Prepared statement...........................................   715
Becker, Joseph C.:
    Testimony....................................................   116
    Prepared statement with an attachment........................   511
Bunn, Matthew, Ph.D.:
    Testimony....................................................    54
    Prepared statement...........................................   390
Carter, Hon. Ashton B.:
    Testimony....................................................    72
    Prepared statement with an attachment........................   417
Cochran, Thomas B., Ph.D.:
    Testimony....................................................   202
    Prepared statement with attachments..........................   746
Dallas, Cham E., Ph.D.:
    Testimony....................................................    78
    Prepared statement with attachments..........................   429
Gallaway, Charles, Ph.D.:
    Testimony....................................................   172
    Joint prepared statement with Mr. Mullen.....................   647
Gibb, John R.:
    Testimony....................................................    87
    Prepared statement...........................................   455
Helfand, Ira, M.D.:
    Testimony....................................................   112
    Prepared statement with attachments..........................   469
Maurer, David C.:
    Testimony....................................................   174
    Prepared statement...........................................   657
McHale, Hon. Paul:
    Testimony....................................................   141
    Prepared statement...........................................   615
Molander, Roger C., Ph.D.:
    Testimony....................................................    83
    Prepared statement...........................................   446
Mowatt-Larssen, Rolf:
    Testimony....................................................    38
    Prepared statement...........................................   385
Mullen, Mark:
    Testimony....................................................   170
    Joint prepared statement with Mr. Gallaway...................   647
Nesbit, Robert F.:
    Testimony....................................................   179
    Prepared statement...........................................   705
Oxford, Vayl S.:
    Testimony....................................................   198
    Prepared statement with attachments..........................   731
Paulison, Hon. R. David:
    Testimony....................................................   136
    Prepared statement...........................................   590
Punaro, Major General Arnold L.:
    Testimony....................................................     5
    Joint prepared statement of General Punaro, General Sherrard, 
      and General Stump, with attachments........................   225
Redlener, Irwin, M.D.:
    Testimony....................................................   109
    Prepared statement...........................................   463
Schwartz, James H.:
    Testimony....................................................   145
    Prepared statement...........................................   638
Shea, Dana A., Ph.D.:
    Testimony....................................................   176
    Prepared statement with an attachment........................   675
Sherrard, Lieutenant General James E. III:
    Testimony....................................................    12
    Joint prepared statement of General Punaro, General Sherrard, 
      and General Stump, with attachments........................   225
Stump, Major General E. Gordon:
    Testimony....................................................    10
    Joint prepared statement of General Punaro, General Sherrard, 
      and General Stump, with attachments........................   225
Ullyot, John:
    Testimony....................................................   119
    Prepared statement with an attachment........................   543
Vanderwagen, Hon. W. Craig:
    Testimony....................................................   138
    Prepared statement...........................................   603
Wagner, Richard L., Jr., Ph.D.:
    Testimony....................................................   204
    Prepared statement...........................................   773
Winkowski, Thomas S.:
    Testimony....................................................   199
    Prepared statement...........................................   740

                                APPENDIX

Excerpts from the Final Report of the Commission on the National 
  Guard and Reserves, January 31, 2008...........................   257
Report of the American Red Cross titled ``Mass Care 
  Implementation Requirements for the Catastrophic Incident 
  Supplement of the National Response Plan,'' December 2004, 
  submitted by Mr. Becker........................................   517
Report titled ``The Global Nuclear Detection Architecture: Issues 
  for Congress,'' July 16, 2008, submitted for the Record by Mr. 
  Shea...........................................................   681
Pictures submitted for the Record by Mr. Dallas..................   443
Charts submitted for the Record by Senator Lieberman, July 16, 
  2008...........................................................   708
Post-Hearing Statement for the Record by Mr. Galloway, July 16, 
  2008...........................................................   712

Responses to Post-Hearing Questions for the Record on February 13 
  from:
    Mr. Mowatt-Larssen...........................................   781
    Mr. Bunn.....................................................   786
Responses to Post-Hearing Questions for the Record on April 15 
  from:
    Dr. Carter...................................................   790
    Dr. Dallas...................................................   793
    Dr. Molander.................................................   799
    Mr. Gibb.....................................................   805
Responses to Post-Hearing Questions for the Record on May 15 
  from:
    Dr. Redlener.................................................   810
    Dr. Helfand..................................................   812
    Mr. Becker...................................................   815
    Mr. Ullyot...................................................   821
Responses to Post-Hearing Questions for the Record on June 26 
  from:
    Mr. Paulison.................................................   824
    Admiral Vanderwagen..........................................   837
    Mr. McHale...................................................   857
Responses to Post-Hearing Questions for the Record on September 
  25 from:
    Mr. Aloise...................................................   870
    Mr. Oxford...................................................   876
    Mr. Wagner...................................................   889


                   THE DEFENSE DEPARTMENT'S HOMELAND



                    SECURITY ROLE: HOW THE MILITARY



                       CAN AND SHOULD CONTRIBUTE

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Pryor, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and thank you for being 
here.
    It struck me, Senator Collins, that I do not know whether 
this is a statement or not, but our sister committee on the 
House side this morning is hearing testimony from Roger Clemens 
on another question with probably a lot more media attention. I 
would like to say, not to diminish my concern about the use of 
steroids in baseball, but I do think focusing on our National 
Guard and Reserves, particularly on our homeland security, may 
be considerably more important in the long run.
    Senator Collins. I would agree with the Chairman's 
assessment.
    Chairman Lieberman. Thank you. This hearing is actually the 
first in a series our Committee will hold on the grave and 
genuine threat that terrorists will get their hands on weapons 
of mass destruction (WMD), particularly nuclear weapons, and 
attack our homeland with them. The best response to this threat 
is, of course, to stop the terrorists from getting and using 
those weapons of mass destruction, and that is what so much of 
our intelligence and military forces are focused on. But, 
unfortunately, we cannot guarantee that our efforts to prevent 
terrorists from acquiring and using nuclear weapons in America 
will always succeed.
    Consider the following. The National Intelligence Estimate 
of July 2007 warned that ``al-Qaeda will continue to try to 
acquire and employ chemical, biological, radiological, or 
nuclear material in attacks and would not hesitate to use them 
if it develops what it deems is sufficient capability.''
    Just last weekend, Mohamed El Baradei, the Chief Officer of 
the International Atomic Energy Agency (IAEA), reinforced that 
specific threat when he said, ``This, to me, is the most danger 
we are facing today. Because any country, even if they have 
nuclear weapons, would continue to have a rational approach.'' 
Parenthetically, I am not so sure about that in all countries, 
but going on with the quote, ``They know if they use a nuclear 
weapon, that as a nation, they will be pulverized. For an 
extremist group, there is no concept of deterrence. If they 
have it, they will use it.''
    El Baradei went on to say that the IAEA handles about 150 
cases a year involving trafficking of nuclear material and that 
some material reported stolen is never recovered. He added, ``A 
lot of the material recovered has never been reported stolen.''
    It is in that context that we convene today. Today, we are 
going to hear testimony about the recent report from the 
Commission on the National Guard and Reserves, which concludes 
that our government is not adequately prepared to respond to a 
WMD attack on our homeland.
    In its final report released on January 31, 2008, the 
Commission said: ``Because the nation has not adequately 
resourced its forces designated for response to weapons of mass 
destruction, it does not have sufficient trained, ready forces 
available. This is an appalling gap that places the nation and 
its citizens at greater risk.''
    I would add that the gap is not only appalling, it is 
unacceptable.
    Today, we are going to hear from the Commission Chairman, 
our friend and colleague, retired Marine Major General Arnold 
L. Punaro and two of his fellow commissioners, Retired Air 
Force Lieutenant General James E. Sherrard III and Retired Army 
National Guard Major General E. Gordon Stump.
    We thank you for coming and we thank you for your service 
to our country, and especially for your hard work over the last 
2 years on the enormous task that you took on.
    Your sweeping report, which is the first congressionally 
mandated reevaluation of the Guard and Reserves since the 
Korean War, makes 95 recommendations on reforms needed to help 
the National Guard and Reserves effectively perform their 
missions both in defense of the homeland and on battlefields 
overseas.
    We, in Congress, obviously still need to carefully assess 
your 95 recommendations, but I want you to know this morning 
that I certainly agree with the Commission's overall vision.
    As Chairman of this Committee, and as a member of the 
Senate Armed Services Committee, along with Senator Collins on 
both, I will work to ensure that our Guard and Reserve members 
and their families are treated with the respect and gratitude 
they deserve for their patriotic service, that we ease the 
burdens of their service as much as possible, and that all the 
members of the Guard and Reserves and their families get each 
and every consideration and benefit they have been promised as 
members of what I would call our modern-day Minutemen, who are 
ready to serve, ready to leave their homes and families on 
short notice to defend this Nation.
    Today, the Committee will focus on the seven very 
important, specific, and in some cases somewhat controversial 
recommendations the Commission made regarding homeland security 
and the role of the Guard and Reserves, including your 
recommendation that the Department of Defense (DOD) make its 
civil support a mission equal in priority to its war-fighting 
missions, and that governors be allowed to command Federal 
military efforts in their States.
    The Commission has recognized that the Guard and Reserves, 
forward deployed in communities across the Nation, are uniquely 
suited to homeland missions, and has called for them to play a 
priority role in disaster response.
    That recommendation raises the larger important question 
about how to rebalance the Guard's capability so that it can be 
prepared for its domestic response, but maintain its necessary 
critical role overseas.
    Many of the Commission's recommendations are just common 
sense, like recommendation six: ``The Secretary of Defense 
should ensure that forces identified as rapid responders to 
domestic catastrophes are manned, trained and equipped to the 
highest levels of readiness.''
    Hurricane Katrina showed how important a coordinated 
military response is to a disaster.
    The Department of Defense's commitment of personnel and 
resources to Hurricane Katrina was large: More than 20 naval 
vessels, almost 300 helicopters, and 70,000 troops, including 
50,000 National Guard troops, deployed to the Gulf Coast in the 
10 days following the storm.
    But to those stranded on their rooftops, or in the 
Superdome and Convention Center without adequate supplies or 
sanitation for days, those resources came too slowly.
    The challenges of response to a nuclear, biological, or 
chemical attack where only the Department of Defense has the 
medical assets, logistical capability, and sheer manpower 
needed to respond would, of course, be immense and urgent. The 
key players--the National Guard Bureau, U.S. Northern Command 
(USNORTHCOM), the Department of Homeland Security (DHS), other 
Federal agencies, and States and localities--must be integrated 
seamlessly in order to be ready to respond effectively.
    Are we as ready as we should be? The Commission says no, 
and I find its answer to be convincing. Of course, together, 
that gives us a responsibility to fix that.
    I look forward to your testimony and I am happy now to call 
on Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    The conclusion of the Commission on National Guard and 
Reserves that there is ``an appalling gap'' in our Nation's 
preparedness for chemical, biological, or nuclear terrorism, 
underscores this Committee's longstanding concern and is a call 
to action.
    According to the Commission, America also remains far from 
having a practical and effective system for integrating 
military forces into our all-hazards homeland security plans. 
Commission members told the Armed Services Committee last week 
that we have not achieved the level of planning and 
coordination that we need to deal with such a catastrophe. This 
lack of preparedness, the Commission stated, ``puts the Nation 
and its citizens at greater risk.''
    Whether a catastrophe is caused by the indifferent forces 
of nature or by the calculated malevolence of humans, we must 
have workable, coordinated, tested plans that integrate 
capabilities not only across the Federal Government, but also 
with States and localities to ensure an effective response.
    As we saw during our investigation of the response to 
Hurricane Katrina, a catastrophe can overwhelm response 
capabilities in a devastated region. Given the numbers, 
locations, and capabilities of the National Guard and Reserve 
units throughout the country, they are an obvious and essential 
part of any large-scale coordinated response.
    Our exhaustive investigation into the Hurricane Katrina 
disaster confirmed the enormous contributions made by Guard, 
Reserve, and active-duty troops in the wake of that hurricane. 
But our investigation also revealed serious shortcomings in the 
systems for controlling and coordinating the work of these 
troops.
    For example, then-head of Northern Command Admiral Timothy 
Keating testified before us that he had limited situational 
awareness of Guard units even as he was deploying active-duty 
units to the Gulf region. Our Hurricane Katrina investigation 
also found poor coordination between the Department of Defense 
and the Department of Homeland Security.
    Chairman Lieberman. Would you like to take a minute?
    Senator Collins. Mr. Chairman, since I am losing my voice, 
I am going to put the rest of my statement in the record, which 
is probably a relief to you, as well---- [Laughter.]
    Since we have a 10:30 a.m. vote.
    Chairman Lieberman. Well, that is not substantively a 
relief to me because I always benefit from your statement, 
Senator Collins, but I know there is a lot of that going 
around.
    Senator Collins. Exactly.
    [The remainder of the prepared statement of Senator Collins 
follows:]

           PREPARED STATEMENT OF SENATOR COLLINS (Continued)
    It found limited awareness at DHS of the military's capabilities in 
an emergency. It found a cumbersome process for making mission 
assignments. It found inadequate military training in the National 
Response Plan and in the National Incident Management System. I could 
expand the list, but the point is simply this: The lack of planning 
between DOD and DHS seriously hindered and delayed the response.
    As the Commission's final report to Congress correctly notes, 
defining the National Guard's role in civil support raises ``extremely 
complex'' issues. That is why, in crafting the Post-Katrina Emergency 
Management Reform Act, this Committee acted to address many 
coordination concerns. A key reform was assigning a military liaison to 
every Federal Emergency Management Agency (FEMA) regional office.
    This reform has already paid dividends. I saw this first-hand at a 
FEMA (Region I) exercise last year. Another provision of our reform act 
helps responses move more quickly, thanks to the use of more than 20 
pre-scripted mission assignments that FEMA can issue to the military 
and other responders. These are great steps forward.
    Even if Congress provided by statute that civil support during 
homeland disasters is a core competency and a primary responsibility of 
the Department of Defense, however, thorny questions would remain. 
Defining the appropriate roles and authorities of State governors, 
especially in multi-State catastrophes, and making the Guard and 
Reserve a stronger presence in homeland-defense planning at a time when 
so many units are deployed overseas are among the difficult challenges.
    And even when these difficult questions are answered, we face a 
practical challenge: Our National Guard forces are stretched too thin. 
General Punaro has said that last year's 88-percent-unready rating for 
Guard units has probably worsened because of the ``treadmill'' of 
extended and repeated overseas deployments.
    Congress needs to do more to promote Guard recruitment, retention, 
training, equipping, and compensation. We call upon the brave men and 
women of the National Guard to augment the active-duty forces, as 
members of a Maine National Guard training team are now doing in 
Afghanistan. We ask them to support disaster recovery, as Maine Army 
and Air Guard personnel did after Hurricane Katrina. Congress must 
ensure that the Guard can perform both missions effectively.
    The Department of Defense has expressed concerns that civil support 
responsibilities could undermine the Guard's combat capability. Yet the 
engineering, communications, medical, logistical, policing, and other 
civil-support tasks required after a catastrophic earthquake, fire, or 
flood involve many of the same skills needed to perform those functions 
in a war zone. Temporary assignments in civil-support roles could 
actually enhance a unit's proficiency for supporting combat operations.
    Congress must do nothing, however, to undercut the military's 
capability to deter foreign aggression and to fight if deterrence 
fails. Defeating armed threats to the Nation will always be the 
military's first mission. But the breadth of our military's skills and 
its deployment across the Nation require that America's military is 
prepared to effectively augment civilian responses when catastrophe 
strikes in the homeland.
    Finally, I would suggest to my colleagues that the ``appalling 
gap'' identified by the Commission should be a clarion call for us. 
Whatever view we take of the specific recommendations of the 
Commission, we can agree with the point General Punaro made at the 
Armed Services Committee hearing--we must have some plan. This 
Committee has already taken legislative action to avert a repetition of 
the days following Hurricane Katrina's landfall, when civilian 
officials were improvising command and logistics arrangements with the 
military in the midst of chaos.
    I am pleased that FEMA now has military liaisons to help from the 
outset with the critical tasks of coordination. We must build on this 
progress by ensuring that the Guard and Reserves are ready to assist 
civil authorities under clear and workable plans.
    I look forward to hearing more of our witnesses' thoughts on these 
matters.

    Chairman Lieberman. We do have a vote at 10:30 this 
morning, so my hope is that we can at least get through the 
opening statements before we have to vote and then, of course, 
we will come back for the questions.
    General Punaro, it is great to see you, a long-time friend 
and public servant, Chief of Staff--is that the actual title 
you had? I always thought of you as the Chief of Staff of the 
Senate Armed Services Committee----
    General Punaro. Chief cook and bottle washer.
    Chairman Lieberman. Yes. Well, you did some good cooking 
and bottle washing during the time that Sam Nunn was our 
Chairman, which was a great time. Anyway, thanks for your 
service here and we welcome your testimony.

 TESTIMONY OF MAJOR GENERAL ARNOLD L. PUNARO, USMCR (RET.),\1\ 
    CHAIRMAN, COMMISSION ON THE NATIONAL GUARD AND RESERVES

    General Punaro. Thank you, Mr. Chairman and Senator 
Collins. Of course, we are privileged to be here this morning 
to present our final report and I would ask consent that our 
full statements, as well as an executive summary of our 
report,\2\ be entered into the record and we will just give 
very short verbal summaries.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of General Punaro, General 
Sherrard, and General Stump, with attachments, appears in the Appendix 
on page 225.
    \2\ The Executive Summary from the Final Report of the Commission 
on the National Guard and Reserves appears in the Appendix on page 257.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, so ordered. Thank 
you.
    General Punaro. I am accompanied this morning by two fellow 
Commissioners, Lieutenant General Jimmy Sherrard and Major 
General Gordon Stump. We also have in the audience two of our 
fellow commissioners, Commissioner Will Ball, our former 
Secretary of the Navy and a distinguished Senate staffer, and 
also Don Stockton, a Missouri businessman and a longstanding 
member of the Air Reserve, giving us moral support and watching 
our backs.
    Our witnesses today, General Sherrard and General Stump, 
have distinguished careers and unique expertise in the subject 
matter, and we want to thank you, Mr. Chairman, and thank 
Senator Collins for the support you gave our Commission in 
doing the work, but in particular for the strong bipartisan 
leadership this Committee has shown over the years in improving 
the Nation's capabilities to protect and defend the Nation, as 
you indicated, but then as important, to manage and recover in 
crisis situations.
    This Committee and the Senate Armed Services Committee--and 
there is a Defense Appropriations Subcommittee--have always 
enjoyed a strong cross-over membership, a feature that in my 
judgment has resulted in significant enhancements to our 
overall national security.
    As you mentioned, I spent many days as a young staffer 
sitting back up there as a Governmental Affairs Committee 
staffer. That was my first assignment for Senator Nunn. 
Obviously, I did not measure up to the high standards required 
of a Governmental Affairs Committee staffer, and I was demoted 
over to the Senate Armed Services Committee.
    Chairman Lieberman. That is exactly the way we see it here. 
[Laughter.]
    General Punaro. Yes. I thought that might be the case, Mr. 
Chairman.
    I also want to mention congratulations on receiving the 
Minuteman Award tonight from one of our military's most 
distinguished associations. It is very apropos that the word 
``Minuteman'' is very important, and hearing your opening 
statement, the Minuteman concept means that our forces here in 
the United States, particularly our National Guard, have to be 
at the ready at all times. The award is not called the ``We Are 
Working On It'' Award. It is not called, ``It Will Take a 
Year,'' or ``It Will Take a Month,'' or ``It Will Take a Week'' 
Award, it is called the Minuteman Award, and one of the things 
that we will talk to you about this morning is we need our 
Guard and Reserve forces here in the homeland to be at the most 
ready when the Nation is least ready, and so it is a concept we 
want to spend some time talking about this morning.
    I also want to take a few moments to say a few words about 
the Government Accountability Office (GAO), since you are the 
Committee of jurisdiction to oversee them. That agency has been 
a terrific help to our Commission. Its work has been thorough, 
objective, and professional, and I know all 12 Commissioners 
thank the GAO and its fine leader, Comptroller General David 
Walker, for the tremendous job they have done in helping us 
fulfill our responsibilities. They did a landmark piece of 
analysis looking at the cost of the Guard and Reserves as 
compared to the cost of the active forces as well as some 
analysis for us on equipment and readiness, and in fact, the 
GAO has written dozens and dozens of reports in this homeland 
area in addition to the work they have done for us.
    So the 95 recommendations in our final report, they address 
our initial charter and also engage more deeply with issues we 
addressed in our March 1 interim report, specifically our 
concerns with respect to the sustainability of an Operational 
Reserve, our recommendations to codify and put in statute the 
Department of Defense's role in the homeland, and then our 
focus on the inadequacy of the planning and resourcing 
processes to address threats in the homeland.
    The statute directed us that we examine how best the Guard 
and Reserves could be used for the homeland missions, so that 
was an actual charter that we had, not one that we took on. I 
am sure we would have, but it was Congress who asked us to 
specifically look at that.
    We tried to look at the problems that needed to be fixed 
and put suggested solutions out there. As you have indicated, 
many of these problems are extremely complex. Some of them have 
been around since the beginning of the republic. The issue of 
who is in charge, the Federal Government or the State 
governors, that question has been around for a long time and 
people of good character and conscience will disagree with some 
of the solutions we proposed.
    We believe our mandate from Congress was to report what we 
found and we did that. We understand that additional analysis 
by DOD, DHS, Congress, and this Committee could lead to 
alternative remedies. We welcome that. We know our 
recommendations can be improved on. We are not hung up on our 
recommendations. We are hung up on fixing the problems.
    Fewer than half of our 95 recommendations require 
legislation. There are a lot of areas in which DOD could make 
changes right away, and Congress could enact some immediate 
statutory changes, as well, particularly in this area of 
homeland defense. I believe the timing and the substance is 
right for those areas.
    I want to emphasize that our recommendations are in no way 
a critique of officials currently serving in Congress or the 
Pentagon or their predecessors in previous Administrations. 
Most of these problems have developed over decades and decades, 
or, as you pointed out, are a result of these new emerging 
threats that have just come upon us and we need to respond to.
    It is not a report card and the Commission's mandate didn't 
ask us to catalog how far we have come, and we have come a long 
way since September 11, 2001, thanks to the work of the 
Pentagon, this Committee, and others in Congress, but we were 
asked to take a snapshot of where we are, make a recommendation 
on where we need to go, and so it will be up to the Congress, 
DHS, and DOD to make the ultimate determination about that end 
state and how much of the gap between where we are and where we 
think we ought to be that you are committed to addressing.
    We were thorough and all encompassing in our approach. We 
had 17 days of public hearings, 115 witnesses, 42 Commission 
meetings, 850 interviews with public officials and other 
subject matter experts. We knew that all official wisdom in 
Washington wasn't the only thing, so we got out of the Beltway. 
We had site visits, field visits. We met with employers, 
families, and individual Guard members. We heard from battalion 
commanders, company commanders, sergeants, and everybody that 
could bring wisdom.
    And I want to add, Mr. Chairman and Senator Collins, that 
the 12 members of the Commission brought 288 years of total 
service in the uniform of our military and an additional 186 
years of non-military government service, individuals like our 
Secretary of the Navy and the White House, and we have many 
years of private sector experience, as well. So we felt like we 
had a lot of expertise to bring to bear on the problem. We 
weren't newcomers in this area. We had a lot of firsthand 
experience on our Commission in emergency management as well as 
commanding the military. The three of us have commanded 
military organizations that have responded to homeland 
scenarios as well as overseas scenarios.
    So I am going to focus very quickly on our conclusion--No. 
1 is that we believe there is a compelling case to create what 
is called an Operational Guard and Reserve. This is profoundly 
different than the Strategic Reserve of the peak of the Cold 
War and it is important for people to understand how profound 
the change that is required.
    We all served in the Guard and Reserves when they were 
strategic. We have served in the Guard and Reserves in an 
operational capacity. Just because a unit gets called up and 
deploys in an operation and is engaged operationally overseas 
doesn't mean that our Guard and Reserves are operational. By 
operational, we mean that we have to have a change in all the 
laws, rules, regulations, funding mechanisms, training, 
recruiting, retention, promotion, to basically ensure that we 
change the construct for how that Guard and Reserves are viewed 
on a day-to-day basis, how it is supported, how it is funded, 
particularly in these areas in the homeland so it can be 
operational when it is required and so it can be sustainable. 
It is currently not sustainable in the way we are approaching 
it right now.
    And I do not believe that this is that controversial. The 
Special Assistant to the Chairman of the Joint Chiefs of Staff, 
Major General Tommy Dyches, made just such a statement when we 
started our Commission 2 years ago. We were huge skeptics, the 
12 Commissioners, because we knew how profound a change you 
would have to have to have a true Operational Guard and 
Reserve. Over the course of the 2 years, we came around to 
making that our conclusion; we have kind of backed into this. 
We kind of back-door evolved into it. There has been no public 
debate. Congress hasn't required it by statute. And so we 
believe that is a requirement, that Congress, who has the 
responsibility under the Constitution to give prioritization 
and direction to the Department of Defense--and this is where 
the Department says they are, so this shouldn't be something 
that the Department would push back on.
    There are three compelling reasons why we need an 
Operational Guard and Reserve. First, it is the only fire break 
we have right now to having to go back to the draft. If it had 
not been for the 600,000 Guard and Reserve personnel that were 
mobilized, and most of them sent overseas for Iraq and 
Afghanistan and other activities, or the 61 million man days 
they provided in 2006, which is the equivalent of another 
168,000 people on full-time active duty--and by the way, that 
600,000 doesn't include the 55,000 members of the National 
Guard that the Guard Bureau self-deployed to Hurricane 
Katrina--you would have had to go back to the draft if you 
wanted to maintain the force levels that our combatant 
commanders required overseas.
    That shouldn't surprise anybody because the Gates 
Commission that recommended going away from the draft in 1970 
made that comment. The all-volunteer force was not designed for 
sustained combat. So that is reason No. 1, to have an 
Operational Guard and Reserve, so we can maintain that fire 
break.
    Second, is the threats in the homeland. You have pointed 
them out in your opening statements. Admiral McConnell 
testified last week. Secretary Chertoff gave a press conference 
the other day. I mean, the threat is real, it is compelling, 
and it is not going to go away. Regrettably, and there is a lot 
being done to preempt and protect, but as the Chairman pointed 
out, we have to be ready when the balloon goes up. We cannot 
take a year. We cannot take a month. We cannot take a week.
    So the Guard and Reserves have a tremendous operational 
advantage, economic advantage, and military skills advantage 
over the active component in doing this mission. They are in 
the communities. They are hazardous material coordinators. They 
are experts in these areas. They know the geography. They are 
close by.
    And the third compelling reason is they are much more 
economical. You can put in the Guard and Reserves the same 
capability you can put in the active components for 70 percent 
less than it costs to have it on active duty. If you had to put 
600,000 more people on our active duty military, it is a 
trillion dollars.
    So those are the three compelling reasons to have an 
Operational Reserve, and we are going to shift now and General 
Stump is going to pick up on our conclusion No. 2, I think it 
is important. I would like to read the conclusion because we do 
not believe it is controversial. We believe it is right where 
we need to be.
    The Department of Defense must be fully prepared to protect 
American lives and property in the homeland. DOD must improve 
its capabilities and readiness to play a primary role in the 
response to major catastrophes that incapacitate civilian 
government over a wide geographic area. This is a 
responsibility that is equal in priority to its combat 
responsibilities. As part of DOD, the National Guard and 
Reserves should play the lead role in supporting the Department 
of Homeland Security, other Federal agencies, and States in 
addressing these threats of equal or higher priority. That is 
our conclusion, followed by a series of recommendations of how 
to go about that.
    We believe that this should be codified in law, the 
Department of Defense's responsibility to provide support for 
civil authorities. This is a role that the Department, up until 
now, historically, has pushed back on and could push back on 
the future. The fact that we have the most proactive Secretary 
of Defense that I can recall in my lifetime in Secretary Robert 
Gates and a very dynamic leader in the Homeland Security 
Assistant Secretary Paul McHale, they are cracking skulls and 
pushing the bureaucracy every day. We know this is important.
    We know Congress sets the priorities. The Department of 
Defense doesn't self-set their own strategy and priority. They 
get it from the American people through the Congress. We 
believe this needs to be codified to ensure that we keep moving 
forward as we build on the progress that has already been made 
and we close that gap in terms of where we need to go.
    So, Mr. Chairman, I appreciate being given the opportunity 
and General Stump will follow up and talk about the homeland.
    Chairman Lieberman. Thanks, General Punaro. A good 
beginning.
    General Stump, do you want to go next?

  TESTIMONY OF MAJOR GENERAL E. GORDON STUMP, ANG (RET.),\1\ 
  COMMISSIONER, COMMISSION ON THE NATIONAL GUARD AND RESERVES

    General Stump. Yes, sir. I will get right to some of the 
recommendations and quickly go through those. I know you have 
got the vote coming up.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of General Punaro, General 
Sherrard, and General Stump, with attachments, appears in the Appendix 
on page 225.
---------------------------------------------------------------------------
    We think that the DHS should generate civil support 
requirements for DOD which should validate them as appropriate. 
The Commission believes that the Department of Homeland 
Security is the agency responsible for coordinating 
preparedness initially to generate requirements for DOD, and 
DOD will then validate for DHS those requirements it agrees it 
should take on. This should be a collaborative inter-agency 
process. If you do not have a requirement, then you as Congress 
do not know what to fund, and this is an important requirement 
and this is something that hasn't been done. So we put that in 
the report and we think that is extremely important.
    We talked about the Department of Defense should have 
codified responsibilities for taking on the civil support 
authority.
    Consistent with their warfighting task, the National Guard 
and the Reserves should be the lead agency for the homeland 
security. When something happens, it doesn't matter what we do 
or anybody does. The first soldier on the ground in any 
catastrophe is going to be the National Guard. That is just the 
way it is. The governors have their local people who are 
responsible. When they run out of those resources, they go to 
the National Guard, then they go to their State compacts, and 
from there they go to the Federal Government. So that, we 
believe, should be codified.
    We also believe that the National Guard must continue to 
have a warfighting mission as well as the Reserves. Without it, 
as we indicated before, you would have to go back to the draft. 
So we are not saying that it just should be a homeland defense 
force. They must also be available for the wartime mission.
    The Secretary of Defense should ensure that forces 
identified as rapid responders to domestic catastrophes are 
manned, trained, and equipped to the highest levels of 
readiness, and if I can indulge you for just a second, I will 
go through a brief description. USNORTHCOM has a Joint Task 
Force Civil Support (JTF-CS). It is a standing joint task force 
staffed by 160 persons and commanded by a two-star Army 
National Guard general in Title 10 status. They plan and 
integrate DOD support for domestic, chemical, biological, 
radiological, nuclear, and explosive device consequence 
management. In the event of a domestic attack, the JTF-CS would 
deploy to the incident site to exercise command and control 
over the Federal military sources. This particular task force 
is in being and fully resourced.
    The National Guard Weapons of Mass Destruction Civil 
Support Teams (WMD-CSTs), which you, Congress, have authorized, 
are 22-member National Guard units operation in Title 32 
status. The WMD-CSTs are tasked with identifying agents or 
substances, assessing the consequence of the event, advising on 
response measures, and assisting with requests from the State 
and the Federal Government. Congress has authorized 55 of those 
and they are up and running, operational, and fully funded, but 
they are only 22 men and all they do is identify the source.
    The Marine Corps has a Chemical-Biological Incident 
Response Force, a Title 10 unit consisting of several hundred 
personnel capable of providing capabilities for agent detection 
and identification, casualty research, search and rescue, 
personal documentation, emergency medical care, and 
stabilization of contaminated personnel. Again, just one unit, 
about 400 people.
    The National Guard has stood up what we call the CBRNE 
Enhanced Response Force Packages (CERFPs), National Guard Force 
Packages created to assist local, State, and Federal 
authorities in consequence management and fill the anticipated 
gap from the 6 to 72 hours from the first response to Federal 
response to a catastrophic event. The Guard knows that the 
governor is going to call them and they are going to have to be 
there. They combine four elements from the National Guard. They 
have search and extraction, decontamination, medical, and 
command and control. Seventeen of these units are in existence. 
They come from existing National Guard force structure. Twelve 
of these are in assigned FEMA regions. Again, small forces for 
the 6 to 72-hour time frame when a weapons of mass destruction 
happens.
    Now, the last one identified by USNORTHCOM is the Chemical, 
Biological, Radiological, Nuclear and High-Yield Explosive 
(CBRNE) Consequence Management Response Forces (CCMRFs), three 
Title 10 force packages consisting of several thousand joint 
personnel from separate units identified and organized to 
perform the consequence management missions with capabilities 
including medical, decontamination, communications, logistics, 
transportation, and public affairs. The National Guard will 
probably make up most of these operating in Title 10 forces. 
Two are notional. One has been put on the ground. But these are 
not funded and trained, and we need to fund and train these to 
go for the weapons of mass destruction.
    And then, of course, the last recommendation, which is 
probably one of the most controversial and was one that we felt 
should be put into policy or statute, is allowing the governors 
under certain circumstances to direct the efforts of Federal 
military forces within their State responding to an emergency. 
As Senator Collins indicated, we had an operational control 
situation with Hurricane Katrina. USNORTHCOM sent forces in 
when the 50,000 National Guard people were not enough to 
respond to the incident. Title 10 forces came in and it was 
good. We had a ship offshore that was doing the medical end of 
it. But we also had forces within Louisiana and within 
Mississippi that were responding and they weren't under the 
same command and control.
    But we believe that the States should work out agreements 
in advance as part of their planning processes specifying 
circumstances under which Title 10 forces could be temporarily 
placed under the direction of the Adjutant General in order to 
prevent the potential confusion of having two chains of 
command. It could be done through certified dual-hatted 
National Guard General Officers. There is a program out there 
where the Army says, we will dual-hat you. We will send you 
through a training program so that you can command and control 
both Title 10 and Title 32 forces. Every State has a General 
Officer that has done this. During the G-8 Conference in 
Georgia, it worked out perfectly well. But we have received a 
lot of push-back, as you can imagine, from USNORTHCOM and from 
the active Army.
    In addition, American forces are placed under the 
operational control of foreign commanders, and there is a lot 
that has been studied on this and that was perfectly 
acceptable. So we, as a Commission, believe that--now, this 
doesn't mean that the governor is going to oversee the 82nd 
Airborne during their training before they go deploy. All we 
are saying is that we need to cut these forces to the 
commanders for unity of command.
    So those are briefly some of our recommendations,.
    Chairman Lieberman. Excellent. That is really thought 
provoking and I appreciate the common-sense way in which you 
put it forward based on your experience.
    Chairman Lieberman. General Sherrard, thanks for being 
here. We welcome you.

  TESTIMONY OF LIEUTENANT GENERAL JAMES E. SHERRARD III, AFR 
 (RET.),\1\ COMMISSIONER, COMMISSION ON THE NATIONAL GUARD AND 
                            RESERVES

    General Sherrard. Thank you, sir. Thank you very much for 
the opportunity to address the Committee.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of General Punaro, General 
Sherrard, and General Stump, with attachments, appears in the Appendix 
on page 225.
---------------------------------------------------------------------------
    Sir, I would like to, again, trying to be very short and 
concise for you, to hit some key points as you have looked and 
heard from our Chairman's discussion. Our Commission had a very 
broad experience base, I myself having spent many years in the 
Air Force Reserve, having come to the Reserves from active 
duty. I have had the chance to operate from the Federal side, 
the Title 10 side of the Reserve component, of the Reserve 
forces.
    In our deliberations as a Commission, we thought there were 
some very unique capabilities and opportunities to utilize 
these forces but found that there are certain constraints that 
we believe can be rectified to allow those forces to assist the 
National Guard in the very efforts that Commissioner Stump has 
already addressed. They will be the first. But we do believe 
that, as he said, the National Guard and the Reserve forces 
should be the backbone of that initial response because they 
live there.
    And from having commanded two Air Reserve installations, I 
can tell you firsthand my fire departments had mutual aid 
agreements and they could respond to support various other fire 
departments, but I didn't have the authority to just send my 
people downtown. I won't tell you they didn't go downtown and 
help. I would never say that because we are going to respond to 
the needs of the community as best we can, particularly if life 
is in danger. But we need to have a mechanism where this other 
group, the Air Force Reserve, the Navy Reserve, Marine Corps, 
and Army Reserve, who have great capabilities that can be 
offered to whatever natural or manmade disaster we may be 
addressing.
    We have proposed in one of our recommendations a 
mobilization authority similar to that that the Coast Guard has 
under DHS where you will be able to utilize the people for a 
maximum of 60 days in a 4-month period, or 120 days in a 2-year 
period, and let them be there with that capability that they 
possess.
    We also talked in our March 1 report as well as in our 
final report about the structure of USNORTHCOM in terms of more 
National Guard and Reserve staff and capabilities, people with 
credentials that can come in there and do that. We also 
recommended that the commander and/or deputy commander be a 
National Guard or Reserve officer. Congress has taken some 
action where it says it should be a National Guardsman. We, as 
a Commission, believe it still should be considered as both 
because there are certainly people inside the Reserve forces 
who may have every credential that you want to either be that 
commander and/or deputy commander.
    Commissioner Stump talked about readiness. Readiness is 
certainly something key for all of us, and the key part of that 
that we have recommended in our report is manning the 
organizations from a full-time support perspective where you 
can allow them to be fully combat-capable. You cannot man a 
force at C-3 and then expect them to be C-1, or fund them at a 
C-3 level and expect them to be fully combat-ready. And that 
ties in with equipment and training.
    And the very last issue that we have in there that we would 
love to have the chance to address later with you is the issue 
of as we continue our models in the future for the Army Force 
Generation (ARFORGEN) of the way the Army is going to do their 
force generation to continue to do operations worldwide, and 
the Marine Corps has theirs, we do not believe that going to 
the old standard mobilization process is the right way to do 
business. If you have to, absolutely. But we do think there are 
some new, innovative ideas, a contractual obligation with 
members of the Reserve forces, the Reserve components, that 
could, in fact, help fill that bill, and we know that the most 
important thing of all is to be there and be prepared to do 
what the American public needs at any given moment of a natural 
disaster or a manmade disaster, and we do believe incorporating 
these forces together is the right thing for us to do for the 
American people, too.
    So I look forward to your comments, sir.
    Chairman Lieberman. Thanks again very much for very helpful 
testimony. Thanks for your service.
    The vote hasn't gone off at 10:30 as scheduled. This will 
shock you, General Punaro, I know---- [Laughter.]
    Based on your many years here in the Senate, you would be 
amazed how often something does not happen at the time it is 
supposed to.
    Would you like to proceed with your questioning first, 
Senator Collins?
    Senator Collins. Go right ahead, Mr. Chairman.
    Chairman Lieberman. OK. We will do 6 minutes and then we 
will go as far as we can go before the vote goes off.
    General Punaro, I wanted to ask you first to answer a few 
definitional questions. We live with them, but I want everybody 
to understand what we mean. Talk just a bit about what is the 
difference between Strategic Guard and Reserve and Operational.
    General Punaro. I will just talk in not Pentagon 
``bureaucratese'' but just from a commander's perspective.
    Chairman Lieberman. Right.
    General Punaro. Strategic Guard and Reserve meant that you 
would go once in a lifetime, once in a generation. If the 
Soviet Warsaw Pact attacked NATO, we had a commitment to have 
10 divisions of active duty forces, on the ground in 10 days, 
and then over the next 6 to 8 months, the Guard and Reserve 
would be mobilized, then trained, then equipped, then brought 
up to full speed and sent forward. So they were kept at a very 
low state of readiness with few exceptions.
    There were some units, obviously, but the bulk of the Guard 
and Reserves in a strategic posture was kept at--as General 
Sherrard said, your highest state of readiness is called C-1. 
C-2 is right below that. You want your units to be at least C-
2, hopefully C-1. At C-3 and C-4, you need a lot of additional 
equipment, training, people, and time to get that unit to 
actually go into combat, just like the 6 months we take right 
now to train up active duty units and Guard and Reserve units 
before they go to Afghanistan and Iraq. They do not just pick 
up one day and are gone.
    So strategic meant that you resourced them at a low level, 
recognizing that the scenario was such that they would have 
plenty of time to prepare, train, etc., and go into the fight.
    Chairman Lieberman. OK.
    General Punaro. Now, in your promotion systems, your 
recruiting systems, your equipment readiness posture, 
everything was maintained at a lower state of readiness. So now 
you switch and say, we are going to have this Operational Guard 
and Reserve, meaning much more of the organizations have to be 
maintained at that highest level of readiness. There are four 
key measures that tell you if a military unit is ready.
    One is personnel. It is the number of people that you have 
in the unit, that is required because a unit basically takes 
its standards from its mission. So you tell a unit, a Marine 
infantry battalion, here are the things you are going to have 
to do. So that unit is designed and trained to those mission-
essential tasks list. So then you rate that unit against that. 
Personnel is, at least 90 percent. Not only do you have to have 
the right number, you have to have them trained in the right 
skills. If you have the people and they are not trained, they 
are not combat-ready.
    Chairman Lieberman. I think I have got it, and that is very 
helpful. In other words, for a long time in the Cold War we 
were dealing in a strategic environment where you would have to 
be ready to go into Europe in the case of a Warsaw Pact 
invasion, but that was a relatively small percentage of the 
forces at that highest level. Today, what we are really talking 
about is the demand for readiness is high. As you all testified 
to, and I do not know that the American people appreciate this 
enough, without the Guard and Reserves, we would have to have a 
draft to meet the security challenges that we are facing today. 
So the Guard and Reserves make an enormous difference.
    Let me ask you one other definitional question, because I 
want to ask a specific question about it. What does civil 
support mean?
    General Punaro. I am going to let General Stump take that 
one because it basically--go ahead, General Stump.
    Chairman Lieberman. Go ahead, General. That is good.
    General Stump. Basically, civil support, when you have an 
incident, probably 60 or 70 percent of the incidents that 
happen are handled by the mayor, the fire department, and the 
police department and so forth.
    Chairman Lieberman. Right.
    General Stump. But when those resources are expended and 
there is no other place to go, then we have what we call 
support to civil authorities.
    Chairman Lieberman. Right.
    General Stump. So this is what the National Guard, the 
governor--as the Adjutant General, I knew if something 
happened, my phone was going to ring and I was going to have to 
send the National Guard out there, and that is where we have 
support to the civil authorities. So basically, it is 
responding to an incident and helping the civil authorities 
reconcile that incident----
    Chairman Lieberman. Here at home.
    General Stump. Here at home, yes, sir.
    Chairman Lieberman. Under the current doctrine for civil 
support, the Department of Defense relies on capabilities that 
are programmed for warfighting missions to perform these 
domestic missions of civil support where necessary. From one 
perspective, there is a lot of logic to that. Helicopter pilots 
train for combat and they also perform search and rescue and 
logistical support missions and so on.
    At a hearing last July, Acting Assistant Secretary of 
Defense Peter Verga told this Committee that it would be a 
false choice to have parallel sets of capabilities for domestic 
support and overseas warfighting and that instead we should use 
the existing capabilities to enable the civilian agencies to 
respond more effectively. Because I know the Commission came 
down differently, why does the Commission believe that is the 
wrong model and why do you recommend that the Department of 
Defense, as you do quite strongly, develop unique capabilities 
for this civil support mission at home?
    General Punaro. Mr. Chairman, we went into this in 
considerable detail, took a lot of testimony on it, and we 
believe that in our record is compelling evidence that the old 
adage of if we are ready for the big one, we are ready for the 
little one--if we are ready for the away game, we are ready for 
the home game--none of the three of us and none of our 12 
Commissioners buy that. And yes, there are some dual-capable 
forces, meaning utility helicopters that are good in 
Afghanistan and Iraq, they are good in Arkansas, Connecticut, 
and Maine.
    Chairman Lieberman. Right.
    General Punaro. And seven-ton trucks. But in the situations 
we face, what we never had before were the 15 planning 
scenarios that DHS has articulated of the threats that our 
Nation needs to meet at home.
    DHS has not yet defined the requirements that the various 
government agencies, including the Department of Defense, need 
to meet. So I am not sure that we know what all the 
requirements are. Then DOD would have to take those 
requirements and validate them.
    But here is the bottom line, Mr. Chairman. A member of the 
82nd Airborne who has a helmet, a flak jacket, and a bayonet 
and is the world's finest person at putting a bayonet in the 
heart of a terrorist, you do not send into a nuclear 
contaminated environment. That is not the capability you can 
use. You have to have highly skilled, highly trained forces 
with all the right equipment.
    So the scenarios we face at home now are radically 
different than the ones we faced 10 years ago when the old 
adage was if you are ready for the away game, you are ready for 
the home game. Certainly, you are going to maximize your dual-
capable forces. Certainly, a brigade combat team is going to be 
useful in a homeland scenario at some part in that scenario. 
They certainly are not very useful in going in immediately into 
a nuclear, chemical, or biologically-contaminated environment. 
So I would say that is kind of the bottom line.
    General Stump. I do not think, and what they said was to 
generate a specific set of parallel forces that are only going 
to be dedicated to the homeland defense issue. I agree with 
that, that there can be dual missioning and not all of these 
forces are going to be deployed at the same time. However, 
there are some unique requirements and that is what the civil 
support teams have.
    Chairman Lieberman. Right.
    General Stump. Those are not deployable units. There are 55 
of those and probably nuclear decontamination and things of 
this nature should be unique.
    Chairman Lieberman. My time is up. Thank you very much. 
Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    General Stump, I want to turn to the recommendation that 
you have made which is perhaps the most controversial. There 
are several, actually, that could vie for that top prize, but 
that is the recommendation that governors be allowed to have 
operational control of active duty troops temporarily during an 
emergency.
    Now, when we investigated the flawed response to Hurricane 
Katrina, as I was starting to say in my opening statement, we 
found enormous problems with lack of coordination, command and 
control, lack of situational awareness, lack of visibility. We 
found that DHS had no idea what the military's capabilities 
were, what was available. We found a very cumbersome process 
for mission assignments to DOD. We found inadequate military 
training.
    And the legislation that we drafted and which became law 
addressed many of those coordination problems. For example, we 
put, in every regional FEMA office, a full-time military 
liaison and that has made a difference. I saw it in Region 1 
during exercises recently, where we had active duty Guard 
troops, first responders, State emergency managers, and the 
coordination was far superior to what we have seen.
    This raises the question in my mind of whether the answer 
really needs to be putting the governor in charge, which is 
extremely controversial and which DOD is adamantly opposed to, 
or whether a lot of the issues that you have recognized could 
be solved through better planning and then having exercises 
together.
    I met with Assistant Secretary McHale this week, and he 
outlined a possible scenario where you would have DOD provide 
trainers to the States to help come up with coordinated plans 
because one of the things that we learned is you need 
coordination across the civil agencies as well as the military.
    So how much of this could be solved by simply having better 
planning, more exercises, as opposed to changing the command 
structure?
    General Stump. Well, first, I agree 100 percent on better 
planning and more exercises. We got into the Hurricane Katrina 
situation because we never had an exercise----
    Senator Collins. Exactly.
    General Stump [continuing]. That looked at something like 
that and we had to cobble together something. Now, when you 
cobble together 50,000 National Guard troops from 50 different 
States and then bring the active duty in besides all of that, 
there is going to be some confusion. And so we agree 100 
percent that there has to be better coordination and more 
exercises that involve not only the National Guard, but the 
Reserves, the State response forces, and USNORTHCOM, and there 
is some confusion there because when the governor runs out of 
resources, then they go to USNORTHCOM and in comes the Title 
10, and as a military person, generally, you need to have one 
agency or one person in command or operational control in order 
to coordinate the activities of all those people who are 
joining in on that particular exercise.
    And it is our opinion that every single incident that 
happens in the United States is going to start with the 
governor. That is just plain the way it is. Now, when it gets 
completely out of control, like a weapon of mass destruction 
where you would have 100,000 or 200,000 casualties and they 
would completely be overwhelmed, in the beginning, the governor 
will be in control. He won't last long, or she, but at that 
point in time, when they are completely overrun, then obviously 
the Title 10 forces will come in and they will be in control.
    But I still believe for unity of command, there is no 
reason why you couldn't have these exercises for something 
minor and incorporate the Reserves and the National Guard under 
the command and control of that particular State and that 
particular governor so you have one unity of command.
    Now, you can do all the coordinating and so forth, and that 
is what the active duty comes back and says, we will coordinate 
what is going on and so forth, but you still have the principle 
of one person command and control, and I think that we still 
believe that there is nothing wrong with it, in just these 
limited circumstances, and especially with the Reserve 
components, where if we get these other changes made that we 
will be able to bring the truck unit from the State and the 
Marines that have high-wheel trucks into these situations under 
the command and control.
    I really do not think it is a huge problem. These dual-
hatted people have commanded Title 10 forces in Iraq and 
Afghanistan. They have been leaders and controlled National 
Guard troops from other States. For this limited amount of 
time--and the number of active duty forces in Hurricane Katrina 
was--the time they were there was really limited and not nearly 
as long as what the National Guard forces were. So we still 
think that you need a unity of command.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins. 
Senator Pryor, good morning and welcome. Thanks for being here.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Good morning and thank you both for doing 
this. I want to thank the Commission members here for spending 
your time and efforts and expertise pulling this report 
together.
    Let me start, if I can, with you, General Punaro. A few 
moments ago, you said that DHS has not defined the requirements 
that they needed to define for DOD to understand what to do in 
a time of a domestic emergency. Could you elaborate on that? 
What kind of requirements are you talking about there?
    General Punaro. Senator, under the legislation that created 
DHS and under legislation Congress passed last year out of this 
Committee and the Senate Armed Services Committee, DHS is 
required to look at these 15 all-hazard scenarios they have for 
Federal, State, and local response, and let us work on some of 
the catastrophic scenarios. They need to look and say, OK, our 
view is--and this would all be done in a cooperative way, 
working with DOD, working with the Guard, working with 
USNORTHCOM in developing the requirements--the Centers for 
Disease Control are going to have this piece. FEMA has this 
piece. But here is what we think the Department of Defense 
needs to bring to the Nation's response in this particular 
scenario and this is what we think the requirements are.
    DOD cannot come up with their own requirements. They are 
not the lead Federal agency, DHS is. Then DOD would take 
those--they probably would have worked with them in a 
cooperative way in advance--and they would validate whether or 
not they agree with them and say, yes, this is a valid 
requirement for the Department of Defense to do.
    In the Department of Defense, as great an outfit as it is, 
if you do not have a valid requirement, it never gets into the 
planning, programming, and budgeting system, which is the best 
in the world. The fiscal year Defense Plan, the Five Year, or 
the Future Year Defense Plan, you do not get it in there unless 
Congress adds it if it is not a valid requirement.
    Senator Pryor. Right.
    General Punaro. So if DHS never generates the requirement, 
then DOD can never validate it. And so I would say to you there 
are two huge gaps right now. One of them is in the inbox of the 
Department of Homeland Security and that is generating the 
requirements. The other one is the contingency planning that 
Senator Collins alluded to.
    All three of us commanded units that were in the war plans 
or contingency plans to defend the Korean Peninsula--it has got 
a name. I won't use it here today. It has a number. We all know 
what it is. You say the number, and bang, you know immediately. 
The Fourth Marine Division that I commanded, I knew for the 
defense of the Korean Peninsula every single unit that had to 
go, what piece of equipment they had to have, when they needed 
to be at their station of initial assignment, and those things 
are worked on in exercises year after year after year. And 
these are contingency plans like this.
    They have a command and control annex, Senator Collins, and 
you work out, OK, the governor is going to be in charge for 
this part, and then when it gets to this part, the Federal 
Government takes over. So it has a command and control annex, 
and we three, as well as other Commissioners, we know 
contingency plans when we see them and we do not have the kind 
of contingency plans we need for the catastrophic weapons of 
mass destruction.
    So with DHS and USNORTHCOM, that is where the Bunsen burner 
needs to be lit in terms of moving this ball.
    Senator Pryor. Let me interrupt right there. Do you know 
why DHS has not initiated this, why they have not put out the 
requirements that they are supposed to?
    General Punaro. I think that one would be kind of 
psychologically evaluating DHS, so probably above our pay 
grade. I mean, we certainly do not see the sense of urgency 
that we feel you would have, particularly when you hear what 
Admiral McConnell and Secretary Chertoff have talked about the 
real and pressing threat is. General Blum testified before this 
Committee not 6 months ago in answer to a question from Senator 
Lieberman about our readiness for a catastrophe. He says, ``No, 
our current situation places the Nation at great risk.''
    So how do you translate that into a large government 
organization? How do you get the nuclear reactor to send the 
message to the propeller to get that thing moving at warp 
speed? You are the Committee of oversight. You probably have a 
better ability to do that.
    Senator Pryor. So there is no good reason that you are 
aware of on why this hasn't been done by DHS. Is there any 
justification for it not being done that you all are aware of?
    General Punaro. I certainly do not understand. First of 
all, let me say again in fairness, there has been a lot of 
progress, not just in DOD, not just in USNORTHCOM, but at DHS. 
They have the 15 all-hazard planning scenarios. They have a new 
National Response Plan. They have a lot of other documents. So, 
I mean, it is not like they haven't been beavering away at 
this. But the problem is you either have a requirement or you 
do not and we do not have them. If you do not have a 
requirement, DOD cannot validate it. If DOD doesn't validate 
it, it is not going to get funded. If it doesn't get funded, 
the Nation is not going to have the capability.
    Senator Pryor. So let me just make sure I understand what 
you are saying, because I do not want to put words in your 
mouth. Are you telling the Committee today that if there were a 
major terrorist attack on U.S. soil today, we would not have 
clearly-defined roles between DOD and DHS?
    General Punaro. Well, what we said in our report, Senator, 
was we do not have sufficiently trained and ready personnel to 
respond in a satisfactory fashion and we found that to be an 
appalling gap. But in terms of trying to sort out, between DOD 
and DHS and everybody, we weren't looking at a fault-finding or 
a finger-pointing situation. We were giving an assessment. And 
by the way, U.S. Northern Command ran a major exercise last 
spring called Ardent Sentry which looked at our abilities to 
respond to a natural disaster and also a nuclear disaster, and 
the after-action reports, I am sure, would be available to this 
Committee, and I think those after-action reports would be 
pretty consistent with what we say in our report.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Pryor. I 
guess we have a little more time.
    Let me go back to the conversation we had about developing 
civil support capabilities and I wanted to ask you the other 
end of it, which is what is your assessment of the effect that 
your proposed approach would have on the capability for the 
warfighting forces to perform their missions.
    General Punaro. Mr. Chairman, we do not believe beefing up 
the capability of the Department of Defense to respond to the 
civil support missions, particularly if they are given a higher 
priority--and Secretary Gates has said that they have a higher 
priority and these civil support things need to be funded--we 
do not see it as a take-away. We see it as an addition.
    For example, the capabilities that we need in the National 
Guard for the high-end catastrophic response, particularly on 
WMD, these need to be funded and these need to be put in the 
budget. They would be highly-specialized forces. They would be 
targeted at this mission. It wouldn't be a take-away from the 
overseas combatant mission. So a lot of it is dual-capable. A 
lot of it is if you get the Guard unit up to its higher state 
of equipping and manning, that unit is not only more capable 
for here at home, but it is also more capable for its overseas 
mission.
    Chairman Lieberman. So you would say that it would actually 
improve the warfighting capability of our forces?
    General Punaro. Absolutely, Mr. Chairman, because if you 
make the Guard and Reserves--we said we need to move away from 
the old categories of the way we look at the Reserves--the 
Ready Reserve, Selective Reserve, and Stand-By Reserve--and 
create two new categories, an Operational Reserve and a 
Strategic Reserve. Those units then that DOD put in the 
Operational Reserve, based on their mission and their 
requirements, would be funded at these higher levels of 
readiness. They would be more ready for the overseas missions. 
They would be just as ready for the homeland duties.
    The key change is, and one this Committee has pointed out, 
the home mission requires every bit as high a state of 
readiness of our forces as we have in the Ready Battalion of 
the 82nd Airborne that is on that strip down at Fort Bragg 
ready to go anywhere in the world on a 24/7 notice. You need 
that capability in our Guard and Reserve to respond to these 
compelling threats that we now face at home. It is not a take-
away, it is an addition.
    General Stump. And sir, the Senate allocated $1.2 billion, 
I believe, in 2005 for dual-use equipment----
    Chairman Lieberman. That is right.
    General Stump [continuing]. In the National Guard that was 
very beneficial to not only the home mission, but the overseas 
mission. In many instances, the National Guard only sees the 
equipment when they hit the ground in Iraq and this is not a 
good situation. It is much harder to do post-mobilization 
training if you do not have the equipment to train on before 
you go over there. But because of the equipment shortages we 
have, many times, the National Guard soldiers going to post-
mobilization training are seeing the equipment for the first 
time and this equipment could be used as dual-use equipment.
    Chairman Lieberman. Good point. General Sherrard, let me 
ask you a different question, which is to talk a bit about the 
Commission's recommendation that a majority of the positions at 
the Northern Command be filled by Guard and Reserve personnel, 
and speak, if you would, about how the Commission members 
believe that would improve the Northern Command's ability to 
coordinate among the many players responding to a domestic 
catastrophe, which is, of course, now part of its relatively 
recent new authority.
    General Sherrard. Yes, sir. We do believe that is important 
because of their experience and their knowledge of what the 
capabilities those particular organizations can bring. Part of 
that would certainly help improve the identification somewhere 
in the Combat Readiness Reporting Status System of what 
capabilities the unit can present. But it drives back to the 
question that was raised earlier. You have to know what the 
requirements are for what capabilities you can provide so it 
all becomes a complete package that you would have there.
    The real key to success, we believe, is understanding what 
they have, understanding what capabilities exist maybe within 
two blocks of where the incident is, and those are things that 
are absolutely essential if we are going to be able to respond 
properly. And we do believe that the men and women that are in 
the National Guard and Reserves today live that each and every 
day. They are there and they know the capabilities that they 
have. They know how to respond and they have that working 
relationship, and if you can transfer that to the headquarters 
level, it only makes it a better organization for everyone to 
understand what the capabilities that these people can bring.
    General Punaro. Mr. Chairman, could I add briefly----
    Chairman Lieberman. Sure, please.
    General Punaro. This really goes back to this concept of 
the traditional view by the Department and by our government, 
not just the Department of Defense, if you are ready for the 
away game, you are ready for the home game. Well, the home game 
in the peak of the Cold War was strategic nuclear deterrence. 
We didn't face the kind of threats we face today.
    Chairman Lieberman. Right.
    General Punaro. USNORTHCOM is the home combat and command. 
It is not the away combat and command. They make a distinction 
between homeland security, homeland defense, and civil support. 
We are talking about civil support. It has traditionally been a 
low priority for the Department of Defense because it is not 
homeland defense.
    Chairman Lieberman. Right.
    General Punaro. Secretary Gates is changing that. But when 
you have people who grew up in the away game scenario and who 
do not have the training and experience to deal with these many 
more difficult homeland civil support scenarios, it is not that 
they are not terrific people and terrific commanders. The 
people at USNORTHCOM work every day to improve this Nation's 
defense, no question about it.
    They do not know what they do not know, and again, in our 
military, we put people in for specialized skills. Everybody 
knows what a dynamic leader Lieutenant General Blum is, the 
head of the National Guard. He is a warrior. He has fought 
overseas in combat. He has done civil support. No one in their 
right mind would put General Blum in charge of a nuclear 
carrier battle group. He doesn't know the first thing about it, 
and he would admit it.
    So USNORTHCOM is a specialized command. There are unified 
commands and specified commands. It really is more of a 
specified command. It has a very targeted mission. That 
mission, first responding in complex situations, is every bit 
as complicated as responding overseas. We haven't culturally 
come to that point yet in the Department of Defense in Northern 
Command. So you need to put military officers that have grown 
up in the civil support arena, that know this and have 
experience, you need more of them at the Northern Command and 
you need them in the leadership positions.
    The component commands for Northern Command could be headed 
by Guard and Reserve personnel. So it is really, over time, you 
have just got to shift the experience base and the capacity of 
these individuals to basically deal with this civil support 
mission.
    Chairman Lieberman. That is great. Thank you. Very 
provocative thoughts. It is very important that we push the 
envelope here because of the changed threat environment that we 
are living in here at home.
    Senator Collins, the vote just went off, but we have some 
time, so please go forward.
    Senator Collins. Thank you. General Punaro, are we facing a 
practical challenge if we were to implement your 
recommendations, and that is that our National Guard forces are 
already stretched too thin because of the repeated and extended 
deployments overseas? Is it really practical to expect the 
National Guard and the active duty military to treat civil 
support as an equal priority to homeland defense and the 
warfighting capabilities? Would that not require a far bigger 
Guard than we now have?
    General Punaro. You raise a superb point and one that the 
Department of Defense worries about a lot, and none of us want 
to see the Department of Defense become the temporary manpower 
agency for every problem, every ill the Nation has. Far from 
it. We do not suggest that. We focus in on the catastrophic 
where we know only the Department of Defense--and everybody 
knows it, they never like to admit it--has the capacity, the 
skills, the training, and the ability to respond in those 
areas.
    For a lot of the 15 planning scenarios, the Guard units are 
perfectly capable of responding today. Now, they need to be 
brought back up to speed from their deployments and everything, 
but for most of them that they are going to respond to, we have 
the right numbers and the right ability.
    But we do not have the forces we need for the catastrophic. 
So you are going to have to add that in. It is not just a 
question of resting up the folks we have and giving them a 
little more time to refit and reset. It is a question of 
basically building the capacity once we know what the 
requirements are from DHS, once DOD validates them, and DOD is, 
frankly, anticipating those requirements. To give DOD some 
credit here, they are not waiting on DHS. They probably lost 
their patience a little bit. They are saying, we have got to 
build this capacity. It is not funded yet.
    So I would say that if you in this Committee and the Armed 
Services Committee proscribe this very carefully in the statute 
as we recommend, I think you will avoid the concern that DOD 
would be rushing to the sound of every fire bell, which is 
certainly not what we suggest.
    The second thing is the Reserves. For example, when the 
Amtrak train went off a trestle in Mobile, Alabama, the first 
responders were the Third Force Reconnaissance Company of the 
U.S. Marine Corps and the Fourth Marine Division Reservists 
because they happened to be the closest to the scene. They had 
scuba gear. They were trained to operate in that kind of 
environment. That is the kind of thing we are talking about 
where governors ought to have the ability to use them and we 
ought to be able to mobilize them for the limited natural 
disasters because they are close by.
    So there is plenty of capacity in our military today to 
respond to everything but the catastrophic, so we are focused 
on the catastrophic and building the capability we need there.
    General Stump. Just to add one point to that----
    Senator Collins. Yes.
    General Stump. But we need the equipment and we need the 
full-time manning. We are at 61 percent now, and if we are 
going to continue to be the dual-use National Guard that the 
American public expects of us, we are going to have to equip 
them with the equipment and provide the full-time manning and 
the resources available to do that.
    Senator Collins. Very good point. Just very quickly because 
we do need to go vote, General Stump, I want to follow up on 
your description of what the current capabilities are. As I 
understand it, these civil support teams, which are 22-member 
teams, really are reconnaissance teams. They go out. They do 
sampling. But they are not really response, is that correct?
    General Stump. That is correct. There are only 22 full-time 
people there, and all they do is go out and they can tell you 
what sort of a chemical release was there, and they also have a 
tremendous amount of communication equipment. So they are very 
good for being a communication node. But they do not have any 
of the other requirements, other than just identifying what 
there are. So no, they have a very limited capability.
    Senator Collins. That is what my understanding is, as well. 
They are very valuable, but they are not really a response team 
in the larger sense. But Northern Command has said that over 
the next year, specific active duty Guard and Reserve units 
will be trained, equipped, and assigned to a three-tiered 
response force and that will total about 4,000 troops. Have you 
looked at that capability, and if so, what do you think of it?
    General Stump. That is a good capability, but they also 
said they need three of them. Two of them are notional and one 
of them, they are putting together now. I think that is a great 
step going forward. As I indicated, the CERFPs that the 
National Guard has, which are only battalion-sized, 17 of which 
are in existence, would only cover that first 72 hours of the 
response. You need something bigger after that and these forces 
that you just identified are the ones that would be the follow-
on. However, there is only one that has been identified and 
beginning to be resourced now, and even Northern Command 
indicates we probably should have at least three of them.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Gentlemen, we are going to recess. If you have the time, I 
will come back as soon as possible and we will do a few more 
questions. But it has been very beneficial so far.
    General Punaro. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks.
    Senator Collins. Thank you.
    Chairman Lieberman. The Committee will stand in recess.
    [Recess.]
    Chairman Lieberman. Well, thanks very much for your 
patience. I just have a few more questions.
    The Committee, as you know, does a great deal of work on 
homeland security preparedness. One framework for preparedness 
entails the following construct: Planning to identify what 
tasks must be performed, who will perform them, and what 
capabilities and resources will be required to perform them. 
Then obviously ascertaining what capabilities you have, 
determining the gaps in what you need, and then resourcing to 
fill those gaps and exercising to make sure we continually get 
better. So this is an ongoing process, in some sense one which 
is never complete. We are always trying to improve.
    General Punaro, am I right in saying that your report finds 
gaps, some significant, in all phases of this process? Could 
you comment a bit in detail and give your assessment of how we 
can reasonably see to it that those who are operational tackle 
all these tasks with the urgency that is necessary given the 
current threat environment?
    General Punaro. Mr. Chairman, I think you have summed it up 
very nicely. As I understand the preparedness cycle, at least 
looking at it from a military mind, basically, the first thing 
you do is plan. We have suggested in our report that there 
could be significant improvements in the planning phase in all 
of the activities that are involved, not just Federal--State, 
local, DHS, DOD, USNORTHCOM, and the domestic agencies. So the 
planning cycle of preparedness could use a lot of improvements.
    Once you do the planning, and part of the planning would be 
identifying the requirements, then you organize, train, and 
equip. Certainly, we have suggested that we need better 
organizations and maybe better bureaucratic organization as 
well as better organizations or units that are going to respond 
to the various contingencies. For example, on the catastrophic 
scale that General Stump alluded to, the DOD is identified. 
Those need to be funded and brought into existence.
    And obviously you need to train, as Senator Collins said. 
The No. 1 thing in the military and in all these areas is 
train, train, train, train, train, and you learn a lot when you 
train, and then obviously you equip, as well. Then you 
exercise. So that is the next part, and you are getting to see. 
In fact, I think USNORTHCOM should get tremendous credit for 
this exercise they put together, Ardent Sentry----
    Chairman Lieberman. Right.
    General Punaro [continuing]. Which was a multi-State, very 
complicated exercise that included both the low end and the 
high end, and I can tell you they learned a lot, and that is 
why you do these exercises. They are not designed to be finger-
pointing exercises. They are designed to learn, and we need to 
get the whole government involved in the kind of exercises that 
our Department of Defense and the U.S. Northern Command is 
leading, and you evaluate and improve. And, of course, we 
probably aren't doing enough evaluating and improving, at least 
at the pace that we see.
    So I would say, Mr. Chairman, each one of those phases 
could be improved. We have come a long way. The thing that 
worries us or bothers us, or I do not know if those are the 
right adjectives--I would say in my personal view, the thing 
that surprises me is the lack of a sense of urgency in some 
part of those outfits that need to be involved in the 
preparedness cycle, and I certainly do not consider that to be 
in the Department of Defense. They have a sense of urgency 
about these missions, particularly since Secretary Gates has 
arrived. So that would be my quick summary.
    Chairman Lieberman. Yes, I hear you, and that is obviously 
a real concern because we know and they know that the threat 
continues to be very clear and present, so the response needs 
to be urgent.
    I wonder if either one of the Generals wishes to add 
anything.
    General Sherrard. If I might, I would like to just add to 
that because I agree completely with everything Chairman Punaro 
just mentioned, but I would tell you it is absolutely essential 
for the members of a unit to know what their requirements to 
train to are----
    Chairman Lieberman. Right.
    General Sherrard [continuing]. And when you identify those, 
then they have a standard and that standard needs to be 
reported, also, so that everyone knows it. We do this, 
particularly General Stump and I both being blue-suiters from 
the past, it is not uncommon for us to have organizations that 
we call them dual-task or dual-DOC, Design Operational 
Capabilities (DOC), where you have two different missions. It 
does not impair your ability to do the other one at all, and I 
would see that any type of mission that you are trying to do in 
support of our homeland missions here, it only enhances other 
warfighting capability, because frankly, they are both 
warfighting in the end and that is what we have to make 
certain.
    But you have to define it and then everyone knows the 
standard that they must be exercising and training to meet so 
that it is not a pick-up game if and when you are called to 
come do something. You know exactly the capabilities you are 
qualified to do and what equipment you have to have with you, 
or have identified what your shortfalls are and it being in the 
budgeting process and the procurement side so that you can get 
the things that are necessary for you to do your job.
    Chairman Lieberman. Thank you.
    General Stump. I agree, and it all gets back to 
requirements again. If you do not know what the requirements 
are, you cannot train to them and then you are not going to be 
ready for them. In Michigan, for instance, we had a contingency 
plan in case there was a riot in Detroit, and we had task 
forces set up, we had command and control, we had where you 
were going to go and so forth, and so at least we had a plan 
that was out there. And when you do not have the defined 
requirements--we have the 15 scenarios that are out there, but 
they have not come to the National Guard in large response 
other than the one Ardent Sentry exercise to determine what 
those requirements are going to be. So if we do not know what 
the requirements are, we cannot train to them.
    Chairman Lieberman. Let me go on, in a way, back to a 
question we asked about the Northern Command but a little 
broader, which is about coordination of the different elements 
of our government in this. The Adjutant General of Maine was 
here last year, and what he said was--``it sounds like it could 
have been a Casey Stengel, which is that getting good players 
is easy. Getting the players to play as a good team is the hard 
part. And then he said we have got great players.'' Obviously, 
that was the end of the quote, suggesting that we do not have 
the kind of teamwork we need now.
    In your observations, in your work on the Commission over 
the last couple of years, what is your judgment about the 
ability of the players to work together as a team, to 
understand what each is doing, or should do, and then how to 
work together when a disaster or attack occurs?
    General Punaro. Well, I would say there would be two parts. 
One would be the ``before it happens'' part, and unfortunately, 
we have a lot of the traditional ``been there forever.'' It 
doesn't matter who is running the government, the kind of 
bureaucratic approach or the organizational and institutional 
approaches to issues, particularly when you are looking for the 
kind of dramatic change that has to occur to meet these new 
threats here in the homeland, our government bureaucracies are 
resistant to change and they look for ways to say no rather 
than ways to say yes, and that has hampered a lot of the 
coordination and planning that has to occur.
    Now, you can have people at the top that are saying, do it, 
and they have a hard time sometimes translating their nuclear 
energy into the system to get the changes to occur. Let us say 
you have an incident. I think we find, particularly in our 
Department of Defense, they certainly go to the sounds of the 
gun. They are going to bring whatever they have as quickly as 
they can whether there was good prior planning, coordination, 
contingency plans, and I think the rest of the government--you 
all are a better judge of FEMA and the domestic side than we 
are, but it is our experience in catastrophes small and large, 
our Nation responds and our government responds well.
    The problem is that we know what the requirements are in a 
strategic sense for these catastrophic situations. We know 
where we are today and we know we have a long way to go. Just 
saying everybody is going to show up and do the very level best 
they can is not good enough.
    Chairman Lieberman. Correct.
    General Punaro. And so we have to fix that and we have to 
have ways, and I think some of our recommendations--codifying 
in statute--it is Congress that directs the Department of 
Defense and gives the Department its funding and its 
priorities. Codifying that civil support is an equal priority 
will help those in the Department of Defense at the top--
Secretary Gates, Assistant Secretary McHale, Admiral Mullen--
who are trying to turn those institutions in the right 
direction.
    You are the oversight Committee for DHS and you have made a 
lot of changes, lessons learned after Hurricane Katrina. 
Lighting the Bunsen burner under DHS is something that really 
needs to happen, particularly in the high-end scenarios because 
Secretary Chertoff's concern, as he has expressed publicly, 
does not appear to us to be translated into the day-to-day 
workings of the institutions that he is responsible for on an 
urgent enough basis.
    Chairman Lieberman. Well, that is a really important and 
unsettling conclusion, I must say. Somebody I talked to about 
your report who admires what you did, raised with me the 
question of is it clear who is in charge in these cases? I 
guess it goes back to Casey Stengel, which is that he knew he 
was the manager. At the time, Steinbrenner didn't own the 
Yankees, so he knew that he was in charge.
    But this is somebody who has been in the military service 
and said--this is about planning, but I will ask you it make it 
more generally--he said, well, if I was raising the question 
about who was in charge of the planning and operation if there 
was a crisis in Korea or the Taiwan Straits, it would be pretty 
clear who I would go to at the Pentagon. It would be very 
clear. It is not clear if there was a WMD attack on an American 
city who would be in charge of the planning and operational 
response.
    General Punaro. Mr. Chairman, everybody is in charge and 
nobody is in charge.
    Chairman Lieberman. Yes, that is what we worry about.
    General Punaro. They all want to profess they are in 
charge.
    Chairman Lieberman. Right.
    General Punaro. But then if you sat right down, and that is 
why we say--our recommendation on the governors really is one 
in the planning process. You work all this stuff out in 
advance. If Congress directed the creation of a National 
Governors Council to advise the Secretary of Defense and the 
Department of Homeland Security on these civil support matters, 
we would expect the National Governors Association (NGA) would 
pick governors that have the lead for that Association. They 
have governors that are leads for the Guard and Reserve. They 
have governors that lead for the homeland.
    This is why it is so important. In other words, they could 
all sit down and work this out. It has been a nagging problem 
for our Republic for hundreds of years, and we had a margin for 
error in years past. You had some slack time in the kind of 
threats we faced in the homeland. We do not have that margin 
for error anymore, as you pointed out so compellingly about 
what the terrorists want to do in this country. There is no 
margin for error.
    They need to all sit down together, work on it, and say, 
OK, let us say it is the planning scenario, the big one that 
DHS has described. Let us all agree that we know if that 
happens--because we know what the consequence is going to be. 
They have spelled it out in the documents. Let us agree that in 
that particular scenario, here is the command and control. Here 
is the way we are going to do it. Let us get agreement in 
advance and then design the plans and test the plans and 
operate the plans in that fashion.
    You can also say for the 95 percent of the activities in 
the country that fall in the civil support, where the Guard 
operates in State status and sometimes in Title 32 status, the 
governor is perfectly capable and had been in charge of that 
for a hundred years. We need to now give them the ability to 
pick up some of the Federal-level Reserve capabilities that we 
have, the Nation pays for, in those more limited scenarios.
    So I think our view is that there is no reason men and 
women of goodwill facing the kind of threats we face cannot put 
this historic reluctance to basically solve this problem behind 
them, sit down as adults, and work it out in advance. The 
Nation requires it. If we do not do it, no matter how much 
money we throw at the problem, we are not going to be as 
prepared as we need to be.
    Chairman Lieberman. I agree. General Sherrard, do you want 
to add something?
    General Sherrard. Just one quick comment, sir, related to 
that, and it ties right in with it. In our warfighting missions 
and training for all that, the key words that we always talk 
about, are that we train the way we are going to fight so that 
there is never any doubt about what you are going to be 
responsible for doing and then who will, in fact, be directing 
that.
    There is a tremendous amount of capability out there that 
is available if we can just have the direction or the protocols 
laid out as to who is going to do what. The men and women are 
responding. They responded on September 11, 2001, put on 
uniforms and showed up to do things in New York City----
    Chairman Lieberman. Right.
    General Sherrard [continuing]. But we had no authority. We 
had no orders. We had nothing. But there is a way to go do that 
well in advance of what the exercise would be, and as Chairman 
Punaro said, those can be laid out, but it is critical that the 
way you are going to fight better be the way you train so that 
it doesn't change and suddenly you say, oh, this is a different 
program. There should only be one program and that is to make 
sure we are successful.
    Chairman Lieberman. That is a good point. The discussion 
that we have had, a lot of it has been about an increasing role 
for the Department of Defense personnel in homeland defense, 
homeland security, or responding to attacks. In most cases, I 
think the understanding is that the DOD personnel would be 
acting in support of the Department of Homeland Security. I 
wonder if there are cases that are so extreme, catastrophic--
and during our investigation of Katrina we began to 
distinguish, and I think you have to, between a natural 
disaster, which is no fun, and a catastrophic event, as 
Hurricane Katrina was or as obviously a nuclear detonation in 
an American city would be. Those are the kinds of occasions 
when our planning ought to contemplate whether the Department 
of Defense, because of its immense resources, actually would be 
the lead agency at least for some period of time?
    General Punaro. Well, I think, Mr. Chairman, as you put it 
correctly, we should contemplate, we should plan, we should 
think about it. Let us take scenario No. 1--the high-end 
catastrophic event. The Department of Defense will bring the 
preponderance of the force to basically mitigate and deal with 
the recovery efforts. It will require the medical community, it 
will require the Centers for Disease Control, it will require 
FEMA, it will require all elements of the Federal Government, 
but the bulk of the capability is going to come from the 
Department of Defense because the devastation is so great that 
you have no communications, you have no water, you have mass 
casualties, you have mass problems, and so is that a scenario 
where, for whatever period of time would be appropriate--I 
mean, first of all, common sense tells you that, as General 
Stump says, the governor is going to be in charge initially, 
but he is going to realize very quickly that it is above his 
pay grade, as good as our governors are, and so it is going to 
be federalized pretty quickly.
    Once it is federalized, do you want to have the person who 
has the preponderance of the force in charge or do you want to 
have the designated lead Federal agency, DHS or FEMA, who under 
the statute is in charge, but they didn't bring the 
preponderance of the force. Our military training tells us 
typically the person that brings the preponderance of the force 
usually is the one that has the command and control. I think, 
and again, why cannot this be worked out in advance?
    I believe our governors are responsible under our laws for 
the health and welfare of the people in their State. They are 
going to want to do everything they can to protect that health 
and welfare. They know that in these catastrophic situations, 
it is going to overwhelm their ability to be able to do what 
they are supposed to do and they are going to want the Federal 
help and the Federal help is going to come as quickly as we can 
make it available.
    This is the thing that puzzled us, why in the world the 
whole thing continues to be an institutional argument as 
opposed to sitting people of good character down and saying, 
let us walk through these catastrophic situations and let us 
sort out these age-old problems. The taxpayer pays. They do not 
care whether it is active duty, Guard or Reserve, Centers for 
Disease Control, or FEMA. They are paying all the bills. Our 
Nation owes them an obligation to give them the very best 
coordinated response possible.
    Chairman Lieberman. Sure. All they want is to be 
protected----
    General Punaro. That is correct.
    Chairman Lieberman [continuing]. And have the government 
respond to it. No, I couldn't agree with you more. We saw this 
in our investigation of Hurricane Katrina. It is regrettable 
that we still haven't seen that kind of working through by 
different elements of the Federal Government because it is 
critically important. I admire you.
    Senator Collins and I, on the way over for the vote, we 
were saying that we really appreciate the report and the work 
you have done because, to put it mildly, it is not conventional 
thinking. You took on some of the status quo--I gather you 
found that in your appearance before the Armed Services 
Committee--but you know you are making us think, and 
particularly the question about the governor having authority 
for at least some period of time over Title 10 troops is one of 
those third rails here, and yet you are forcing us to consider 
this argument, is not unity of command in a crisis, 
catastrophic perhaps, more important than essentially 
organizational pride or turf? And the other thing you have 
done, and it is very important to force us to think about this, 
is that there have been a lot of cases where Title 10 personnel 
have been under the command of non-Title 10 and even non-
American commanding officers when it served the larger purpose, 
obviously.
    I unfortunately have to go on, unless you want to make some 
closing comments.
    General Punaro. Mr. Chairman, I would like to pick up on 
that because I think you are really onto something here and 
this--we didn't go this far in the Commission report, but as I 
hear you thinking out loud, the first thing I would say is, as 
you know from your long service on both of these committees, 
the government institutions usually are not in favor of fairly 
significant change.
    Chairman Lieberman. Right.
    General Punaro. When Congress passed the Goldwater-Nichols 
Act in 1986, there was not one sitting political official or 
military official who supported those changes. They opposed 
them all. But if the Department of Defense knew that they were 
going to own the big-end catastrophic event, if they knew 
that--now I am not saying for one second they would roger up to 
that or say that, but if they knew and if the President and the 
Congress decided that they were going to own that problem, I 
guarantee you would see the kind of urgency, attention, 
coordination, planning, training, and equipping that would have 
us prepared to deal with those situations because that is the 
way they are.
    Chairman Lieberman. That is true.
    General Punaro. But let us face it. No other outfit of 
government is like that.
    Chairman Lieberman. No. The more I watch our military, it 
is unique in its responsiveness and, of course, also in its 
resilience, as we are seeing now in Iraq and Afghanistan.
    I thank the three of you for your service and for the 
testimony. We are going to spend some time on this alongside 
our investigation about the threat of nuclear terrorism and 
response preparedness. I think Senator Collins and I are 
interested in doing some appropriate legislating here. So the 
danger for the three of you is that you will be asked again to 
testify before us, but certainly to help us as we go forward to 
make sure it comes out the right way.
    You have each served your country for a long period of 
time. I think this is some very significant service you have 
given and I appreciate it greatly.
    We will keep the record open for 15 days and there may be 
some other Members of the Committee that want to submit 
questions to you for the record and maybe that you want to add 
some statements yourselves.
    But I cannot thank you enough, and with that, I will 
adjourn the hearing.
    General Punaro. Thank you, Mr. Chairman.
    Chairman Lieberman. The hearing is adjourned.
    [Whereupon, at 11:59 a.m., the Committee was adjourned.]


        NUCLEAR TERRORISM: ASSESSING THE THREAT TO THE HOMELAND

                              ----------                              


                        WEDNESDAY, APRIL 2, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:35 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Carper, Tester, 
Collins, and Warner.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and thanks to all of you 
for being here. Apologies for the condition of my throat. I am 
in what I am pleased to say appears to be the final stages of a 
head cold.
    This is the second in a series of hearings this Committee 
is holding to examine the threat of a nuclear terrorist attack 
on our homeland and to ask what the Federal Government is doing 
to prevent such an attack and how well prepared it is to 
respond to the catastrophic results of such an attack. In this 
post-September 11, 2001, world, it is our duty as elected 
officials to think about the previously unimaginable, to ask 
the previously unthinkable questions, and then to push for 
unprecedented answers and preventive action.
    Our first hearing in this series focused on the important 
role of the Defense Department and specifically the National 
Guard and Reserves in the event of a nuclear terrorist attack. 
My conclusion from that hearing was that our government is not 
adequately prepared today to do everything that will need to be 
done if, God forbid, a nuclear terrorist attack on America ever 
occurs.
    This morning in this public hearing, we are going to look 
at the threat of nuclear terrorism itself, that is to evaluate 
the nature and seriousness of the threat as defined by the 
intent and capability of terrorists to acquire the necessary 
materials and carry out an attack on America using nuclear 
weapons.
    This afternoon, our Committee will reconvene in a closed 
session to hear classified testimony on this subject.
    Al-Qaida and other terrorist groups have obviously made no 
secret of their desire to destroy us and our way of life. We 
are going to hear this morning that al-Qaida has also 
demonstrated a clear intent to develop and use nuclear weapons 
to achieve its violent jihadist goals. We know, for instance, 
that al-Qaida has tried to recruit people with nuclear 
expertise and al-Qaida has tried to obtain specialized nuclear 
materials. This is daunting and jarring information, but it is 
our responsibility to bring it forth and then to do something 
about it.
    On our first panel, we are going to hear from Charles 
Allen, Under Secretary for Intelligence and Analysis and the 
Chief Intelligence Officer at the Department of Homeland 
Security (DHS), and Rolf Mowatt-Larssen, Director of the Office 
of Intelligence and Counterintelligence for the Department of 
Energy (DOE). Mr. Allen and Mr. Mowatt-Larssen are two of the 
most respected intelligence experts in our government and they 
will discuss their assessment of the current threat and its 
likely evolution in the coming years. May I say for our 
Committee, and many more, that our country is fortunate to have 
people of your caliber serving us and focused on this issue.
    Our purpose today is not to encourage unrealistic fears, 
but rather to confront the fearful realities that we face in 
the world today so that we together can deal with them in 
defense of our country, our people, and our way of life.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. The consequences 
of a nuclear attack on one of our major cities are nearly 
unimaginable. If a 10-kiloton nuclear device were detonated at 
noon in Manhattan's Times Square, half-a-million lives would be 
instantly extinguished. All buildings within a half-mile radius 
would be destroyed. The economic and psychological impacts 
would also be devastating.
    Yet the threat of terrorists acquiring and using such a 
weapon is very real. Given their goal of causing as much death 
and destruction as possible, al-Qaida and other terrorist 
groups continue to seek to acquire and use weapons of mass 
destruction (WMD). To be sure, our terrorist enemies have many 
other weapons more readily at their disposal. Improvised 
explosive weapons, the terrorists' weapon of choice, have 
killed thousands and continue to threaten our troops and 
civilians around the world. Chemical weapons, such as sarin 
gas, have been directed against targets such as the Tokyo 
subway system. Dirty bombs using readily available radiological 
waste could also have serious consequences over a far more 
limited area than a nuclear blast.
    Still, the concentrated force of a nuclear explosion, the 
radioactive contamination of the target and surrounding areas, 
and the psychological and economic impact of such an attack 
places nuclear terrorism in a category all its own. That is why 
we are holding this hearing to examine closely the scope and 
nature of this threat.
    More than 30 years ago, the Federal Office of Technology 
Assessment concluded that: ``A small group of people, none of 
whom have ever had access to the classified literature, could 
possibly design and build a crude nuclear explosive device.'' 
That is, with a machine shop and less than 100 pounds of 
enriched uranium, terrorists conceivably could assemble an 
atomic bomb that could deliver about two-thirds the explosive 
force of the bomb that devastated Hiroshima in 1945.
    Of course, even determined and resourceful terrorists face 
significant challenges in obtaining the material to be used to 
construct a bomb, in assembling the device, in transporting it, 
and in successfully detonating it. Terrorists could avoid some 
of these difficulties by procuring an existing weapon, which is 
why nonproliferation and nuclear security efforts are so 
important. Moreover, our Nation has taken many actions to 
decrease their chances of success even further. For example, we 
have installed radiation detection monitors in the Nation's 22 
largest seaports.
    The probability may be low that terrorists could 
successfully stage a nuclear attack. Indeed, their current 
plans likely include much less technologically difficult 
options. But a nuclear attack would fulfill al-Qaida's goal of 
a spectacular attack, and it is a possibility that we cannot 
ignore. As one of our witnesses has written, ``Nuclear 
terrorism remains a real and urgent danger.''
    Our efforts must include robust intelligence initiatives to 
identify those groups like al-Qaida that may be planning such 
attacks and to disrupt their operations before they can 
succeed. Close interagency cooperation and information sharing 
with our allies can help to counter this threat.
    We must also plan as effective a response as possible to 
such a devastating attack. The National Response framework 
provides the foundation on which DHS, the Federal Emergency 
Management Agency (FEMA), Department of Defense, and other 
critical agencies coordinate their resources to deal with the 
catastrophic consequences of a nuclear attack. But we know 
already that they would confront overwhelmed or obliterated 
local response capabilities, mass casualties, evacuations, and 
demands for food and shelter. This Committee therefore 
continues to assess the adequacy of preparation and response 
capabilities.
    Today's witnesses will help us take the measure of the 
threat. That judgment, in turn, can guide our thinking on the 
adequacy of the intelligence, diplomatic, technical, and other 
measures that we use to secure nuclear weapons, prevent theft 
and black market sales, detect radioactive shipments, penetrate 
terrorist networks, discourage nuclear proliferation, and 
otherwise counter this threat.
    Today's hearing, as well as those to follow, will help us 
ensure that our policy options are grounded in the best 
information and analysis that we can muster. I commend the 
Chairman for convening this hearing, and I join him in 
welcoming our distinguished witnesses.
    Chairman Lieberman. Thanks very much, Senator Collins. I 
thank Senator Akaka and Senator Carper for being here.
    Mr. Allen, we invite your testimony now.

     TESTIMONY OF CHARLES E. ALLEN,\1\ UNDER SECRETARY FOR 
INTELLIGENCE AND ANALYSIS AND CHIEF INTELLIGENCE OFFICER, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Chairman Lieberman, Ranking Member Collins, and 
Members of the Committee, thank you for calling this hearing 
today and focusing on something of extreme importance, and that 
is nuclear terrorism.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Allen appears in the Appendix on 
page 379.
---------------------------------------------------------------------------
    One of the gravest concerns that I have is the entry of a 
nuclear device or materials into the United States. The 
Secretary and all elements of the Department of Homeland 
Security, I can assure you, take this threat very seriously. My 
office assesses global threat in the homeland context in order 
to provide tailored, timely, and actionable intelligence in 
support of the Department's prevention, protection, and 
response operations.
    As a member of the intelligence community, the Department 
of Homeland Security has an important role to play in nuclear 
terrorism issues, but we do not do it alone. Our colleagues who 
focus on foreign nuclear intelligence, especially the 
Department of Energy's Office of Intelligence and 
Counterintelligence, provide us with the basis to conduct 
homeland-specific assessments of nuclear terrorism matters, and 
it is a great pleasure to be here with my old and good friend, 
Mr. Mowatt-Larssen.
    Before discussing the specifics of how DHS views the 
nuclear threat, I want to distinguish that when we assess 
threats to the homeland, we integrate intelligence-based threat 
information with knowledge of our vulnerability to attack, as 
Senator Collins pointed out. Vulnerabilities are weaknesses in 
our systems, if exploited by our adversaries could cause 
potentially grave adverse effects to our country. Threats, on 
the other hand, are posed by adversaries who have both the 
intent to exploit our vulnerabilities and to cause us harm.
    Terrorists have been telling us for years that they are 
seeking to attack the United States and our allies with weapons 
of mass destruction, including nuclear weapons, as Senator 
Lieberman pointed out. A high priority concern for my office is 
the potential for a nuclear device or nuclear material to enter 
U.S. ports or cross U.S. borders. As the Chief Intelligence 
Officer of DHS, my job is to analyze and produce intelligence 
to inform operations that prevent nuclear material and devices 
from reaching our borders, to protect against the potential 
that they do, and respond swiftly and effectively in the event 
a terrorist nuclear device reaches our homeland.
    Currently, I do not believe that any terrorist organization 
has a nuclear device. However, that assessment could change if 
terrorist groups are able to acquire nuclear materials and 
skilled personnel. The primary obstacle to the development of a 
nuclear device by a terrorist is the acquisition of a 
sufficient quantity of weapons-usable nuclear material. 
Additional obstacles include recruiting properly trained 
experts, designing and assembling a nuclear device, and 
transporting that device to the intended target in the United 
States without detection.
    If a terrorist group were to obtain sufficient quality of 
nuclear material, the challenges of executing a successful 
attack, although complex, are not insurmountable. Thus, actions 
taken to secure nuclear materials and combat smuggling of 
weapons-usable nuclear materials globally is the most critical 
action needed to prevent nuclear material and terrorist nuclear 
devices from reaching our homeland.
    My office also analyzes global threat information, such as 
trends in nuclear material smuggling, in order to enhance 
border security and domestic security operations. We provide 
technical and threat information to help borders and 
immigration security personnel identify and interdict nuclear 
materials and persons with the capability or intent to cause us 
harm.
    Given the technical nature of nuclear devices and broad 
customer base, DHS intelligence is providing baseline 
information to our State, local, Tribal, and private sector 
partners on how a field officer might identify components of a 
nuclear device and differentiate radiological from nuclear 
devices, training on the potential effects of a nuclear device, 
and ensuring that our partners understand the range of impacts 
from a specific device.
    Although our first priority is to prevent a nuclear device 
from reaching our shores, we also work to ensure that Federal, 
State, local, and Tribal partners are ready to detect a nuclear 
device or materials that may arrive in the United States and 
reduce the likelihood that they enter the country. Our primary 
nuclear-related protection effort is to support the Domestic 
Nuclear Detection Office (DNDO) and its operation. DNDO, in 
partnership with the Department of Energy and other agencies, 
is responsible for the development of the global nuclear 
detection architecture and integrating U.S. Government efforts 
on technical nuclear forensics, two activities that require 
tailored intelligence support.
    My office works with our intelligence community colleagues 
to provide intelligence and form risk-based assessments about 
materials, people, capabilities, and tactics to help the DNDO 
and others make sound operational, policy, and planning 
decisions. We also educate and inform State, local, and Tribal 
decisionmakers about the threat and provide technical reach-
back to those entities to help them understand and respond to 
threats.
    Although we strive to prevent and protect against 
radiological and nuclear threats, we must also be prepared to 
respond quickly and effectively if a terrorist group does 
acquire or use a nuclear device. A terrorist-designed nuclear 
device is likely to be less complex and have less impact than 
nuclear stockpile weapons of the United States, Russia, and 
other nations, but this is not to say that such a device should 
be considered any less of a weapons of mass destruction.
    A terrorist attack that results in a nuclear detonation in 
the United States or anywhere else in the world, regardless of 
yield, will change the course of history. A nuclear attack may 
produce thousands of casualties, cause massive economic and 
infrastructure damage, invoke social disruption, and possibly 
render critical areas uninhabitable, at least in the near term. 
When considering nuclear threats, we must recognize that 
although the likelihood that a terrorist group could 
successfully execute an attack on the homeland may be very 
small, the consequences, regardless of the magnitude of the 
attack, will be extremely grave.
    My office supports Federal preparedness and response by 
ensuring planning documents and exercises are based on an 
appropriate understanding of the nuclear terrorist threat. 
Finally, after an attack, we provide intelligence, technical 
forensics, and DHS operational information to attribute 
radiological or nuclear attacks.
    In sum, the Department of Homeland Security's intelligence 
enterprise works closely with their intelligence community 
colleagues to provide Federal, State, local, and Tribal 
partners with the information they need to prevent, protect 
against, and prepare for the nuclear threat that we face today 
in the United States.
    Thank you for your support of homeland security 
intelligence. I look forward to your questions.
    Chairman Lieberman. Thanks, Mr. Allen, for that excellent 
opening statement.
    Mr. Mowatt-Larssen, please proceed.

   TESTIMONY OF ROLF MOWATT-LARSSEN,\1\ DIRECTOR, OFFICE OF 
INTELLIGENCE AND COUNTERINTELLIGENCE, U.S. DEPARTMENT OF ENERGY

    Mr. Mowatt-Larssen. Chairman Lieberman, Ranking Member 
Collins, and distinguished Members of the Committee, thank you 
for the invitation to appear before you on this subject of 
critical importance, the threat of nuclear terrorism.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mowatt-Larssen appears in the 
Appendix on page 385.
---------------------------------------------------------------------------
    Mr. Chairman, before I introduce my statement before the 
Committee, please allow me to set my testimony in an overall 
context of how I view this problem.
    Although much of this testimony is focused on the current 
threat posed by al-Qaida and its associates, I believe this is 
a strategic problem that is a permanent fixture of the age in 
which we live. We will need far-sighted, long-term solutions. 
We must enlist the best minds in and out of government, at home 
and abroad, from people of all persuasions, if we are to 
effectively exclude the possibility of the world living through 
a nuclear attack.
    And I believe in order to be successful, we must out-think 
our enemy. This will require decisive, aggressive, proactive, 
and creative action. I thank the Committee for stimulating this 
kind of discussion, not just in the intelligence community, but 
more broadly so that we can get a greater basis of 
understanding for the kind of solutions that are going to be 
required.
    With that introduction, please allow me to introduce this 
statement. The 20th Century was defined by nuclear races 
between states, but it is my view that the 21st Century will be 
defined first by the desire and then by the ability of non-
states to procure or develop crude nuclear weapons. In the 
early years of the 21st Century, we are likely to be tested in 
our ability to prevent the first non-state efforts to develop 
and detonate a nuclear weapon.
    Prior to the attacks of Septemer 11, 2001, we had only very 
limited information on al-Qaida's long-term strategic plan and 
it was not clear at that time that al-Qaida had serious nuclear 
ambitions. The threat of non-state use of a nuclear weapon was 
viewed largely by the intelligence community in the context of 
the nongovernmental organization Umma Tameer-e-Nau, which was 
run by two nuclear scientists, and where it could have 
intersected with al-Qaida or the now-dismantled nuclear network 
built by A.Q. Khan.
    The intelligence community prior to September 11, 2001, 
remained concerned about the security of former Soviet nuclear 
weapons and nuclear materials, but there was no coherent look 
at the idea of terrorist use of weapons of mass destruction. 
Many people in the intelligence community believed that it was 
too hard for terrorists to develop a nuclear bomb. There was an 
assumption with the intelligence community that nuclear 
material was too hard to obtain, and even if they had the 
material, nuclear weapons are too sophisticated to be built 
without an industrial complex supporting the effort.
    We should not, however, assume that the technology of a 
nuclear weapon is beyond the grasp of a terrorist group. There 
are several differences between a state nuclear weapon program 
and one that a terrorist group might pursue. A state would want 
a regular supply of uranium or plutonium that it controls. A 
state would want a reliable weapon that would detonate only 
when and where the state chooses. A terrorist group does not 
need this kind of surety and consistency that a state desires. 
A terrorist group needs only to produce a nuclear yield once to 
change history.
    Our post-September 11, 2001, successes against the Taliban 
in Afghanistan yielded volumes of information that completely 
changed our view of al-Qaida's nuclear program. We learned that 
al-Qaida wants a weapon to use, not to sustain and build a 
stockpile, as most states would. The nuclear threats that 
surfaced in June 2002 and continued through the fall of 2003 
demonstrated that al-Qaida's desire for a nuclear capability 
may have survived their removal from the Afghanistan safe 
haven.
    Today, al-Qaida's nuclear intent remains clear. Al-Qaida 
obtained a fatwa in May 2003 that approved the use of weapons 
of mass destruction. Al-Qaida spokesman Suleyman abu Ghayth 
declared that it is al-Qaida's right to kill four million 
Americans in retaliation for Muslim deaths that al-Qaida blames 
on the United States. Osama bin Laden said in 1998 that it was 
an Islamic duty to acquire weapons of mass destruction.
    In 2006, bin Laden reiterated his statement that al-Qaida 
will return to the United States. Al-Qaida has a track record 
of returning to finish a job they started. They failed at the 
World Trade Center in 1993. They came back in 2001. They 
canceled plans for chemical attacks in the United States in 
2003. We do not yet know when and where they intend to strike 
us next, but our past experience strongly suggests they are 
seeking an attack that will be more spectacular than September 
11, 2001.
    To delve a little into how they may be thinking about the 
nuclear option, at any given moment, al-Qaida probably has 
attack plans in development. September 11, 2001, was planned 
when the U.S.S. Cole was attacked in Yemen and when our 
embassies in Dar es Salaam, Tanzania, and Nairobi, Kenya, were 
attacked in Africa. An al-Qaida nuclear attack would be in the 
planning stages at the same time as several other plots, and 
only al-Qaida's most senior leadership will know which plot 
will be approved.
    In keeping with al-Qaida's normal management structures, 
such as the role of Khalid Sheikh Mohammed in the September 11, 
2001, attacks, there is probably a single individual in charge, 
overseeing the effort to obtain materials and expertise. Some 
experts may have joined al-Qaida years ago, long before the 
world began paying adequate attention to the proliferation of 
the kinds of technologies that could yield a terrorist nuclear 
weapon.
    The September 11, 2001, plot was operationally very 
straightforward. It had a very small footprint, was highly 
compartmented. Al-Qaida's nuclear effort would be just as 
compartmented and probably would not require the involvement of 
more than the small number of operatives who carried out 
September 11, 2001.
    A prototypical al-Qaida nuclear attack would have the 
following components: Approval and oversight from al-Qaida's 
most senior leadership with possible assistance from other 
groups; a planner responsible for organizing the material, 
expertise, and fabrication of a device; an operational support 
facilitator responsible for arranging travel, money, documents, 
food, and other necessities for the cell; assets in the United 
States or within range of other Western targets to case 
locations for an attack and to help move the attack team into 
place; and finally, the attack team itself.
    The task for the intelligence community is not easy. We 
must find something that is tactical in size but strategic in 
impact. We must find a plot with its networks that cut across 
traditional lines of counterproliferation and counterterrorism. 
We must stop something from happening that we have never seen 
happen before.
    Beyond the basics I have outlined here, we do not know what 
a terrorist plot might look like. There is, however, a choke 
point in the terrorist effort to develop a nuclear capability. 
It is impossible to build a nuclear weapon without fissile 
material. A state has the time and resources to build a large 
infrastructure required to make nuclear material. A terrorist 
group needs only to steal or buy it. We see incidences every 
month of seizures, and although many of these incidents do not 
involve weapons-grade materials, this occurrence means that we 
collectively have not done enough to suppress traffic and 
secure the security of material worldwide.
    Along with other members of the U.S. intelligence 
community, the Department of Energy Office of Intelligence and 
Counterintelligence recognizes the urgency of this threat. 
Terrorist acquisition of a nuclear device would be, again, an 
unprecedented event. To this end, let me outline a few of the 
things that we are doing in the Department of Energy.
    On August 28, 2006, the national-level Nuclear Materials 
Information Program was established via Presidential Directive. 
This program is an interagency effort managed by the Department 
of Energy in close coordination with the Departments of State, 
Defense, Homeland Security, Justice, the Nuclear Regulatory 
Commission, and all agencies under the Director of National 
Intelligence. The specifics of this program are classified, but 
the goal is to consolidate all-source information pertaining to 
nuclear materials worldwide and their security status. This 
will help us understand the gaps in our current knowledge and 
ensure the information is made available to all Federal 
departments and agencies.
    DOE's work to combat the threat of nuclear terrorism is not 
limited to intelligence. Several offices within the National 
Nuclear Security Administration are dedicated to understanding 
the improvised nuclear device threat; to securing nuclear 
materials and eliminating excess stockpiles; to deterring, 
detecting, and interdicting illicit trafficking of nuclear 
materials; and should the unimaginable action, to ensure that 
we stand ready to disarm a nuclear device, manage the 
consequences of the event, and to conduct forensic analysis to 
identify all those responsible.
    The National Nuclear Security Administration's Office of 
Defense Nuclear Nonproliferation, Material Protection Control 
and Accounting (MPC&A) program, works to upgrade security at 
nuclear sites, particularly those in Russia and other states of 
the former Soviet Union. In line with our view that preventing 
terrorist access to material is the most effective way of 
preventing nuclear terrorism, we continue to give very high 
priority to those efforts to bolster security. Throughout its 
15-year history, the MPC&A program has worked with Russian and 
other former Soviet Union counterparts to secure nuclear 
material through upgrades to physical protection. In addition 
to work at 50 nuclear material sites in Russia, DOE has helped 
upgrade security at all Russian Navy sites and all Strategic 
Rocket Forces nuclear sites, and they have begun upgrading nine 
nuclear weapons sites in the 12th Main Directorate.
    In 2004, the Nuclear Security Administration began the 
Global Threat Reduction Initiative to accelerate efforts to 
address the dangers posted by nuclear and radiological 
materials at civilian sites worldwide through conversion of 
research reactors from highly enriched uranium to low enriched 
fuel, removal of excess nuclear and radiological materials, and 
protection of at-risk nuclear and radiological materials from 
theft.
    Our Second Line of Defense (SLD) program installs radiation 
detection equipment at fixed borders at land, sea, airports, 
and equips major shipment ports with detection equipment. SLD 
and Megaports are also training border guards and Customs 
officials to use this equipment.
    These efforts in their totality build a necessary solid 
foundation of strong policies and best practices to prevent 
nuclear proliferation. We are also working with foreign 
governments to strengthen standards for physical protection, to 
strengthen export control, and to strengthen safeguards on 
nuclear material worldwide.
    In closing, we must get nuclear materials off the black 
market and take every possible step to stop global trafficking 
in these materials. It must be a global effort incorporating 
police, intelligence services, militaries, government agencies 
and ministries, and dedicated citizens across the world. In 
addition, we need broad information sharing across every front, 
between government and private sector, among foreign partners, 
including those who were previously our adversaries. Al-Qaida 
thinks and plans dynamically and they rarely follow 
straightforward linear paths to their targets. We need to be 
just as flexible and dynamic in our response.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much. The cumulative 
effect of the testimony of the two of you is, to put it mildly, 
sobering. The two of you are not prone to rhetorical excesses, 
but I think you have set out a series of realistic statements 
that call on us to both evaluate and react.
    We will do 6-minute rounds and I will begin now, but Mr. 
Allen, I just want to come back and try to summarize----
    Senator Warner. Mr. Chairman, could I make a parliamentary 
inquiry?
    Chairman Lieberman. Yes, sir.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. I have known Mr. Allen for many years. I 
tried to follow your statement. It tracked the written one 
provided to the Committee, but I wonder if we could have a copy 
of his abbreviated statement because it seems to me there were 
some very poignant comments that I might not be able to find--
--
    Chairman Lieberman. Yes, that is an excellent idea. If you 
have it, I will ask one of our staff to come down and get a 
copy.
    Senator Warner. I thank the Chairman.
    Mr. Allen. We have a copy and we will provide it to the 
Senator.
    Chairman Lieberman. We will get it right to you.
    Senator Warner. Thank you.
    Chairman Lieberman. It could be one of your better selling 
statements, Mr. Allen.
    Let me just try to put in order what we have been told. Mr. 
Allen, you indicated on the encouraging side that you do not 
believe any terrorist group now has a nuclear device, is that 
right?
    Mr. Allen. I do not think we have sufficient evidence to 
make a firm decision, but that is my personal judgment. At the 
same time, as my friend, Mr. Mowatt-Larssen has indicated, 
there has been a long-term effort, particularly by al-Qaida, to 
develop an improvised nuclear device. I think that is a long-
term aspiration. We can talk obviously in more detail in a 
classified session, but when I started working this back in--we 
saw bin Laden's statement back in February 1998, and of course 
I have here the statement by this ultra extremist cleric back 
in 2003, the one that I think that Mr. Mowatt-Larssen referred 
to. It is pretty clear their intent----
    Chairman Lieberman. Yes.
    Mr. Allen [continuing]. And capability is something that we 
can talk in a classified session.
    Chairman Lieberman. I think that summarizes it well, and I 
believe that coincides with Mr. Mowatt-Larssen's testimony, 
which is that we do not have evidence that there is a terrorist 
group with a nuclear device or nuclear capability now. But is 
it true that neither of you have any doubt that al-Qaida and 
perhaps other terrorist groups are attempting to gain nuclear 
capability?
    Mr. Allen. Mr. Chairman, I have no doubt that al-Qaida 
would like to obtain nuclear capability. I think the evidence 
and their statements that they have made over many years 
publicly indicate this, and I think that based on the National 
Intelligence Director's views and others that have been issued, 
if you recall, the estimate that was issued in July of last 
year, on al-Qaida's terrorist threat to the homeland, said that 
al-Qaida would like to have weapons of mass destruction and if 
it acquired them, it would use them.
    Chairman Lieberman. Right.
    Mr. Allen. That is an unclassified key judgment, sir.
    Chairman Lieberman. Yes, sir. And there is no reason not to 
believe the public statements that they are making about this 
intention?
    Mr. Allen. I take seriously many of their comments. Some of 
them are rhetorical----
    Chairman Lieberman. Right.
    Mr. Allen [continuing]. But in this case, I take it very 
seriously.
    Chairman Lieberman. Let me ask you, Mr. Mowatt-Larssen, to 
just talk for a moment about the significance of the fatwa 
issued by the Saudi cleric Nasir al-Albani in 2003 that both 
you and Mr. Allen have referred to.
    Mr. Mowatt-Larssen. Yes, Mr. Chairman. First, I believe its 
significance is that when al-Qaida comes to a point in its 
thought process that it feels a need for a fatwa or a religious 
justification for an action, it has in our experience meant 
that they are well along the way of considering that action and 
need a justification to the Muslim world to use, in this case, 
weapons of mass destruction. We see that groundwork having been 
very clearly laid before September 11, 2001, which represented 
an escalation of their war with the United States by bringing 
their war to our shores.
    Similarly, they have done this in the past when they needed 
a fatwa or justification to attack Saudi interests in Saudi 
Arabia. They needed a religious ruling on that, and WMD falls 
in that same category.
    So it would be a grave error to underestimate the 
significance in May 2003, at a time when we were at a 
heightened threat, both at Saudi Arabia and at home, that this 
fatwa was issued by a radical Saudi cleric who subsequently 
retracted his fatwa on Saudi television but, in fact, 
represents a very clear and compelling statement by al-Qaida 
that it regards this as a weapon that it seriously is 
considering using.
    Chairman Lieberman. Right. I thank you for that.
    Did you want to add something to that, Mr. Allen?
    Mr. Allen. No, sir. I think Mr. Mowatt-Larssen speaks very 
eloquently on this threat.
    Chairman Lieberman. Thank you. I want to go to the security 
of nuclear materials question, and just to put it in a 
realistic context, in the second panel, we are going to hear 
testimony from Matthew Bunn that includes a detailed 
description of the incident that is public and has been 
reported in the press that occurred last November. Four 
individuals brazenly attempted and in part succeeded, in 
infiltrating a nuclear facility in South Africa, bypassing 
security systems, and ultimately gaining access to the 
emergency control room.
    What can you tell us you know about that event and more 
broadly what it says about the security of nuclear materials 
globally? You both have been very clear about the fact that if 
there is a choke point here, it clearly is not choking al-Qaida 
and the other terrorist groups off from gaining the necessary 
nuclear materials with which they would make a device.
    Mr. Mowatt-Larssen. Yes, Mr. Chairman. In the South Africa 
case, this is an ongoing investigation, if you will, ongoing 
work. That and related incidents that we have where we are 
concerned about possible breaches, I think are best left to the 
next session----
    Chairman Lieberman. OK.
    Mr. Mowatt-Larssen [continuing]. But in a more general 
sense, we have concerns about the availability of material. 
There are publicly reported instances where actual weapons-
usable material over the last several years has turned up 
missing. The intelligence community is dealing with our foreign 
partners on many of those right now. So we are not talking 
about a theoretical threat presented from insider access to 
facilities and/or theft of material.
    In this case, we simply must go out and find it before it 
finds us in terms of getting to a terrorist group, and that is 
one of our biggest challenges in the intelligence community, 
being proactive, where we are out locating, finding, and taking 
possession of any material that may be on the loose, knowing as 
we are sitting here today that we are, in fact, dealing with 
confirmed instances that relate to possibly missing nuclear 
materials.
    Chairman Lieberman. My time is up, but I want to just ask a 
quick question and ask for a quick answer. Is there an 
established framework of international cooperation in the 
pursuit of protecting nuclear materials? In other words, are we 
getting help from allies and others in the world?
    Mr. Mowatt-Larssen. We are in various programs. I would say 
comprehensively, there is work yet to be done----
    Chairman Lieberman. Right.
    Mr. Mowatt-Larssen [continuing]. At the intelligence level 
and others.
    Chairman Lieberman. We will come back to that. Thank you. 
Senator Collins.
    Senator Collins. Thank you. Mr. Mowatt-Larssen, I am going 
to follow up on the questions that the Chairman just asked you. 
Obviously, keeping nuclear weapons or material from being 
stolen is a very important tool for preventing nuclear 
terrorism. Our next witness, Mr. Bunn, also wrote in an 
analysis last fall that the myriad routes across the world's 
scantily-protected borders makes nuclear smuggling almost 
impossible to stop.
    Let me ask you two questions which flow from the 
conversation you have had with the Chairman as well as Mr. 
Bunn's column. First, does the U.S. Government have a 
comprehensive list assessing which facilities around the world 
pose the most serious risks of nuclear theft?
    Mr. Mowatt-Larssen. Senator Collins, yes, we have a program 
called the Nuclear Materials Information Program. It was 
created in August 2006. It is in development. It is not at that 
comprehensive level yet to give you the assurance that we have 
this problem in hand. By no means am I suggesting that. We do 
have a plan. We are working the plan. We have prioritized this 
program to focus on countries and facilities that we regard in 
the intelligence community to be of the highest risk. So we 
have, in fact, identified the high-risk sites. We have 
identified what type of material is there. We have an ongoing 
assessment--it is being updated every day--on the status at the 
highest priority level.
    It is a work in progress. It is going to take a number of 
years to complete. But I would say we have a plan, but I would 
not disagree with Mr. Bunn's assertion that we have a long way 
to go to feel good about smuggling of nuclear material.
    Senator Collins. Second, in general terms, where are the 
sites that pose the highest risk of nuclear theft today? I am 
trying to get a sense of whether the risks are more 
concentrated in a country like Pakistan or nuclear weapons in 
Russia, or whether the problem is domestic as well, perhaps 
college campuses that have nuclear reactors for research 
purposes and may not have them as secure. Give us your 
assessment of where, in general, the sites posing the most 
concern are located.
    Mr. Mowatt-Larssen. Well, clearly, we know that every state 
with nuclear material takes the security of material utmost 
seriously, including the governments of Pakistan, Russia, the 
United States, and other countries. That said, obviously our 
biggest concern are states that potentially are less stable or 
where there is a greater interest by terrorists to acquire the 
material, and of course, we prioritize and pay the most 
attention to those countries.
    In our scope of how we look at nuclear materials globally, 
we include the United States in that category. We do not 
exclude the possibility that the problem could happen at home, 
whether it is the expertise or material.
    But yes, we have a very clear prioritization. I would be 
happy to get into more details on the progress we are making in 
the next session.
    Senator Collins. Thank you. Mr. Allen, the well-documented 
proliferation activities of the former Pakistani chief nuclear 
scientist A.Q. Khan have highlighted the increased threat of 
nuclear terrorism. To what extent is the intelligence community 
concerned about the past activities of A.Q. Khan or other 
similarly knowledgeable scientists who might be willing to 
collaborate with terrorist organizations?
    Mr. Allen. That is a great question, Senator, and having 
someone who followed A.Q. Khan as my friend, Mr. Mowatt-
Larssen, did over a period of years, we believe that there are 
still some issues yet to be resolved with the A.Q. Khan 
network. Fortunately, that network was severely disrupted and 
most of the people are no longer able to conduct that kind of 
activity. It was really becoming sort of the one-stop shopping 
for the provision of nuclear designs and centrifuges, as it has 
been well publicized.
    At times, and we might talk a little about it, there are 
scientists around the world who may hold radical views, the 
insider threat, who might take materials or other kinds of 
hard, very complex equipment like centrifuges. I think, again, 
we have to have a regimen that is not only here in the United 
States, which we do have, but worldwide to prevent these kinds 
of scientists who really become the rogue scientists. And A.Q. 
Khan became an extraordinary rogue scientist who reached around 
the world globally, not only in the Middle East but in East 
Asia, as you are well aware. The A.Q. Khan situation, I think, 
is something we want to stop in the future, and it has got to 
take great cooperation with all civilized countries.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator Akaka, 
and then we will go to Senator Tester.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
tell you that it is a pleasure to see such a distinguished 
group of witnesses here today appearing before this Committee 
and I want you to know that I applaud your efforts to bring 
more attention to our policies and programs and especially 
trying to help the public to understand what we are trying to 
do here. This is a good step in that direction.
    I ask you to include my full statement in the record.
    [The prepared statement of Senator Akaka follows:]
             Prepared Statement of Senator Daniel K. Akaka
    Thank you, Mr. Chairman. It is a pleasure to see such distinguished 
witnesses appearing before the Committee today, and I share your 
interest and concern on this issue. I applaud your efforts to bring 
more attention to our policies and programs aimed at deterring nuclear 
terrorism.
    I have long been concerned with the threat of nuclear terrorism. In 
2001, as the Chairman of the International Security Subcommittee, one 
issue that I focused on, and held several hearings on, was the 
protection of radioactive sources that could be used in so-called dirty 
bombs. A 2003 Government Accountability Office (GAO) report that I 
requested, titled ``Federal and State Action Needed to Improve Security 
of Sealed Radioactive Sources'' (GAO-03-804), disclosed that the United 
States did not reliably keep track of or account for radioactive 
sources. According to the report, a quarter to half a million of 
Greater-than-Class C (GTCC) radiological sources are estimated to exist 
in the United States and approximately 24,000 new sources are annually 
added. These sources, in use throughout the United States and often not 
well secured, have the potential to become the base material for a 
radiological dispersal device (RDD), the formal name for a dirty bomb. 
As a result of the hearings and GAO report, Senator Bingaman and I 
introduced The Low Level Radioactive Waste Act to promote the safe and 
secure disposal of low-level radioactive waste. I am pleased to say 
that some of our proposals were included in the 2005 Energy Policy Act.
    Internationally, the problem of securing both low level radioactive 
sources and highly enriched uranium is compounded by its growing 
availability. The International Atomic Energy Agency's (IAEA) Illicit 
Trafficking Database (ITDB) reported 252 incidents of theft or loss of 
nuclear and other radioactive materials in 2006, accounting for 20 
percent of the reported incidents since the database was created in 
1995. It is difficult to say if the problem is growing or if improved 
reporting is making it more noticeable. In any case, the numbers 
represent a significant problem and one which, as our witnesses today 
observe, has caught the attention of terrorists.
    I am convinced there are two lines of defense against possible 
nuclear terrorism threats. First, we must continue to secure 
radiological sources, even low-level ones, within our own country. 
After all, why should a terrorist go to the trouble of bringing 
radioactive material in when he can find it here? But the second front 
is the most difficult and, in the long-term, provides the greatest 
threat. This is the risk of unsecured nuclear and radiological sources 
abroad.
    Our witnesses today cite a number of initiatives to improve 
security of foreign sources of nuclear radioactive material, including 
the Department of Energy's Material Protection, Control, and Accounting 
(MPC&A) program and the Global Threat Reduction Initiative (GTRI). Now 
is the time, I believe, to take a fresh look at how we can enhance the 
capabilities of our current domestic programs and international efforts 
to secure, monitor, and control nuclear material.
    We are on the verge of a major expansion in the number of nuclear 
power plants. By 2030, there may be as much as a 60 percent increase in 
the number of operating nuclear reactors. In addition to answering the 
demand for more energy, nuclear technology will find greater use 
throughout the world in food safety and medical applications. This will 
also create a much larger nuclear waste issue. For instance, the volume 
of spent reactor fuel is expected to double between now and 2020.
    The growing use of nuclear applications and nuclear power 
production increases the risk that radiological sources or nuclear 
weapons end up in the hands of terrorists. To contain this danger, we 
need to examine ways that agencies, such as the IAEA, can be 
strengthened to meet the proliferation concerns generated by increased 
use of nuclear material. Two areas offer immediate opportunities to 
improve nuclear security but only if the IAEA's budget is expanded to 
meet this larger role: increasing nuclear and radiological 
accountability and expanding verification activities.
    Accounting for and tracking nuclear and radiological materials is 
the cornerstone for greater security. One possibility is to create a 
comprehensive international database of nuclear and radiological 
sources. The IAEA could require that new materials be put on this list 
as they are created, and tracked as they are transported to their end 
user, and finally moved into safe disposal. Although this program would 
be voluntary, would require considerable additional funding, and would 
be challenging to implement, it would set the international community 
on a path to greater security that will become even more crucial in the 
future.
    To prevent the theft, loss, or diversion of highly radioactive 
material, a more robust verification regime is required. To match the 
projected increase of nuclear reactors, the IAEA will need more 
inspectors armed with uniform inspection standards and with better 
technical tools. For example, the IAEA has negotiated comprehensive 
safeguards agreements (CSA) and additional protocols (AP) designed to 
ensure that nuclear programs are used only for peaceful purposes. 
However, thirty states party to the Nuclear Non-Proliferation Treaty 
have not implemented CSAs and approximately 100 states have not adopted 
the APs. This points to the difficulty in monitoring potential nuclear 
diversions. But even where the IAEA does have access agreements, it 
will need advanced technical tools to keep up with the increasing 
sophistication of nuclear design and efforts to hide secret nuclear 
weapons programs.
    A critical barrier to making these reforms is the IAEA's zero real 
growth budget. An unintended consequence of this United Nations-wide 
budget requirement is the prevention of critical investment in the 
IAEA's human capital, infrastructure, and equipment. The United States 
needs to take the lead in addressing these issues if we are going to be 
successful in preventing what we all believe is the inevitable 
consequence of not confronting in a comprehensive strategy the domestic 
and international threat of nuclear terrorism.
    I would again like to thank the Chairman for arranging this hearing 
and helping the public understand the threat posed by nuclear 
terrorism.

    Chairman Lieberman. Without objection.
    Senator Akaka. Mr. Larssen, if you do not mind, I have a 
series of questions here for you and especially want to hear 
your assessment on Dr. Matthew Bunn's written testimony. He 
will be appearing here, but I just want to hear about his 
mention that, and I am quoting from him, ``India has rejected 
offers of nuclear security cooperation.'' Do you agree with 
this assessment?
    Mr. Mowatt-Larssen. First, I would like to say that I have 
great respect for Dr. Bunn. I have had interactions with him 
and his colleagues and I believe that kind of cooperation 
between government and nongovernment agencies is essential, 
particularly in sharing our views and the expertise outside the 
government.
    I think the problem of India in this regard as the 
intelligence community would look at it--of course, we pay 
attention to policy--is to expand this from what could be a 
very simplistic discussion of a problem in the former Soviet 
Union and Pakistan to ensure that every country, whether it be 
India, the United States, or another country, could be 
potentially part of this small network of countries where 
terrorists can obtain material or expertise, so the decisions 
that states make in a world where there is an increased 
dependence on nuclear power and proliferation of nuclear 
weapons all will exacerbate in the future the ability of a 
terrorist group at some point in time to reach that threshold 
where they may have a mushroom cloud. So my comment would be 
that certainly India is in the sphere of concern, as any 
country that has nuclear power and nuclear weapons.
    Senator Akaka. My follow-up to that is if it needs to be 
done, how can we encourage India's cooperation?
    Mr. Mowatt-Larssen. Sir, I will leave that to the 
policymakers in terms of specifics--but I know that it is an 
area of interest in the intelligence world. Of course, we try 
to support the policymakers with the information they might 
need to make the right decisions. So I wouldn't presume to get 
into that.
    Senator Akaka. Mr. Larssen, in Dr. Bunn's testimony, he 
states, ``The promising nuclear security dialogue with China 
does not yet appear to have led to major improvements in 
security there.'' Do you agree with that, and if so, why 
haven't there been any major improvements in Chinese nuclear 
security?
    Mr. Mowatt-Larssen. Well, I wouldn't want to sit here and 
assess China or any specific country other than to say China is 
among the countries with whom we have intensified our dialogue. 
At the intelligence level we can deal with the potential 
implications of the security challenges in that country as well 
as our other allies in this. I do believe that our Chinese 
counterparts do take this problem very seriously and take 
security of nuclear material very seriously.
    Senator Akaka. Mr. Larssen, Dr. Bunn argues that, ``U.S. 
programs largely ignore caches of highly enriched uranium in 
wealthy developed countries, though some of these, too, are 
dangerously insecure.'' Do you agree that our nonproliferation 
programs have failed to address nuclear security in wealthy 
developed countries?
    Mr. Mowatt-Larssen. I wouldn't go that far. To the extent 
my opinion is germane, I would say that we share a concern that 
all nuclear material must be secured, not just looking at 
weapons-type material. But the important scope that we need to 
take to this is to ensure that, over time, all nuclear material 
is secured at the highest possible level.
    Senator Akaka. As you know, Mr. Larssen, the International 
Atomic Energy Agency (IAEA) in Vienna plays a strong role in 
monitoring nuclear developments. In your opinion, what should 
the IAEA's priorities be in confronting the threat of nuclear 
terrorism?
    Mr. Mowatt-Larssen. To be honest, Senator, I haven't 
thought about IAEA's responsibilities in this context. I am 
well aware of the work they are doing in countries like Iran 
and elsewhere where this is, in fact, an extended aspect of the 
problem to the degree that we are also concerned about the 
nexus between states and groups, but I wouldn't want to provide 
a critique of the IAEA.
    Senator Akaka. Mr. Allen, today's Washington Post has an 
article about state and local fusion centers which receive 
information on terrorists. Nuclear intelligence tends to be 
highly sensitive and compartmentalized. How are you ensuring 
that state and local centers will be able to receive such 
sensitive information, if necessary?
    Mr. Allen. Senator, our responsibility there is to work 
with State and local government, the fusion centers, to ensure 
that they understand the threat. We are not there to provide 
them with sensitive details dealing with the design, but we are 
there to help them understand the level of the threat, to 
understand how to identify a threat, because our state and 
local fusion centers consist of a lot of first responders who 
may be able at the very local level to detect something where a 
person or group of people who are trying to put together a 
device--it could even be radiological materials, they need not 
be things that are part of an improvised nuclear device.
    So it is educational. We do training. We give them a basic 
training and we also provide them with assessments which they 
can use to understand the level of the threat and what they 
should look for, how they should look for devices or the 
assembly of such kinds of equipment. So it is a very rich 
educational effort we have with State and local governments, 
and we do clear them up to the level of ``secret'' in order to 
provide them with the information that they need, and we do it 
on a very regular basis.
    Senator Akaka. Thank you very much, Mr. Allen, and thank 
you, Mr. Larssen. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Yes, thank you, Mr. Chairman, and Ranking 
Member Collins, for holding this hearing. Thank you gentlemen 
for being here.
    I would agree with the Chairman, the testimony today is a 
bit sobering. I am here for many reasons, but one of the main 
reasons I am here is because of security with our borders, in 
particular the Northern border. As you folks know, Montana has 
a long border with Canada, more than 500 miles, and while 
Montana may not be at the top of the list of candidates for a 
terrorist strike, a major nuclear attack, anywhere in this 
country would, as Mr. Allen said, change the course of history.
    My major concern and what I would like to ask the witnesses 
about is the ability of terrorists to transport a nuclear 
device or amounts of nuclear material across the border. We 
have heard the testimony from Charles Allen, and Mr. Allen, I 
have to say, as in our first meeting, I am very impressed with 
you. You know your stuff and I appreciate you being on board. I 
think you are a real asset to this country.
    I understand that DHS has delayed the deployment of nuclear 
detection equipment into the field because it is not working as 
well as advertised. This is a $1.2 billion program that is not 
delivering the kind of protection that has been testified to 
that we so desperately need. I am just wondering where that is 
in process.
    Mr. Allen. Senator Tester, it is good to see you. A lot of 
detection equipment, I think, as Senator Collins indicated, has 
been deployed out to various ports and to various large cities, 
what we call the Urban Assistance Cities. I would have to defer 
that certainly to Mr. Oxford, who runs the Domestic Nuclear 
Detection Office, and let him respond to that. Obviously, as 
you develop more advanced equipment, sometimes you have 
technical problems, but I would defer on that since I do the 
intelligence and I do not do the development and production of 
devices.
    Senator Tester. That would be fine. Thank you. Their 
oversight to these programs, hopefully it is there and 
hopefully we can get this up and running, if not now, very 
soon, particularly because reports in the Canadian press have 
reported that 75 pieces of radiological material have been 
missing in the last several years.
    Mr. Larssen, do you know if that is weapons-grade stuff?
    Mr. Mowatt-Larssen. Senator Tester, of the seizures that 
are reported in the press, you will find various figures. IAEA 
holds some. Other organizations do. All those figures of 
seizures that have been publicly reported do include some 
instances where weapons-grade material was part of that, so the 
answer is yes.
    Senator Tester. I think, Mr. Allen, you know about this, 
when we talked some months ago, we talked about security on the 
border. I just want to let you know that I do not think things 
improved very much in my neck of the woods as far as the 
security there. I look forward to working with you to make that 
come to reality because quite honestly, from a dollars spent 
standpoint, it is a minimal amount of money to get that border 
secured and I am particularly concerned about it.
    Mr. Mowatt-Larssen, how is our relationship with the 
Canadians? Are they stepping up to the plate? Are you getting 
what you need from them? Do they have the same level of concern 
about terrorist threats there that we have and are they working 
with us? Are they providing the resources?
    Mr. Mowatt-Larssen. Senator Tester, I would say the easy 
answer to that is yes, they do take it extremely seriously, and 
in our own interaction as well as more broadly in the 
intelligence community by the agencies that conduct liaison 
more regularly with our Canadian counterparts, I do not think 
there is any question that they understand this problem and 
take the issue very seriously, particularly securing the 
borders.
    Senator Tester. So you would put Canada on that list that 
Senator Collins mentioned of countries that you are concerned 
about as far as access to nuclear material?
    Mr. Mowatt-Larssen. I would always put on the list any 
location where you have long borders and you can smuggle 
material across borders, whether that be the Southern border or 
Northern border. We have a big problem in terms of trying to 
secure those borders, particularly if sophisticated smuggling 
networks get involved in trying to smuggle these materials. So 
I think we understand that it is an immense challenge and we 
have to do work on that.
    Senator Tester. OK. Mr. Allen.
    Mr. Allen. Senator, we have developed a very excellent 
relationship, and you are right. We have a lot of work to do 
jointly with our Canadian partners on the borders. That was 
something I was looking at yesterday, and we certainly can come 
back and talk to you in a classified arena.
    Senator Tester. I would love to.
    Mr. Allen. We work very closely with the Canadian Border 
Services agency and other intelligence agencies. I met last 
week with a group of Canadians where we talked about some joint 
assessment projects.
    Senator Tester. Good.
    Mr. Mowatt-Larssen. Senator, just to follow up, the 
response specifically to that question, though, that specific 
instance of missing material, we do not believe that they were 
weapons-usable.
    Senator Tester. OK. They were not weapons--none of the 75?
    Mr. Mowatt-Larssen. We do not believe.
    Senator Tester. OK. All right. The last question, and Mr. 
Allen, you might want to answer it. If it applies to you, Mr. 
Mowatt-Larssen, you can answer. It deals with our partners in 
the communities, our Tribal governments, our county sheriffs, 
whether it is on the Northern border with Montana or Maine or 
whether it is on the Southern border with Arizona or New 
Mexico. Are we taking the steps necessary to be able to get 
their help when you talk about potential transport of nuclear 
material, specifically nuclear material, into this country?
    Mr. Allen. Well, we have talked about this at the State 
level and with the fusion centers and with local law 
enforcement. We have a lot of work to do there. Our 
relationships are only deepening. I spoke 2 weeks ago at the 
National Fusion Center Conference in San Francisco, where we 
really committed ourselves to further information sharing. I 
meet frequently with law enforcement officers throughout the 
country. But we have much to do in this arena, and I will be 
very candid there.
    Senator Tester. And then you may not even want to answer 
this question in that case, for any number of reasons, but are 
you confident that they are a player in this at this point in 
time, or are they insignificant as far as border security goes?
    Mr. Allen. They are an extraordinary player, whether it is 
the Northern border or the Southern border, whether it is 
Texas, Arizona, or California. The local officials, first 
responders, sheriffs, police departments are extraordinarily 
helpful and the relationship is rich.
    We held a conference last year with fusion centers and 
local law enforcement out in Lawrence Livermore National 
Laboratory at a classified level, and we had a weapons of mass 
destruction conference that Dr. McCarthy, who is on my staff, 
helped chair that session. Sir, our relationships are 
deepening. We have been at this 2 years, and we need to be at 
it more years.
    Senator Tester. You have some more work to do. Finally, and 
this is not a question, it is just a comment. I would like to 
get together with you, Mr. Allen, and discuss that Northern 
border issue, classified if need be, because I have an 
incredible amount of concern about it.
    Mr. Allen. Yes, sir.
    Senator Tester. I personally do not live that far from it.
    Mr. Allen. Yes, sir. I will follow up, Senator.
    Chairman Lieberman. Thanks very much, Senator Tester. If 
there is interest in the Committee, we will just do a short 
second round with these two witnesses because we have a second 
panel.
    Mr. Allen, from your experience and expertise in 
intelligence have documented the reality of the nuclear 
terrorist threat for us this morning. I wanted to ask you, what 
are the one or two most significant things that Congress can do 
to not only help you, but the agencies that you work with, to 
prevent an attack from occurring?
    Mr. Allen. I believe first and foremost, your continuing 
support, which Congress has been, I think, very much engaged as 
securing these materials overseas--at CIA, we worked with Mr. 
Mowatt-Larssen and others on this issue to secure materials. 
The programs that you all have supported very generously is not 
the only answer, because it is a multi-layered effort to 
prevent fissile material or a weapon coming into the country, 
but to me, that is one of the good things you can do. And, of 
course, the continuing support you give to the intelligence 
community and to my intelligence activities, I am very grateful 
for that.
    This is going to be a long-term, and I think Mr. Mowatt-
Larssen captured it very well in his opening statement where he 
put that strategic chapeau over the entire effort. We are into 
this for decades to come and we have got to work at it in great 
collaboration and with great transparency with the Congress.
    Chairman Lieberman. Thank you. Good answer. Mr. Mowatt-
Larssen.
    Mr. Mowatt-Larssen. Senator Lieberman, I think Mr. Allen 
captured my thoughts eloquently. I would just add that it is 
really about the material, as he said, and making sure that we 
deny material access through the net effect of everything we 
are doing. And second, focusing on the people who smuggle the 
material and work with other governments to criminalize that 
activity. Currently, the crime is not proportional to the 
consequences if people traffic in this material and it gets in 
terrorists' hands. I think we have a lot of work to do 
internationally to raise the stakes for the people who are 
involved in nuclear terrorism.
    Chairman Lieberman. Interesting. Are our laws sufficient to 
that task here in the United States, to create punishment for 
the kind of crimes you are talking about?
    Mr. Allen. I believe our laws are sufficient.
    Chairman Lieberman. Yes.
    Mr. Allen. We just now need to work very hard at ferreting 
out any efforts to bring into this country or develop within 
the country because we know how dangerous even a radiological 
bomb could be and the consequences here.
    Chairman Lieberman. Right. Again, it is outside of your 
direct purview, but am I correct that both of your Departments 
are involved in reaching out to other nations' governments, 
particularly countries that may have nuclear materials in an 
attempt to secure their presence?
    Mr. Mowatt-Larssen. Yes, Mr. Chairman. In the Department of 
Energy, it is a broad intersection of the policy programs, 
primarily in the National Nuclear Security Agency, which I 
outlined some of the highlights.
    Chairman Lieberman. Right.
    Mr. Mowatt-Larssen. On the intelligence level, we work with 
our intelligence community counterparts. We try to come at our 
foreign partners around the world on the intelligence level as 
one. We do a pretty good job of that, bringing 16 agencies to, 
for example, the key countries with really a single-minded 
purpose, which is sharing information more broadly than we have 
traditionally, even with some of our old adversaries, because 
this is a common threat.
    Chairman Lieberman. Sure.
    Mr. Allen. And, of course, the Department of Homeland 
Security has the Secure Freight Initiative. Worldwide, it has 
the Container Security Initiative. There is just an enormous 
amount of effort internationally that the Secretary and his 
leadership conducts day to day, week to week, with our foreign 
partners to try to control dangerous materials.
    Chairman Lieberman. Yes, absolutely. I remember not so long 
ago Secretary Chertoff was before us testifying at that table 
and one of the Members asked him a trite question, but it does 
get to a sense of priorities and concerns. What keeps you up at 
night, of all the range of threats that this country faces 
post-September 11, 2001? He quickly said, the detonation by a 
terrorist group of a nuclear device in an American city. So 
that, I think, reflects the priority that the Department gives 
it and also the reality of the threat.
    Mr. Allen. I agree with the Secretary. I worried about that 
long before I ever met the Secretary.
    Chairman Lieberman. Yes. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. I just have two 
more questions that I would like to ask our witnesses today.
    Mr. Allen, starting again where the Chairman left off, I 
would like to get a better sense of how the analysis of the 
threat that you do and other intelligence agencies do influence 
the investment decisions of the Domestic Nuclear Detection 
Office. In other words, there is obviously communication that 
you give on the threat, on intelligence, but I am unclear how 
this threat information and advice actually influences the 
investment decisions of DNDO. Could you talk to us about that?
    Mr. Allen. Well, I think it is not only our assessment, but 
as you know, there are some very powerful analytic capabilities 
within other agencies, like the Central Intelligence Agency and 
the National Counterterrorism Center, and I believe in the 
classified session you will have Mr. Leiter there. But the 
combination of this, and as we look out strategically at what 
this country will face, has a profound effect on the 
decisionmaking not only of the Secretary, but of the Director 
and his staff of the DNDO as far as looking at more advanced 
systems to avoid false positives, to make sure our equipment 
can really detect materials. We face some very serious 
challenges in shielded materials and there is technology being 
looked at to try to defeat those who would shield materials as 
they are brought into the country. So I think we have a direct 
influence, but we do it in partnership, particularly with the 
Department of Energy.
    Senator Collins. Mr. Mowatt-Larssen, in your statement, you 
discussed how the 20th Century was defined by a nuclear arms 
race between states and that the 21st Century will be defined 
first by the desire and then by the ability of non-states to 
procure developed crude nuclear weapons. Now, in the Cold War 
scenario, the ability to attribute an attack to a state actor 
was fairly straightforward and thus that served as a powerful 
deterrent from one nation attacking another with nuclear 
weapons. But that appears to no longer be the case, given the 
complex nature of the threat posed by terrorist groups. To what 
extent does the ability to attribute the nuclear material that 
would be used by a terrorist group in constructing a weapon 
serve as a deterrent to a state that might provide the 
material?
    Mr. Mowatt-Larssen. Senator Collins, I think that is an 
excellent question. Certainly, one of the most complex problems 
we have is to define the attribution issue, preferably before 
the event, in terms of whether it happens in the context of 
intelligence information or interdiction or information that a 
group has obtained this kind of material or we get a sample 
from, say, an agent or these kinds of things.
    In the event of an attribution, we are working to do the 
basics right now to ensure we pull all these things together so 
we can find what we know, and I can address this in more depth 
in the next session.
    I would also add that we shouldn't, in my view, give up on 
the notion of deterrence applied to this problem. It is going 
to be different than ``mutually assured destruction,'' perhaps, 
but one aspect of it is the weapon. A weapon of mass 
destruction in the hands of a terrorist group will only be 
useful if the group believes it can fulfill its aims with those 
weapons. I believe we have a chance to deter, whether it is al-
Qaida, or even change in the longer term to the extent that it 
is unpalatable for any faith, any country, or any individual in 
the world to believe that a nuclear weapon can solve our 
problems.
    So we often talk about the nuclear weapons in the hands of 
a terrorist as being undeterrable. If they have it, they will 
use it. I would just suggest here that we need to think really 
hard and do a lot more work in devising a strategic doctrine 
that will govern how we respond, whether it is in the 
attribution context or the deterrence.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. Those were 
two characteristically good questions.
    Thank you both, and we look forward to seeing you this 
afternoon at the closed session.
    We will now call the second panel, the frequently mentioned 
Dr. Matthew Bunn, a Senior Research Associate for the Project 
on Managing the Atom at the Belfer Center for Science and 
International Affairs at Harvard University's Kennedy School of 
Government. Dr. Bunn is the author of the ``Securing the Bomb'' 
series, a yearly treatise on the supply side of special nuclear 
materials.
    Joining Dr. Bunn is Gary Ackerman, apparently not our 
colleague from the House of Representatives. We know that 
because he is not wearing a flower in his lapel. He is Research 
Director for the National Consortium for the Study of Terrorism 
and Responses to Terrorism at the University of Maryland. Mr. 
Ackerman is currently working on a project exploring the 
decisionmaking processes of terrorist organizations.
    We thank you both for being here, and Dr. Bunn, we would 
ask you to go first.

TESTIMONY OF MATTHEW BUNN, PH.D.,\1\ SENIOR RESEARCH ASSOCIATE, 
 BELFER CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. 
        KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Dr. Bunn. Thank you very much, Mr. Chairman, Ranking Member 
Collins, everyone. It is a pleasure to be here to talk about 
what I, like our previous panel, believe is a very real danger 
to the United States today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Bunn appears in the Appendix on 
page 390.
---------------------------------------------------------------------------
    My message is simple. This is a real danger. But on the 
other hand, there are specific steps we can take that I think 
can greatly reduce the risk to the United States.
    On the night of November 8, 2007, two teams attacked the 
nuclear facility at Pelindaba in South Africa, where there are 
hundreds of kilograms of highly enriched uranium (HEU), bomb-
grade highly enriched uranium. While one of the teams was 
chased off by the security forces, the other team penetrated 
the site without setting off alarms, proceeded to the emergency 
control center, shot a man named Anton Gerber there in the 
chest. He then raised the first alarm and they spent a total of 
45 minutes inside the secure perimeter before retracing their 
steps and going back out through the hole they had cut in the 
fence and disappearing into the forest.
    While we do not know that they were after the HEU at that 
site, this nonetheless is, I think, a clear reminder that 
inadequately-secured nuclear material is not just a Russia 
problem, it is a global problem. We urgently need a global 
effort to ensure that all of these stockpiles are secured 
against the kinds of threats that terrorists and criminals have 
shown they can pose.
    Now, we have heard already that the answer to the question, 
do terrorists want nuclear weapons, is yes. Al-Qaida has 
repeatedly attempted to get nuclear weapons material and 
nuclear expertise. We have heard already that it is plausible 
that terrorists could make a crude nuclear bomb if they got the 
nuclear material, as Senator Collins noted. An Office of 
Terrorism Analysis (OTA) study summarizing numbers of 
government studies pointed out that it might take only a small 
group of people who had never had access to classified 
information before, in machine shop-type facilities.
    I believe that the answer to, could terrorists plausibly 
get the material, is unfortunately also yes. This kind of 
material exists in dozens of countries, in hundreds of 
buildings. The total amount of material in the world is enough 
to make approximately 200,000 nuclear bombs. The security for 
it ranges from excellent to appalling.
    Based on the unclassified information available, I think 
the three areas of highest risk in my view are Russia, 
Pakistan, and the highly enriched uranium-fueled research 
reactors around the world.
    In Russia and the former Soviet Union, security has 
improved dramatically, I would say, from the dark days of the 
early to mid-1990s. I do not think there is any facility in 
Russia anymore where one person could simply stuff nuclear 
material in his pocket and walk off, as occurred in the 1990s. 
But Russia has the world's largest stockpiles scattered in the 
world's largest number of buildings and bunkers, security that 
in my judgment has improved from poor to medium but still has 
quite significant weaknesses, and very substantial threats that 
these security systems must cope with, including insider 
conspiracies at a wide range of different types of facilities 
in Russia, not necessarily nuclear facilities but a pattern of 
insider theft conspiracies, and also large outsider attacks, 
such as at Beslan.
    As just one example of the insider threat, in 2006, 
President Putin fired a Ministry of Internal Affairs (MVD) 
general by the name of Sergey Shlyapuzhnikov, who was one of 
those charged with law and order in the closed nuclear cities, 
for helping to organize smuggling in and out of the closed 
nuclear cities.
    Pakistan has a small nuclear stockpile, believed to be 
heavily guarded, but it faces even larger threats, from 
insiders with a demonstrated willingness to sell practically 
anything to practically anyone and also large outsider attacks.
    Highly enriched uranium-fueled research reactors: There are 
about 130 of these in dozens of countries around the world 
still using highly enriched uranium as their fuel. Most of them 
have very minor security in place. Many of them have only 
modest stockpiles of material and many of them have material 
that would require some chemical processing to be used in a 
bomb, but nonetheless I believe they pose a very substantial 
risk.
    If they got the material and they managed to make it into a 
bomb, could they somehow deliver it to Washington, New York, or 
another major city somewhere around the world? Here also I 
think, in my view, the answer is yes. The length of our border, 
the diversity of the means of transport, the huge scale of the 
legitimate traffic across our borders, and the ease of 
shielding the radiation from these materials, which might be 
very small--the amount, even for a very inefficient, crude gun-
type bomb, you are talking about a six-pack of nuclear 
material, and that is something, unfortunately, that is easy to 
hide.
    And then we have heard just how horrifying it would be if 
the bomb did, in fact, go off in one of our cities. This is 
something that would change America and the world forever. In 
particular, one has to recall that the moment after a nuclear 
bomb goes off, someone, either the perpetrator or another 
terrorist group, is going to call up and say, ``I have got five 
more and they are already hidden in U.S. cities and I am going 
to start setting them off unless you do X, Y, and Z.'' And with 
one bomb having just gone off, they will have substantial 
credibility, and the prospect for panic, uncontrolled mass 
evacuation of our cities, economic chaos and disruption is, I 
think, very great.
    Fortunately, there is a good deal of good news, as well. I 
guess Mr. Ackerman will talk about that some more--there is no 
convincing evidence yet that any terrorist group has gotten the 
nuclear materials to make a bomb or the expertise to make a 
nuclear bomb. Making a nuclear bomb, even if you got the 
material, would be, I think, the most technically challenging 
thing that any terrorist group has ever succeeded in doing, and 
the obstacles may be daunting enough to lead many terrorists, 
even determined ones, to focus on other things.
    A key additional piece of good news is the successes that 
our programs to improve nuclear security around the world are 
having. We have an alphabet soup of programs related to nuclear 
terrorism now in place, from Cooperative Threat Reduction to 
the Global Initiative to Prevent Nuclear Terrorism, and these 
are making real contributions. There is no doubt in my mind 
that the risk of nuclear terrorism today is much lower than it 
would have been had these programs never existed. But all that 
good news comes with the caveat, ``as far as we know.''
    Taking that all into account, what is the probability of 
nuclear terrorism? The short answer is, nobody knows. Former 
Secretary of Defense William Perry is one of those who thinks 
it is more than 50 percent over the next 10 years. Even if that 
is wildly wrong, even if it is only 1 percent over the next 10 
years, given the consequences, that is enough to justify very 
focused action.
    So what can we do to reduce that risk? In my view, these 
facts lead to the conclusion that we have to do everything 
within our power to ensure that all caches of nuclear weapons 
and nuclear materials needed to make them everywhere are secure 
and accounted for to standards sufficient to protect them 
against the threats terrorists and thieves have shown they can 
pose, in ways that will work, and ways that will last.
    So all caches means we need to go beyond just Russia. We 
need to have our nuclear security programs cover the world. We 
need to eliminate the gaps in existing programs. For example, 
the Global Threat Reduction Initiative is only planning to 
return to the United States a small fraction of the U.S.-origin 
highly enriched uranium that exists in other countries.
    We need to work with other countries on drastically 
reducing the number of places where these materials exist, so 
that we can achieve more security at lower cost. In particular, 
I think we should not be encouraging other countries to pursue 
reprocessing of plutonium, which will expand the number of 
places, and I think, unfortunately, our current approaches to 
the Global Nuclear Energy Partnership have that effect.
    Although we have to go beyond Russia, we do need a strong 
nuclear security partnership with Russia, including 
establishing joint U.S.-Russian teams that would help other 
states around the world upgrade security, and I think we need 
to keep in mind the need for such a partnership with Russia as 
we consider other actions that affect Russian interests.
    Finally, we need to establish global nuclear security 
effective standards because nuclear security is only as strong 
as its weakest link. U.N. Security Council Resolution 1540 
already requires every state to provide appropriate effective 
security for their stockpiles. If we can define what that 
means, what the essential elements are, and help states put 
those in place, we will be getting somewhere.
    We need to work with Russia and with other countries around 
the world to make sure that they put the incentives, the 
resources, and the organizations in place so that the security 
we put in place now will be sustained over the long haul after 
our assistance phases out and that we can get rid of guards 
patrolling without ammunition in their guns and staff propping 
open security doors for convenience.
    There is also a great deal that we need to do that goes 
beyond nuclear security, including some of the things that were 
discussed in the first panel, in terms of stopping nuclear 
smuggling and stopping the other elements of a terrorist 
nuclear plot.
    Now, there are steps we can take within the United States. 
I won't go into them in great detail, but we need to remember 
that if we want to lead the world to convince them to secure 
their stockpiles and convert their research reactors to use 
fuels that cannot be used in a bomb, we need to do the same 
ourselves. We need to be moving more quickly to convert our own 
research reactors. We need to change the security rules for 
those reactors while they still have highly enriched uranium so 
that they have effective security in place. We need to provide 
incentives to shift away from the use of highly enriched 
uranium for medical isotope production. We need to close the 
gap that allows facilities regulated by the Nuclear Regulatory 
Commission that have bomb-grade material to protect against 
much lower threats than facilities with identical material at 
the Department of Energy.
    I think we need a strengthened nuclear forensics effort on 
the attribution front. We need additional funding and more of 
it that gets out to the labs. Some of the labs working on pre-
detonation forensics have actually had to lay off staff 
recently because of funding constraints.
    I believe we need a modified approach to cargo scanning of 
the large containers that focuses not on ensuring that every 
single container gets scanned, but that every single container 
has a good chance of getting scanned and that you have high-
quality scanning and that you have a mechanism in place to take 
action when you have a detection. We need to also focus on 
going beyond the official ports of entry, which as Mr. Mowatt-
Larssen mentioned is a gigantic challenge.
    We do need to work on the preparedness for an attack, which 
will be addressed in subsequent hearings. None of this is going 
to be easy. We need to put in place someone in the White House 
with the ear of the President who has the full-time 
responsibility for leading the efforts to prevent nuclear 
terrorism and keeping that on the front burner at the White 
House every day. There is not such a person today. President 
Bush has not appointed anyone to the position that Congress 
created last year, the WMD Coordinator. We need to lay the 
groundwork so that the next President will appoint such a 
person that can hit the ground running. Congress also ought to 
get around to establishing the WMD Commission that was 
established in that legislation.
    So in short, there are a wide range of things that we need 
to do. We need to build the sense of urgency with our partners 
around the world, but with a sensible strategy with adequate 
resources and with sustained high-level leadership, I think we 
can reduce this risk dramatically during the course of the next 
presidential term.
    Thank you. Sorry for going over my time.
    Chairman Lieberman. No, thank you. Very interesting, very 
helpful testimony.
    Mr. Ackerman, thanks for being here.

 TESTIMONY OF GARY A. ACKERMAN,\1\ NATIONAL CONSORTIUM FOR THE 
 STUDY OF TERRORISM AND RESPONSES TO TERRORISM, UNIVERSITY OF 
                            MARYLAND

    Mr. Ackerman. Chairman Lieberman and Ranking Member 
Collins, thank you very much for inviting me to speak today on 
the threat of nuclear terrorism. While it may not currently 
constitute the most likely threat to U.S. security from non-
state actors, the prospects of terrorists detonating a nuclear 
device on American soil sometime within the next quarter 
century is real and growing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ackerman appears in the Appendix 
on page 405.
---------------------------------------------------------------------------
    As many of the fellow witnesses have mentioned, such an 
attack on the homeland would represent a game-changing event 
far exceeding the impact of September 11, 2001, on the Nation. 
Besides the obvious physical devastation and catastrophic loss 
of life, a successful act of nuclear terrorism would represent 
the apogee of individual destructive capacity and, in a sense, 
the consumerization of the ultimate military power.
    Therefore, we cannot afford to wait for the first nuclear 
terrorist attack to occur before we act against the threat, and 
I commend the Committee for being proactive in this regard.
    While there are many dimensions of the problem, today I 
will focus on the threat of terrorists detonating a fission or 
fusion explosive on American soil, and particularly on the so-
called demand side of the threat, which includes the 
identities, motives, and capabilities of potential 
perpetrators. Also, in the interest of discouraging entrenched 
patterns of thinking, during the course of my remarks, I will 
refer to several ``Black Swan Events,'' a term used to describe 
those events which, although highly improbable, would have the 
effect of completely upsetting existing trends and 
expectations.
    I have discussed general issues of motivation and intent 
more fully in my written testimony and here I will only 
reiterate two key points. First, that we should not assume that 
the desire to inflict mass casualties is necessarily the sole 
or even predominant motive for resorting to a nuclear option. 
Second, terrorists might have a far lower bar for success in 
the nuclear realm than would a state, with even a partial 
fizzle being almost as good as a full detonation.
    At present, the universe of non-state actors seeking to 
acquire and use nuclear weapons appears to be confined to 
violent jihadists, a movement exemplified by the al-Qaida 
network, and one that is growing in size and scope and spawning 
a host of radical offshoots and followers. In a survey I 
recently conducted, almost three-quarters of the experts polled 
ranked Sunni jihadists as the most likely of 13 types of 
actors, including states, to successfully perpetrate a 
catastrophic WMD attack within the next 10 years.
    Jihadists have, since the mid-1990s, made at least 10 
statements advocating the possession or use of nuclear weapons, 
and there have been at least a dozen reports of jihadist 
attempts to acquire nuclear weapons, fissile material, or 
associated technical knowledge. While only a handful of these 
have been confirmed, when taken together with the strategic and 
religious justifications and the production of online technical 
manuals, there is evidence of a prolonged and enduring interest 
in nuclear weapons by jihadists.
    In the longer term, the jihadists may be joined by other 
groups of extremists, including radical domestic groups. The 
real Black Swan in this regard would be the appearance of an as 
yet unidentified unorthodox religious cult with apocalyptic 
tendencies. While our intelligence capabilities have 
undoubtedly improved since the 1990s, when we were not even 
aware of the Japanese Aum Shinrikyo cult, the trouble is that 
it remains incredibly difficult to detect the one or two true 
threats amongst the literally thousands of obscure religious 
groups operating worldwide today.
    A second Black Swan is that a terrorist group who would not 
otherwise pursue nuclear weapons may be propelled to consider 
the nuclear option more seriously if the opportunity arose for 
easy acquisition of weapons or materials, for instance, 
following governmental collapse in a nuclear weapons state.
    Nuclear weapons will not, in my opinion, be the first 
choice or perhaps even the 20th choice of most terrorists, and 
even for the few who do proceed down this path, many technical, 
supply-side, and even strategic hurdles persist, making it 
easier and more cost effective for most of these terrorists to 
resort to alternative means. Yet both the terrorists themselves 
and the political, social, and, perhaps most importantly, 
technological landscape are continually reshaping into novel 
and unexpected forms. I will, therefore, offer a few thoughts 
on how the threat of nuclear terrorism is evolving and how it 
might respond to global dynamics.
    The first concern is the terrorists' learning curve. While 
knowledge of the precise specifications and tricks of the trade 
involved in nuclear weapons production can and should continue 
to be kept secret, the diffusion of broader knowledge and skill 
sets relevant to nuclear weapons, such as metallurgy, 
explosives engineering, and precision machining, is inevitable, 
especially in light of increasing radicalization at home and 
the global reach of the information revolution. This means that 
more of the terrorists of tomorrow are likely to be a lot more 
technically proficient than those of today, allowing for the 
accumulation, even if through trial and error, of nuclear 
knowledge and skills amongst radicals.
    As an initial indicator of this trend, a recent analysis of 
online jihadist documents that deal explicitly with nuclear 
weapons has revealed that while their knowledge is still below 
par, there have been significant advances in the understanding 
of nuclear issues within the general jihadist community in only 
a few short years.
    Second, even if jihadist planners feel constrained at 
present by the potentially alienating effects the use of 
nuclear weapons might have on the less radical members of the 
Ummah, there are signs that any existing constraints are 
lessening. The progression of jihadist statements in the past 
several years reflects the erosion of existing Islamic norms 
against mass killing on the scale associated with nuclear 
weapons. The upper limits on allowable casualties proclaimed by 
jihadists also seem to be on the rise, from a 2002 statement 
claiming the right to kill four million Americans up to a 
figure of 10 million in a 2003 fatwa.
    The most prominent Black Swan related to the evolution of 
nuclear terrorism would be technological. While I am currently 
unaware of any viable technology which would allow even the 
most sophisticated terrorists to enrich their own uranium 
without detection, there is always the slim possibility that a 
technological breakthrough sometime in the next decade or two 
might make indigenous enrichment feasible. If so, this could 
change many groups' calculations with respect to the efficacy 
of nuclear weapons. Studies of the diffusion of innovations 
show us that overall changes in terrorist behavior with respect 
to weapon selection could then be both sudden and permanent.
    I will now offer some recommendations for effective public 
policy responses to counter the demand side of the threat.
    The first line of defense, on the demand side is to 
identify our adversaries and detect their intentions to use 
nuclear weapons long before their plans can have any chance of 
success. Efforts throughout the government have been initiated 
to perform this task, but these often receive far less 
attention and resources than the latest technologies for 
detecting radioactive materials. A dedicated program of net 
assessment using standardized threat analysis methodologies to 
detect those groups and individuals of greatest concern would 
enable us to avoid the nasty surprise of a homegrown Aum 
Shinrikyo. As an example of what even preliminary research into 
this area can reveal, recent work by me and my colleagues has 
found that the more highly networked a terrorist group is, the 
more likely they are to pursue chemical, biological, 
radiological, or nuclear weapons.
    While we may not be able to deter the terrorists themselves 
by the threat of retribution, the one saving grace is that 
terrorists, at least at the moment, cannot produce their own 
fissile material. This means that those pursuing a nuclear 
weapon capability must almost always rely on the assistance of 
others, whether these are government leaders, insiders at a 
nuclear facility, or illicit traffickers. It is these potential 
facilitators of nuclear terrorism, people who are not yet 
completely committed to the terrorist cause, whose actions we 
can deter. The most obvious way to do this is to credibly 
demonstrate that their participation in any part of the nuclear 
chain will be identified and that retribution will be swift and 
certain, and I unfortunately cannot say this has been the case 
so far.
    However, this approach is not the only side of the equation 
to which we must pay attention. Our policies can influence the 
calculations of potential facilitators, especially those who 
have an existing ideological affinity for terrorists. For 
instance, we might seek to avoid or reorient those actions 
which would galvanize large numbers of Muslim scientists into 
feeling that they are obligated to take a more active role in 
the jihad. Also, while bolstering international 
nonproliferation norms and taboos against the use of nuclear 
weapons may have little direct impact on the behavior of the 
terrorists themselves, these might go a long way towards 
encouraging others, including criminals, states, and 
scientists, to refrain from making it easier for terrorists to 
acquire nuclear weapons.
    The threat of nuclear terrorism also means that we must 
unfortunately reacquaint ourselves with the Cold War notion, as 
Senator Lieberman mentioned, of thinking about the unthinkable. 
This means moving beyond the current focus on questions of 
whether terrorists will succeed in acquiring a nuclear weapons 
capability. For example, if jihadists do eventually succeed in 
acquiring nuclear weapons, what then? They would face many of 
the same command and control dilemmas as a state would and 
their choices could have vital implications for our policy 
response.
    So, for example, if we were to find out that al-Qaida has a 
nuclear weapon, should we launch a preemptive strike to 
decapitate its leadership in the federally-administered tribal 
areas of Pakistan, or would this make things worse and ensure 
that the weapon is detonated? The answer might differ depending 
on exactly which group of jihadists obtains a weapon, but the 
point is that we should consider and analyze such issues and 
our options far in advance of the President receiving the news 
that terrorists have the bomb and we find ourselves in the 
midst of a crisis.
    In closing, since much of the risk of nuclear terrorism 
rests on supply side factors that I have not dealt with today 
but have been covered by Dr. Bunn and the other witnesses, I 
will not offer any numerical estimate of the overall threat, 
but I will state my belief that, at least among certain of the 
more fanatic subsets of our terrorist adversaries, the 
motivation to use nuclear weapons against the United States 
certainly exists and shows no signs of diminishing within the 
coming decades. It can therefore be expected that, barring some 
dramatic change in either radical ideologies or the amount of 
fissile material worldwide, we will see additional attempts by 
terrorists to acquire and perhaps even use nuclear weapons on 
American soil.
    I would like to thank the Committee once again for giving 
me the opportunity to share some of my thoughts with you today, 
and I am happy to make myself available to discuss any of these 
matters further.
    Chairman Lieberman. Thank you very much for very 
interesting testimony.
    Let me pick up on something you said, Mr. Ackerman. This is 
of interest to this Committee because we have done a series of 
hearings on Islamist radicalization within this country and the 
tactics that are being used and how can we try to break through 
to prevent an act of terrorism. You suggested at one point the 
possibility, if I heard you correctly, of outreach to 
scientists within the Islamic world to deter them, if you will, 
from getting involved in this kind of WMD activity. Did I hear 
you right, and if so, just develop it a little bit more for the 
Committee.
    Mr. Ackerman. I think that deterrence in this regard could 
be both a carrot and a stick. The stick obviously is to have 
unequivocal declarative policies that we will have swift and 
certain retribution against anybody that does get involved in 
nuclear terrorism in any way, shape, or form.
    But on the other hand, the carrot of this would not be so 
much that we are offering something, but that there are many 
people who are sympathetic toward the extremist viewpoint who 
have not taken it upon themselves to necessarily become active 
in the jihad, because within the radical Islamic theology, for 
instance, an offensive jihad does not create an individual duty 
to participate. You can just sympathize. But once you think 
that there is a defensive jihad, that you are protecting Islam, 
then you are obligated as an individual to take part.
    So for a scientist that may have some sympathies, an 
example are those two Pakistani scientists that we have heard 
about that went to bin Laden, similar scientists might have 
these sympathies but are not willing to risk their careers and 
their freedom, etc., at the moment to act on it. However, 
certain acts that we take, for instance, if we invade a Muslim 
country, could push them to the point where they are now 
saying, I have no other choice based on my beliefs but to use 
my skills and knowledge and access, and if they are a nuclear 
scientist, they could then assist the jihadists.
    Chairman Lieberman. We have talked a lot this morning about 
one of the choke points here being to stop the terrorist groups 
from getting nuclear materials. Let us assume for a moment that 
a terrorist group does obtain nuclear materials. What is the 
level of expertise that they require to then convert those 
materials into even what we would consider a primitive nuclear 
device? In testimony earlier, as I believe Mr. Allen said, I 
thought convincingly, if a nuclear device is set off by a 
terrorist group, regardless of whether it is considered 
primitive or sophisticated, it will alter history.
    So my question is, and I am getting to the point of whether 
there is another choke point you are suggesting, how much 
expertise do these groups need once they get the material to 
make a weapon?
    Dr. Bunn. This would be one of the most challenging, 
probably the most technically challenging kinds of attacks for 
a terrorist to pull off. They are going to need someone who can 
understand processing and casting uranium, machining uranium. 
They are going to need someone, if they are making a gun-type 
bomb, who understands ballistics of the cannon that essentially 
fires a shell of highly enriched uranium into a container of 
highly enriched uranium. The bomb that obliterated Hiroshima, 
for example, was essentially a cannon that fired a shell of 
highly enriched uranium into rings of highly enriched uranium.
    It is not something that is trivial to do. Unfortunately, a 
wide range of government studies have concluded that it is 
plausible once they had the nuclear material. As Mr. Mowatt-
Larssen pointed out, it is very different making a crude, 
unsafe, unreliable nuclear bomb than it is making a safe, 
reliable series of nuclear bombs that a state might want to 
have in its arsenal. And even for that more challenging 
objective, for most nuclear weapons programs, 90 percent or 
more of the total effort is devoted to making the nuclear 
material. So once you have the nuclear material, you are over 
the hardest part.
    But you are absolutely right that there are additional 
things that we should look at. We should look at trying to stop 
the recruiting and trying to stop the financing. This is going 
to be one of the more expensive terrorist operations. I think 
this will have as many indicators and potential things we might 
be able to see through intelligence as any terrorist plot 
because it will be a large and complex terrorist plot. 
Unfortunately, we cannot necessarily assume that it will be 
large and complex enough that we will see it in time, but I 
think there are quite a number of chances that we might be able 
to.
    Chairman Lieberman. Is the general assumption, Mr. 
Ackerman, in the field of experts in this subject that if a 
terrorist group obtained nuclear materials, it would not have a 
particular problem in also bringing in the expertise necessary 
to assemble that material into a weapon?
    Mr. Ackerman. This is a very interesting question, Senator. 
It really depends on the terrorist group themselves. Many 
terrorist groups just simply do not have the logistical, 
financial, and other capabilities, even if you gave them 20 
kilograms of enriched uranium, to create a bomb. However, the 
more technically proficient of our terrorist enemies, and I am 
looking particularly at the core element of al-Qaida, they have 
vast networks of expertise that they can tap into and they do 
not necessarily need a weapons scientist. The famous experiment 
from Lawrence Livermore National Laboratory showed that even 
graduate students with some degree of physics knowledge but no 
weapons knowledge could come up with a decent design for a 
bomb. Yes, it would be difficult. They may not have a complete 
chance of success, but I do think that they could assemble the 
capabilities to actually fashion a working nuclear weapon.
    Dr. Bunn. One of the things that I think is worth 
considering for Congress here is that I think this changes a 
little bit how you think about how we should target our 
scientist redirection programs, because it may not be that the 
only threat is the guy who could be the Oppenheimer of a third 
world weapon program. You may also be worried about the 
technician who really knows how to machine uranium. You may 
also be worried about the technician or the guard who knows how 
the security system works and would be capable of leaving the 
alarm off at night so that somebody could come in the back 
door.
    And that is a totally different set of people than we have 
ever really thought about trying to engage in countries like 
Russia and Pakistan and so on before in terms of these 
scientist redirection programs. So it is something worth 
pondering, at least, whether we are focused where we need to 
be.
    Chairman Lieberman. Thank you. Very helpful. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Bunn, let me begin by thanking you for your comments on 
the effectiveness of the 100 percent scanning of cargo 
containers. I believe that Congress made a real mistake in 
going in that direction last year. I thought the risk-based, 
layered security approach of the SAFE Port Act was far more 
effective and a better targeting of resources. So I very much 
appreciate your comments on that.
    I asked our previous witness about some comments that you 
made in your very good report of last September about whether 
the U.S. Government is compiling a comprehensive, prioritized, 
risk-based list of troubling sites across the globe, and the 
witnesses have indicated that work has begun on that. Could you 
give us your assessment to the extent that you are aware of 
what they are doing, of how far along we are in what seems to 
be a very important process to guide our work?
    Dr. Bunn. Well, let me begin my answer to that by saying my 
clearances haven't been active for some time, so that 
constrains greatly the detail of my knowledge of what Mr. 
Mowatt-Larssen and his colleagues are doing.
    But within that constraint, I am very enthusiastic about 
what they are doing. I have been calling for creating--it is 
probably not a single database, it is probably a complex of 
knowledge, but something that would have everything we know 
about the quantity and quality of nuclear material and nuclear 
weapons at different places around the world, everything we 
know about how secure those facilities are, and then also 
everything we know about the threats that those facilities face 
because you could easily imagine that a security system that 
was perfectly adequate in Canada wouldn't be adequate in 
Pakistan because the mujahideen can bring a lot more force to 
bear in Pakistan than they can in Canada.
    It is my understanding that they are putting that together 
right now, that they are doing it in a prioritized way so that 
a lot of the things that you would guess offhand would be the 
highest-risk sites are already deeply analyzed in their Nuclear 
Materials Information Program. So my hat is off to them. My 
Clinton-era colleagues do not like to hear it, but it is 
actually true now that the Bush Administration has done greatly 
more than we managed to get done in the Clinton years on a 
variety of these programs to secure nuclear material and now to 
collect intelligence on it and so on. I think we have to give 
credit where credit is due.
    Senator Collins. Thank you.
    Dr. Bunn. I think there is a lot more yet to be done.
    Senator Collins. Right. Exactly. Mr. Ackerman, I was 
intrigued by your notion of the Black Swans because it brought 
to mind another memorable phrase and that is the ``failure of 
imagination,'' which the 9/11 Commission pointed to as one of 
the problems with anticipating the attacks on our country in 
2001, and your Black Swans are trying to help us think of 
unlikely but still possible events that could happen.
    Now, one of the factors that would help facilitate nuclear 
terrorism that you identified is the advancement of technology 
that will inevitably make nuclear devices easier to design and 
build. What efforts can you undertake to counter advances in 
technology? That seems like a very difficult one. You obviously 
cannot stop science. You cannot stop the progression of 
technology. What suggestions do you have for mitigating that 
trend?
    Mr. Ackerman. That is an excellent question, Senator. In 
terms of the dangers posed by technology, it is not just the 
technologies themselves, but it is also how the adversaries 
will react to those technologies. Will they adopt them? Will 
they even be aware of them? Because we could create a very 
dangerous technology, but if nobody is aware of it, it is no 
threat.
    There are no technologies, and I can talk on this point in 
more detail but I would rather not do it in a public session, 
on exactly which technologies, but there are no technologies 
that are currently mature enough to enable this. But there are 
candidate technologies that may one day be mature enough. I 
think that some of those technologies can be controlled. They 
do not have any other applications but enriching nuclear 
material.
    Other potential technologies might come from a completely 
different sector or from the health sector or from the 
industrial sector. It might just be one of those things where 
somebody says, oh, there is a way. Nobody ever thought of doing 
this before. We can now do it. Once the genie is out of the 
bottle, once the first paper is written on this or once it 
arrives on the Internet, I think there is very little we can 
do.
    But what I do think we need to do is to look at that 
particular day and at least come up with contingencies because 
on that day, the securing of other fissile materials becomes a 
lot less central to the problem. It then becomes one part of a 
much larger problem. So I think that what we need to do is 
think creatively about how we deal with that. But there are no 
easy answers.
    Senator Collins. And there may be countertechnologies that 
are also advancing that give us more means to detect, deter, 
prevent such an attack also. Dr. Bunn.
    Dr. Bunn. I would argue that some of the near-term things 
in terms of the spread that Dr. Ackerman was talking about of 
more people having precision machining capabilities, more 
people having explosive engineering capabilities, is to some 
extent inevitable. But to the extent that our broader 
counterterrorism efforts succeed, especially in winning hearts 
and minds among technical experts who know a lot about 
explosives or know a lot about machining or things like that, 
then we can still, I think, hold the line or even reduce the 
ability of terrorist groups to get access to the people who 
know how to do the precision machining and the people who know 
how to do the explosives.
    So I think there is an inevitable dispersion of that kind 
of knowledge, but it is not inevitable that it disperses into 
the hands of the most dangerous adversaries. At least, we can 
affect the rate at which that happens, I think.
    Senator Collins. Thank you. Excellent testimony. Thank you, 
Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Dr. Bunn, I believe you mentioned, quite correctly with 
justification, that the WMD coordinator at the White House 
authorized by law has not been filled, nor has Congress acted 
on a WMD Commission, similarly. And you mentioned in your 
testimony the alphabet soup of various Federal agencies we have 
involved in this problem in one way or another. Do you have any 
thoughts about what ways in which we might better organize our 
effort to deter a nuclear terrorist attack on our homeland?
    Dr. Bunn. Well, I have long felt that it is very important 
to have someone in the White House with at least access to the 
President when they need it, maybe a Deputy National Security 
Advisor, who is full-time on this problem because right now 
there is literally nobody in the U.S. Government who has full-
time responsibility for leading all of the different disparate 
efforts of our effort to prevent nuclear terrorism. There is, 
in a certain sense, nobody in charge.
    There are very capable people in charge of certain parts of 
the problem. We have heard from some of them today. But there 
is nobody in charge of the overall problem, and that means that 
a lot of gaps between one program or another, a lot of 
overlaps, a lot of opportunities that aren't within the 
boundary of a particular program and its way of thinking get 
missed. And it also leads to situations where an issue really 
needs to be esclated to the presidential levels, for the 
President to call up one of his counterparts and say, look, you 
have to do this, where that call does not get made. Often it 
does not happen.
    Just as one example, we built this, what some people call 
the plutonium palace, a fissile material storage facility at 
Mayak in Russia. It was completed in late 2003, and there 
wasn't a gram of plutonium that was put into it until July 
2006. It is almost 3 years later, and that is 3 years that were 
happening after September 11, 2001, after the Russians had 
acknowledged that terrorist teams were casing their nuclear 
weapon storage facilities. I am reasonably confident that 
neither President Bush nor President Putin actually knew that 
was true during that time.
    Chairman Lieberman. Why did that happen?
    Dr. Bunn. There were a variety of small bureaucratic 
disputes between the United States and Russia, but also 
bureaucratic bungling on the Russian side, yes.
    Chairman Lieberman. Yes.
    Dr. Bunn. To this day, it remains true that we haven't 
managed to agree on the transparency measures that the United 
States was supposed to have for the material that would be 
placed in that facility. The combination of current U.S. policy 
and current Russian policy, even if the transparency measures 
get agreed, will lead to that facility always being three-
quarters empty because of--I can go into the details of that, 
if you would like----
    Chairman Lieberman. That is OK.
    Dr. Bunn. But also, the Russians were not getting around to 
processing the material into the form that they were willing to 
have transparency measures to be applied so that they could put 
it into the facility, and not getting around to putting in 
place a security force that would make the facility secure.
    Chairman Lieberman. That is helpful. So really, filling 
that position in the White House----
    Dr. Bunn. I think is key.
    Chairman Lieberman [continuing]. Either before this 
Administration ends or beginning in the next one, it is 
critical.
    Dr. Bunn. Not only filling the position, but making sure it 
focuses, because frankly, I will be candid, one of the concerns 
I had with the way it was written in the legislation is it is 
supposed to cover all weapons of mass destruction proliferation 
and weapons of mass destruction terrorism, and issues like Iran 
and North Korea, they are going to force themselves to the 
front pages every day. I believe they are already getting high 
enough level attention that--I have problems with our policies 
on those, but it is not lack of high-level attention that is 
the problem on those. And so I think it really needs to focus 
on the things that aren't getting enough high-level attention, 
including, in my view, nuclear terrorism.
    Chairman Lieberman. Thank you.
    Senator Collins, do you have other questions?
    Senator Collins. No, thank you.
    Chairman Lieberman. I want to thank both of you for your 
written and oral testimony. It has been a productive, if 
sobering, morning. Senator Collins talked about the failure of 
imagination that the 9/11 Commission pointed to prior to 
September 11, 2001. Part of making sure that we find a strong 
space both between the extreme of overreacting and 
overimagining the worst and failing to imagine what is not only 
possible but is happening now is for us to hold public hearings 
like this in which we are dealing with difficult subjects. It 
is sometimes difficult to hear and contemplate the reality. It 
is also difficult in the sense that we want to do this in a way 
that doesn't in any way compromise classified material or 
security. But I believe we have done that this morning. I thank 
the four witnesses very much.
    We are going to continue this series of public hearings on 
this subject, but more immediately, we will reconvene the 
Committee this afternoon in closed session to continue this 
work.
    I am going to leave the record of the hearing open for 15 
days in case Members of the Committee have additional written 
questions they want to ask the witnesses or if the witnesses 
want to submit additional testimony for the record. Until then, 
thank you very much for the significant contribution you have 
made this morning.
    The hearing is adjourned.
    [Whereupon, at 1 p.m., the Committee was adjourned.]


     NUCLEAR TERRORISM: CONFRONTING THE CHALLENGES OF THE DAY AFTER

                              ----------                              


                        TUESDAY, APRIL 15, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in Room 
SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Pryor, Collins, and 
Warner.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The Committee will come to order.
    Good morning and welcome to our hearing. This is the third 
in the series of hearings this Committee is holding to examine 
the threat of the nuclear terrorist attack on America's 
homeland, what the Federal Government is doing to prevent such 
an attack and how prepared our government is to respond to the 
challenges our Nation would face if efforts to prevent such a 
nuclear terrorist attack should fail.
    At our last hearing, we asked the basic question of how 
serious the threat of nuclear terrorism is, and top 
intelligence officials of our government answered that it is 
serious, that terrorist groups have demonstrated a clear intent 
to develop and use nuclear weapons to achieve their extremist 
goals.
    These top terrorism officials also said that they were 
convinced that if terrorists acquire enough of the special 
nuclear materials they have sought and are seeking, they were 
capable of building at least a crude nuclear device.
    So against the backdrop of what the best information we 
could gather says is the reality of the threat of nuclear 
terrorism inside America, today we are going to look at the 
consequences of a nuclear attack and the challenges that our 
Nation would face in the days and weeks thereafter.
    While our primary national goal, of course, must be the 
prevention of such an attack, we must also prepare for the 
possibility that a determined terrorist will succeed despite 
our best efforts.
    An adequate response to such a catastrophe will require 
marshaling the full resources of our country, including all 
levels of government, the private sector and, indeed, 
individual Americans.
    The detonation of a nuclear weapon in a major city would 
obviously have a devastating effect. According to the 
Department of Homeland Security's National Planning Scenario, 
although we cannot know the exact yield, of course, from a 
nuclear weapon acquired by terrorists, a detonation would kill 
an enormous number of people from the cumulative effects of the 
initial blast, the ensuing fires, and the spread of lethal 
radiation.
    Millions of people could be displaced for extended periods 
of time, especially if panic caused by the blast leads to an 
exodus of people from nearby areas not otherwise affected.
    The economic damage from such an attack could be as much as 
a trillion dollars, according to a study by the RAND 
Corporation.
    The challenges our country would face in the days after a 
nuclear attack are massive and unprecedented. Essential 
response resources would be severely damaged or perhaps 
destroyed. Our country's medical system would have to handle a 
sudden surge in casualties unlike anything it has previously 
experienced. And the Nation's government and private sector 
could face great difficulties meeting the basic needs of many 
Americans.
    Coordination among Federal, State, and local government 
entities would be vital. But those governments themselves could 
be compromised and the communications infrastructures that they 
oversee and operate could be badly damaged. First responders, 
trying to address the damage and help the injured, would risk 
radiation exposure themselves.
    Maintaining law and order would, of course, be a necessary 
prerequisite to providing emergency care and much else involved 
in a response. Logistical challenges would be huge. Effective 
communication with the public could save lives and lessen the 
panic but, of course, only if it was done in a way that was 
credible and reached affected communities.
    The scenarios we are discussing today are very hard for us 
to contemplate, and so emotionally traumatic and unsettling 
that it is tempting to want to push them aside. However, now is 
the time to have this difficult conversation, to ask the tough 
questions, then to get answers as best we can and, of course, 
to take preparatory and preventive action.
    The actions that are taken now, I think, can save many 
thousands of lives in the event of this nuclear catastrophe and 
will, in many other ways, reduce the damage to our country from 
such an attack. This is why we hold this hearing and why we are 
so grateful to the distinguished and experienced and thoughtful 
panel of expert witnesses who are before us today.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Let me begin by commending you for undertaking this very 
challenging series of hearings. This is an extraordinarily 
important issue. I often think that Congress sometimes focuses 
too much on minor issues. Certainly the threat of nuclear 
terrorism is a compelling and urgent challenge for our country 
and I commend you for your leadership on this.
    The Committee's previous hearings have made clear that 
preventing such an attack must, indeed, be an urgent and 
compelling priority for our country. It is also clear that we 
must consider the response that would be necessary in the 
terrible setting of death and devastation that our Nation would 
confront if such an attack were to succeed. As the report from 
the Harvard-Stanford Preventive Defense Project makes clear, 
the day after a terrorist nuclear attack is ``a grim prospect 
to contemplate, but policymakers have no choice.''
    A 10-kiloton device, a plausible yield for a bomb 
constructed by terrorists, could be smuggled into a seaport as 
cargo, flown over a city in a private plane, or driven into a 
city in a truck.
    Now, we hope that the improvements we have made in port 
security and other areas would make that difficult to carry out 
but we cannot exclude the possibility of such a successful 
enterprise.
    When detonated, this bomb could instantly kill many 
thousands and destroy buildings within a half-mile radius. In 
the aftermath, we would confront overwhelmed and obliterated 
local response capabilities, mass casualties, evacuations, and 
demands for food and shelter. Great numbers of people would be 
in urgent need of medical attention and decontamination. The 
economic and psychological impacts would also be devastating.
    In some respects, planning and response for a terrorist 
nuclear attack would resemble that of any catastrophic 
disaster. In other respects, however, including the intensity 
of shock in the target area, the initial pulse of radiation, 
and the subsequent fallout, a nuclear attack would have its own 
special horrors that demand specific preparations.
    These preparations ought to include well-thought-out 
measures to deal with non-physical damage. A nuclear attack in 
a major American city would be an unprecedented event with 
profound emotional and psychological ramifications. Our 
preparations must include plans for providing steady flows of 
accurate information and for addressing the psychological as 
well as tremendous physical injury.
    No region of the country is immune to this threat. An 
attack would undoubtedly require a regional and Federal 
response to supplement overwhelmed State and local 
capabilities. These are powerful reasons to ensure that 
responders across the country are supported at high levels of 
preparedness and that we maintain the all-hazards focus of the 
National Response Framework.
    Just as the Hurricane Katrina disaster drew in first 
responders from around the country, including people from my 
own State of Maine, far from the disaster site, a nuclear 
strike in any American city would require resources from well 
beyond the immediate area.
    These resources would clearly include military units. As my 
colleagues will recall, however, in January the National 
Commission on the National Guard and Reserves warned that 
because this Nation has not adequately resourced its forces 
designated for response to weapons of mass destruction, there 
is ``an appalling gap'' in readiness.
    Now, the commander of the Northern Command takes issue with 
that as do some other experts but the fact is that we still 
have a long ways to go to in resourcing and designating units 
that would be ready to come to the rescue.
    We must also carefully consider the political and economic 
consequences of such an attack. Without careful and diligent 
continuity-of-government planning, critical services and the 
rule of law, at least in the affected areas, would be severely 
diminished. Our commercial and financial sectors must also plan 
to mitigate the initial losses and to provide for timely 
resumption of the economy.
    To be sure, no level of readiness will prevent the 
horrendous toll of death, injury, property damage, economic 
disruption, and political upheaval that would inevitably follow 
a nuclear attack. But proper planning can ease the suffering 
and mitigate the losses.
    And while it is understandable that our first priority has 
to be the physical impact, I am also eager to hear from our 
witnesses today what we should be doing to address the 
psychological, the governmental, the rule of law, and the 
economic consequences as well.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins, for that 
very thoughtful statement.
    I appreciate again the witnesses that are here. We have a 
distinguished panel including Dr. Ash Carter of Harvard, Co-
Director of the Preventive Defense Project, and, of course, 
previously an executive at our own Department of Defense.
    Dr. Cham Dallas, Director of the University of Georgia, 
Institute for Health Management and Mass Destruction Defense.
    Dr. Roger Molander, Senior Research Scientist at the RAND 
Corporation.
    And John Gibb, Director of the New York State Emergency 
Management Office.
    These witnesses have looked at the serious subject that we 
are contemplating this morning from various different 
perspectives and published important pieces of work in 
response, and we are delighted that you are here today. We 
welcome you.
    Dr. Carter, it would be an honor to start with you.

STATEMENT OF HON. ASHTON B. CARTER,\1\ CO-DIRECTOR, PREVENTIVE 
DEFENSE PROJECT, JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD 
                           UNIVERSITY

    Dr. Carter. Thank you, Mr. Chairman. Thank you, and thank 
you, Senator Collins, for inviting me to testify before you 
today on the findings of the Harvard-Stanford Preventive 
Defense Project's so-called Day After Project which explored 
and analyzed actions that would need to be taken by the 
government in the 24 hours after a nuclear detonation in a U.S. 
city.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Carter with attachments appears 
in the Appendix on page 417.
---------------------------------------------------------------------------
    I really applaud you for giving coverage in this Committee 
to this terrible prospect. I also regret that you have to. But 
no one can calculate the probability that a nuclear weapon will 
go off sometime in an American city but it is reasonable to 
surmise that probability has increased in the last few years, 
increased because North Korea has gone nuclear. Iran looks like 
it might follow. Seventeen years after the end of the Cold War, 
Russia's stockpile of materials and bombs is still not 
completely secured. Pakistan, which has already shown itself to 
be a vendor with the wherewithal to export nuclear weapons 
technology, is unstable.
    And we are all expecting that enrichment and reprocessing 
which are the underlying technologies to make highly enriched 
uranium and plutonium will spread worldwide with the spread of 
nuclear power, which is one of the palliative or preventive 
steps necessary to prevent climate change.
    So for all of these reasons you can forecast that this 
probability, dire as it is and incalculable as it is, is 
probably increasing. And at the same time in the last 5 years 
global terrorism has obviously been on the rise.
    So you put these two things together, more material to be 
stolen or sold and more people intent upon mass destruction, 
and you have a greater probability of nuclear terrorism.
    In 2005, former Senator Sam Nunn, framed the need for 
Washington to do better at changing this math of greater and 
greater probability with a provocative question. ``On the day 
after a nuclear weapon goes off in an American city,'' he 
asked, ``what would we wish we had done to prevent it?''
    But in view of the increased risk in recent years, I and my 
collaborators, and they are former Secretary of Defense William 
Perry and former Lawrence Livermore National Laboratory 
Director Michael May, decided we needed to ask a follow-on 
question to Sam Nunn's question, namely, ``What should we 
actually do on the Day After?'' Not what we wish we had done. 
What would we actually do? What steps can and should our 
government take now to be prepared for this awful contingency?
    And accordingly, we convened a workshop in Washington of 
leading government and non-government experts to consider this 
question under the auspices of the Preventive Defense Project, 
and my testimony summarizes the report of this workshop, which 
was authored by myself, Mr. May, and Mr. Perry. The workshop 
itself was off-the-record, and none of its participants, a very 
distinguished group who are listed at the end of my written 
testimony, is responsible for its content. The work was 
sponsored by the generosity of several foundations and received 
no government funds.
    But I also want to mention that I just recently wrapped up 
a review which I co-chaired with Ambassador Robert Joseph for 
the Department of Defense of the programs of the Defense Threat 
Reduction Agency, which has important responsibilities for this 
circumstance, including critical technical capabilities. That 
report will be available shortly after it undergoes security 
review.
    Nothing I can tell you, Senators, from our report would 
make the Day After anything less than the worst day we have had 
in the Republic. No greater failure of our government's duty to 
national security could occur than to let this catastrophic 
event befall our people. Yet it also turns out that much could 
be done to save lives, to reduce the cost to the country as a 
whole, and ensure that our Nation, and civilization more 
broadly, endures. After all, the underlying dynamic would 
remain a few terrorists acting against the rest of us.
    I would like to summarize our findings about what could be 
done in five headings.
    But first I just want to make a ``zeroth'' point, and I 
know you have covered this before in your hearing but I just 
cannot pass it over. A consideration of the realities of the 
Day After makes it such that your strongest recommendation or 
my strongest recommendation to a President who finds himself or 
herself in this position is: ``If I were in your shoes, I would 
not be in your shoes.''
    Terrorism probably cannot ever be entirely eradicated 
because it has its sources in the aberrant motivations of small 
groups of people or even individuals. But nuclear terrorism can 
be eradicated. The reason for this is a fortunate blessing of 
nature. Making a nuclear bomb requires highly enriched uranium 
(HEU) or plutonium, and neither of these metals occurs in 
nature. They have to be man-made.
    Nature's second gift is to make it comparatively difficult 
to make either one. Enrichment and reprocessing are beyond the 
capabilities of even the most sophisticated terrorist group. 
Such a group must obtain HEU or plutonium from the 
comparatively few governments--you can almost count them with 
two hands--that have taken the time and treasure to accomplish 
enrichment or reprocessing. If these governments safeguard 
their materials, there can be no nuclear terrorism.
    But after that, the laws of nature grow unkind. It is not 
beyond the ken of a competent terrorist group to make a bomb 
once it gets the material, especially if it is uranium. It is 
very difficult to detect these metals in transit, since neither 
is highly radioactive. And no vaccine can protect against the 
blast and radiation from a detonation. There is, therefore, no 
more important national security imperative than to prevent 
``loose nukes'' at the source.
    And since Mr. Perry, Mr. May, and I spent many years and 
much effort as have the two of you, Senators, at prevention, I 
just needed to say that.
    But let me move on to our five principal findings. They 
refer to the circumstance of a 10-kiloton weapon detonated at 
ground level or in a building in a major American city.
    This is the same yield range as the Hiroshima and Nagasaki 
weapons and would represent a successful design effort by the 
perpetrators. North Korea, it appears, did not do as well in 
its underground test in 2007.
    The effects, however, would be very different from the 
World War II bombings since the Hiroshima and Nagasaki bombs 
were detonated high in the air over Japan and resulted in far 
less fallout.
    Our first finding might seem obvious, but it is still not 
fully reflected in government planning. The scale of this 
disaster would quickly overwhelm even the most prepared city 
and State governments. To avoid repeating the Hurricane Katrina 
fiasco on a much larger scale, Washington should not pretend 
that in the instance of nuclear terrorism its role can be 
solely to support State and local responders. And State and 
local governments, even though their actions to save lives and 
prevent panic in the first hours would be essential, must 
abandon the pretense that they could remain in charge and in 
control.
    The Federal Government, led by the Department of Homeland 
Security, should have plans that foresee it stepping in 
quickly, taking full responsibility, and devoting all of its 
resources.
    Related to this finding is that the assets of the 
Department of Defense (DOD) will be required in the Federal 
response, including for law enforcement. Now, as a DOD person 
myself, it was understandable to me that in the early days 
after September 11, 2001, DOD showed reticence to involve 
itself in the homeland security response. It had, after all, 
conflicts in Afghanistan and looming in Iraq on its hands and 
it feared a raid on the defense budget for homeland security. 
But that period has passed, and DOD should re-engage on the 
homeland security front.
    I am encouraged by some signs I see that Secretary Gates is 
doing just that.
    Our second set of findings has to do with the immediate 
effects of the detonation, and much more will be said about 
this and from a position of much greater expertise by the 
witness who follows so I will truncate what I say. The gist of 
it is this.
    Within a circle about two miles in diameter, the length of 
the Mall, the devastation from the blast would be near total. 
Then just downwind of that circle, in a cigar-shaped area a few 
miles long, fallout would be severe enough to submit people who 
lived there to lethal doses of radiation even if they took 
modest precautions.
    If these people knew who they were, and on a clear day they 
could tell by looking in the sky who they were, they would have 
to evacuate quickly to avoid lethal exposure.
    But elsewhere in the city, where most of the inhabitants 
would, in fact, be working or sleeping, people would have more 
choices that emergency planners would need to manage. People 
upwind would not need to take any action. Downwind, but outside 
of the ``hot'' cigar, the best move for many people would be 
not to move at all but to seek moderate shelter somewhere where 
either mass shields them or distance attenuates the radiation 
reaching them.
    The worst thing for people to do in much of the downwind 
area would be to take to the highways at the same time, 
allowing the dust to settle on them when they were unsheltered 
and stuck in traffic, and by the way, impeding the emergency 
response.
    Now, this is an important technical fact. The radiation 
dose rate would drop off roughly in proportion to the passage 
of time so that after 3 days one could take three times as long 
to evacuate. Sheltering for this period of time would not be 
difficult and should not be compared to the Dr. Strangelove 
mineshaft-type civil defense shelters of the 1950s.
    Managing the optimal mix of evacuation and sheltering would 
be the responsibility of the government which would need to 
quickly predict the path of the plume, advise citizens, close 
some roads, and so on.
    Our third set of findings deals with the long-term effects 
of the detonation, which are dominated by the problem of 
radiation. Radiation is unique to nuclear terrorism and 
uniquely frightening to most people. People far enough downwind 
that the radiation did not present an immediate danger could 
leave their homes or stay in their homes, leave for a while and 
come back, come back briefly to recover a pet or valuables, or 
never live in the area again. Their choices would be determined 
by the dose of radiation they would be willing to absorb.
    The doses far downwind, less than 50 rems total dose, would 
not make people die or even get sick. Instead, these so-called 
low to moderate doses would only raise their statistical chance 
of getting cancer later in life and dying from it--raising that 
chance from 20 percent, which is the chance we all have on 
average of dying of cancer. You have got to go somehow, and a 
fifth of the time it is by cancer. That probability could rise 
from 20 percent to something higher: 21 percent, 22 percent, up 
to 30 percent at the maximum survivable exposure.
    For the great majority of people downwind, the chance would 
be small enough, let us say 20.1 percent, that they would not 
notice it themselves but the public health authorities would 
notice, years later, a greater cancer death rate in this 
population.
    A critical matter related to low- and moderate-dose 
exposure which is the major issue for most of the people in the 
city affected has to do with the choices for first responders 
and troops sent to the stricken city. Few of those first 
responders would choose to have their chance of dying of cancer 
rise from 20 percent to 30 percent. But in the case of smaller 
probabilities, a first responder might be willing to go into 
the radiation zone for a short time.
    Protocols already exist that provide for higher permitted 
doses for workers in nuclear industries than for the public at 
large. These choices can ultimately only be made by 
individuals, but the protocols they follow must give them the 
best chance to know which areas are hotter than others and how 
long they can stay in the zone to accomplish their duties.
    Once a first responder has absorbed the permitted dose, he 
or she could no longer serve in the zone. All this obviously 
has huge implications for the competence of the response, for 
how it is planned, and for how many personnel must be rotated 
in and out of the zone.
    Our fourth finding is perhaps the most important of all. It 
is the unpleasant fact that the first detonation probably will 
not be the last or at least it will not feel that way. Let me 
explain.
    If terrorists manage to find enough material for a bomb, or 
to steal or buy a bomb, who is to say they did not get two, or 
three, or four from the same source? There is no technical or 
operational reason why nuclear terrorism should come one-at-a-
time.
    What is absolutely clear is that terrorists will claim to 
have more after they detonate the first one. After all, their 
intent is to sow terror. Public officials will, therefore, have 
to behave as though there are more. The public surely will. 
Said differently, nuclear terrorism will not seem like an 
incident, but instead like a syndrome or campaign of terror. So 
people in other cities than the one struck will want to 
evacuate or at least move their children out of the cities, as 
the British did in World War II.
    To prevent a second, third, and fourth detonation, the U.S. 
Government, by now itself relocated out of Washington, will be 
desperately trying to find the terrorists and trace the source 
of the bombs. We know that the investigation must and surely 
will, aided by such things as radiochemical forensics, 
ultimately lead to a government somewhere, Pakistan, North 
Korea, Russia, or any one of a dozen or so governments that 
operate hundreds of facilities where bombs or fissile material 
are stored, since, as I said before, the terrorists surely did 
not make the HEU or plutonium but instead stole, bought, or 
otherwise obtained it from a government facility somewhere.
    It has become something of a fad to say that the United 
States will retaliate against any government found to be the 
source of a bomb detonated on the United States. And, of 
course, it would be a reasonable thing to consider if the 
government involved was in any way witting in the plot. But on 
the Day After, our national interest will take us in another 
direction--one of cooperation, not threats--since we will 
desperately need the help of those governments to track down 
the remaining bombs and put the campaign of nuclear terrorism 
to an end.
    Our fifth and last set of findings has to do with the 
effects of the outbreak of nuclear terrorism on our society and 
government. Both of you have mentioned this very important 
topic.
    I believe that the U.S. Government itself, in a form 
recognizable to the citizenry as constitutional, would survive 
even if the first bomb struck Washington. On my first job in 
the Pentagon working for Secretary of Defense Caspar 
Weinberger, I had some involvement with the continuity of 
government effort to deal with the far more daunting task of 
what we called ``surviving the national command authority'' 
under a rain of 3,000 equivalent megatons of Soviet missile 
warheads.
    Then again in the Clinton Administration after the Cold War 
ended, I saw this effort adapted to contingencies like nuclear 
terrorism. I am not current on these efforts, but I would be 
very surprised, especially after September 11, 2001, if they 
were not robust and well thought-out.
    A bigger issue is survival of governance itself, of the 
people's sense of well-being and safety, that their 
institutions were competent to respond to the emergency and 
protect them, that important things had been thought through in 
advance, that they were given good advice about how to act on 
the Day After, and ultimately, that they could raise their 
children in big urban settlements. This is another reason, 
besides saving lives and property on the Day After, for us to 
think now about our response.
    It is also important that we anticipate now our natural 
impulse on the Day After to over-react. We should resolve now 
that any extraordinary measures taken on the Day After have a 
sunset clause and that they undergo a total review periodically 
to see if they continue to strike the right balance between 
responding to nuclear terrorism and other objectives that 
constitute the good life in civil society.
    This is also an appropriate note on which to close. The 
more competent and capable our government is on the Day After, 
and the more quickly and surely it can bring the campaign of 
nuclear terror to an end and make sure its recurrence is much 
less likely than it is now, and the less it is prone to panic 
and over-reaction, the less this awful event needs to lead to a 
change in our way of life. That is why it is important for the 
Congress and this Committee to address the Day After.
    Thank you for having me.
    Chairman Lieberman. Thank you, Dr. Carter. You and your 
colleagues have done a great service by forcing yourselves to 
think through these matters and it is very helpful to us.
    Incidently, the Committee at its next hearing will invite 
people in the Federal Government who have responsibility for 
the Day After to come in and talk to us about what they are 
doing, and also we are going to ask them about some of the 
suggestions that you make today.
    Dr. Dallas, thanks for being here and we welcome your 
testimony now.

  STATEMENT OF CHAM DALLAS, PH.D.,\1\ DIRECTOR, INSTITUTE FOR 
 HEALTH MANAGEMENT AND MASS DESTRUCTION DEFENSE, UNIVERSITY OF 
                            GEORGIA

    Mr. Dallas. Thank you, Mr. Chairman for inviting us and for 
bringing this important topic out in the open.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Dallas appears in the Appendix on 
page 429.
---------------------------------------------------------------------------
    After hundreds of lectures I have given on this, I have 
actually seen a decrease in interest, if anything, and I really 
appreciate your bringing it to the fore.
    Chairman Lieberman. Why do you think the interest is 
decreasing?
    Mr. Dallas. I think it is just a diminution since September 
11, 2001.
    Chairman Lieberman. Yes.
    Mr. Dallas. I have given lecturers to literally thousands 
of medical personnel, and they are starting to drift back to 
other interests.
    Chairman Lieberman. Although, would you say that the threat 
is probably greater today than it was on September 11, 2001?
    Mr. Dallas. I definitely conclude that the threat is 
greater and is increasing steadily with each passing year just 
with the march of technology.
    Chairman Lieberman. Please proceed.
    Mr. Dallas. In that vein, the threat, posed by the use of 
weapons of mass destruction, including nuclear weapons, within 
the United States has grown significantly in recent years and 
will continue to grow, focuses attention on the medical and 
public health disaster capabilities of the Nation in a large 
scale crisis.
    The expected initial use of nuclear weapons will be with 
relatively smaller devices, from a 1 to 10-kiloton explosive 
yield comparable to 1,000 to 10,000 tons of TNT, with New York 
and Washington, DC, as the most likely targets.
    The simulation of the detonation of either a 1-kiloton or a 
10-kiloton nuclear device near the White House is presented on 
these posters over here on your right, in order to demonstrate 
the relative impacts of health outcomes and recommendations 
made for emergency response to this threat.\2\
---------------------------------------------------------------------------
    \2\ The posters referenced by Dr. Dallas appear in the Appendix on 
page 443.
---------------------------------------------------------------------------
    There are many limitations on the resources needed for mass 
casualty management, such as access to sufficient hospital 
beds, including specialized beds for burn victims, respiration 
and supportive therapy, pharmaceutical intervention, and mass 
decontamination.
    Among the consequences of this outcome would be the 
probable loss of command and control, mass casualties that will 
now have to be treated in an unorganized response in hospitals 
on the periphery of the disaster, as well as the other expected 
chaotic outcomes from inadequate administration in a crisis.
    Vigorous, creative, and accelerated training and 
coordination among the Federal agencies tasked for weapons of 
mass destruction (WMD) response, military resources, academic 
institutions, and local responders will be critical for a large 
scale WMD response.
    I would like you to turn your attention to the posters we 
prepared. We prepared these particular simulations specifically 
for this hearing. That is what we do in the institute.
    You will notice from a 10-kiloton device, detonated near 
the White House, and we used the detonation point as the 
closest location one can drive a vehicle up to the corner of 
17th and Pennsylvania.
    It could be expected that there would be at least 150,000 
serious injuries, 100,000 fatalities on a typical day, like 
say, today. That is without the things like the Pope's visit 
going on where you have even more people in town.
    Depending on the resources made available at the time, it 
is likely that there will be an attempt to evacuate as many as 
500,000 people from the area, though the efficacy of such an 
attempt is dubious.
    At least 100,000 people would need decontamination by 
current standards. Though once again, it is dubious that 
adequate decontamination would be feasible in a timely fashion.
    By comparison in a more densely populated urban area like, 
let us say, New York and Chicago, the casualties would be four 
to eight times higher because of the density of the population 
and other factors. So four times higher in Chicago and eight 
times higher in New York.
    Chairman Lieberman. Again these are consequences from a 10-
kiloton device.
    Mr. Dallas. Which is a relatively small device.
    Chairman Lieberman. That is the point I wanted to make. It 
is relatively small comparable to those that were deployed on 
Japan.
    Mr. Dallas. Yes, they are slightly smaller than the ones we 
used on Hiroshima and Nagasaki.
    Chairman Lieberman. Right.
    Mr. Dallas. I was asked to do these particular simulations 
and the 10-kiloton device is what I did.
    It is likely this is the first device that we will see. 
These are the devices that, for instance, Pakistan has done. 
They have done these sizes and slightly larger. It is kind of a 
first generation device.
    And the blast and thermal injuries, using this density 
comparison, will probably be a little bit less. They would be 
probably two to four times higher in New York and Chicago.
    In this picture here, you can see the blast zone in a 
circular area around the detonation point and you can see the 
extreme blast zone in the middle and the mass fire zone in the 
middle.
    Chairman Lieberman. Give us some guidance as to the colors 
on the poster.
    Mr. Dallas. Yes, sir. You will notice the dark blue. You 
will notice the two salient geographic pictures here are a 
circle around the detonation point on the White House and then 
the conical plume which exudes like a comet tail which now, as 
you can see, covers where we are sitting now at the Capitol and 
the Senate Dirksen building. The circle in the middle involves 
the blast zone.
    Chairman Lieberman. That is the green circle?
    Mr. Dallas. Yes, sir. The green circle and then you will 
see the dark blue in the middle is the mass fire zone where, 
due to the intense radiant heat, most of the buildings in that 
central area will be expected to spontaneously incinerate 
causing a mass fire phenomenon.
    You can get mass fire phenomenon without nuclear weapons as 
we did with the fire bombs in Yokohama and Dresden during World 
War II. They are very devastating, but the same principle is 
also in play here with a nuclear weapon detonation where you 
have this mass fire zone in the dark blue area you see in the 
middle and then the blast zone which exudes out further.
    Now you can see going out to the Washington Monument, 
including the first line of buildings around the White House.
    Then there is the conical-shaped plume which goes out, and 
you can see the dark purple is the 90 percent death area, the 
death plume area, where you can expect, if people do not remove 
themselves from the area, that 90 percent would die.
    And you can see the colors as the rainbow exudes out from 
the center there would be 80, 70, 60, 50, and decreasing with 
the diminishing of the particles there.
    Now, one of the important issues here is that with proper 
communication people can flee from the plume area. There is a 
latent period where people can get out. For instance, in this 
exact plume area, if there is a detonation now down at the 
White House and we knew the direction of the wind, you could 
actually run perpendicular to the plume and escape, although if 
you are in the yellow circle--you notice the yellow circle 
exuding out beyond. It goes far beyond the green. That is the 
blast zone for glass.
    The buildings, the glass shattered in them. It creates a 
great number of injuries. Optomologists will be in great demand 
here. That will be one of the physician groups that we will 
have the least of and will be needing the most of.
    If you would remove the 10-kiloton device simulation chart, 
you will see and notice now the chart of a 1-kiloton device 
detonation in the exact same location, and you can see that the 
mass fire zone, of course, is much smaller. The blast zone for 
blast and trauma injuries is also smaller and then you still 
have a large area for glass detonation.
    It is hard to imagine what this would look like. You get 
some of this in tornadoes and hurricanes, but it would be a sea 
of broken glass all around this area here.
    The plume is probably the area that you can see here that 
is much smaller. You can see it is not one tenth of the area. 
You still get significant bang for your buck with a 1-kiloton 
device, but you can see the plume is much narrower, but, as you 
can see the wind direction on this particular day, it still 
encompasses the Senate building.
    So with one weapon you would eliminate the pinnacle of the 
executive, legislative and judicial branches of government all 
with one device.
    Finally, if you will show us the third simulation. Oh, by 
the way, on the bottom there, this is Dr. William Bell, holding 
the simulations. Dr. Bell is in our group. He has extensive 
experience throughout the world in actual mass casualty events.
    And you will notice the inset at the bottom, we are only on 
the short scale here in the immediate foreground, you will see 
that the plume actually goes out for many a miles in a narrow 
shape, depending on the direction of the wind at the time. You 
can see that the 90 percent fatality death plume and 50 percent 
fatality death plume will go out for many miles into the 
countryside.
    And finally, on this third simulation, there is a lot more 
detail in these where you can see the windows in the buildings 
because we are up closer now with a higher resolution. You can 
see in the top figure is the thermal profile where you have the 
first, second, and third degree burn zones.
    First degree burns would be where you have the minor burns. 
Second degree burns, of course, are where blistering occurs, 
and third degree burns are where there is disruption of the 
skin entirely.
    We would be putting a great deal of our medical care to be 
centered in those second and third degree burn zones, really 
limiting the area where we would have to concentrate our 
efforts.
    If I could go on to recommendations. There is little doubt 
that the nuclear weapon event will exceed the emergency 
response system capacity that we are going to have. There is no 
doubt about this.
    So what do we do about it? We would then go out and find 
the large number of professional groups that have extensive 
health care experience that are not typically employed in 
emergency medicine but have extensive training already. We can 
give them some limited focus training. We are working with the 
American Medical Association on this now.
    Pharmacists, dentists, veterinarians, for instance, take 
many of the same core health care courses as do the physicians 
and nurses. So with a certain level of additional training, 
these ancillary health care workers could be incorporated in 
the response.
    I will tell you that we looked at the numbers on this, and 
even if we get all the pharmacists, dentists, veterinarians, 
veterinarian technicians, and these other people, we still will 
only have a fraction of the medical care personnel that we will 
need for dealing with even one of these smaller nuclear 
weapons.
    The media training is going to provide considerable 
opportunities to reach a large number of potential health care 
and security providers for recruitment into high consequence 
medical support.
    Indeed, we will need a marketing approach to approach 
potential populations for recruits. I am talking about regular 
citizens.
    In this situation that you are looking at now on this 
simulation, there are a lot of people who will be on their own 
in the first 24 hours. There will not be anyone there to help 
them, and we can recruit these individuals.
    In this city there is a very significant, minority 
population that is outside the downtown zone, and these 
individuals can be approached, and we have talked to Howard 
University, for instance, about this and recruited individuals 
to respond and to help themselves essentially in this crisis 
that is coming.
    Among the issues related, are mass casualty medical care in 
the event of a major catastrophe for the thousands of 
internally displaced persons who are displaced from their homes 
for a lengthy period of time. These people are going to need to 
be sheltered, fed, given potable water, non-food items, and 
basic health care.
    Security will have to be provided in adequate numbers to 
protect them from theft and from assaults, which we are seeing 
in camps around the world, both of which reach alarming rates 
during crisis situations.
    We will also need to pre-position stockpiles of narcotics 
for use in mass burn care. I can tell you, if you want to ask 
me the question what keeps me up at night worrying, it is the 
mass burn care because it is the one area that we are the least 
prepared for. We are use to the typical hospital in a large 
city, which has one or two open burn beds on any day and that 
is it, and we are going to have thousands of burn victims.
    And so we are going to pre-position narcotics. It is a 
difficult thing to do because people want to steal them, but we 
can put them in police stations, military depots and have them 
forward positioned like the medical care people are doing in 
Iraq right now.
    The medical response in Iraq is actually quite amazing and 
it is because of forward positioning of personnel and material. 
We would need to do that also because we can guess where these 
narcotics will be needed.
    We will need to rapidly mobilize medical resources in using 
air evacuation capability. We can pre-position and look for 
places where we can land C-130 transport planes, long straight 
sections of runway we can make out of roads, and that way we 
can get rapid ingress and egress--ingress, of course, of 
medical care personnel that will assemble very quickly and then 
egress of the patients. Without that, we will not be able to 
reach them.
    Finally, the conversion of military vessels to civilian 
emergency response: Historically, emergency response and relief 
efforts for disasters in coastal zones have consisted primarily 
of the mobilization of land based operations and assets, 
supplemented by available Navy and Coast Guard vessels.
    The unusually heavy 2004 and 2005 hurricane seasons exposed 
enormous weaknesses in this current land-based coastal disaster 
response operation.
    So one solution to this would be to convert military 
vessels, slated for removal from military service, to a new 
role as civilian emergency response vessels dedicated to 
responding to large-scale disasters in the coastal zones.
    In order to maintain cost effectiveness, these platforms 
could be privately built and operated while being deployed and 
supervised at the Federal level so as not to adversely affect 
current disaster planning and operational preparedness. This 
could be integrated with a train-based system as well so you 
could reach in past the coastal region.
    This could provide a modern maritime emergency response 
platform capable of responding and providing disaster response 
and recovery to a coastal area of more than 15,000 square 
miles. These ships could address a number of problems inherent 
in the areas of mass casualty response including providing 
improvements in response capability and care of casualties, 
consumables, provision distribution, field distribution, 
transportation safety and overall site command and control.
    Thank you.
    Chairman Lieberman. Thank you, Dr. Dallas. You raised a lot 
of questions which we look forward to asking you.
    Dr. Molander, thanks for being here and we welcome your 
testimony now about your work at the RAND Corporation.

   STATEMENT OF ROGER C. MOLANDER, PH.D.,\1\ SENIOR RESEARCH 
                  SCIENTIST, RAND CORPORATION

    Mr. Molander. Thank you, Mr. Chairman and Senator Collins, 
for the opportunity to address the Committee. It is a very 
important subject as you know.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Molander appears in the Appendix 
on page 446.
---------------------------------------------------------------------------
    Much of what I will have to say today will focus on three 
topics: First, certain characteristics of nuclear terrorist 
attacks that warrant special emphasis, and we have already 
heard some of that; second, the potential for major private 
sector contribution in meeting needs both inside and outside 
the impacted area; and third, the broader economic implications 
of such an attack for the region and the country as a whole.
    My remarks will draw on several RAND studies on the subject 
that are noted in my written testimony, including in particular 
a RAND research effort supported by the DHS that several years 
ago addressed the impact of a nuclear terrorism attack on the 
Port of Long Beach, California, a particularly unusual target.
    The effort that we undertook featured what we call a 
strategic planning exercise which involved senior 
representatives from the government and from private sector 
emergency response organizations and a wide range of critical 
infrastructures.
    A later version of the exercise was also conducted with 
congressional leaders and another version with representatives 
of the insurance industry.
    I want to emphasize that we did not select this particular 
scenario target as the most likely of a terrorist attack but 
rather as an attack, such as against New York or Washington, 
that would have what we call a profound strategic impact on the 
United States, not just because of the immediate impact but 
also because of the cascading effects, some of which you have 
heard about.
    Just to clarify the challenge in this kind of attack, the 
Ports of Long Beach and Los Angeles, side by side, handle 
roughly 70 percent of the total container traffic coming into 
the West Coast.
    In the exercise scenario we used, like those you have 
heard, a Hiroshima-sized 10-kiloton bomb is exploded in a 
shipping container on a pier at the Port of Long Beach. The 
area of immediately Hiroshima-like damage would be several 
kilometers in diameter, as you have heard, but unlike the 
situation in Hiroshima and Nagasaki which, as Dr. Carter 
mentioned where the weapons were exploded some 1,000 feet above 
the ground, the mushroom cloud that in this case would rise to 
a height of roughly 20,000 feet in about 10 minutes would be 
highly radioactive, having pulled up a large amount of 
radioactivity from the ground.
    The path of the fallout will depend upon prevailing winds 
at 20,000 feet and would be highly uncertain and not 
immediately well known.
    The eventual area of serious contamination, you have seen 
some of the tracks there, could be roughly 200 square miles, 
roughly half the area inside the Washington beltway.
    As you can envision in the situation like this, people 
would quickly see or learn about the attack and begin to 
spontaneously evacuate from a major portion of the L.A. basin. 
I do not think we can expect people to wait around for 
clarification on where the plume might be going.
    There will be, in fact, initially much misinformation and 
confusion about both the effects of the detonation, its size 
and the location, and the consequences of the fallout. People 
will make individual decisions about what to do.
    Gridlock will almost certainly ensue on almost all freeways 
and exits from L.A. as gas stations are quickly exhausted and 
cars on the freeways run short on gas.
    In a matter of hours at various points in some rough ring 
around the L.A. basin, probably as many as several million 
people will have largely come to a stop, no longer moving 
except maybe for a few people trying to move on foot.
    A major recovery problem will quickly emerge that is unique 
to this attack because of the resultant fallout contamination 
of most of the petroleum refineries in the L.A. basin that 
serves southern and central California, Nevada and Arizona.
    And here is the important point. No pipelines flow from 
other parts of the United States into this region. As a 
consequence, the situation there, with these refineries shut 
down, will produce an acute gasoline shortage for the entire 
region, including Nevada and Arizona, a major impact on 
response and recovery activities, and a government response 
that will likely produce immediate restrictions on gasoline 
distribution nationwide and probably rationing.
    In this context, with the concern about the risk of weapons 
at other ports that are already within the United States, this 
is a major problem. The President can be expected to close all 
ports, all airports as well, for an indefinite period and order 
the immediate inspection of all rail and truck traffic carrying 
containers that are already in the United States and have left 
U.S. ports. Those containers, as you know, will move all the 
way to the East Coast, some of them.
    Let me give you an overview of the most severe challenges 
that emerged in the comments of these expert participants that 
took part in these exercises about what would prevail in this 
situation.
    First, in terms of assistance to the affected areas, the 
logistics problems will be huge. That is quite self-evident and 
the Federal and State assets would be over-matched.
    Only the private sector, in possession of extraordinary 
logistics capability, will be able to really have a major 
impact on the demands here in the affected area. They will be 
crucially concerned with effective coordination with government 
authorities both at the State and local level as to how these 
private sector assets would be used.
    As noted, effective medical care will present an immediate 
challenge in part because of the fallout and the occurrence of 
contaminated people in various areas and in addition, as 
mentioned, burn victims would be a very serious problem and 
cannot be moved very quickly, and radiation victims must have 
surgery urgently to avoid infection.
    Only the private sector and its medical capabilities has 
the assets to respond to these demands. Hospitals have just-in-
time inventories like everybody else and would run out of 
supplies quickly, putting a premium on the gasoline problem and 
private sector transport assets for moving medical supplies 
into the region.
    Credentialing medical care personnel from outside the area 
and establishing ad hoc medical facilities may also face 
problems in particular in terms of liability protection as we 
are concerned about this in parts of these facilities.
    In terms of infrastructure impacts an early assessment of 
damage to the critical infrastructures, like electricity, 
telecommunications and water, would be urgently needed. 
Fortunately, it would appear that most of the damage to sectors 
like telecommunications and electricity would be restricted to 
the immediate region around the port which would not be soon 
re-occupied, with few cascading effects in those areas, at 
least, to other parts of the electricity and telecommunications 
grid in the L.A. region.
    But in terms of the transportation sector, companies would 
be looking for information from the government on when ports 
will reopen and the location of staging areas where shipping 
containers would have to be sent to be inspected. But also the 
government would also want to know from business what 
transportation capacity exists, of what character and where it 
is.
    A global coordination effort would clearly be needed to 
redirect U.S. container traffic which is now sitting off of all 
U.S. ports to other less capable ports and to establish 
delivery priorities for key goods.
    All of these challenges highlight the need for effective 
government and private sector communications in the immediate 
post-attack period and preparations for that kind of challenge.
    The refinery shutdowns in Los Angeles and the temporary 
halt of all crude imports through ports will create a major 
fuel crisis, I mentioned, with the serious implications for 
both distribution networks and for markets. The evacuation from 
Hurricane Rita emphasized this kind of problem with gasoline.
    Finally, and of major concern, there will be the need to 
allocate critical relief resources that are largely in the 
hands of the private sector, food, water, ice, and temporary 
shelter. This will require an extraordinary amount of guidance 
and coordination from the Federal and State governments about 
priorities--we had a window on that with Hurricane Katrina--and 
a potential waiver, and I emphasize this, of antitrust 
regulations and other rules to enable emergency contracting 
authorities to do more effective planning.
    In terms of long term economic implications, this is all 
very highly speculative as you can well imagine. But in 
addition to keeping the global shipping supply chain operating, 
financial decisionmakers would face a difficult challenge in 
restoring orderly economic relationships.
    While the business community would certainly want ports to 
reopen as soon as possible, harsh realities would face the 
financial community and might prove a barrier. In particular, 
the attack could deliver a crippling blow to segments of the 
insurance companies. You saw the experience the insurance 
companies had with Hurricane Katrina.
    Insurance against nuclear attack would be in short supply 
or highly limited without major government guarantees. The 
attack would also threaten the financial industry at large as 
many loans and mortgages in southern California in the fallout 
zone or nearby would face possible default without government 
assistance.
    Although these economic outcomes are difficult to predict, 
these hypothetical consequences suggest important 
vulnerabilities that need to be addressed in advance.
    In conclusion, let me say that if there is any good news in 
this assessment, it is the possibility that the United States 
can, in principle, improve preparedness for such a major 
incident by drawing on available private sector capabilities 
provided, and I emphasize this, that mechanisms are in place to 
do so effectively and legal and regulatory barriers that might 
otherwise prevent it are identified and removed.
    In particular, it seems clear that to deal with the 
prospect of such an attack, industry would need some sort of 
prior conditional relief from existing antitrust regulations to 
more effectively plan for and contribute to a coordinated 
relief effort. Certainly something like the pre-negotiated 
voluntary agreements that are established under the Defense 
Production Act is one example.
    Obviously, as I mentioned, a key factor is the 
establishment, in advance, of effective communications links 
between the government and the private sector; and here I would 
emphasize, from long experience with exercises, testing of 
these links in the joint government-private sector plans in 
realistic emergency response environments.
    Clearly, detailed analysis of these kinds of demands, which 
I congratulate you on looking into with individuals and 
government agencies responsible for this, will be crucial in 
setting priorities and establishing realistic performance 
expectations both for government and the private sector.
    Thank you for this opportunity. I look forward to your 
questions.
    Chairman Lieberman. Thanks, Dr. Molander. I want to repeat 
again what I said with our first two witnesses. This is 
chilling stuff, but it is actually comforting, if I may use 
that uncomfortable term here, to know that you and your 
colleagues have been thinking about this possibility of a 
nuclear attack within the United States and thinking pro-
actively about what we want to be ready to do the Day After.
    So I thank you.
    Mr. Gibb is the Director of the New York State Emergency 
Management Office. So he obviously deals in a hands-on way with 
emergency management, and from that perspective we welcome your 
testimony now on this subject.

    STATEMENT OF JOHN R. GIBB,\1\ DIRECTOR, NEW YORK STATE 
                  EMERGENCY MANAGEMENT OFFICE

    Mr. Gibb. Thank you, Chairman Lieberman and Senator 
Collins, for again hosting this discussion.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gibb appears in the Appendix on 
page 455.
---------------------------------------------------------------------------
    A nuclear detonation would be an absolute catastrophic and 
overwhelming event and would require immediate large scale 
Federal response and I think it is our challenge as emergency 
planners at the State and local level to ensure that all the 
resources that we would need to bring to bear for this type of 
incident could be tied together as efficiently as possible.
    The Incident Command System (ICS) component of the National 
Incident Management System (NIMS) has given the response 
community the platform that we need to build these large 
response organizations to respond to an event of this scope.
    In New York State, we have used the Incident Command System 
as the State Disaster Management System since 1996 and it is a 
mandate that Governor Patterson has continued for our State 
agencies.
    New York City's use of the Citywide Incident Management 
System, we believe, is another best practice for having in 
place a scalable, unified command system that will give 
response organizations the best chance to integrate local, 
State, regional, and national resources that would be required 
to respond to a nuclear incident of this type. The basic tenets 
of incident command are chain of command, unity of command, 
unity of effort, and unity of results. Having an efficient span 
of control will be key to organizing and conducting a response 
to this incident.
    And I would look at this incident as one big problem and 
then a thousand other incidents in the surrounding area that 
would have to be dealt with.
    In New York, now we are shifting our focus from the mass 
training of the response community or in the incident command 
system to building additional command and control support teams 
that can be deployed to incident sites, and I think that 
Federal NIMS implementation and guidance should recognize the 
need to have additional deployable assets from State and local 
government that could respond to a region in need.
    I am sure you are familiar with the Emergency Management 
Assistance Compact (EMAC), which is the vehicle by which States 
share resources. EMAC has had a great project over the past 
year to identify missions and deployable assets that States can 
ask for and States can be organized to respond with.
    Local, State and national operations centers, I think, all 
recognize the absolute necessity to have a common operational 
picture or processes and communications in place so that 
everyone that is involved in response can see the incident and 
its implications in an accurate and similar way.
    In an event of this type, as has been stated, life saving 
decisions will need to be based on accurate assessments of 
radiation levels and downwind projections. There is a 
detonation. How quickly will we know it was a nuclear device?
    I do not think we have in our State cadre the expertise to 
look at a damaged area and to know right away that it was a 20-
kiloton highly enriched uranium detonation or 10-kiloton or 1-
kiloton.
    Many members of our response community now have radiation 
detection equipment as part of their toolbox for local 
responses so we will quickly know there was radioactive 
materials involved but its extent, I think, will be a challenge 
to get a handle on.
    A big challenge for us in the early hours would be how do 
we organize a response to gather this radiological data, 
analyze it, and be able to translate that into credible 
information for the responders and for the public.
    New York State, and I think a lot of States, would have to 
build on the capabilities for responding to incidents at 
nuclear power plants. And our State health department has 
expertise, again, in analyzing radiological data and converting 
that into protective action decisions for the general public.
    We are also fortunate to host a National Guard Civil 
Support Team. We would like to have a second one in New York 
State to be dedicated to New York City and we hope that 
approval can be gained from the Senate.
    As I said, post-September 11, 2001, investments in homeland 
security funding, at least in our State, have added additional 
radiological detection equipment to our arsenal in some parts 
of the State, but to take the data that would be coming into 
emergency operation centers, collecting and analyzing would be 
our challenge.
    Commitment to and use of common national assessment models 
would help alleviate this problem. Next spring, we are hosting 
an exercise with the Federal Radiological Monitoring Assessment 
Center (FRMAC) to test our ability to be able to integrate 
State and Federal and local assessment efforts for a 
radiological incident.
    As was noted, a key to this response would be to be able to 
provide credible information to the community. I want to give 
you an example of how just trying to solve one problem in this 
catastrophic area is a huge load.
    In New York State, we have developed New York Alert, which 
is a web-based, all hazards alert notification system. It is 
state-of-the-art. It allows a local official or State official 
to notify the public using e-mail, activating the emergency 
alert system, sending text messages to cell phones, blast 
faxes, posting to a website, any potential means that people 
can be notified, those gateways have been included in New York 
Alert.
    It is currently the alert notification platform for 55 of 
our State university campuses and all 25 of the City University 
of New York campuses. We have 1.2 million subscriber records 
already built into New York Alert.
    But it has taken a substantial commitment of State funds to 
build and maintain that capability, and this year, Governor 
Patterson, even in a lean budget year, is committing in excess 
of $5 million to be able to maintain this kind of critical 
capability to be able to provide emergency information to the 
public.
    I think it would be important looking nationally to help 
build on, again, these alert notification best practices and 
make sure that we can make investments using a host of Federal 
funds that might be available.
    We will also really be challenged by the exposures of our 
emergency workers, and I think one of the lessons of September 
11, 2001, was that we have an absolute responsibility to 
protect our emergency workers to the extent possible.
    I agree with Dr. Carter that right now, many of the 
guidance we use to protect our emergency workers in terms of 
the exposures they can receive are set very low.
    In New York State right now for a nuclear power plant 
response, we would limit the exposure of an emergency worker to 
probably 5 rems as opposed to an event of this type where we 
might need to be in a position of authorizing exposures in 
excess of 100 rems to be able to marshal the resources we need 
to respond to the event, and although those exposures would be 
voluntary, putting in place new policy guidance, I think, would 
be important to helping States to plan for that.
    I just want to re-emphasize the need for continued planning 
and discussion and investment in the subject area. The Urban 
Area Security Initiative, which you have been very supportive 
of, I think is the right vehicle, the regional transportation 
security working groups, a great vehicle to continue these 
planning efforts.
    Commissioner Joe Bruno, from the New York City Office of 
Emergency Management, is leading a great regional effort this 
year to implement the Regional Catastrophic Planning Grant that 
is new this year, addressing between eight and a dozen really 
critical regional issues associated with different functions 
involved in a regional response.
    And I would also encourage in your next hearing that the 
Federal Government assets that are involved in this planning 
that their work needs to be transparent and done in conjunction 
with State and local planners if we are going to have any 
chance to respond successfully to this event.
    I would also agree that the stockpiles that we have in 
place--including the strategic national stockpile, the pre-
position equipment program, and the FEMA distribution hubs--
need to be looked at in terms of how this scenario will play 
out, and those stockpiles should be re-examined to see what 
critical ingredients we are missing.
    So once again, I want to thank you very much for the 
opportunity to be here today.
    Chairman Lieberman. Thanks, Mr. Gibb, for what you are 
doing and for some of the thoughts and suggestions that you 
had.
    In scheduling the hearing and calling it Nuclear Terrorism: 
Confronting the Challenges of the Day After, the premise is 
that there will be a Day After, and even if I may reference the 
area of fiction, the discussion today says it is not really 
fiction.
    I remember watching the episode of ``24'' with Jack Bauer 
when the terrorists were attempting to set up the nuclear 
weapons and then the weapon actually went off, and they could 
not stop them. I was stunned. I could not believe that had 
actually happened.
    And then my second reaction was, I was surprised anyway 
that although there was terrible devastation, the country went 
on, and I think that is an important reality and one that we 
are speaking to here today, which is how can we be prepared to 
make sure that if this ever happens that the country will go on 
as strong as possible with minimal damage, as little damage as 
possible.
    So I thought I would ask each of you to cite and describe, 
if you want, what is the most important thing you think the 
Federal Government can do to be prepared to respond to the Day 
After, and if one of your predecessors picks your first choice, 
give me your second choice.
    Dr. Carter.
    Dr. Carter. Well, I am going to take the overwhelming first 
choice which is that the Federal Government really has to step 
up to the inevitable fact that this situation will overwhelm 
the State and local first responders.
    You can argue about hurricanes, you can argue about other 
circumstances or even in case of radiological weapons that is a 
smaller kind of thing, but a nuclear weapon is uniquely 
destructive.
    Anybody looking around will know it was a nuclear weapon 
that went off. Nothing does what these things do, and it will 
ipso facto implicate the full Federal response and it just 
should be a reflex. This is not analogous to a lot of other 
emergencies. It is an order of magnitude greater. So that is 
the single thing I would say, and if I may just get a second 
one in.
    I do not want to lose sight of something that I said 
earlier which is, that it is not going to feel like only one. 
It is going to feel like there are more.
    So on the Day After it is not all about the city struck. 
Everybody is going to feel that they are next and they are 
going to be wondering what they do, too.
    Chairman Lieberman. Right. And what you are saying is that 
also has to be part of the Federal responsibility?
    Dr. Carter. Yes. What will we do here if a weapon goes off 
in New York? What will they do in New York if one goes off here 
because they are certainly going to feel that it is them next?
    Chairman Lieberman. Just a quick follow up, do you accept, 
and I guess you actually said this in your opening testimony, 
that the Department of Homeland Security should be the lead 
agency?
    Dr. Carter. Yes. It is the lead agency for planning, 
thinking this thing through. It is not the lead agency for 
executing. The State and local governments are critical on the 
first day. So it is not that the Federal Government ought to 
take away their sense of responsibility or the critical duties 
they would have. It would be supplementing and ultimately 
overcoming those capabilities on the subsequent days.
    Within the Federal Government, it is the Department of 
Defense that has most of the assets. So DHS can do the planning 
and so forth, but when it comes to rotating 100,000 people in 
and out of this zone where everybody can only stay for a day or 
two before they have gotten their permitted dose and that is 
the end of their service, you need hundreds of thousands of 
people, and you are only going to get them from the Department 
of Defense.
    Chairman Lieberman. I agree. Incidentally, we had testimony 
earlier from the Commander of the Northern Command, which now 
has responsibility for homeland security through the Department 
of Defense, and for this big task they are not where they want 
to be, but they are a lot more ready than they certainly were 
before September 11, 2001.
    And as you know, they are standing up three units over the 
next year and a half for 4,000 troops each with the unique 
responsibility to be prepared to move into an area hit by a 
weapon of mass destruction to handle the response.
    Dr. Dallas.
    Mr. Dallas. I appreciate you bringing up the ``24'' 
episode. My family is a rabid fan of that show. And I had the 
same reaction you did. What it brought to my mind, and since 
you mentioned it, was the amazing power of the media. That is 
not necessarily, of course, a Federal response, but there could 
be some encouragement there for some mass training or 
conditioning of the public. The misconceptions of the public 
about radiation are incredible, the amount of misconceptions 
people really have about what it really does.
    Chairman Lieberman. You mean the public may think it is 
going to be worse than it really would be for most people?
    Mr. Dallas. Well, that is correct. My big fear is that--we 
have these simulations that we put up here and we showed the 
very limited areas. You will notice that the 10-kiloton device, 
there are large areas outside of the immediate area that are 
unaffected.
    Chairman Lieberman. In Washington?
    Mr. Dallas. In Washington, DC.
    Chairman Lieberman. In this city, right.
    Mr. Dallas. And would occur also in New York, if we get 
these smaller weapons to begin with.
    Chairman Lieberman. What I mean is, this does not devastate 
the whole city?
    Mr. Dallas. That is right.
    Chairman Lieberman. And in fact, there are whole areas of 
the District that are not affected even by a blast around the 
White House?
    Mr. Dallas. That is correct. You can see in the insets from 
the other simulations that even though it is a very devastated 
area, it is a narrow area and people have in their minds--and 
we know this from academic treatises that have looked into 
this--the severe psychosis almost that will be involved in the 
population. I am afraid the four of us here will not be in 
front of a lot of national news outlets. They will have other 
individuals that will give simulations, quite frankly that will 
be inaccurate, showing a much wider distribution of a low level 
exposure which will not cause any health effects.
    Like Mr. Gibb was just saying about raising that level from 
5 to 100 rems or whatever it is, I am afraid that they are 
going to be on the media outlets distributions showing 2 and 3 
rems exposure around the country and people are actually 
thinking that is dangerous when it is not. So that is one area 
that would be on some kind of plan that is not going to scare 
people more but will bring that level--I mean, it is amazing 
the misconceptions people have birth defects, for instance.
    I spent 10 years at Chernobyl, in and out of there, and 
found out how not to do an emergency response. The Soviet city 
made every mistake possible. But we learned a lot from them. 
For instance, there were no birth defects at all. Yet if you 
ask 99 out of 100 Americans, they were convinced that there 
were birth defects.
    Chairman Lieberman. Let me move on. So, therefore, I take 
it your priority there would be in a sense within the priority 
that Dr. Carter talked about, which is to be prepared either 
before or certainly right afterward, to get the truth out about 
the limited impact, though serious devastation, of a blast.
    Mr. Dallas. Yes, sir. I would have to say medically, I 
already mentioned before, burn care is a nightmare here and we 
are completely unprepared.
    Chairman Lieberman. That is something that you would want. 
That would be a priority for the country to try to get better 
prepared because there is a limited number of places where burn 
victims really can be handled anywhere in the country.
    Mr. Dallas. That is correct. Ninety-five percent of the 
burn victims will not receive medical care and most of those 
will die, where we are right now.
    Chairman Lieberman. I am over my time. But let me see if I 
can ask the other two witnesses for a quick response.
    Mr. Molander.
    Mr. Molander. Sure. About getting good information out, I 
would say, good luck and I think a lot of people will make 
their own judgments about it. There would be a terrible 
uncertainty. You do not know if it is a 1-, 10-, or 30-kiloton 
device that just went off.
    Chairman Lieberman. Right.
    Mr. Molander. To answer your question, I would say your 
opportunity is to look at what the Congress can do, not what 
the Executive Branch should be doing.
    A couple of years after the first exercise that I 
described, we tried to do another exercise under DHS aegis to 
bring together again critical infrastructure owners and 
operators to look at some of this cooperation with the 
government, with the private sector.
    It stalled out, mostly because by this time the general 
counsels of the oil and gas companies advised their leaders who 
had come to a previous exercise that maybe they just should not 
do it before they get caught in an antitrust assertion.
    I think there is a real problem here with the cooperation 
that is going to be necessary to do the kind of planning that 
is going to marshal the real strength of this country which is 
in the private sector. No matter how many troops or National 
Guards or whatever you provide radiation training for, the kind 
of challenge that we face can only be, if you will, met with an 
extraordinary contribution from the private sector, and that is 
going to take planning.
    Chairman Lieberman. That is a great suggestion. We have 
actually done that in some limited areas to try to exempt 
entities from antitrust prosecution when they are cooperating, 
when we are asking them to cooperate for the public good.
    Mr. Gibb.
    Mr. Gibb. Stockpiling of critical supplies and equipment. 
The key to protecting emergency workers is through having the 
dosimetry available to each responding person.
    Right now, I probably have 13,000 high range dosimeters in 
our facility in Albany, New York. They are from the Cold War. 
They are 50 or 60 years old. They work, but the reliability is 
an issue.
    Medical supplies, pharmaceuticals that would be key to 
treating patients with radiological related injuries, we are 
not going to be able to generate, I think, very quickly; and if 
existing Federal stockpiles could be augmented to have better 
capability, that would help everybody across the board.
    Chairman Lieberman. Excellent. Thank you. Senator Collins.
    Senator Collins. Thank you.
    Dr. Dallas, your testimony makes clear that hospitals in 
the immediate vicinity of an attack would be completely 
overwhelmed and unable to cope and may well be obliterated 
themselves.
    And indeed, in a smaller way we saw evidence of this when 
we investigated the failed response to Hurricane Katrina where 
very quickly only three hospitals were not incapacitated in the 
New Orleans area and the State only had two trauma centers, one 
of which was rendered inoperable by the rising flood water.
    So that raises real questions to me about the abilities of 
hospitals in the wider region to ramp up to respond to this 
kind of attack.
    When I was in Jerusalem a couple of years ago, I toured 
Hadassah Hospital there and I was so impressed with their 
planning and capabilities to deal with decontamination, for 
example, or to care for victims of a mass attack. They had 
procedures for totally converting their children's ward into a 
decontamination ward.
    Does any American hospital, to your knowledge, have that 
degree of planning and capabilities that I saw in Israel?
    Mr. Dallas. The simple answer to that would be no. We 
worked together with the Israeli Defense Force and the 
hospitals in Israel. As a matter of fact, we worked closely 
with the American Medical Association giving training to health 
care personnel throughout the Nation, and right now we are 
using the Israeli model for trauma and explosive events because 
they have the most experience in dealing with attacks on 
civilian populations and we do not. We do not have that kind of 
experience.
    We are good at train wrecks and car wrecks, but the answer 
is, we did a study on examining American cities, and 
unfortunately our hospitals are all concentrated in downtown 
areas. The pattern we followed over time is that hospitals that 
were already downtown, they just keep getting larger and 
larger.
    And so in any conceivable nuclear attack, we looked at 20 
different cities, six of them are published in the open 
scientific literature. In even relatively small nuclear 
devices, we lose about half of our hospital beds and probably 
half of our best trauma medical care personnel in most of these 
attacks if they focus on downtown areas which we are 
anticipating. So it is a real problem for us.
    But even the surviving hospitals, if you look at the ratio 
of potential victims and patients to health care personnel, it 
is staggering, if they can even get to the hospital.
    You mentioned the Hurricane Katrina response. We have 
looked at those hospitals; and when you ask those 12 hospitals 
that went down and were no longer able to respond, what was the 
one item, if you gave them 20 things that they would want to do 
if you threw money at them--it is security.
    Nine out of 12 of those hospitals when given a choice of 20 
to 25 different items, whether it is more physicians, more 
doctors, better health care plan, they say it is security. 
Security went down. In nine out of 12 of these hospitals, they 
closed because of security. They want people with guns 
basically is what they are talking about. So security is a 
major issue for these hospitals which is a gaping vacuum in 
response that we have right now.
    Israel is a really excellent example for us to follow. We 
have not significantly done that. We have come a long way since 
September 11, 2001, particularly with physicians and nurses, 
paramedics and, of course, the first responders who have really 
come forward from then, but the actual hospitals themselves are 
rather weak.
    My organization has tested dozens and dozens of hospitals 
and we have got a long way to go. That is a major weak point.
    Senator Collins. I think it is as well. I was struck by the 
high level of preparedness at this hospital in Jerusalem versus 
even our best hospitals here in terms of being able to ramp up 
and respond.
    I do think this is an area where we have a lot to learn and 
I am hopeful that an office that has been duly created as a 
result of legislation that the Chairman and I authored within 
the Department of Homeland Security is going to allow us to 
learn more from Israel's experience and share more ideas with a 
country that unfortunately has more experience in responding to 
terrorism than virtually anywhere.
    Dr. Carter, you raised an excellent point that after the 
first blast, the threat of a second blast could terrorize the 
Nation and hamper the response. Even if the terrorists did not 
really have a second bomb ready to be detonated, the fear would 
be that they did and we would have to act as if they did. That 
has consequences for our deployment of first responders, 
emergency managers, health care personnel.
    If Washington has been the subject of a blast and yet there 
is a threat from terrorists that they are going to blow up New 
York and L.A. next, how do decisionmakers decide how to 
allocate resources?
    Obviously, we would start the international effort that you 
mentioned in your testimony to try to track down the 
perpetrators and avert a subsequent attack. But there is a very 
real immediate challenge of where to hold back possible 
resources because you may, in fact, have to cope with a second 
or third attack.
    Dr. Carter. It is an excellent question and there is no 
easy answer to it because there are only so many resources to 
go around.
    What we tried to think through a little bit in our Day 
After report--and I think DHS really needs to do more on this--
is how the other cities can prepare themselves and take action 
to minimize their vulnerability while the emergency is being 
resolved.
    I mean at some point we will police up all these loose 
weapons and resolve the situation. During that period, other 
cities will feel that they are next and they need to posture 
themselves so that they are less consumptive of resources than 
the first which got hit with no warning.
    So the only thing I can say is that the subsequent draw on 
this pool of emergency responders should be less than the other 
cities if we have a thoughtful protocol for every city to 
respond to the now very real possibility that they are next.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. We will do 
one more round of questions. I want to pick up with a quick 
follow-up to you, Dr. Dallas.
    I was interested when you said the No. 1 concern from 
hospitals in this case was for security. I take it what they 
are thinking about is being overwhelmed by the people coming to 
the hospital demanding treatment.
    Mr. Dallas. Yes. Well, in the case of Hurricane Katrina, 
the ``worried well,'' we called them, crowded into the 
hospitals, and they formed a barrier where the real sick people 
could not get in.
    Chairman Lieberman. In other words, they are worried, but 
they are really OK?
    Mr. Dallas. Yes, they are fine. We have a term that is kind 
of merged. Like bio-terrorism is a term they merged. Recently 
worried well is a new term that we have.
    In the case of Hurricane Katrina, though, it was also the 
criminal element that broke into the hospitals and, of course, 
the first place they go for is the pharmacy and they rush the 
pharmacy. They clear out the narcotics and there was no one to 
stop them.
    The average age of a hospital security guard in the United 
States is 68 and those individuals are not armed. It is one of 
those huge gaps that we have, that we do not have security for 
hospitals because thankfully we are a society that has not 
required it for the most part.
    But going into these mass casualty situations that will not 
be the case as evidenced by Hurricane Katrina.
    Chairman Lieberman. Right. Mr. Gibb, from your operational 
perspective, do you want to add anything to what more we might 
be doing, should be doing to prepare law enforcement 
authorities, agencies including obviously State and locals for 
unique responsibilities in case of this kind of catastrophe?
    Mr. Gibb. In New York, we have been fortunate to have the 
Securing the Cities Program and funding. Prior to that we had a 
pilot program working with DHS that allowed us, in the New York 
metro area, to purchase additional radiological detection 
equipment and train law enforcement officers in basics of 
radiation.
    While that is a prevention related program, it helped us to 
build a capacity and capabilities that could be used after a 
detonation, and also for the scenario that you just mentioned 
where if we were looking for second devices or other devices, 
it is absolutely critical that the law enforcement community 
understand and be equipped to be able to, as best as possible, 
search for and find the next weapon.
    So I guess I would argue that that program is absolutely 
necessary to equip our Nation's security forces and allow them 
to be able to undertake this task.
    Chairman Lieberman. Thanks for that answer. That was 
helpful.
    Dr. Molander, I was impressed in your testimony about the 
importance you placed on preparatory coordination with the 
private sector. I wanted to ask you to go into that a little 
bit more. I mean, it was an interesting suggestion. Actually I 
think it was maybe Dr. Dallas who made it. I guess in regard to 
this quasi private sector that we ought to be thinking about 
how to prepare ancillary health care workers who are not 
traditionally emergency medical workers to be prepared to be 
emergency medical workers in the case of a nuclear terrorist 
incident. But that is more quasi public.
    Talk a little bit in more detail about what you think the 
Federal Government can best do to begin to engage the private 
sector in being ready help us to respond on the Day After.
    Mr. Molander. I am aware of efforts that are underway at 
the Department of Homeland Security to do just that.
    Chairman Lieberman. Good.
    Mr. Molander. You might say that unfortunately DHS and the 
private sector was denied the opportunity to test some of these 
emerging capabilities in the absence of a hurricane season the 
last two seasons was good news and bad news.
    It is quite clear, as we have come to see, that there is a 
limited area that would be affected by one of these devices. Of 
course, the whole country would be concerned about the second 
bomb and things of that character. But the ability to move some 
of America's vast private sector assets, medical care is just 
one of them, into the region and to anticipate just where you 
might deploy these assets is essential.
    Chairman Lieberman. And give us a couple of examples.
    Mr. Molander. For example, you will have a large area that 
is evacuated and a major portion of that area could be re-
occupied fairly quickly except it would probably be a matter of 
security problems in terms of having people come back and not 
knowing which sections of, say, the L.A. basin could be really 
re-occupied.
    In order to be able to slowly re-occupy and maybe open some 
gas stations, you would like to have a coordinated effort where 
Mobil opens a gas station over there, Wal-Mart opens their 
store over there, Exxon opens that gas station over there, and 
K-Mart or Target opens a facility over there that could provide 
food and other means which would allow re-occupation of these 
areas that were initially evacuated. I think these are the kind 
of things that the private sector could contribute to.
    Also, regarding the kind of things I mentioned about 
transportation. It is very hard to know. The United States has 
such a large number of choice targets, if you will. But the 
kind of attack that I described could also take place against 
Houston or another place where there is a large amount of 
petroleum refineries nearby and negate the ability to bring in 
and to have the fuel to really mount the massive relief effort 
that you would like.
    In order to be prepared for that, the transportation sector 
in this country would really need to have an amazing amount of 
cooperation and collaboration with the Federal Government in 
advance. It is really a planning problem.
    Chairman Lieberman. In advance to be ready?
    Mr. Molander. If you do not have it done in advance, then 
you get an example like Hurricane Katrina.
    Chairman Lieberman. Dr. Carter, in the work that you and 
your group have done, did you draw any lessons about the 
preparatory relations or work that should be done with the 
private sector?
    Dr. Carter. Not nearly in the depth that Mr. Molander has 
done.
    One aspect that we looked at which he mentions also was the 
insurance industry which is a terribly important one and how 
the issues of long term radiation are handled by the insurance 
industry is going to be a very significant thing in the long 
run, to repeat what Mr. Molander already said.
    There is going to be a vast area wherein people will, if 
they resettle there, be exposed to larger doses of radiation 
than they would have had if no bomb gone off. We are all 
exposed to a little low level radiation every day.
    And essentially there is going to be a market in exposure, 
and if you are a physicist like me and Dr. Dallas, well, we 
will probably be willing to live in places where other people 
will not. We will trade up, in real estate terms, under these 
circumstances, and people who are more risk averse, more 
frightened, or less well informed will not, and that is a very 
odd thing to think about, but it is such an unusual 
circumstance because the effect is so long lasting.
    This effect will last for many years, possibly a decade or 
so, and people will be making individual choices on the basis 
of their individual understanding and knowledge, and their 
individual willingness to accept risks.
    And over time that is going to be the private investment 
and insurance overlay and over time that is going to be a 
public policy overlay.
    Inevitably, there will have to be public policy made that 
makes this more fair and equitable among people who are making 
different assessments of their risk.
    Chairman Lieberman. Thanks. I have one more question but I 
going to yield to Senator Collins.
    Senator Collins. Go ahead.
    Chairman Lieberman. Here is my question because you have 
all focused on the fact that one of the most important elements 
in the Day After will be communications. For the moment, I am 
not talking about communication among emergency responders but 
communication to the public obviously in the area affected.
    For instance, it would be important for people in the case 
of a 10-kiloton weapon being exploded near the White House, for 
people in outlying areas of Washington to know they do not have 
to rush to the highways.
    Nationally you would want to, in the midst of this 
devastating event, nonetheless, assure people that the country 
was surviving and we are going on.
    The first instinct of a lot of people, of course, will be 
to turn on the television or the radio if you are in your car. 
I wonder whether, maybe this is already happening, whether it 
is important for the Federal Government to call in people from 
the various networks, cable, broadcast and talk about a 
scenario, how they would handle because maybe you wondered 
whether people like you who have had experience with this will 
be the ones they will look to for expert advice. Maybe they 
should know. They need to know that there are people like you 
out there so in this awful event that they will call on you. I 
wonder if you have a response.
    Dr. Carter.
    Dr. Carter. We gave some thought to that. It is probably 
not reasonable to have the aspiration to train the general 
public on the effects of radiation. But it is not that 
complicated a subject. It is reasonable for important public 
officials to have some basic understanding. It is reasonable 
for there to be some designated individuals in each location 
who have been given that training and who can speak 
authoritatively.
    Most news outlets today have somebody who specializes in 
homeland security and terrorism, and it is reasonable that 
those reporters will have or can have understanding.
    And since there are going to be the channels, it is going 
to be through public officials, emergency responders, and the 
press speaking that a lot of the ignorance and fear that 
surrounds radiation can be at least softened if not dispelled.
    Chairman Lieberman. Obviously this can be done without 
compromising any networks' freedom of speech. You want to call 
them to be ready for what they will want to do, which is to 
honestly serve the public and avoid panic.
    Mr. Gibb. Senator, I think one of the challenges would be 
that we would have very conflicting messages for the public 
which unsettles people.
    Chairman Lieberman. Right.
    Mr. Gibb. Under current Federal guidance that we use for 
radiological emergencies, the levels of exposure that we tell 
the public they should be willing to accept are very low.
    We would risk relocating a population to avoid a 1 rem 
exposure to radiation. We would permanently relocate a 
population to avoid a 2 rem exposure, based on current 
guidance. That is sort of a basis of our plans.
    Then in the aftermath of this event we will be shifting the 
message to say, and we could expose everybody in this room to 
50 rems of radiation, 50 rems of exposure right now. We could 
go to the nearest medical center. We could be tested for days 
and they are not going to detect any changes as Dr. Carter 
noted, but getting that message to the public and where it goes 
against guidance that we have developed as a Nation, that is a 
big challenge.
    Chairman Lieberman. Thank you. I really over deferred to 
Senator Collins' courtesy. Senator Collins.
    Senator Collins. Thank you. I could not help but think as 
we are talking about the public's understanding and as we hear 
all of our witnesses predict that most members of the public 
would immediately begin fleeing when, in fact, sheltering in 
place for many of them is the better option, that we have 
actually gone backwards in the public's understanding of what 
to do in the event of a nuclear attack.
    Perhaps it is because I grew up in northern Maine next to 
an air base that had B-52s and everyone knew nuclear weapons 
were there. I remember in the 1950s and early 1960s being 
instructed in school as to what to do.
    Now, granted the duck and cover approach was not going to 
be of much use, but I recall going home and being upset with my 
father that we did not have a bomb shelter in the basement of 
our house, fully equipped and stocked with water and supplies, 
as many families did back then. Many families knew ironically 
in the 1950s that the answer was not to get into your car and 
start driving but rather to try to shelter and to be prepared 
to survive for a while on your own.
    Now, obviously if you are in the immediate blast area that 
all becomes academic, but it is interesting because I think the 
public, in many ways, is less prepared today than we were at 
the height of the Cold War.
    And at the height of the Cold War we were dealing with 
predictable, relatively speaking, state actors. We were not 
dealing with the threat of terrorist groups having access to 
nuclear devices.
    So I just mentioned that because I think there is a lot 
that we need to do to get the public more involved. We tend to 
focus on the emergency managers, the first responders, etc., 
but we need also to educate the public.
    I do want to turn, Mr. Gibb, to the issue of the health 
risk for first responders; and as Dr. Carter had said, once 
first responders have reached a certain dose, they could no 
longer serve in the zone.
    As the State emergency manager, how prepared do you think 
that first responders are to operate in a post-nuclear attack 
scenario?
    Mr. Gibb. It is training that we used to do a lot of that 
we do not focus a lot of effort on now in terms of preparing 
local emergency workers in the basics of radiation, having the 
dosimetry available immediately to them so that they can 
perform their task in an environment where there is either 
existing radiation or contamination. It exists best, I think, 
in those areas around our commercial nuclear power plants where 
there is very involved planning and certainly every hazardous 
material response team as part of their toolbox has the ability 
to deal with radiation incidents. Post-September 11, 2001, we 
built out and distributed 170 WMD response trailers throughout 
our State.
    But even in those trailers where we try to look at the 
broad range of hazards, we probably had two Geiger counters and 
maybe 15 electronic dosimeters. So we have a better stockpile. 
It would take a while to put them in place.
    I think the danger to first responders is that in the early 
hours, most of the responders to the incident, we would have no 
way of gauging what exposures they are receiving or what 
exposures they received until they either became ill or we were 
able to do sort of a back calculations post-event that we could 
make estimates.
    So I think the answer to your question is not very well 
prepared to respond in this kind of environment.
    Senator Collins. Thank you. Dr. Molander, let me just ask 
you a very quick question because I totally agree with you 
about the need to involve the private sector.
    In the wake of Hurricane Katrina we saw that it was the 
private sector companies that were best prepared and responded 
to the challenge much better than government at all levels was 
able to do so.
    When this Committee wrote the SAFE Port Act in 2006, we 
asked DHS to establish protocols for restarting our ports in 
the event of an attack. Senator Lieberman and I have been 
somewhat critical of the Department for not involving the 
private sector more in the development of those protocols.
    I know you did the exercise involving a possible attack on 
Long Beach. What is your assessment of the Department's 
involvement of the private sector in responding to an attack on 
our ports?
    Mr. Molander. I know the effort has been made. I can tell 
you that I am not up to date. I would not want to attempt to 
give you a real evaluation, but I know that, as I mentioned 
earlier, that the government and the private sector face a 
mutual problem in the extent to which they can do prior 
planning because, I think, to be really effective, it would 
involve, if this is the correct term, but some kind of 
collusion between, say, companies in the same business in order 
to allocate and distribute the response challenge in an 
effective manner.
    In terms of particular ports, I know that obviously with 
the port authorities, probably a lot can be done between the 
government and the port authorities. But I think still, if 
there is an attack of this kind on a port, it is going to close 
the port indefinitely.
    I think, as I mentioned, the capacity and the plans for 
moving whatever shipping was supposed to go into that port 
whether it is Galveston, Long Beach, L.A., or wherever, to 
another place, will be a major challenge, not just because of 
the fear that you do not want to open any other ports until you 
have some more assurance that there might not be a second bomb, 
but also the reality that there could be a second bomb and the 
fact that lots of ports, for example, the Ports of Los Angeles 
and Long Beach have deep water capability that very few other 
ports in the United States have. So there are real limits to 
what you can do in terms of shifting deliveries between ports.
    I think DHS is well aware of the problem, I think, but I am 
not sure just how far along they are in achieving the kind of 
goals that you set out for them.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins.
    Senator Carper and Senator Warner, thanks for being here. 
We were obviously thinking the normally unthinkable, but I 
think everyone agrees it is important to do that. So thanks for 
entering the discussion.
    Senator Carper and then we will go to Senator Warner.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman.
    To our witnesses, welcome. This is one of several hearings. 
Like most of my colleagues, we have a number of hearings to 
attend and I apologize for not being here when you made your 
presentations, and if you addressed these, I would just ask 
your indulgence.
    The first question is basic. There is a device that 
explodes and it sends radioactive material----
    Chairman Lieberman. Senator Carper, forgive me for doing 
this.
    Senator Carper. That question has already been asked?
    Chairman Lieberman. No. I would never monitor.
    Senator Warner has to leave urgently, but there is one 
question he would like to ask.
    Senator Carper. Go right ahead.
    Chairman Lieberman. Knowing you, I knew I could interrupt.
    Senator Carper. I am happy to yield.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. I have had the privilege of working many 
years with Ash Carter and welcome you back to familiar grounds.
    I do hope that you, in your work, will take into 
consideration implementation of the role of the National Guard 
and the U.S. military in these incidents. It should be a part 
of the study here in the Committee, I say to our distinguished 
Chairman and Ranking Member.
    I am working to make sure that they are able to do things. 
How should they be accessed and when? That is for a later date 
and I thank you the distinguished Senator.
    Chairman Lieberman. Thank you, Senator Warner. Thank you, 
Senator Carper.
    Senator Carper. You are quite welcome.
    Back to my question. A device has exploded and there is a 
plume that goes in the air. How do we notify folks who might 
live in the direction in which the plume is headed so that they 
might take the appropriate precautions? Dr. Carter.
    Dr. Carter. It is an excellent question and it is a 
capability that is entirely within our power to provide within 
minutes in every municipality where this occurs.
    We have not quite done that yet, but the capability exists. 
It has been developed at the national laboratories. It is not 
rocket science. It is weather, and for the same reason that 
they can open and close runways and vector airplanes in and out 
and so forth, weather is so well known in a real time basis 
that you can decide where that plume is going. Is it going 
north, south, east, or west? Is it going to be a wide plume or 
long narrow plume, depending on whether the winds are variable 
and so forth.
    There is no reason why that information cannot be made 
available to emergency responders within minutes. And that is 
one of a long list of things that it ought to be our aspiration 
to be able to do. We are not quite there yet but there is no 
reason why we cannot do it.
    Mr. Dallas. Senator Carper, I might point you to the 
simulations we have here on the poster board which show that. 
We were able to do it for this demonstration for Washington, 
and Dr. Carter is right. There are a lot of people that can do 
this and there are systems too. You could even inform parts of 
the public as reverse September 11, 2001, telephoning system 
where you could actually target certain people and tell them to 
flee and target others and tell them to stay, and this is 
certainly within our capabilities if we were to put more effort 
into it.
    Senator Carper. How do you practice something like that?
    Mr. Dallas. There is a danger in scaring the public with 
that sort of thing.
    Senator Carper. I understand.
    Mr. Dallas. But we are doing hospital exercises all the 
time now where we have patients that look pretty bad showing up 
at the emergency room and that seems to have gone fairly well. 
We can expand those exercises and make them larger. We can do 
that.
    Senator Carper. It is going back to the days of Orson 
Welles. I recall it is possible to scare people pretty badly 
and this is certainly one that we could have an unintended 
consequence.
    But how do we actually get the word out to people? A 
Reverse 911? That seems to make sense. Are there any others 
that come to mind? Mr. Gibb.
    Mr. Gibb. Senator, in New York, we have developed our own 
system. It is called New York Alert. I talked about this 
earlier. But it allows either a local official or a State 
official to create one message and to activate the emergency 
alert system. It sends a message to folks' cell phones in the 
form of a text message. It sends out e-mails automatically, and 
actually calls people's homes or their cell phones and gives 
them the recorded message. It is pretty robust. We can send out 
80,000 e-mails simultaneously. We have the state-of-the-art 
ability to issue text messages, limited by the infrastructure 
that is in place. But from a technology standpoint, it is very 
doable with big recurring costs.
    Senator Carper. That is reassuring.
    What advice would you have for people, if there ever is 
such an incident, who might have the misfortune of living in an 
area where a plume is heading? What advice would you have for 
them?
    Mr. Molander. You would want to have some idea about the 
magnitude of the radiation coming in your direction. And it has 
been mentioned, there will be some capability to project the 
direction of the plume.
    How fast that happens, we are really not sure. It is also 
possible, of course, that you are going to be racing against 
the media which would be instantly on top of this. CNN will 
have an expert on this faster, I think, than you can go through 
a government process.
    Senator Carper. Maybe one of you.
    Mr. Molander. Maybe somebody that is in Georgia.
    There is also a real concern about conflicting views about 
what to do and that will really confuse people. The possibility 
exists that you will not know for sure just what the winds are 
at 20,000 feet because that is really determinative about what 
will happen.
    There was an exercise here a couple of years ago called Top 
Off in which I believe the mayor of Seattle was facing a 
decision about what kind of message to put out on a dirty bomb 
situation. And he was first presented with one description of 
the plume, and after some passage of time, a more sophisticated 
description of where the plume was going to go and, of course, 
it was not a nice long ellipse. It instead had some texture to 
it, and he stopped the exercise because he did not know which 
one of these should be the communication.
    So I think we are going to have a real problem with 
uncertainty. And as I mentioned earlier, there is going to be 
real uncertainty early on about the size of the weapon and 
characteristics which will also affect what to do.
    So you better get a lot of information whether you want to 
shelter in place or not for awhile would probably be the first 
thing. So maybe for a little while I shelter in place. But I 
want to get information fast and probably get out of there. 
People err on the side of safety I am sure.
    Senator Carper. Dr. Carter.
    Dr. Carter. I would just like to add to that. It is an 
excellent answer. I think we ought to be clear. I do not know 
whether people will do this or not and whether they will be 
told to do the right thing. As to what the right thing is, I 
want to put it very crudely, and I hope my co-panelists will 
not disagree with this.
    But there are roughly three areas here. There is that hot 
wisp downwind, and people there have to get out because if they 
stay there, they are going to get too much radiation.
    Then there is the larger cigar, which is also downwind. For 
many people in that area the best thing to do would be to stay 
home for a few days, not months like the kind of shelter you 
wanted your father to build during the Cold War. This is a 
whole different thing. Just for a few days until the dose rates 
subside. And then outside of that cigar, people do not have to 
go anywhere at all.
    If you could get everybody to know where they are, are they 
in zone one, two or three, and you could get them to do the 
right thing you could save an awful lot of anguish and lives.
    But that is the right thing. That is the right mental 
picture for our public officials to have, and there is no 
reason why they cannot have that and communicate that.
    Getting people to do the optimal thing is another matter.
    I wanted to add one other thing. You mentioned 
communication, which is also kind of a technical fact. But when 
a nuclear weapon is exploded at altitude, it creates something 
called an electromagnetic pulse, which is in all of the movies, 
and it causes widespread outages of electronics.
    This is a ground burst and there is a very limited region 
of electromagnetic pulse. I only say that because after this 
bomb goes off you will turn on the radio and there will be a 
lot of radio stations on the air and you can listen to WTOP. 
This is not that old 1950s circumstance that Senator Collins 
was mentioning where you turned on the radio and there was a 
little beep and it said this is an emergency message.
    All the media will be on. You can turn your television on, 
your television will be on. You can turn your radio on. So 
there will be an abundance of opportunity for public officials 
to get the right message across, and so there is no technical 
reason why people cannot get information that they need.
    Mr. Gibb. Could I just add something?
    Senator Carper. A closing word. Go ahead, Mr. Gibb.
    Mr. Gibb. The plume projection is not the end all. That 
gives decisionmakers early information, if they know what the 
source term was, about where the plume probably is. But you 
have to go out and find it. You have to go out and determine 
using radiological instrumentation where the radiation is and 
where it is not and factor that back in to make sure your 
protective actions are good enough.
    You have to confirm that the places that you are sending 
people to, there is no radiation there. So that the plume 
projections we absolutely rely on in the first instance. But 
marshaling the Federal, State and local resources to go out and 
do the on-the-ground assessments to know where the radiation 
is.
    Senator Carper. Thanks to each of you. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks very much to this panel. I feel 
it is my obligation as Chairman to certify for the record that 
during the 1950s Senator Collins was a very little girl.
    Senator Collins. That is true.
    Chairman Lieberman. Probably very good too.
    Your testimony was excellent. I cannot thank this panel 
enough. This was very informed, methodical and it was not 
intended to panic anybody but just deal with the realities. You 
made a lot of very good suggestions in your written testimony 
which you presented to us this morning. So I cannot thank you 
enough.
    Your reward for this extraordinary testimony will be that 
we will be back in touch with you to ask you to help us shape 
the response legislatively and perhaps to help shape the 
response of the Executive Branch as well.
    We are going to leave the record of the hearing open for 15 
days. If any of the Members want to submit questions to you in 
writing or if you want to add anything to your testimony in 
writing.
    In the meantime I thank you again, very much, for what you 
contributed.
    Senator Collins, do you want to say anything?
    Senator Collins. No, thank you. Excellent hearing.
    Chairman Lieberman. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]


                  NUCLEAR TERRORISM: PROVIDING MEDICAL



                      CARE AND MEETING BASIC NEEDS



                            IN THE AFTERMATH

                              ----------                              


                         THURSDAY, MAY 15, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. This is the fourth in a 
series of hearings in which we are exploring our country's 
capacity to react to a terrorist detonation of a nuclear weapon 
in an American city.
    Some may think that it is effectively impossible that 
terrorists could acquire such a devastating weapon, but our 
previous hearings have shown that terrorists desire to acquire 
nuclear weapons--that desire is clear and their capacity to do 
so is real.
    At our last hearing, we learned that a 10-kiloton nuclear 
weapon blast in a major American city would have a devastating 
effect on life and property, but we also learned something that 
at least for me was counterintuitive, which was that much of 
the city would probably survive. The effect on the area of 
direct impact would be horrific. Thousands and thousands would 
be killed. But we also learned that outside that area of direct 
impact in a major American city, thousands and thousands more 
can be saved if we are prepared to respond quickly and 
effectively.
    Helping survivors in and around the blast area will require 
a planned, prepared, and coordinated response by all levels of 
government. The Federal Government will have to bring all of 
its capabilities to the area that has been attacked quickly 
because local government will inevitably be overwhelmed. As our 
witnesses will make clear today, we do not presently have 
either enough coordinated planning or enough assets in place to 
respond adequately to a terrorist nuclear attack. In other 
words, we are not ready to save the thousands of American lives 
we know can be saved in the dreadful event of a nuclear 
terrorist attack on an American city.
    For example, we know that among the survivors will be many 
burn victims, but on any given day we also know that there are 
only 200 open burn beds across our entire Nation. We know that 
our medical surge capacity is grossly insufficient, but we have 
no plan for dealing with these kinds of casualties, certainly 
not in these kinds of numbers. That has to change.
    The sad truth is that many of our most valuable resources 
across the Nation will go unused in a nuclear catastrophe 
because of a lack of prior planning and coordination. We must 
decide before an attack how we can bring the entire Nation's 
resources to bear as quickly as possible, including some that 
are the focus of our hearing this morning, such as medical 
care, mobile care facilities, and pharmaceutical supplies. We 
need to find innovative ways to treat people in alternative 
settings until they can be safely transferred to traditional 
hospital settings. We must integrate and utilize medical 
volunteers, but first, of course, we have got to undertake a 
frank assessment of what our medical surge capability is across 
the private, civilian, and military sectors of our country.
    We know that we will need to feed and shelter a large 
number of people who are not injured but who have been forced 
from their homes. This morning, the American Red Cross, the 
largest provider of shelter and feeding in disasters, will tell 
us that it has been forced to cut its national staff by 40 
percent because of shrinking resources available to it, and 
that leaves not just the Red Cross, but America even less 
prepared to deal with a disaster or catastrophe of the kind we 
are discussing than we were just a short time ago. We need to 
make sure that the Red Cross and other national and community-
based organizations are included in planning efforts, and I 
think based on Mr. Becker's testimony, we need to begin to ask 
ourselves whether the Federal Government should be giving 
direct Federal financial assistance to the Red Cross, because 
it is obviously carrying out a public function.
    We need to ask tough questions as to how we are going to 
decontaminate a large number of people so they do not make 
other displaced citizens sick. We have got to integrate the 
logistical and supply capabilities of our Federal and private 
partners with the volunteer organizations that are actually 
supplying the beds, the bread, and the emotional comfort.
    And then we have to acknowledge that the single most 
effective way to save lives immediately after a nuclear 
explosion may be through effective communications. You need to 
have systems in place to advise people in and around the area 
of the radioactive plume whether they should stay put or 
evacuate. This determination must be made almost immediately 
and must be disseminated without delay through media networks 
that will reach the whole public in terms that everyone can 
understand. We cannot wait, and we certainly cannot rely on 
canned, untested messages when the stakes are so high.
    Finally, we must acknowledge that the government cannot do 
it all. We have got to convince the American people to be 
prepared, to accept the fact that they are responsible in some 
measure for their own family's preparedness in all the ways 
that we have discussed. These preparations, of course, will be 
useful not just in case of a terrorist nuclear attack, but also 
a chemical or biological attack, or a natural disaster that 
forces people to shelter in place until help arrives.
    The bottom line is that we know now that the possibility of 
a terrorist attack using nuclear weapons within the United 
States of America, while it is hard to absorb, is definitely a 
real possibility. So we must begin asking the tough questions 
and then making the right preparations because the Day After 
will be too late.
    That is why we hold these hearings. That is why we are 
grateful to have the experts who are with us as witnesses 
today, and why when these hearings are over we look forward to 
presenting recommendations both to our colleagues in Congress 
and to the Executive Branch of government, and indeed even to 
the private sector, to see how we can best work together to 
prepare for these dreadful possibilities.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. This Committee's 
earlier hearings explored the frightening possibility that 
terrorists could detonate a nuclear bomb in an American city. 
With a nuclear device small enough to be transported in a 
truck, terrorists could inflict thousands of casualties and 
cause terrible destruction.
    As I indicated at our last hearing, our top priority must 
be to improve the diplomatic, intelligence, and law enforcement 
efforts that limit nuclear proliferation, safeguard weapons-
grade nuclear material, and thwart terrorist plots. If 
detection and interception fail, however, we simply must be 
ready for the aftermath.
    Half a century ago, Cold War duck-and-cover drills and 
signs marking subways as shelters were widely seen as futile 
gestures given the nuclear missiles that would fly in an all-
out U.S.-Soviet war. But a terrorist attack on a large American 
city would likely be a different scenario. A ground-level 
detonation of a 10-kiloton device equivalent to 10,000 tons of 
TNT, and small by the morbid standards of these weapons, would 
destroy nearly everything within a half-mile radius. But as the 
Chairman indicated, we have learned that large portions of the 
target city would still be standing and would contain hundreds 
of thousands of survivors.
    Today, then, we examine the urgent question of what would 
have to be done quickly and effectively to aid those survivors. 
We know that great numbers of people would need 
decontamination, medical care, food, shelter, and social 
services. Most would need guidance on sheltering in place 
versus evacuation. First responders and medical personnel would 
need to know where to deploy.
    Effective planning and training for a large-scale and well-
coordinated mass care response are vital. This effort requires 
coordination among the Department of Homeland Security (DHS), 
the Department of Health and Human Services (HHS), the 
Department of Defense (DOD), State and local emergency 
managers, first responders, and key players in the private 
sector.
    This Committee heard compelling testimony on the need for 
response planning last October when Dr. Tara O'Toole of the 
Center for Biodiversity in Pittsburgh testified on our lack of 
readiness to respond to a bioterrorism attack. Well, many of 
the challenges are very similar. Dr. O'Toole cautioned us that 
we simply were not ready to respond. She also told us that a 
nuclear or biological attack, including the fear of subsequent 
attacks, are the only two kinds of assaults that could really 
destabilize the United States of America.
    Responding to that threat will require more than deploying 
first responders and materials. In the chaotic and terrifying 
aftermath of a nuclear blast, providing timely, accurate, and 
actionable information would literally be a matter of life and 
death. People would need to know what has happened, where to 
find help, whether their immediate circumstances dictate 
evacuation or sheltering in place, and what to do next to 
protect themselves and their families.
    How important would it be to communicate accurate, trusted 
information? For people gripped by an overwhelming urge to 
flee, it could be critical, and most people would be gripped by 
an overwhelming urge to flee. The Department of Homeland 
Security has calculated that people who would try to flee 
Washington in the first 24 hours after a terrorist nuclear 
attack could expose themselves to seven times the radiation of 
those who shelter for just 3 days in their basements before 
leaving. I would wage that very few people in this city know 
that critical fact.
    The real life importance of effective crisis communication 
was also illustrated in the Three-Mile Island nuclear reactor 
core incident in Pennsylvania in 1979. Dartmouth College 
physicist John Kemeny headed a presidential commission to 
investigate the response. The Kemeny Commission report found 
confusion and weakness among information sources and a lack of 
understanding among many reporters that resulted in the public 
being poorly served. A commission task force noted problems 
including delayed or incorrect information, conflicting 
official statements, overly technical statements, and a lack of 
coordination. These problems aggravated public confusion, fear, 
and emotional stress, consequences that obviously would have 
been far more serious if the Three-Mile Island incident had 
caused any casualties.
    A terrorist nuclear attack would give us the worst of both 
worlds, mass casualties and the response problems surpassing 
those of Hurricane Katrina plus the dangerous invisible threat 
of nuclear radiation. Clearly, our response plans for mass 
care, food, shelter, and accurate communication must be in 
place. They cannot succeed without a carefully planned system 
for giving people clear and accurate information.
    Mr. Chairman, thank you for your leadership on this 
important subject and I look forward to hearing our witnesses.
    Chairman Lieberman. Thanks very much, Senator Collins, for 
that excellent opening statement.
    We are pleased to have such a good group of witnesses 
before us and we will begin with Dr. Irwin Redlener, who 
returns. He is a recidivist at this Committee.
    Dr. Redlener. Exactly.
    Chairman Lieberman. He is Director of the Center for 
Disaster Preparedness and a Professor at Columbia University in 
New York. Dr. Redlener, thank you.

TESTIMONY OF IRWIN REDLENER, M.D.,\1\ DIRECTOR, NATIONAL CENTER 
  FOR DISASTER PREPAREDNESS, MAILMAN SCHOOL OF PUBLIC HEALTH, 
                      COLUMBIA UNIVERSITY

    Dr. Redlener. Thanks, Senator Lieberman and Senator 
Collins. Senator, among the most concerning realities of our 
Nation's disaster planning agenda in general has been the 
apparent failure to grasp or develop adequate plans to mitigate 
and respond to a terrorist attack using a nuclear weapon. At 
this point in time, I am sorry to say that few, if any, major 
U.S. urban centers have taken on the admittedly daunting 
challenge of planning for a meaningful public health response 
to a nuclear detonation, even if they have actively and 
effectively planned for other types of natural or terror-
related disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Redlener appears in the Appendix 
on page 463.
---------------------------------------------------------------------------
    This Committee has previously heard testimony addressing 
the consequences of nuclear terrorism, so I will focus on, 
first, understanding the impediments that inhibit rational 
response planning for the nuclear threat, the notion of 
survivability, and finally, what the Congress might be able to 
do to alleviate some of these barriers.
    One important reason that we have neglected nuclear 
terrorism is the persistence of three long-held misconceptions 
or myths regarding nuclear threats in the age of terrorism. It 
is not just a matter of capacity, it is a matter of mindset.
    First of all, there is the myth of extreme improbability. 
This issue was introduced in previous hearings here, but I will 
tell you that I commonly hear emergency planners say something 
on the order of, nuclear terrorism is highly improbable and we 
want to focus on those disasters that are more likely to occur. 
But unfortunately, like other terror threats, there is simply 
no reliable means of determining probability with respect to 
when or if a terrorist might detonate a nuclear weapon in a 
location seen to be high value. So it is virtually impossible 
to objectively compare relative risks of nuclear terrorism for 
New York or Washington or Los Angeles versus other large-scale 
disasters.
    The second is the myth of planning futility. Unique among 
potential disaster scenarios, radiological events, particularly 
nuclear explosions, are shrouded in a special level of dread 
that is deeply rooted in images developed, and understandably 
so, during the Cold War, as you mentioned. From 1945 through 
the 1980s, vast arsenals of mega-ton-level nuclear weapons were 
amassed by the Soviet Union and its allies on one side and the 
United States and its allies on the other, and at its peak, 
more than 60,000 nuclear warheads were in the combined 
arsenals, and an attack or a perceived attack by one side would 
trigger a counterattack by the other and thousands of high-
yield nuclear weapons would indeed have obliterated the two 
major antagonists and many other countries, as well.
    So it is this vision of the nuclear armageddon that has 
been sustained well beyond the end of the Cold War to the point 
where it has actually permeated and deeply seated itself in the 
public consciousness. In fact, this perspective has actually 
impaired the vision of planners as well as citizens, many of 
whom have adopted a sense of fatalism and hopelessness rather 
than take the rational steps necessary to ensure maximum 
survival in the event of nuclear terrorism.
    The counterpoint, however, is that while all-out nuclear 
war with the Soviets truly would not have been survivable in 
any meaningful way, nuclear terrorism, as both of you have 
pointed out, on the other hand, that would deploy a single 
relatively low-yield smuggled or crudely constructed bomb, 
while fatal for many citizens, to be sure, would be survivable 
by many more people if we plan appropriately.
    The third myth, which is most important, I think, for this 
Committee, is the myth of Federal rescue, or put another way, 
that the cavalry is not on its way. First, it is clear that the 
public at large harbors entirely unreasonable expectations 
regarding the rapidity and efficiency of disaster response 
systems in general. A study conducted last year by our own 
National Center in New York showed that more than one in three 
Americans believe that in the event of a catastrophic disaster, 
help would arrive within one hour, and in fact, something like 
two-thirds of Americans think that help would arrive in the 
first few hours no matter what the catastrophe was. These 
beliefs persist in spite of information from the Federal 
Emergency Management Agency (FEMA), Red Cross, and many other 
organizations that help may not be on the scene for more than a 
day under many scenarios, and in some cases, the public is 
asked to be able to survive and self-care for 72 hours or more.
    But it is not just the citizens who have these beliefs. 
Unrealistic expectations may also be seen among professional 
disaster planners. In fact, there is a widely-held belief that 
Federal teams will somehow be immediately available to assist 
local efforts in managing and maybe overseeing the consequences 
of nuclear terrorism. And certainly while it is true that 
Federal response teams from a wide range of agencies, including 
the Departments of Defense and Energy, do exist, many operate 
in the capacity of law enforcement or counterterrorism and 
military response. But relatively few assets can be expected to 
provide timely, very large-scale medical triage, major hospital 
care, and so forth.
    The National Guard's Weapons of Mass Destruction (WMD) 
Civilian Support Teams, for instance, are available for rapid 
assessment and technical advice, but not to add appreciably to 
the actual medical response capacity. And on the civilian side, 
the National Medical Response Team, consisting of 60 highly 
trained medical and technical specialists, is available and 
trained to enter hot zones for decontamination of affected 
patients, but they would be a drop in a very large bucket.
    That said, in last month's testimony before this Committee, 
John Gibb of New York State's Emergency Management Office said 
there is no ready system in place or planned that will result 
in victims from this type of event receiving pre-hospital or 
definitive care in any reasonable time frame. New York, like 
all other States, has on some level realized that substantial 
response capacity to nuclear terrorism is simply not available 
within their own borders and their only hope is to count on 
Federal resources.
    Unfortunately, in my judgment, there is something akin to 
utter confusion out there with respect to the role of the 
Federal Government around planning for and response to a 
nuclear detonation. There is little understanding, for 
instance, of how and when Federal resources, DOD and civilian-
based, are deployed and under what legal authorities. In 
addition, there remains substantial confusion about operational 
capacity in terms of personnel, expertise, medical 
countermeasures, and so forth. We have every reason to believe 
that even if the total Federal capacity was coordinated, it 
would be insufficient to meet the needs of potentially hundreds 
of thousands of nuclear survivors with trauma, burns, and 
radiation injuries.
    I would like to say a word or two about this notion of 
survival that both of you touched on, and it is really a very 
straightforward concept that should be guiding our preparedness 
efforts. As was made abundantly clear from the testimonies 
heard in previous panels, the detonation of a 10-kiloton 
nuclear weapon during a work day in downtown Washington, DC, or 
New York would immediately kill 100,000 to several hundred 
thousand people. But really, in scenarios like this, within a 
radius of a half-a-mile from ground zero, it is truly a lethal 
zone and there is no survival possible. From a half a mile to 
two miles, we are still seeing extraordinary fatalities and 
life-threatening injuries. And then beyond eight to 10 miles, 
we have a relatively safe zone in terms of prompt injuries and 
fatalities. It is that gray zone, almost like a nuclear gray 
zone, between two miles and eight miles where the survival of 
hundreds of thousands of people will be directly affected by 
the degree of planning and citizen awareness that we have put 
in place.
    The planned strategies for optimal survival, and you have 
touched on a couple of them, have to do with an informed 
emergency response system, including among Federal agencies and 
voluntary organizations, an appropriately stocked shelter 
system, and other ideas and strategies that I won't detail.
    But I want to conclude with a couple of remarks about 
planning for nuclear terrorism from the Federal perspective. 
While the prevention of catastrophic terrorism through 
sophisticated intelligence gathering, counterterrorism 
measures, and detection is the ideal solution, this will never 
be foolproof no matter what steps are taken. In the meantime, 
Congress should strongly consider expanding funding and support 
for four key measures.
    First of all, we need to enhance our understanding of the 
barriers to nuclear preparedness planning. As I said in the 
beginning, this is not just about resources and capacity. It is 
about changing a mindset that will actually allow planners to 
do what they need to do.
    Second, we need a lot more support for research on the 
critical workforce needs and resiliency of populations in order 
to make sure that our plans are based on provable, objective 
criteria that would actually work under the scenarios that we 
are talking about.
    Third, we need to provide States and at-risk urban areas 
with greatly enhanced stockpiling and distribution capacity for 
medical countermeasures as well as a contingency system needed 
to assure availability of emergency care for injured survivors. 
There is just no way that the vast majority, or any, really, of 
our major urban areas can handle this on their own.
    And finally, we need to substantially bolster the capacity 
and clarify the authority of the Federal Government to deploy 
massive resources in the event of a nuclear terror attack 
anywhere in the Nation, and I think we have compounded the 
problem by allowing this confusion and legal questions to 
persist while we are trying to understand how we would best and 
most effectively deploy Federal resources to help the cities 
and States, which obviously would not be able to handle such an 
event on their own.
    Thank you.
    Chairman Lieberman. Thanks, Dr. Redlener. That was an 
excellent beginning.
    Our next witness is Dr. Ira Helfand, who is the Co-Founder 
and Past President of Physicians for Social Responsibility. 
Thanks for being here.

    TESTIMONY OF IRA HELFAND, M.D.,\1\ CO-FOUNDER AND PAST 
        PRESIDENT, PHYSICIANS FOR SOCIAL RESPONSIBILITY

    Dr. Helfand. Thank you, Chairman Lieberman and Senator 
Collins, for allowing me to share my concerns this morning 
about the lack of preparation for nuclear terrorism and also to 
share with you some suggestions I have for improving our 
preparedness.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Helfand with attachments appears 
in the Appendix on page 469.
---------------------------------------------------------------------------
    The threat has been clear to us for some time and I think 
the thing that is most perplexing is why we have not acted more 
aggressively at the Federal level. Even before September 11, 
early in 2001, the Department of Energy task force warned that 
the most urgent national security threat to the United States 
today is the danger that weapons of mass destruction or 
weapons-usable material in Russia could be stolen and sold to 
terrorists or hostile nations and used against American troops 
abroad or citizens at home. That was more than 7 years ago and 
we still, at this point, do not have a plan in place.
    I have a number of specific recommendations that I would 
like to make, but if I could, I would like to just very briefly 
go over a scenario that I am going to be working from. In 
October of 2001, shortly after September 11, 2001, the British 
Medical Journal asked me and several of my colleagues at 
Physicians for Social Responsiblity (PSR) to prepare a 
description of the medical effects of a nuclear terrorist 
attack. The conclusions are similar to those which both of you 
have alluded to and which Dr. Redlener has referred to, as 
well. Just to be precise, because the recommendations that I am 
going to offer flow from the scenario, we assume that a 
terrorist attack involved the shipment of a nuclear device 
about Hiroshima-size to the Port of New York and that this 
device was detonated in the harbor before the ship actually 
docked. This is not, I need to emphasize, a worst-case scenario 
because much of the blast effect in this attack is dissipated 
over the Hudson River.
    But nonetheless, the blast in our model would kill 52,000 
people directly from heat and mechanical injury. An additional 
238,000 people would be exposed to radiation emanating directly 
from the explosion. Of these, 44,000 would suffer radiation 
sickness and 10,000 would receive lethal doses of radiation 
from which they could not recover. These acute casualties would 
occur no matter what we had done to prepare for a terrorist 
attack. But there would be several thousand people with burns 
and mechanical injuries who could survive if we had done our 
planning well and there would also be tens of thousands of 
people with radiation sickness who are in that category.
    In addition, another 1.5 million people would be exposed to 
radioactive fallout from the explosion, not the direct 
radiation coming out of the bomb itself but the fallout that 
this ground-level blast would generate. A million-and-a-half 
people would be exposed to this fallout across Manhattan, 
Queens, and Long Island. As many as 200,000 people in this 
group would die if they were not safely evacuated or sheltered. 
But if they were protected, they could survive, and that is the 
crux of the issue.
    As catastrophic as this attack had been, and this is a 
point which you both made, a terrorist attack would not 
necessarily be fatal to everyone. Many people could be saved if 
we had done our planning properly.
    There are two broad goals that we need to take into account 
in doing our preparation. One is to minimize casualties and the 
other is to care for those who do get injured despite our 
efforts to protect them.
    With regard to minimizing casualties, the most important 
task in terms of the number of lives saved is to protect people 
from avoidable radiation exposure. In most situations, that 
would involve getting people to shelter, as Senator Collins has 
talked about, getting them to go into the basement or the first 
story of the building that they are in and stay there for 72 to 
96 hours. But in some cases, depending on local conditions and 
particularly on the local weather conditions, it might be 
better to try to evacuate these people. And so the first thing 
we need to do is to have in place a clearly designated central 
coordinating authority to make that decision, to determine do 
we shelter or do we evacuate.
    Second, we need to establish clear criteria to guide this 
authority in making that decision. This is not going to be a 
good time for improvising. We have to have a clear set of 
guidelines for under what circumstances you would adopt which 
course of action.
    Third, there needs to be a clear chain of command to carry 
out that decision once it is made. We believe that authority 
needs to be Federal and needs to be vested in the Secretary of 
Homeland Security or his or her designee. We also need to have 
in place the resources to manage an evacuation or to support a 
population sheltering in their basements for several days. Most 
of these people will not have stockpiles of food or water. It 
will be necessary for adequately protected personnel to deliver 
these materials on a massive scale. In the New York model that 
was published in the British Medical Journal, we would be 
talking of several million people who would need this kind of 
support.
    We also need to have in place the means of effectively 
communicating to people in order to evacuate or in order to 
shelter in place, and we need to do enough prior education, as 
Senator Collins suggested, so that people ordered to shelter in 
place will know that this is a wise thing to do and won't just 
jump in their car and try to drive away as fast as they can.
    With regard to caring for the people who are injured 
despite our best efforts, we have to understand that there will 
be tens of thousands in that category and we need to provide 
both the personnel, the facilities, and the medical supplies to 
take care of them.
    With regard to personnel, we need to develop an adequate 
National Disaster Medical System. Currently, the Health and 
Human Services Department maintains some 50 Disaster Medical 
Assistance Teams (DMATs) of doctors, nurses, and other health 
professionals. The concept is right, but the existing system 
must be greatly expanded to be able to deal with a disaster on 
the scale of a terrorist attack.
    Even if we were able to successfully protect most people 
from radiation exposure, in the scenario that we have 
developed, there would be 44,000 cases of radiation sickness 
caused by the radiation coming directly from the explosion and 
several thousand people with crush injuries and burn injuries, 
about 50,000 patients in all. A Level One DMAT is supposed to 
be able to care for 250 patients, and that implies that we 
would need to have as many as 200 DMATs available and on stand-
by at all times. At the current time, there are 50 and only a 
small fraction are actually on stand-by at any given moment.
    In addition, we need to establish a mechanism for quickly 
mobilizing existing military medical teams and for rapidly 
integrating volunteer health professionals. In the case of 
Hurricane Katrina, many traveled to New Orleans and couldn't be 
used because the mechanisms weren't in place to absorb them.
    With regard to facilities, it is critically important that 
hospitals not be the site of triage and first care. I work in 
an emergency room (ER). My ER, like most ERs, is packed all the 
time. An influx of frantic, wounded people from a nuclear 
explosion would just shut the place down. We would be able to 
do nothing. Rather, instead of bringing people to the ERs, we 
need to set up a system of Disaster Medical Care Centers at 
community sites that are easily accessible by ambulances, by 
patients, and by care providers. Things like convention centers 
and sports facilities are possible candidates for this role. 
Again, using the British Medical Journal scenario, we would 
need to have these facilities able to care for approximately 
50,000 people.
    We would recommend that centers of this sort be established 
in high-risk urban areas, such as New York and Washington. 
Planning for these centers would need to take into account the 
fact that the centers might well be destroyed in the blast or 
that they might lie in areas that are heavily contaminated with 
radiation, and so we probably need to have several different 
centers in a major metropolitan area.
    And in addition, we would need to establish mobile field 
hospitals to be used in case the Disaster Medical Care Centers 
were taken out in the initial attack, or if terrorists chose to 
attack a less-likely target that we hadn't planned for--
Oklahoma City or Portland or Hartford, someplace where a 
Disaster Medical Care Center might not have been built. These 
mobile field hospitals would obviously be dual-use and they 
would be quite valuable to use in civilian natural disasters 
like hurricanes or an earthquake in California, as well.
    Finally, with regard to supplies, DMATs, we have to 
understand, have enough equipment to take care of their 
patients for 72 hours, and this is clearly not enough. Patients 
with radiation sickness, with burns, require enormous amounts 
of medical equipment--intravenous fluids, pain medication, 
blood products, and so on. We need to have adequate stockpiles 
of these materials available because the DMATs' supplies will 
be quickly exhausted. And again, we need to have supplies on 
hand to deal with tens of thousands of people, understanding 
that many of these people are going to require intensive care 
for weeks, if not months.
    Also, we will need to preposition radiation protection 
monitoring equipment for people to use in dealing with the 
situation that they are going to be facing.
    If we believe that the nuclear threat is real and if we are 
truly committed to doing what is needed, these are some of the 
specific steps which I believe we need to put in place. They 
are going to involve a lot of work, but they are not rocket 
science. They do, however, need to be implemented. To that end, 
PSR would recommend that the Homeland Security Department 
establish a working group that is charged with implementing 
these measures in a short and specified time frame, probably no 
more than 6 months.
    In closing, if I could, I would like to make two final 
points. First, even with the very best of planning, a nuclear 
terrorist attack would clearly be a catastrophe which is 
without precedent in our national history and with consequences 
we can barely imagine. While we must plan on how to deal with 
the aftermath, it is even more important that we focus on 
prevention. Specifically, we must take steps to limit the 
availability of nuclear weapons and fissile material by 
upgrading the security at all sites where these materials are 
stored. We have been working on this problem for more than a 
decade and we have made some substantial progress, but we need 
to get the job finished.
    Second, as important as is the threat of nuclear terrorism, 
I think we have to understand that this is not the greatest 
nuclear threat that we face. Nuclear weapons states still 
possess more than 20,000 nuclear weapons. Several thousand of 
those in the U.S. and Russian arsenals are on hair-trigger 
alert. They can be fired in 15 minutes. A study that PSR 
prepared just a few years ago showed that if only 300 of those 
warheads hit American cities, they would kill 100 million 
people in the first 30 minutes and our Nation would effectively 
cease to exist.
    I think that it is urgently in the security interest of the 
United States to eliminate all of these nuclear weapons, and to 
that end, the United States must lead all nuclear weapon states 
in meeting our legal obligations under Article 6 of the Nuclear 
Non-Proliferation Treaty to set a time table for reducing and 
ultimately eliminating these weapons.
    Thanks very much again for the opportunity to speak with 
you this morning. I would be happy to answer any questions you 
might have.
    Chairman Lieberman. Thanks, Dr. Helfand. That was very 
helpful, particularly the specificity of your recommendations 
about what might be done now, including beginning with a 
working group at DHS.
    Joseph Becker is the Senior Vice President for Preparedness 
and Response at the American Red Cross and we welcome your 
testimony now.

   TESTIMONY OF JOSEPH C. BECKER,\1\ SENIOR VICE PRESIDENT, 
             DISASTER SERVICES, AMERICAN RED CROSS

    Mr. Becker. Thank you, Mr. Chairman and Senator Collins. I 
lead the American Red Cross Disaster Relief, and I appreciate 
the opportunity to share in this conversation today on such an 
important issue. My comments are from the perspective of a non-
governmental organization (NGO), and my focus will be on the 
issue of mass care in the early days of an event.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Becker with an attachment appears 
in the Appendix on page 511.
---------------------------------------------------------------------------
    In addition to what the speakers before me have 
contributed, I would add more observations about our country's 
readiness to respond. While delivering medical assistance will 
be the greatest challenge following an attack, delivering mass 
care for the well will have its own tremendous challenges.
    I would like to be very clear up front. The Nation is not 
ready to respond to an attack involving a nuclear device. We 
have the supplies and resources to provide mass care spread 
across this country, and those services include feeding, 
sheltering, distributing supplies, emergency first aid, mental 
health, and reuniting families. We have the supplies that an 
event like this would require, but there are unique 
consequences that a nuclear event would present that would make 
a response incredibly difficult and I hope today's hearing will 
enhance our collective efforts in finding solutions for these 
challenges.
    It is important to distinguish between our ability to 
deliver mass care on the scale needed and our ability to 
deliver mass care in the environment of a nuclear terrorist 
incident. When you look at the example that we have been using 
with 300,000 displaced, 100,000 requiring shelters, a million 
meals a day required to feed the people, and unknown numbers 
that need basic supplies, a planning presumption that may or 
may not be accurate is that these people will evacuate over a 
wide area and need care across quite a few States. Can we feed 
and shelter and care for that number of people in this 
scenario? Yes, we have the national capabilities that exceed 
those requirements, but as you indicated, Mr. Chairman, the 
ability to move those effectively into the affected area and 
coordinate that response is not in place.
    If this were a natural disaster, like a hurricane, where we 
had advance notice and could plan our response and move people 
and resources ahead, we could ensure a swift response on this 
scale. But a nuclear scenario is going to be very different. In 
a no-notice terrorist incident, it is going to take too long to 
scale the response.
    Two key variables are going to determine how well we do. 
The first is what buildings survive and if they are usable for 
shelters. The availability of large auditoriums, arenas, or 
other mega-shelters will largely dictate the success of the 
sheltering operation. Whether the needed shelter buildings 
survive the blast and are safe to use is doubtful. And for 
those who flee, what capacities are in the other cities and 
States that they go to? That will dictate how long it takes to 
get the shelter and feeding to scale in a no-notice event.
    Second, if the facilities are available, will the 
volunteers that are needed show up? Mass care is delivered by 
volunteers, not paid responders, and we have no experience, we 
have no data that will tell us if they are willing to put 
themselves potentially in harm's way and serve. In many cases, 
paid first responders have served in uncertain environments. We 
do not know about volunteers.
    And here is where it gets harder. Assume we have enough big 
buildings or that we can move people to where they are. Assume 
that nearby supplies survive the blast and that we can bring 
more in quickly, and those are big assumptions, and assume that 
volunteers step forward to immediately care for those in need. 
Even if the people in the buildings and the supplies survive 
and we can use them quickly, there are other limiting factors 
that are going to present huge challenges. Very quickly, there 
are five more issues in a nuclear event that we are not ready 
to deal with as a country.
    The most worrisome aspect of the response, and you 
indicated it, is public information. The national capacity to 
deliver timely and appropriate public messages in a nuclear 
scenario is not in place. We have repeatedly demonstrated in 
drills and exercises an inability to quickly decide on and 
deliver the right message and have it be a consistent message 
to the public. Should I shelter in place? Should I go? What 
should I do? It takes too long to produce public information 
from Federal sources and local authorities are each on their 
own in the earliest hours to give appropriate direction to 
citizens. The obvious result will be conflicting information 
and public confusion during an event.
    Second is citizen preparedness. We have not made a large 
and effective investment in telling American citizens ahead of 
time what to do in such an event. We need to make it easy for 
Americans to know and have available in advance what steps to 
take in a nuclear event. The information has been developed. 
Great pieces exist. But the average family has no understanding 
and will rely on just-in-time information, which we agree is 
going to be confusing, at best.
    A third very critical limiting factor is decontamination. 
Decontamination capabilities vary widely from city to city, and 
you will remember that a basic premise in any community plan is 
that the shelter should not allow its citizens in until they 
have passed through decontamination. If the decontamination 
doesn't happen in a short period of time, which is likely to be 
the case, you will have large numbers of people standing 
outside of a shelter desperate to get out from under what is 
falling from the sky. Law enforcement is going to have little 
option but to let them in, perhaps compromising the integrity 
of the shelters. Shelters will become the focal point of public 
anxiousness and anger during an event. And it is also very 
plausible that people with particular needs, people with 
disabilities, and people with no transportation are not going 
to get the right care.
    The fourth issue for mass care in a nuclear terrorism event 
is going to be the duration. As we saw in Hurricane Katrina, 
when large numbers of people are cared for in shelters and 
there are no empty motels and no vacant housing, short-term 
shelters become long-term housing and that is not an 
appropriate way to care for citizens for months and months and 
months after a disaster. We need a national housing strategy 
and it needs to have a menu of approved options that we can 
move quickly to after a disaster. Absent a housing strategy, a 
large public building with a cot and a blanket and a caring 
volunteer is going to be my home for way too long.
    My final observation is that we tend to treat building 
readiness for a scenario like this as a one-time event. One-
time purchases of supplies and equipment are needed, but this 
is an ongoing expense. Mass care is delivered by volunteers. 
For catastrophic mass care delivery, a state of readiness 
requires a large number of volunteers to be trained and ready 
to respond. Volunteers are not free.
    In addition to those five observations, I come with three 
appeals. The first has to do with worker protection. As I said, 
mass care is delivered by volunteers and the country needs to 
protect these people who step forward to serve the public good. 
These are health care volunteers, mass care workers, and others 
who suffer long-term medical consequences. We need to agree in 
advance that the government will step in and protect workers 
from the health risks that they may face in a pandemic 
environment or a chemical or biological event or other 
catastrophic disasters. This is not just a Red Cross issue. 
This is a sector issue and all the volunteers that step forward 
need to be protected. If we want them to show up, we have to 
provide this.
    Second, we need to consider organizational protections for 
the NGO sector. I will use the Red Cross as an example. In a 
chemical or biological event, we will be asked to put 
volunteers in potentially dangerous circumstances and the 
people who they are serving. This could result in future claims 
against nonprofit organizations and we need protection from 
those claims so that we can supply the needed volunteers and 
catastrophic response.
    Third, the Red Cross recognizes the importance of 
government funding for NGOs to build the capacity to respond to 
large-scale events, and I appreciate your comments to that 
effect, Mr. Chairman. Our work is made possible by public 
donations, and the public is very generous in funding our 
large-scale responses. But asking donors to pay for warehouses, 
call centers, IT systems, and the like, that is another matter, 
and it is unrealistic to expect public donations on the scale 
required to keep the state of readiness that is needed. We do 
need government help with this.
    To offer some insight into the amount of money it would 
take, in December 2004, the Red Cross prepared a report for DHS 
entitled, ``Mass Care Implementation Requirements For the 
Catastrophic Incident Supplement.'' This report addressed the 
needs of responding to catastrophic disasters, what it would 
take to feed and shelter 300,000 people for a 90-day period 
across 30 metro areas. The total cost in 2004 was estimated at 
approximately $180 million just for the first 5 years.
    Now, the Red Cross has invested considerably in its 
readiness in the last years, but preparing for this type of 
event remains extraordinarily complex and increasingly 
expensive. While significant investments have been made in 
government since September 11, 2001, such government 
investments do not build the needed mass care capability of the 
country. I would ask, please, to put that mass care cost 
analysis from 2004 in the record, if I could.\1\
---------------------------------------------------------------------------
    \1\ The Red Cross report submitted by Mr. Becker appears in the 
Appendix on page 517.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection. Thank you.
    Mr. Becker. Last, Mr. Chairman, the Red Cross is obligated 
under the National Response Framework (NRF) to have staff in 
FEMA regional offices as well as people to support Federal 
agencies with which we partner in time of disaster. The costs 
to coordinate with State and Federal Government would be about 
$7 million annually, and while these positions bring value to 
the community's response, they were not sustainable under our 
current budget, as you indicated earlier. We respectfully 
request that Congress authorize and appropriate funding to 
cover these critical positions, as well. A state of readiness 
requires mass care coordination between the Red Cross and the 
Federal Government and this has a price.
    Mr. Chairman, Senator Collins, thank you so much for the 
opportunity to share thoughts on this important topic, and I 
look forward to your questions. Thank you.
    Chairman Lieberman. Thanks, Mr. Becker. Again, very 
specifically helpful testimony.
    Our final witness on the panel is John Ullyot, a Senior 
Vice President at Hill and Knowlton who will discuss crisis 
communications. He is thoroughly prepared to do this since he 
previously worked for Senator Warner, no stranger to crises----
    Mr. Ullyot. Absolutely.
    Chairman Lieberman [continuing]. As Director of 
Communications for the Senate Armed Services Committee. It is 
good to see you, and thank you for your testimony.

   TESTIMONY OF JOHN ULLYOT,\2\ SENIOR VICE PRESIDENT, MEDIA 
    RELATIONS AND ISSUES MANAGEMENT, HILL AND KNOWLTON, INC.

    Mr. Ullyot. Thank you, Mr. Chairman, Senator Collins, and 
Members of the Committee. I am pleased to testify in front of 
you today on behalf of Hill and Knowlton as this panel examines 
the issue of nuclear terrorism and providing a strategy for 
clear communications that will save as many lives as possible 
in the aftermath of such an event.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. Ullyot with an attachment appears 
in the Appendix on page 543.
---------------------------------------------------------------------------
    As the Committee has already received a copy of my formal 
testimony, I will devote my time before you today to 
summarizing the main points, and I will be happy to address the 
Committee's questions after that.
    This Committee has taken a real leadership role in ensuring 
that our Nation is as prepared as possible for nuclear 
terrorism and other large-scale emergencies. Likewise, the 
Administration with the Department of Homeland Security in the 
lead has made solid efforts aimed at improving the means of 
communication in the event of a terrorist attack.
    My testimony today aims at delivering our perspective of 
best practices of emergency response and communications 
planning and a discussion of the forces that will affect our 
government's ability to communicate effectively with all 
Americans, both in advance of an attack as part of a public 
education program, as well as in the event an attack occurs. We 
recognize in many respects our views are aligned with work that 
the Federal Government as well as many State and local 
governments, already have underway.
    It is important to note that our firm was not asked by this 
Committee to evaluate the current state of communications 
preparedness of the Federal Government but rather to give our 
best collective thinking as an agency with global expertise in 
crisis communications of how we would advise the government and 
this Committee on communications planning for an event of this 
magnitude.
    As a preface to my testimony this morning, I believe it is 
instructive for us to examine the events of the past 2 weeks, 
namely the natural disasters that struck Burma and China. While 
the death and destruction in these instances were not due to 
acts of terrorism, they carry important communications lessons.
    In Burma, where a military regime tightly controls 
information, the rest of the world struggled to learn the 
extent of the impact of the cyclone. Contrast that with the 
devastating earthquake that struck China earlier this week, 
where the broad access to wireless and digital communications, 
including cell phone, cameras, and streaming video, meant that 
vast amounts of information flowed across China and around the 
world.
    We believe these efforts offer a cautionary tale for those 
of us involved in communications planning. The fact of the 
matter is that because of such new technology, we need to be 
prepared for an overabundance of information, information that 
moves faster than any government agency, first responder, or 
traditional news organization can move. If such technology and 
information is managed properly, the result can save lives. If 
not, the outcome can be confusion, chaos, and panic.
    In today's world, such technology cannot be controlled 
short of shutting down or disabling networks. Therefore, we 
need to test our plans and systems to ensure that they are 
designed for such a scenario in order to break through the 
clutter and noise. In short, accurate and timely information 
can prove as vital as shelter, medical care, and food supplies 
in times of disaster.
    In preparation for this hearing, our firm commissioned a 
nationwide survey to provide a benchmark of current awareness 
of issues relating to the scenario of the detonation of a 
lower-yield nuclear device in a major American city. An 
expanded version of the results is included in my formal 
testimony, but I would like to highlight three key findings of 
our research.
    First, almost half of all Americans believe they are not 
equipped today with sufficient information from the government 
about what they should do in the event of an attack.
    Second, the closer people are to an actual attack, the more 
likely they are to look to and rely on information from local 
emergency management authorities as opposed to Federal 
responders, authorities, leaders, and spokespeople.
    And third, of all the types of information provided in the 
aftermath of an attack, people surveyed placed a premium on 
messages that are accurate, giving the full facts no matter how 
negative, and then far down the line, information that is 
timely, and then comparatively fewer are interested in more 
abstract, general information, such as how the Nation will 
respond to the attack. So accuracy, no matter how negative, is 
what people say they are interested in in such a scenario.
    With all of this in mind, then, the question is what should 
the government focus on in the area of improving communications 
to save as many lives as possible. In my formal testimony, I 
devote a significant amount of time to discussing the following 
nine areas. For the purpose of my remarks to you this morning, 
however, I only have time to delve into a few of these, but the 
nine areas that I discussed in the formal testimony are as 
follows: The role of interagency coordination; pre-event 
message development; stakeholder identification; spokesperson 
identification and preparation; involving media and digital 
organizations; the importance of public-private partnerships; 
the importance of education and awareness efforts, which has 
been touched on by other panelists here; the criticality of the 
period immediately after an event in communications; and then 
training and lessons learned. So I will just discuss a few of 
those before concluding.
    First, on the role of interagency coordination, by 
establishing the DHS, this Committee and the Congress has long 
recognized the importance of the interagency approach in 
establishing clear lines of responsibility and coordination in 
disaster preparedness and response. The interagency approach 
remains just as critical in the area of communications planning 
for disasters, including in an act of or for an act of nuclear 
terrorism.
    Although we have not conducted enough analysis to make a 
specific recommendation to the Committee in this area, the 
Committee could consider as part of a subsequent review such 
issues as the adequacy of funding for communications planning 
at the interagency level, the optimum structure in the 
interagency for organizing that planning, and the sufficiency 
of emergency communications integration across all levels of 
government.
    Next, on spokesperson identification and preparation, as 
noted earlier, our research indicates that the closer people 
are to a nuclear terrorist attack, the more likely they will 
look to local authorities as the most trusted spokespeople and 
for the primary sources for trusted information on how to 
respond. What this suggests is a need for a planning approach 
that recognizes the literally hundreds or even thousands of 
possible local spokesmen across all 50 States. If we are to 
ensure an adequate standard of communications across all of 
these levels and geographic areas, then a plan will need to be 
put in place to identify these possible spokesmen, even down to 
the precinct level, down to the local community level, together 
with a means of engagement, standardized training, and 
information sharing.
    Next, on involving media and digital organizations, 
historically, news media organizations have been a vital 
conduit of emergency response information, but as we saw this 
week, the rapid expansion of digital and wireless 
communications, cellphone cameras, wireless communications 
means that information can be sent around the world as it 
happens, bypassing government resources and spokesmen as well 
as the traditional news media. This speaks to the likelihood of 
an overwhelming demand for immediate information, particularly 
those directly affected, following a major incident that will 
tax even the most robust systems.
    This is not to suggest, however, that we are disregarding 
the influence of the traditional media. As we saw on September 
11, 2001, in the event of a national emergency, people will 
tune in first to the broadcast media for immediate information 
and will return to it on a regular basis for updates. In fact, 
in times of national emergency, television networks have become 
the modern day version of the old town green where people 
gather to collect information and to share experiences. You 
will forgive my New England reference. But for these reasons--
--
    Chairman Lieberman. We thought it was very clever of you.
    Mr. Ullyot. Thank you, Mr. Chairman. For these reasons, it 
is important our communications plans recognize the need to 
have a means of providing sufficient content and spokesmen for 
these networks so as to ensure a stream of accurate and 
contextual information.
    Equally important, we must recognize the new world order in 
which digital communications, such as cellphone cameras, blogs, 
streaming video, etc., are increasingly becoming primary 
sources of information.
    And a note on the importance of education and awareness 
efforts. As I noted earlier, and other panelists did as well, 
our survey shows that almost half of our population believes it 
does not have adequate information to deal with a scenario such 
as a nuclear terrorist attack. For this reason, the task of 
public education is second to none in importance, but it is 
also the most challenging. How do we connect with a population 
that is already suffering from information overload generally? 
Seven years after September 11, 2001, with the public becoming 
numb to the ongoing warnings about the terror threat, how do we 
connect with Americans without alarming them? And how do we 
break through the barriers of cynicism and mistrust in the wake 
of Hurricane Katrina?
    I would be wrong if I told you that we have the answers to 
these questions today, but we would encourage Federal, State, 
and local authorities to sustain, if not to expand, the public 
education and awareness initiatives.
    Last, on the criticality of the period immediately after an 
event, as we saw during the initial hours and days following 
September 11, 2001, and Hurricane Katrina, the volume of 
uncertainty and misinformation in the event of a nuclear 
terrorist attack may likely far outweigh the amount of 
accurate, credible, and balanced information. At the same time, 
this is the period of a national crisis when the public's 
appetite for information is the most acute.
    One of the lessons from Hurricane Katrina is the need for 
wholly aligned coordination and communication among Federal, 
State, and local authorities. While politics is an inevitable 
force that will impact public perceptions of government 
response, I think we can all agree that the collapse of 
coordinated communications fed the cynicism and lack of trust 
in the response in Hurricane Katrina amongst the public and the 
news media. In short, the cacophony of Hurricane Katrina must 
be replaced with a symphony of communications in which all 
instruments work together.
    Mr. Chairman, Senator Collins, and Members of the 
Committee, it has been a privilege to be able to outline our 
thinking for you as this Committee considers how governments 
and first responders at all levels can communicate most 
effectively to save lives in the event of a nuclear attack. We 
believe this Committee and the Department of Homeland Security 
have accomplished a great deal in terms of preparing our Nation 
for such an event. The opportunity now is to build on this 
progress by ensuring that the communications planning 
recognizes the powerful technological and societal forces that 
have fundamentally changed the manner in which the public 
receives and shares information and by identifying those 
remaining barriers to effective communications.
    Thank you very much and I look forward to your questions.
    Chairman Lieberman. Thank you very much, Mr. Ullyot. Thanks 
also to Hill and Knowlton for the resources you expended to do 
that survey. That is very helpful, and if you do not mind, we 
will share it, of course, with the Department of Homeland 
Security and other relevant agencies.
    Mr. Ullyot. Sure.
    Chairman Lieberman. Let us do 8-minute rounds of questions, 
since it is only Senator Collins and I this morning.
    Dr. Redlener, let me begin with you. I appreciate your 
three myths that you outlined at the beginning, the extreme 
improbability of the event, a myth, the futility of planning, 
which is a myth, and also the myth that the Federal Government 
would come rapidly to the rescue because even though we are 
beginning to work at it, it is going to be difficult to do that 
quickly. But I wanted to ask you whether you agree or do not 
that it is nonetheless the Federal Government that has to 
stimulate, require, and support planning at the State and local 
levels so that they will be ready to come to the rescue.
    Dr. Redlener. Well, I agree very strongly with that. We 
have an odd situation now with respect to disaster planning. A 
nuclear terrorist attack, for example, is in my mind a national 
problem----
    Chairman Lieberman. Right.
    Dr. Redlener [continuing]. Requiring really significant 
Federal oversight and Federal intervention, both in the 
planning phase and the response phase, because as we said, 
local jurisdictions cannot handle this at all. But we have 
created a system where there is a minimum of Federal guidance 
and a maximum of local discretion to the point that I got a 
call less than 2 months ago from one of the senior officials in 
New York City's Office of Emergency Management asking if I 
would come down and care to discuss with them--they were 
beginning to think about what they would do in the event of a 
nuclear detonation.
    Now, many years after September 11, 2001, I think it should 
not be up to Los Angeles or Washington, DC, or Chicago or New 
York as to whether or not there will be planning and effective 
planning for nuclear terrorism. If the Federal Government as 
part of national security feels that those are target-potential 
cities, I think it is the Federal Government's responsibility 
to figure out a way to override what is otherwise local 
discretion. So we are using a model that works for designing a 
school system, which is here is some Federal support, but do 
what you need to do in Indiana. That model doesn't work when it 
comes to providing significant preparedness and protection for 
the American population around things like terrorism or major 
disasters.
    Chairman Lieberman. Are there any governmental or private 
entities in major metropolitan areas that are involved in or 
beginning to plan for the response to a nuclear terrorist 
attack?
    Dr. Redlener. There are some discussions in some cities 
and----
    Chairman Lieberman. Which are they?
    Dr. Redlener. Well, New York, for one. Los Angeles is 
another one that I am aware of, and I think Washington, DC. But 
they are at a very primitive state in most of these places 
because they are dealing with unbelievable inadequacies of 
capacity, and really, if you couple that with the myths that I 
was talking about, you get people left to their own devices who 
would really rather talk about how to evacuate from a coastal 
storm rather than deal with a nuclear terrorist attack.
    Chairman Lieberman. Yes. I will tell you of a confirmation 
hearing we held yesterday. I do not mean to highlight and focus 
on the gentleman, who is an excellent administrator, Paul 
Schneider. At his confirmation hearing yesterday for Deputy 
Secretary of DHS, he is really excellent, I asked him this 
question about nuclear preparedness, ``Are we prepared for a 
nuclear terrorist attack?'' He kept coming back to tell the 
Committee about how prepared we were for a hurricane. Now, part 
of that is that they have not gotten to it really, and part of 
it, I think, is that there is a hesitancy to do that.
    Do you agree that in the current organization of the 
Federal Government, the Department of Homeland Security is the 
place where this responsibility should be centered 
administratively?
    Dr. Redlener. Let me put it this way--in the United States, 
we have a tremendous challenge of figuring out responsibilities 
when it comes to public health response----
    Chairman Lieberman. Right.
    Dr. Redlener [continuing]. Between HHS and DHS.
    Chairman Lieberman. Yes.
    Dr. Redlener. That requires kind of a higher level of 
leadership to say, you have been talking between the two 
agencies. You have been talking for a couple of years now about 
this, and there are things that keep shifting back and forth. 
The DMATs that Dr. Helfand was talking about, one time they 
were under DHS, now they are under HHS, and it is just too 
confusing. I think we need to tighten that up and have some 
oversight that says--in a certain way, it does not really 
matter to me so much as long as one is taking full 
responsibility----
    Chairman Lieberman. Yes.
    Dr. Redlener [continuing]. And there is a difference of 
roles between the two, but DHS could be doing a lot more.
    Chairman Lieberman. Yes. I realized after I asked the 
question I was getting you into that ongoing controversy. What 
I really meant is not that everything will be done by the 
Department of Homeland Security, but that it will be the 
overall coordinating agency.
    Dr. Redlener. Yes.
    Chairman Lieberman. For instance, it is clear that the 
Department of Defense will have a lot of responsibilities in 
response to a nuclear attack. But still, DHS would have that 
homeland response.
    Does everyone agree that DHS should be the central 
coordinating agency?
    Dr. Helfand. Is that not what they were set up for?
    Chairman Lieberman. Yes, exactly. Good answer.
    Second, and Dr. Helfand, I was going to ask you this 
question of how do we organize, how do we prepare for a medical 
surge capacity to deal with a catastrophe of this scope? In 
other words, with all that has been said, how do we prepare on 
this scale because when we are talking about potentially tens 
of thousands of people being sick--forget for a moment the 
complicating factor of the need to prevent the spread of 
radioactive contamination to others--we just do not have the 
hospital space. We do not have the professional help. I 
mentioned the statistic about the startling shortage of 
available burn units around the country, let alone in a 
particular area that may be hit. So how do we begin to prepare 
a contingency plan for a disaster of this scope medically?
    Dr. Helfand. Well, I think it is going to be extremely 
difficult, but the pieces are those that I suggested, I think, 
in my testimony. We need to provide first for the personnel, 
and the DMAT model, I think, is a fine one to use.
    Chairman Lieberman. Yes.
    Dr. Helfand. We just need to expand it.
    Chairman Lieberman. We need more of them.
    Dr. Helfand. We need more of them, and we need to have more 
of them on stand-by at any one time.
    Probably the most difficult piece is going to be the 
facility piece because as you have just correctly suggested, 
hospitals are already stuffed. They cannot take care of the 
patients they have now and there is no surge capacity. There is 
probably a negative surge capacity. We do not have enough space 
at the moment for the patients that we have now.
    I think that the only real solution to that is going to be 
this combination of disaster medical centers and field 
hospitals, and it is going to be sort of expensive, but it is 
not going to be that expensive compared to other things that we 
have spent money on in the name of protecting ourselves from 
terrorism.
    Chairman Lieberman. You mean expensive in terms of having 
the stand-by capability?
    Dr. Helfand. That is right.
    Chairman Lieberman. And part of it, I take it, is simply 
requiring or incentivizing local areas to think about this and 
designate facilities or sites that need to be available, and 
then to the extent that they are capable, stocking them with 
supplies that would be available.
    Dr. Helfand. Yes. I mean, again, I am a doctor, not a 
government official----
    Chairman Lieberman. Yes. That is why you are making so much 
sense. [Laughter.]
    Dr. Helfand [continuing]. But I think really this is not 
something that cities are going to do very well on their own, 
and I think this probably, as Dr. Redlener just suggested, is 
going to have to be a Federal mandate and it is going to have 
to take Federal funding. I cannot imagine a city facing the 
kinds of constraints that most cities face now, spending a lot 
of money on buying ventilators and medical supplies to sit in a 
warehouse in a sports stadium against this potential 
availability----
    Chairman Lieberman. For a potentiality that most people do 
not want to believe is real.
    Dr. Redlener. That is right. So I think probably the 
Federal Government is going to have to step in, mandate it, and 
fund it.
    Chairman Lieberman. My time is up on this round. Senator 
Collins.
    Senator Collins. Thank you. Let me pick up where the 
Chairman left off, Dr. Helfand. In talking about the challenge 
of assembling the teams of medical personnel, you outlined very 
well your vision of having field hospitals that would be in 
stadiums, perhaps, since hospitals do not have that kind of 
surge capabilities. As you said, however, we only have 50 DMATs 
in the country right now. Do we need to broaden our concept of 
medical personnel beyond the typical members of DMATs? And by 
this, I mean looking at people with medical training who are 
not necessarily physicians and nurses but might be able to 
assist in providing care.
    I was struck in the aftermath of the failed response to 
Hurricane Katrina by conversations that I had with home health 
care nurses who said that had they been tapped, they could have 
been enormously helpful in identifying individuals who were 
disabled and homebound. They know where they are because they 
serve them everyday. But no one tapped into their knowledge. No 
one helped reach out to home health nurses, who are not 
traditionally members of DMATs. Even those who have training in 
the care of animals, like veterinarians, not traditional 
members, but when we are talking about taking care of people in 
this gray area where we may have to provide care to 100,000 
individuals who are sick, their training might well be helpful.
    What do you think of expanding our reach to medical 
personnel that are not traditionally involved in DMATs?
    Dr. Helfand. Well, I think that we want to mobilize any 
resources that we can in this endeavor, but I have a couple of 
qualifying comments on that. One is that a lot of these people 
that we are going to be using them to take care of are going to 
be very sick and they are going to need really skilled, trained 
doctors and nurses and other health professionals to do that 
job.
    The flip side of that is that the 50 DMATs have about, I 
think, 50 to 60 members each. That is only 3,000 people. We 
have a very large pool of doctors and nurses relative to that. 
I think that there is a lot of room to increase the DMATs, 
drawing on traditional highly trained health professionals. 
There is not a lot that goes on to try to attract people to 
joining these. I mean, you have to look for the DMAT system. 
There is not a very active recruiting effort. So I think that 
we might be able to recruit substantial numbers of very highly 
qualified and highly trained people to them if we trained more 
aggressively. But then beyond that, looking to other types of 
professionals and people in the community, certainly we should 
mobilize whatever resources we can.
    Senator Collins. Dr. Redlener.
    Dr. Redlener. Well, a couple of other points just to 
amplify what Dr. Helfand was just saying. First of all, the 
DMATs are not actually trained to do radiation contaminated 
injury care for people, and it is really only these specialized 
National Medical Response Teams that are, and there are even 
fewer of those than the DMAT teams. The problem is that if you 
take large numbers of people, even physicians not to mention 
alternate care providers, they may not have and they probably 
will not have even a little bit of training in terms of how to 
deal with, say, radiation contaminated wounds. It is a very 
complicated, specialized skill that we do not have.
    But the bigger issue is, and we have done some studies on 
this, the ability and willingness of health professionals to 
work in an area of contamination, whether it is working in a 
hospital where there has been pandemic patients or patients 
with radiation contamination. We do not know much about that, 
but I will tell you this, that when we did some studies, and 
there need to be a lot more of these, we found that under 
certain scenarios, no more than 30 to 35 percent of health 
personnel would actually show up or stay at work because they 
were concerned about their own safety, concerned about their 
families, and so forth.
    So if a hospital thinks it is prepared and dependent upon, 
say, 85 percent of people showing up for work, they will be 
rudely surprised in an actual event finding that only a third 
of the people are showing up. So there are strategies to 
mitigate that, but we need a lot more work to figure out what 
actually would happen in those kind of events.
    Senator Collins. And that actually brings me to the 
communications part of this, which is so, so critical. Mr. 
Ullyot, your survey is fascinating because I would have thought 
that most people would trust national figures or the President 
coming on television rather than the local emergency manager, 
and I think that is very valuable information for us to have.
    It is also evident from all of your testimony that the 
communications strategy is so important. I have participated in 
two FEMA exercises that were regional exercises. One was in the 
Chairman's home State, and in that exercise, there was a lot of 
emphasis on communication. In fact, there were even people 
playing CNN reporters who were putting a lot of pressure on the 
local and State elected officials to provide information right 
now, that kind of pressure that would be there in an actual 
emergency.
    By contrast, the second exercise that I attended, which was 
in Rhode Island and Massachusetts, to my knowledge did not have 
a communications aspect as part of the drill, or at least not 
that I observed. Should that not always be part of the 
exercises? Should there not be a communications aspect whenever 
we are doing training exercises?
    Mr. Ullyot. Absolutely, Senator Collins, whenever it is a 
coordinated response. I mean, I think there is an argument for 
having just the medical aspect or other aspects tested 
individually to just get them ready for a larger training 
exercise, but whenever there is a large coordinated exercise 
that tests multiple agencies or multiple responders in the 
local, State, and Federal groups, it is our view that it is 
absolutely essential to involve communications planning, and we 
go into that very broadly in our written statement, and we 
touched on it earlier today.
    I think it is important when you go back to the earlier 
point about trusting the local communities, usually in big 
exercises such as TOPOFF and the other major exercises that are 
done at the Federal level, they do make sure to involve State 
and local principals in order to test their communications 
ability, but it is important to do that with really local and 
even community leaders, driving down to really the precinct 
level, because our polling and other research shows that is who 
people will look to most in times of emergency, mayors and 
others.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, really important 
points. We are going to do a second round of 6 minutes each. 
Unfortunately, we have a vote going off soon, so we will see if 
we can get a round for each of us in.
    Well, let me ask a general question before I get back to 
communications. As we hear this, we are dealing with a 
situation where we are all accepting that a nuclear attack on 
an American city by a terrorist group is a real possibility. 
Second, that there will be a horrific loss of life. But third, 
if we are prepared, we can save a lot of lives, a multiple of 
how many tragically will be lost.
    So as I listen, and we talk about preparedness, one of the 
key immediate decisions will be to advise the people outside 
the immediate area of impact, the so-called gray zone, whether 
they should evacuate or stay in place. So let me ask you, I 
presume that there is not an organized way in which most 
American cities are prepared to make that decision now, is that 
correct?
    Dr. Helfand. Correct.
    Dr. Redlener. Correct.
    Chairman Lieberman. Yes. And in the normal course, exactly 
the officials that the people in the local areas will most 
trust will not be able to make the decision even though they 
are the real authority figures, like the chief of police or the 
fire chief. How do we want to prepare major metropolitan areas 
to make that decision in a timely fashion? Who has the 
expertise to do it? Dr. Redlener.
    Dr. Redlener. As it turns out, with this as in many other 
large-scale disasters, citizens are actually the first 
responders, and informing and forewarning citizens about this, 
as uncomfortable as it is--I have my own kids who are living 
now and working in New York City. There are things that I want 
them to know and I want all citizens to know about----
    Chairman Lieberman. Since three of my four children are 
living in New York City, also, what do you want them to know?
    Dr. Redlener. We should talk. [Laughter.]
    I mean there are issues about, for example, attempting not 
to stare into the fireball. We are going to have to revert to 
the old duck-and-cover if you are anywhere near the explosion. 
You have 15 to 20 minutes to get out of the way after the blast 
before the really acute high-level radiation kills you, and 
some people, if they know which direction to go in and there is 
a way of knowing which direction to go in, can actually get 
themselves out of some degree of harm's way.
    So there is a series of things. The issue of 24 hours, 
trying to escape after that 15 or 20 minutes for the next 24 
hours is probably lethal in many circumstances. We would rather 
have you stay and shelter in place and so forth. You want to be 
above the ninth or tenth floor because radiation settles and so 
forth.
    Chairman Lieberman. Well, those are all very important and 
those will be subjects of communication to the public, but if 
this happened in a major American city, what information would 
the officials need in order to make the judgment about whether 
people should stay where they are or evacuate? Dr. Helfand.
    Dr. Helfand. Well, I think in most cases, they are going to 
want to shelter because of the experience that we have, that 
people who try to evacuate are more likely to get a heavier 
radiation exposure. There are certain environmental and weather 
conditions that might make it that certain people would want to 
evacuate. If you knew the wind was going to be blowing from the 
west reliably for the next 3 days, then people to the west of 
the explosion ought to get out of the area because they are not 
going to be getting fallout right then.
    Chairman Lieberman. Of course, they are going to need 
somebody to tell them that the wind is going to be blowing from 
the west.
    Dr. Helfand. Exactly, and I personally do not have a lot of 
confidence that officials at a city level are going to be able 
to do this. They may need to be the messengers.
    Chairman Lieberman. Right.
    Dr. Helfand. But I think the decision is going to have to 
be made by somebody who is set up in a command center. This is 
an attack. This is like a nuclear war.
    Chairman Lieberman. War.
    Dr. Helfand. We have to respond to this in that way. There 
needs to be a command center set up. Somebody gets the weather 
forecast real time from the National Weather Service and says, 
look, the wind is going to blow in New York absolutely from the 
west for the next 36 hours. People in New Jersey should get out 
of there and people in Queens and Manhattan should go into 
their basements. And they send that to the chief of police or 
the mayor who gets on the radio. And that obviously has to be 
set up in advance so that the mayor knows that he is going to 
be getting this information and be supplied with this decision 
that he can then communicate.
    Chairman Lieberman. Mr. Ullyot, you were going to say 
something, and then we will----
    Mr. Ullyot. Yes, Mr. Chairman, I have a really quick 
communications point. To that end, let us say you are 
recommending to some of the community, let us say downwind, to 
shelter in place and others who are farther to take a different 
course of action, such as evacuating. We have in the written 
testimony how the mental noise really takes over when there is 
a situation of high emotion, and you cannot imagine a situation 
of higher emotion than a nuclear terrorist attack, you would 
say.
    A lot of the processes that are in place are for Reverse 
911 calls, or Emergency Broadcast System, and these types of 
direct communications from the local authorities straight out 
to the community. It was used in the California wildfires. It 
is used at universities. It is used in many situations to good 
effect.
    In this type of a situation, those types of messages that 
would go out over that type of system, provided it were there, 
would be very complicated for people to take on board because 
you would be saying, everybody west of the Potomac, do one 
action. Everybody east of the Potomac, or north, take this 
following action. And somebody could hear the first message, 
hang up the phone, and do exactly the opposite because of all 
that mental noise. So you are trying to send sort of mixed and 
very complicated messages, which are life-saving messages, and 
you are assuming that people will take them on board, and that 
is just not going to happen, according to research.
    Chairman Lieberman. Mr. Becker.
    Mr. Becker. And I would add to that, once the blast 
happens, that quarterback, that county emergency manager who is 
in that operations center is not going to have the information 
he or she needs to make that decision. So it is going to be 
very crude at that point. You are going to be describing 
geographies that are going to be wrong. They are going to be 
wrong.
    Chairman Lieberman. You need to start doing that quickly.
    Mr. Becker. They do, and they are not going to have the 
information they need to make the decisions at first. Is it a 
blast or is it a nuclear event?
    Chairman Lieberman. Yes.
    Mr. Becker. As that evolves over time, we have lost the 
time to save those lives. We have lost the time to protect 
those people the way it sequences.
    Chairman Lieberman. Thanks. My time is up. Senator Collins.
    Senator Collins. Mr. Becker, the Red Cross has had a lot of 
financial difficulties lately that have led to staff cutbacks. 
What is your current capability to respond if there were an 
attack of the type that we have been discussing today?
    Mr. Becker. We have made significant cuts. We are in bad 
economic times like a lot of other organizations. What we have 
not cut is what we do for people in disaster. When you look at 
the metrics, what we are capable of, we have supplies on hand 
to shelter 500,000 people and sustain that for a 6-day period 
of time. We have prepackaged meals on hand to serve those 
500,000 people for the first 6 days.
    We have the capabilities, but I would suggest in this event 
those are spread across the country. When we have made our 
recent budget cuts, we did not touch what we do for people in 
disaster, but we have cut the growth in capacity in local 
communities. It does not help that of those 500,000 cots and 
blankets, some of them are in Reno and some of them are in 
Hattiesburg when the event is in Washington, DC.
    What is local is what matters most, and what we have been 
investing in is local capacity in our chapters and that is the 
need going forward. You can have a scalable national system, 
but things that arrive 2 days later are too late, and what we 
have been trying to build is our local capacity in our high 
risk parts of the country, and that is where we have ceased 
making the investments with the budget constraints that you are 
talking about.
    Senator Collins. Then wouldn't that hamper your ability to 
respond to this kind of attack? It sounds like you have, 
nationwide, the same capabilities, but if you have had to cut 
back on your investments in local capabilities, all disasters 
are local in the first 24 hours.
    Mr. Becker. It would hamper us in a no-notice event like 
this. For example, a hurricane, you know it is coming. We have 
2 to 3 days to move people in. But on a no-notice terrorist 
incident, that is what I was saying in my testimony, it is 
going to take us longer to scale up than we want because none 
of these communities have in them what is needed. And even if 
they have the buildings and even if things are usable, we still 
have to supplement that, and we are presuming we can move 
things into these communities at a time when the roads are 
clogged and airports are clogged. It is going to be very 
problematic. We have a national system, but local capacity is 
what matters in an incident like this.
    Senator Collins. I will say that I am very sympathetic to 
your request for Federal funding for the Red Cross personnel 
that are in the FEMA regional offices. When the Chairman and I 
wrote the reforms of FEMA in the wake of Hurricane Katrina, we 
put a lot of emphasis on the regional offices and having DOD 
personnel stationed there, having Red Cross staff stationed 
there because that is how you are going to get the improved 
response, that kind of coordinated response. So I just wanted 
to let you know that I am very sympathetic to that request.
    Mr. Becker. Thank you for your support.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins. I want to 
ask a final question before we go over to the Senate. Mr. 
Ullyot, I used to hear tests on the radio of the Emergency 
Broadcast System. What is the status of that? Of course, there 
was never any real content to it, so part of what we need to do 
in preparation is to educate and prepare pretty much every 
broadcast network and local TV and radio station as to what to 
do if, God forbid, this happens.
    Mr. Ullyot. Yes, Mr. Chairman. We talked in our testimony 
about the importance of involving the Federal Government with 
the national broadcast cable channels, the broadcast networks, 
the radio networks, etc.
    To your question about the Emergency Broadcast System, 
there are a lot of people who are communications experts on the 
infrastructure side who are a lot better at this, but my 
understanding is that the Emergency Broadcast System is still 
in place. It is a legacy system. But it has never been used to 
communicate a message, even though it has been set up since, I 
believe, the 1950s, but even on September 11, 2001, there was 
no need because, once again, people were turning to the 
broadcast networks----
    Chairman Lieberman. Right.
    Mr. Ullyot [continuing]. And there was no need to 
implement. But that is still up, and I think the technologies 
that we talked about a little bit earlier about Reverse 911 
calls, etc., those are very encouraging in terms of breaking 
through the clutter that you are going to get. But the question 
is really how will you involve the local leaders and when do 
you pull the trigger in terms of specific messages that, as Dr. 
Helfand said, could be advised in this type of a situation.
    Chairman Lieberman. Well, thank you. You have been 
excellent witnesses. I cannot remember another hearing where I 
not only felt that the witnesses educated the Committee well, 
but also had as many specific and constructive suggestions that 
we can include in our recommendations when we get to that 
stage. So I really appreciate your presence, but also the 
effort that you put into it and the experience that you brought 
to the table.
    We are going to leave the record of this hearing open for 
15 days in case you want to add anything to the record or 
Senator Collins or I or any of the other Members of the 
Committee would like to submit questions to you in writing.
    Senator Collins, do you want to add anything?
    Senator Collins. No, thank you. Great hearing.
    Chairman Lieberman. Thank you. With that, the hearing is 
adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]


                  NUCLEAR TERRORISM: PROVIDING MEDICAL



                  CARE AND MEETING BASIC NEEDS IN THE



                    AFTERMATH--THE FEDERAL RESPONSE

                              ----------                              


                        THURSDAY, JUNE 26, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning, and welcome to this 
hearing. Thanks very much for being here.
    This is the fifth in a series of hearings this Committee 
has held to examine a question that it is natural to want to 
turn away from, but we really cannot. And that is, what is the 
state of our Nation's preparedness to mount an effective 
response to a terrorist detonation of a nuclear weapon in a 
major American city?
    While working to prevent such an attack is and, of course, 
will continue to be our top priority, we know that the risk is 
real, and we cannot act as if we can fully eliminate that risk. 
A nuclear attack on our homeland would be sudden and swift. It 
would be devastating and deadly. Failure to develop and test a 
comprehensive plan for dealing with the aftermath would only 
magnify its impact.
    In this hearing, ``Nuclear Terrorism: Providing Medical 
Care and Meeting Basic Needs in the Aftermath,'' we will 
examine some very specific public health and public safety 
challenges we know we will face, and ask what our state of 
preparedness to respond is at this time.
    After a terrorist nuclear attack, local and State emergency 
responders would clearly be the first on the scene and, 
therefore, should adequately plan for the important medical and 
mass care responsibilities that they would need to fulfill in 
the first days after such an attack. In that regard, we are 
very pleased to have with us to testify this morning Chief 
James Schwartz, the Fire Chief of Arlington County, Virginia, 
which has to be considered a high-risk target area because it 
is adjacent to the District of Columbia and is the home of the 
Pentagon.
    However, because no one State, county, or municipality has 
the capabilities to respond fully to the catastrophic 
consequences of a nuclear attack in the United States, a rapid, 
coordinated response by the Federal Government will be 
critically necessary across the full range of medical and mass 
care missions.
    To better understand how prepared the Federal Government is 
to assume that role and what we can do together to make sure we 
are better prepared, we are very pleased to hear testimony 
today from Administrator David Paulison of the Federal 
Emergency Management Agency (FEMA), which is responsible for 
the overall governmental response and is also the lead agency 
for mass sheltering and feeding of displaced populations; the 
Assistant Secretary for Preparedness and Response, Rear Admiral 
Craig Vanderhagen from the Department of Health and Human 
Services (HHS), which has the lead role in providing medical 
care and addressing public health consequences; and Assistant 
Secretary of Defense for Homeland Defense, Paul McHale. The 
Department of Defense (DOD) is charged with a variety of 
supporting and some lead roles in their responsibility for 
support of civilian authorities in these circumstances.
    So this is an important hearing. We look forward to your 
testimony and then asking some questions.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you. Mr. Chairman, thank you for 
holding this hearing and for continuing the Committee's 
important work on nuclear terrorism. I notice, as I look at the 
press tables today, that they are not jammed with people, and 
yet if we failed to do this kind of work, the consequences are 
so enormous. So I salute you for tackling a very difficult, a 
very consequential issue and focusing the Committee's work on 
nuclear terrorism.
    Discussions of nuclear terrorism tend to overlook an 
important point. As Dr. Michael Robbins, a professor of 
radiation oncology at the Wake Forest University School of 
Medicine, has cautioned, the vast majority of general 
practitioners, emergency responders, and even many radiologists 
have little understanding of the health consequences of a 
radiological or nuclear event.
    As this Committee considers the challenges of responding to 
a terrorist nuclear attack on an American city, his caution 
reminds us of the vast scale of these challenges; that is, not 
only the general public but also the medical community is ill-
prepared to face the terrible consequences of such an attack.
    Our earlier hearings on this subject, not to mention the 
latest news stories on the activities of the Pakistani nuclear 
secrets seller, A.Q. Khan, have left little room for doubt that 
technical and delivery options for such an attack are within 
the reach of terrorists. Previous witnesses have given us 
chilling testimony on the scale and nature of response 
challenges to a terrorist nuclear attack. They would include 
not only mass casualties and immense strain on local response 
capabilities, but also specific radiation-related challenges 
such as mass triage and burn care, decontamination, fallout 
plume modeling, and shelter or evacuation decisions.
    One of the key recommendations that emerged from our prior 
hearings is the need for surge capacity for medical care for 
tens of thousands of injured people. Options for providing that 
surge capacity include field hospitals for triaging patients, 
as well as prepositioning medications, supplies, and equipment 
at large public facilities, such as convention centers or 
stadiums.
    If such a disastrous attack should occur, a well-planned, 
vigorous, and coordinated, effective response by Federal 
agencies will be critical to augmenting the local and State 
preparedness effort, as well as the nonprofit partners and the 
private sector organizations that would be involved.
    Besides having access to resources throughout the country, 
the Federal Government can provide situational awareness and 
coordination that are critical to an effective response. 
Today's hearing gives us an opportunity to hear firsthand how 
the key Federal agencies and departments are planning and 
preparing responses to a possible terrorist nuclear attack. I, 
too, like the Chairman, am particularly pleased that the panel 
includes Fire Chief James Schwartz of Arlington, Virginia. His 
experiences in tactical command of the response to the 
September 11, 2001, attack on the Pentagon and his department's 
training for possible nuclear incidents will be very valuable 
to this Committee's deliberations.
    Arlington is, of course, part of the National Capital 
Region and participates in extensive regional planning with 
Washington, DC, Maryland, and the rest of Virginia. 
Nonetheless, it was Arlington firefighters who were first on 
the scene at the Pentagon on September 11, 2001. And today, 
their plans assume no direct Federal support for the first 24 
to 72 hours after a catastrophe. This standard of preparation 
is commendable and should serve as a model for first responders 
in parts of the country where Federal assets are less 
concentrated.
    One of my concerns is that there is a misperception among 
many State and local responders that if there is a nuclear 
attack, somehow Federal resources and Federal first responders 
in the military will immediately be on the scene. But, in fact, 
regardless of the kind of disaster, it is always the State and 
local first responders who are first on the scene, and it 
always will be that way.
    I am very pleased with the improvements that we are making. 
I want to commend FEMA's Administrator, Chief Paulison, for 
effectively implementing many of the reforms that the Chairman 
and I authored as a result of our investigation into the failed 
and flawed response to Hurricane Katrina.
    I am going to put the rest of my statement in the record 
because I am eager to hear our witnesses. But thank you, Mr. 
Chairman, for calling this important hearing.
    Chairman Lieberman. Thanks to you, Senator Collins, for 
your statement. Thank you for being, as always, a great co-
leader in this effort. I was just thinking yesterday, somebody 
in the media asked me to document some of the things I had 
accomplished as Chairman of this Committee. And I started by 
mentioning something that I was quite proud of. And they said, 
``But Senator Collins was Chairman when that happened.'' I 
said, ``You know, the difference blurs.''
    Senator Collins. It is all one effort.
    Chairman Lieberman. So thank you. We are glad to have the 
panel here, and we look forward to your testimony. Chief 
Paulison, why don't you begin.

TESTIMONY OF HON. R. DAVID PAULISON,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Paulison. Good morning, Chairman Lieberman and Ranking 
Member Collins. I, too, want to thank you for holding this 
series of hearings. These are important for our country, for 
its protection. And the fact that you have taken on this very 
challenging type of subject is commendable, and I appreciate it 
very much.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Paulison appears in the Appendix 
on page 590.
---------------------------------------------------------------------------
    A terrorist attack involving an improvised nuclear device 
(IND), like the one described in our National Planning Scenario 
1 involving a 10-kiloton device, would present a scale and 
complexity of concentrated destruction that would demand 
unprecedented cooperation at all levels of government, our 
nonprofits in the private sector, as Senator Collins pointed 
out. These scenarios represent the greatest danger facing the 
United States and do have the highest priority in coordinated 
Federal planning, its training, its exercises, and grant 
investments.
    The State and local governments have received $23 billion 
in preparedness grants to build all-hazard capabilities. In the 
past 4 years alone, fully $350 million in Department of 
Homeland Security grant programs have been invested in projects 
related to radiological and nuclear preparedness as well as 
decontamination, which we know is going to be a major issue for 
us. We have trained more than 33,000 students in related 
courses, conducted numerous exercises, and in 2010, we will 
conduct a national exercise preparing for such a device, an IND 
device over 10-kiloton measures.
    Our national emergency response system customarily operates 
on two basic principles: On request services and load 
redistribution. The affected jurisdictions typically request 
specific assistance to address urgent needs that exceed their 
capacity. Mutual aid agreements and Federal assistance provide 
the means of procedures to redistribute the demand across our 
Nation's robust but highly decentralized emergency response 
system. While this has been effective, the detonation of an IND 
would decimate local response and that coordination.
    We have been hard at work ensuring that our preparedness 
and response is scaled to these scenarios. FEMA has new 
authorities that you have given us as new resources and the 
National Incident Management System and National Response 
Framework exemplify how we have recalibrated our plans, our 
policies, and procedures to those ends.
    While existing plans are in place today, we are developing 
an Integrated Planning System in close coordination with our 
State and local partners. This system will establish a process 
to develop Federal plans and to ensure their integration with 
State and local plans. And since I submitted my written 
testimony, we have just finished the National Response 
Framework Incident Annexes, including the updates to the 
Catastrophic Incident Annex, Nuclear/Radiological Incident 
Annex, and also the Mass Evacuation Annex. These plans outline 
specific response to a nuclear attack.
    Under these plans, FEMA will immediately push pre-
designated resources to a Federal Mobilization Center or 
staging area near the incident area and begin key action that I 
detail in my submitted testimony. Upon arrival, these resources 
will be redeployed to the incident area and integrated into the 
response operations when requested and approved by--and in 
collaboration with--appropriate State or local incident command 
authorities, if, in fact, they are intact.
    FEMA's primary responsibility is to work with the affected 
States to identify the needs and to task, through our Mission 
Assignments, the appropriate Federal agency to fulfill these 
needs. And as you are well aware, we have expanded the use of 
our Pre-Scripted Mission Assignments. In 2006, FEMA had only 44 
Pre-Scripted Mission Assignments with two Federal agencies. 
Today, we have 244 in coordination with 31 different Federal 
departments and agencies.
    A key mission identified in the National Response Framework 
is the evaluation, the coordination, and delivery of mass care 
and emergency assistance through FEMA, our Federal, State, and 
local partners, our non-governmental agencies, the private 
sector, and our contract support. Known as Emergency Support 
Function 6 (ESF-6), this process provides basic life-sustaining 
assistance to individuals, households, and household pets that 
have been affected by disaster. Containment is crucial to 
avoiding spreading the contaminant to the unaffected population 
and to ensure safe participation of relief agency staff.
    The Department of Defense, the Department of Justice, and 
the Department of Health and Human Services are the ones that 
will be responsible for determining if or when individuals and 
families can or will be evacuated from areas impacted by 
nuclear attack. And I have provided greater detail in my 
written testimony on how ESF-6 really works.
    In conclusion, let me assure you that FEMA does have a 
sense of urgency and a determined resolve to build on the 
knowledge derived from previous disaster events and also from 
the Federal- and State-level exercises that we have been 
holding over the last several years. Today, our operations and 
programs reflect the lessons learned from the past and are 
based on a collaborative approach to disaster response and 
recovery. And I need to emphasize that. One of my favorite 
quotes is from Harry Truman, who said, ``It is amazing how much 
you can accomplish when you do not care who gets the credit.''
    FEMA and the Department of Homeland Security continue to 
work with our State and local governments, as well as our 
Federal partners who are sitting at this table, and our non-
governmental organizations and voluntary agencies to improve 
our capabilities and work proactively to protect the American 
people.
    Again, I want to thank you for the opportunity today, and I 
am pleased to answer any questions you might have. Thank you.
    Chairman Lieberman. Thanks, Chief. That is a good 
beginning. I want to just take from what you said that you view 
this as the greatest danger to the United States.
    Mr. Paulison. Yes, sir, I do. It is one of those issues 
that is a low probability but has a tremendously high impact.
    Chairman Lieberman. Right.
    Mr. Paulison. And we have to prepare for it, and that is 
what we are doing.
    Chairman Lieberman. That is what has motivated Senator 
Collins and me to do this series of hearings. I remember once--
I think it was last year--we asked Secretary Chertoff the 
perennial question about what keeps you up at night in terms of 
your responsibilities, and he said a terrorist nuclear 
detonation or a radiological dirty bomb within the United 
States.
    The second point, which I did not mention in my opening 
statement but has come out in earlier hearing testimony, is the 
counterintuitive fact that a lot of lives can be saved in an 
area that is quite close to the point of detonation if there is 
an adequate and immediate response ready. In other words, even 
if, God forbid, a bomb went off in the center of Washington, 
DC, hundreds of thousands of lives could be saved within the 
city limits if we move quickly enough in a lot of different 
areas.
    So that is my own introduction, Admiral Vanderwagen, with 
thanks for your willingness to continue your service to our 
country at HHS.

TESTIMONY OF HON. W. CRAIG VANDERWAGEN,\1\ ASSISTANT SECRETARY 
 FOR PREPAREDNESS AND RESPONSE, U.S. DEPARTMENT OF HEALTH AND 
                         HUMAN SERVICES

    Admiral Vanderwagen. It is a blessing, sir. I appreciate 
the opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Vanderwagen appears in the 
Appendix on page 603.
---------------------------------------------------------------------------
    I want to say, first and foremost, that we work very 
closely under the direction and guidance of Chief Paulison and 
his group; that is, we have the responsibility under law for 
Emergency Support Function 8, which is the public health and 
medical response to a disaster or emergency. But that has to 
work under the coordination and direction of FEMA and DHS. And 
I think the relationships have improved tremendously, just to 
echo something that I think Chief Paulison mentioned.
    Our responsibility in Health and Human Services under the 
Pandemic and All Hazards Preparedness Act really gives us an 
enterprise-wide responsibility with regard to this and to other 
hazardous events that we can deal with. And what do I mean by 
that? What I mean is we have the responsibility to understand 
the research pipeline and those good research ideas for 
countermeasures that we can use in events to treat people, to 
prevent illness where we can and to take those good ideas 
through advanced development so that we have safe and effective 
products that we can use in events to treat people 
appropriately. Then we have to think about where we store those 
and how we get them rapidly to sites, and then last, we need to 
think about the delivery platforms; that is, what are the 
capabilities that exist in communities, in States, and in the 
Federal environment to assure that we have a national delivery 
platform that will meet the challenge of a given event?
    In the case of an IND, this is indeed one of the most 
catastrophic events that we could endure. There are other 
events that will challenge us in much the same way that have 
broader geographic impact and have a temporal time course that 
is long, involved, and challenging, like a pandemic. There are 
other biological events that could be of this order of 
magnitude. A spray of anthrax over Long Island could lead to 
300,000 deaths in 5 days if we do not intervene properly.
    So there are catastrophic events, and then there are 
catastrophic events. An IND would kill, indeed, tens of 
thousands of individuals just with blast, burn, and traumatic 
effects, not to mention radiation. That is a significant 
challenge, and in that environment our strategic goals are the 
following: Compassionate and appropriate care for the families 
of those who have died; appropriate care for as many people as 
we can provide for those who have been directly injured by the 
blast, the radiation, and by the burn effects of such an event; 
to deal with that portion of the population that may have 
radiation exposure but is not sure what their illness may look 
like; and, last, to deal with the mental health and spiritual 
impacts of such an event on the population that is affected, 
one could say the Nation at large.
    In order to accomplish that, we have developed playbooks 
that start with a set of assumptions about what we would be 
dealing with, a 10-kiloton device at the intersection of 14th 
and Constitution as an example, and what are the specific 
actions that would be required, the missions that need to be 
met in a tactical environment to meet the needs of those 
strategic objectives. The challenge here is operationally 
linking those tactical means in a meaningful way to achieve 
those strategic goals.
    Medical surge is not a uniform event. We have learned much 
from Tel Aviv and other experiences in Israel. We have learned 
from Madrid. We have learned from London that improvised 
explosive devices (IEDs) have a surge requirement associated 
with them. No one has dealt with something of this scope, 
however, so we really do not have a ton of guidance on how to 
approach this kind of mass surge event.
    There have been many improvements over the last 5 years. 
The Congress has provided support to the States in the form of 
the Hospital Preparedness Grant Program and the Public Health 
Emergency Preparedness grants for medical and public health 
response. I just want to tell you that if we look back at 2002, 
there was a very limited infrastructure for integrated mass 
care. Now we have 87 percent of all U.S. hospitals 
participating in the program that would bring about mass care.
    In 2002, there was no known identified surge bed capacity. 
Through the National Disaster Medical Service (NDMS) system, we 
can provide 30,000 beds, but under the Hospital Preparedness 
Program we have over 200,000 beds identified for surge 
capability around the country.
    As far as decontamination goes, two-thirds of the hospitals 
in 2002 reported they really did not have any ability to 
decontaminate people effectively. By 2006, nationwide, 
hospitals had the collective capability to decontaminate over 
400,000 people within 3 hours. Of course, this does not account 
for transportation and related issues to get people to 
decontamination sites.
    So there have been many steps forward to bring about 
progress. The issue of medical personnel's knowledge is an 
important and critical one to us as well. So not only with our 
HHS colleagues but with the national treatment group in this 
area, we have published numerous articles now in the medical 
literature that run from very specialized journals like Blood, 
which is targeted to hematologists and oncologists, to the 
American Journal of Disaster Medicine to Prehospital Emergency 
Care that describe for them what they should be looking for and 
what the critical decision points would be for them in 
providing care.
    In addition to that, we have developed an online, just-in-
time training package called the Radiological Event Medical 
Management Program that describes in great detail how 
clinicians in an emergency room or in a family practice can 
approach the issue of doing the appropriate clinical assessment 
and diagnosis of their patient and what the treatment options 
and locations will be.
    So we have moved forward significantly in the last 5 years. 
There are now extensive burn bed networks and expansion for 
surge capacity. I was just in New Jersey last week, and St. 
Barnabas Medical Center, for instance, has developed an 
alliance with burn centers up and down the East Coast for 
definitive care and patient transport in a surge environment. 
In addition to that, all the Level 1 and Level 2 trauma 
facilities in New Jersey have agreed to and identified means to 
act as surge capacity for uniquely demanding trauma and burn-
related patients.
    So we have made significant progress forward. The big book 
sitting here is not all preparation for this hearing. But, in 
fact, two-thirds of it are the playbooks that we have for 
dealing with radiation dispersal devices and for improvised 
nuclear devices. In the post-Hurricane Katrina world, with the 
passage of the Pandemic and All Hazards Preparedness Act and 
the strengthening and the improvement of the Department of 
Homeland Security and FEMA, we have come a long way but gaps 
persist. There are gaps in the research base. If one thinks 
about the amount of research that is invested in cardiac 
disease, in diabetes, in infectious disease, the amount 
invested in research in this area is extremely small. That 
means we have less of a pipeline for product development so 
that we can have the appropriate medications to treat people. 
However, we have issued a request for proposals for new 
medications for treating people who have acute radiation 
syndrome. We had almost a score of offerers, and we will 
probably award contracts for development of these products to 
probably about half of those offerers.
    We think there is real movement forward in the arena of 
development of medications. There are gaps yet to be filled in 
the delivery platform capability. Clearly, we need to do more 
training. Clearly, communities need to take on the very 
difficult challenges of how they will address high-demand 
requirements against low-availability assets. Those community 
discussions need to occur before events occur so that there are 
clear pathways forward in how they will use very low-
availability assets to meet an overwhelming demand because I am 
not convinced that there is enough money in the system to buy 
all the beds we would like to have, to buy all the expertise 
that we would like to have. Therefore, people will have to do a 
lot of cross-coverage, interdisciplinary work, and they will 
have to make difficult decisions about high-demand and low-
availability assets.
    Having said that, great progress has been made. There is a 
path forward for meeting many of these gaps. Some of that is 
technology catch-up. Some of that is appropriate funding levels 
for that advanced development. But I am very optimistic--I have 
been all around the country in the last 4 months from Buffalo 
to Miami to Honolulu to Seattle--because people are taking this 
very seriously and putting the work in to try and deal with how 
they will operationally use their tactical means to achieve 
those strategic objectives.
    I thank you for the opportunity to be with you today.
    Chairman Lieberman. Thanks very much, Admiral. I appreciate 
the progress report, and obviously we will have questions about 
what to do next.
    Secretary McHale, welcome back.

   TESTIMONY OF HON. PAUL MCHALE,\1\ ASSISTANT SECRETARY OF 
 DEFENSE FOR HOMELAND DEFENSE AND AMERICAS' SECURITY AFFAIRS, 
                   U.S. DEPARTMENT OF DEFENSE

    Mr. McHale. Good to be back, sir. Chairman Lieberman and 
Senator Collins, thank you for the opportunity to address you 
today on the Department of Defense's capabilities and 
substantial progress in preparing for a terrorist nuclear 
attack on an American city. Mr. Chairman, I previously 
submitted my formal testimony for the record, and in the 
interest of moving to questions as quickly as possible, I will 
simply summarize my statement at this point.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McHale appears in the Appendix on 
page 615.
---------------------------------------------------------------------------
    Chairman Lieberman. Thanks. Let me say for the record that 
the statements you have been good enough to prepare will be 
printed in full in our Committee record.
    Mr. McHale. Thank you, sir.
    The greatest threat in today's security environment is the 
nexus between transnational terrorism and chemical, biological, 
radiological, nuclear, and high-yield explosive weapons 
proliferation, particularly the proliferation of nuclear 
weapons. As noted in our Department's Strategy for Homeland 
Defense and Civil Support, which was published in June 2005, 
``Terrorists will seek to employ asymmetric means to penetrate 
our defenses and exploit the openness of our society to their 
advantage. By attacking our citizens, our economic 
institutions, our physical infrastructure, and our social 
fabric, they seek to destroy American democracy. We dare not 
underestimate the devastation that terrorists seek to bring to 
Americans at home.''
    As noted by Senator Lieberman earlier, our preeminent 
national security goal is to prevent a terrorist nuclear 
attack. In support of this objective, DOD assists civil 
authorities to detect, identify, neutralize, dismantle, and 
dispose of nuclear threats before they can reach our borders 
and, if they have penetrated our borders, before they can be 
employed against our Nation. Still, as you correctly noted 2 
months ago, Mr. Chairman, ``we must also prepare for the 
possibility that a determined terrorist will succeed despite 
our best efforts.''
    It is that chilling reality that brings us together this 
morning. Should the terrorists succeed, we will face a 
challenge of appalling and unprecedented magnitude involving 
thousands of casualties, more than 1 million evacuees, and 
contamination of up to 3,000 square miles. We--Federal, State, 
and local governments, non-governmental organizations like the 
Red Cross, and the private sector--must be prepared to respond 
quickly and effectively to save the thousands of lives placed 
at risk in the wake of a nuclear attack. DOD's chemical, 
biological, radiological, nuclear, and high-yield explosive 
(CBRNE) response capabilities are the best funded, best 
equipped, and best trained in the world. During the past 7 
years, DOD has developed unprecedented CBRNE response 
capabilities and has trained to employ these capabilities in 
rapid support of civil authorities to help save lives.
    Within the Federal Government, the Department of Homeland 
Security has the primary responsibility to coordinate the 
national effort to prepare for, prevent, protect against, 
respond to, and recover from terrorist CBRNE attacks. If 
terrorists were to attack an American city with a nuclear 
weapon, the Department of Defense, at the direction of the 
President or the Secretary of Defense, as appropriate and 
consistent with the law and the imperative to maintain our 
Department's warfighting readiness, will provide critical 
nuclear consequence management support to civil authorities as 
part of the comprehensive national response to a nuclear 
incident.
    Within DOD, several entities would play a key role in the 
response to a terrorist nuclear attack on an American city. For 
example, as Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs, I am responsible, by law, for 
coordinating DOD assistance to Federal, State, and local 
officials responding to threats involving CBRNE weapons or 
related materials or technologies, including assistance in 
identifying, neutralizing, dismantling, and disposing of CBRNE 
weapons and related materials.
    Two combatant commands are responsible for actually 
employing Federal military forces to provide defense support to 
civil authorities, including responses to domestic terrorist 
nuclear attacks. The Commander of the U.S. Northern Command 
(USNORTHCOM) is responsible for supporting civil responses to 
terrorist nuclear attacks in the lower 48 States and in Alaska, 
Puerto Rico, and the U.S. Virgin Islands. The Commander of U.S. 
Pacific Command (USPACOM) is responsible for Hawaii, Guam, 
American Samoa, the Commonwealth of the Northern Mariana 
Islands, and insular territories throughout the Pacific Ocean.
    The Chief of the National Guard Bureau is responsible for 
facilitating State coordination and employment of non-
federalized National Guard units and personnel in support of 
Emergency Management Assistance Compacts.
    As stated in the 2005 Strategy for Homeland Defense and 
Civil Support, DOD ``will be prepared to provide forces and 
capabilities in support of domestic CBRNE consequence 
management, with an emphasis on preparing for multiple, 
simultaneous mass casualty incidents.'' The Defense Department 
has developed significant capabilities to contribute to the 
response to a terrorist nuclear attack on an American city. I 
have provided a detailed description of these capabilities in 
my written statement, but I would like to highlight three 
specific capabilities that have been developed or enhanced 
since September 11, 2001.
    National Guard Weapons of Mass Destruction (WMD) Civil 
Support Teams (CSTs) are teams of 22 highly skilled, full-time 
members of the Army and Air National Guard who are federally 
resourced, trained, and certified, and operate under the 
command and control of a State governor. The WMD-CSTs support 
civil authorities at a CBRNE incident site by identifying CBRNE 
agents or substances, assessing current and projected 
consequences, advising on-site authorities on effective 
response measures, and assisting with appropriate requests for 
State and Federal support. They are, in effect, reconnaissance 
forces. These 22 men and women proceed to the site of the 
event--in this case, a nuclear attack--and utilizing the 
training and the very sophisticated capabilities that have been 
provided to them, they conduct an assessment so that they can 
better inform follow-on forces as to the nature of the 
contaminant and its persistent character.
    When our Nation was attacked on September 11, 2001, there 
were only nine CSTs. Today, we have a WMD-CST in each State and 
territory, including two in California, for a total of 55 CSTs. 
Currently, 53 of these CSTs have been certified by the 
Secretary of Defense. The remaining two teams, in Guam and the 
Virgin Islands, are expected to be certified late this year.
    The second capability I would like to emphasize is the 
National Guard CBRNE Enhanced Response Force Packages--CERFPs--
which were established after September 11, 2001, and are task-
organized units of 200 to 400 personnel with combat support and 
service support mission essential tasks that, in conjunction 
with the CSTs, assist local, State, and Federal authorities in 
CBRNE consequence management: Casualty search and extraction, 
medical triage, casualty decontamination, and emergency medical 
treatment. The CERFPs, which operate on State Active Duty 
status, on duty under Title 32, or in extraordinary 
circumstances, under Title 10, are designed to fill the 6- to 
72-hour gap in capabilities between the first local and State 
response and the Federal response following a CBRNE incident. 
There are currently 17 CERFPs, of which 16 are trained and 
ready to respond to CBRNE incidents in the 10 FEMA regions. The 
Virginia CERFP just completed training and is undergoing its 
evaluation today.
    The third capability involves the CBRNE Consequence 
Management Response Forces (CCMRFs), which includes elements of 
the U.S. Marine Corps Chemical-Biological Incident Response 
Force as well as all the Military Departments' CBRNE response 
capabilities, and this is a force of 4,000 to 6,000 personnel 
that can be quickly tailored to provide a coordinated Federal 
military response to a specific CBRNE incident. The CCMRFs are 
Title 10, U.S. Code, joint forces capable of responding to a 
wide range of CBRNE attacks against the American people with a 
widerange of services, including radiological assessment, 
decontamination, and security of a contaminated site; medical 
triage, treatment, and care; and transportation and logistical 
support.
    DOD recognizes that terrorists often strike multiple 
simultaneous targets; therefore, DOD is identifying and 
sourcing three CCMRFs to improve our Nation's CBRNE response 
capability. The first CCMRF is to be fielded this October. I 
want to emphasize at this point, when considered and combined, 
the CSTs, CERFPs, and CCMRFs will provide more than 20,000 
specifically trained military personnel whose primary mission 
will be domestic catastrophic response. This is a fundamental 
change in military culture and capability.
    Mr. Chairman, in your invitation you asked what could be 
done to prepare our country to respond to an act of nuclear 
terrorism and to mitigate its consequences more effectively. My 
answer is ``realistic and detailed operational planning.'' As 
you stated, Mr. Chairman, last month, ``Helping survivors in 
and around the blast area will require a planned, prepared, and 
coordinated response by all levels of government.''
    In accordance with Annex I of Homeland Security 
Presidential Directive 8, the Federal Government is developing 
plans for responding to the 15 National Planning Scenarios. 
However, that will only give us a Federal response. We must 
achieve an integrated, synchronized response that gives us a 
truly national response to a future catastrophic incident. To 
pursue this end, DOD has partnered with DHS to develop the Task 
Force for Emergency Readiness (TFER) concept. The TFER is under 
the direct leadership of the governor and the State emergency 
management structure. It would operate under the authority and 
supervision of the Adjutant General and other emergency 
managers of the State. It would be a focal point for 
coordinated planning to produce State plans tailored to the 
unique strengths and vulnerabilities of each individual State 
and to facilitate the integration and synchronization of local, 
State, regional, Federal, and private sector incident planning. 
Each State's TFER will provide a scalable flexible planning 
capability, tailored to fit its unique needs for a catastrophic 
response and suited to its unique jurisdictional requirements.
    Mr. Chairman, my time has expired. I would emphasize the 
importance of achieving that integrated planning, not simply at 
the Federal level but down to the State and local level. I 
would emphasize that with the CSTs, the CERFPs, and the CCMRFs, 
we will have 20,000 military personnel prepared for the primary 
mission of domestic catastrophic response. These are 
capabilities that did not exist on September 11, 2001. With a 
recognition of that improvement, nonetheless, the daunting 
requirements associated with a catastrophic response to a 
nuclear event leaves zero room for complacency, no matter how 
good we are, no matter how much better we have become, we must 
get better than we are today. We are not yet adequately 
prepared. With the initiation of some of the concepts that I 
and others have described, progress can be achieved, and with 
your help, we look forward to it.
    Chairman Lieberman. Thanks very much, Secretary McHale. 
That was very well said. I totally agree.
    Chief Schwartz, thanks for being here. You are unique on 
the panel, and you represent a very unique part of the country, 
so we appreciate your perspective.

  TESTIMONY OF JAMES H. SCHWARTZ,\1\ FIRE CHIEF OF ARLINGTON 
                        COUNTY, VIRGINIA

    Mr. Schwartz. Thank you, Mr. Chairman, Senator Collins. 
Thank you both for the opportunity to be here today and be a 
part of this discussion. I am here representing a slightly 
different perspective, that of local government, as we try to 
integrate our efforts with our partners to my right.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schwartz appears in the Appendix 
on page 638.
---------------------------------------------------------------------------
    I also today represent the nearly 13,000 members of the 
International Association of Fire Chiefs (IAFC) who, of course, 
are on the front lines protecting their communities every day--
communities both large and small.
    While we have been fortunate to not experience the kind of 
event we are discussing today, obviously, as has been made 
clear by the previous comments, preparedness and building our 
response capabilities is of paramount importance, and we hope 
that we will see this hearing as a useful step in identifying 
remaining gaps in our preparedness and response capabilities. 
The fire service does recommend that capabilities continue to 
develop within an all-hazards framework, however, so that we 
can maximize these very limited resources.
    I have been asked to discuss the operational response at 
the local level to a scenario involving a response to an 
explosive yield of 10-kilotons or less. As many of us know, the 
initial blast, the ensuing fires, structural collapse, as well 
as the spread of radiation would entail significant casualties, 
but we would, as has been said, be left with many survivors. 
Those survivors, however, would suffer from severe burns and 
trauma and would be in need of enormous amounts of critical 
care as well as radiological decontamination. We also have a 
very key responsibility to communicate with the rest of our 
population as to what threats remain to them, especially as it 
relates to evacuation.
    I also want to touch for a few moments on the aspects of 
preparedness because, obviously, preparedness and response go 
hand in hand. While fire departments need to gear up for, as 
has been mentioned, these low-probability but high-consequence 
events, one of the things that local responders need is a real 
understanding of the probability of these kinds of threats. We 
make risk management decisions every day, and those risk 
management decisions help us to allocate very scarce resources. 
And how we train for this and other possibilities, really is 
driven by how we understand the possibility of the threat.
    In Arlington County, the Metropolitan Medical Response 
System (MMRS) has facilitated close coordination between fire, 
law enforcement, public health, hospitals, and the medical 
community, and also across those professional boundaries as 
well as bridging boundaries that sometimes occur between 
jurisdictions and between different levels of government, the 
State and Federal entities.
    Federal assistance through the Urban Area Security 
Initiative (UASI) grant program has enabled Arlington County 
and its partners in the National Capital Region to purchase 
equipment, enhance training and communications infrastructure, 
and develop a better system to respond to a nuclear incident. 
It is important to train our first responders and exercise the 
response system to test our planning, training, and equipment. 
We recently conducted a very small-scale tabletop exercise in 
the National Capital Region around just such a scenario as we 
are talking about today and identified once again enormous gaps 
that still need to be filled. However, we do recognize that 
preparedness is an ongoing process and that America's first 
responders have a lot to do, in partnership with the Federal 
Government, to better prepare our Nation for this kind of 
threat.
    In many ways, the response to a nuclear incident would 
resemble the kind of response to any other large-scale disaster 
or catastrophe. It is important to understand that the response 
to most incidents--whether they are wrought by man or by 
nature--is strikingly similar. This is the underlying premise 
behind the all-hazards perspective. Whether we are responding 
to a hurricane, a chemical spill, or a nuclear explosion, the 
fire service will rely on the same scalable response framework, 
which includes the Incident Command System and the National 
Incident Management System. While first responders employ the 
same all-hazards incident management system to all disasters--
in fact, all responses every single day--the unprecedented and 
catastrophic scale of a nuclear incident would present 
considerable challenges.
    The real cornerstone of an emergency event such as we are 
discussing today is that local government is charged with 
leading the response, in partnership with our State and Federal 
colleagues. But the initial response to a nuclear or 
radiological explosion is likely to resemble that of a 
conventional hazardous materials response. It may not, in fact, 
be immediately clear to many responders exactly what it is that 
they are dealing with. It should be noted that while responders 
in Arlington County are fortunate to have radiation detection 
equipment--purchased through some of the Federal grant 
programs--many first responders around the country do not have 
such radiation detection equipment and do not have some of the 
same capabilities that we have put together here in the 
National Capital Region.
    In Arlington and other jurisdictions in the National 
Capital Region, our CBRNE response will be managed much like a 
hazardous materials incident with the mass casualty 
implications that have been described so far. In all of these 
situations, a huge challenge will be minimizing the potential 
for panic and minimizing additional exposure to folks in our 
community, and then, of course, providing prudent medical 
treatment to those casualties.
    Our response to a CBRNE incident includes the combined and 
integrated capabilities that have really grown out of our MMRS 
collaborative processes in Arlington. And I should note that we 
have, again, through UASI dollars, pushed out the framework of 
MMRS to the entire Northern Virginia area so that the 
communities of Fairfax, Alexandria, Loudon, and Prince William 
have all gone through the same developmental process that we 
have done in Arlington under the Federal program and have 
achieved some of the same capabilities that we have been 
fortunate enough to integrate in Arlington County.
    Our response includes specific protocols for responding to 
explosive devices, including those that involve radiological 
agents. In fact, we have created a regional protocol for 
dealing with radiological incidents that has been accepted by 
all the response agencies in the National Capital Region and 
has enabled us to really build on our procedures down to the 
detailed level of how we will detect the presence of 
radiological elements, how we will monitor the exposure of 
responders, and how we will deal with the replenishment of 
those forces based on the kind of response that we are engaged 
in.
    We also have the benefit here in the National Capital 
Region of having a highly specialized team, the National 
Medical Response Team in the National Capital Region, which is 
made up, again, of local responders, but it is a team that has 
Federal funding and support for just these kinds of events.
    We, in Arlington and, in fact, in the entire National 
Capital Region are very fortunate to have a very robust mutual 
aid system. This is going to be important because mutual aid, 
as has been stated before, is going to be a vital resource in 
these kinds of responses. No local jurisdiction, even the 
largest cities, are going to be able to deal with this kind of 
an incident by themselves.
    We have a very robust mutual aid system in Northern 
Virginia. It is actually an automatic aid system where we share 
resources every single day, and we have, through those 
relationships that have existed for over 30 years, really built 
a system that relies on mutual trust and shared learning so 
that we are all looking at the same circumstances. And, of 
course, we have among the best voice interoperability, best 
voice communication systems in the Nation among our first 
responder agencies in the National Capital Region.
    As we talk about the response and we look at the magnitude 
of this kind of incident, obviously beyond our regional 
partners in mutual aid, we will be calling on additional 
assistance, calling the State, accessing statewide mutual aid, 
and, of course, the State will in all likelihood be calling the 
Federal Government asking for additional resources there. We 
may employ the Emergency Management Assistance Compact (EMAC) 
to get additional resources, and without a doubt, in an 
instance like this, we would see a Stafford Act declaration for 
disaster.
    We would also look to the Federal Government to provide, as 
Secretary McHale discussed, the Civil Support Teams as an 
initial part of a response, as well as the CERFPs and the 
Consequence Management Response Teams that are currently being 
built.
    One of the areas that we really look for the Federal 
Government to provide is technical assistance. While we have 
very robust capabilities to detect radiation in a scenario like 
this, we have meager capabilities to do plume modeling. I am 
very fortunate in Arlington to be partnered with the Pentagon 
Force Protection Agency out of the Pentagon, and so I get very 
robust capabilities in terms of plume modeling and an ability 
to see what the downstream effects will be from the kind of 
radiation fallout that we would see in an event like this. Many 
other communities do not have such sophisticated capabilities, 
and we would be looking for the Radiological Assessment Program 
Teams to be coming from the Department of Energy as well as DOD 
assets to help us in assessing those downstream impacts of the 
radiological fallout.
    Again, communication is going to be extremely important, 
and I know the Committee is interested in how we are going to 
communicate with the public. I will touch on that just briefly. 
All of the jurisdictions in the National Capital Region with 
grant dollars have acquired capabilities to communicate with 
our communities. First among those is text messaging systems. 
In Arlington, a system that is called Arlington Alert enables 
us to contact subscribers. My testimony actually refers to 
16,000. I was informed this morning that in Arlington County 
alone we have 25,000 subscribers to our text message alerting 
system so that we can send rapid text messages to those 
subscribers.
    In this kind of event, most of those initial messages, 
which literally would be put out within the first couple of 
minutes of an incident like this, would probably be directing 
people to shelter in place until we could get more formal plans 
to direct them to other areas of safety.
    We also have the ability to use our telephone system, 
Reverse 911, to actually encircle a specific area within our 
communities and target their telephones to give them a message 
and give them more specific information about the information 
that we want them to know about.
    And Arlington, like some other communities in the Nation, 
has also established their own AM radio station so that we can 
specifically communicate with citizens of Arlington. We are 
acutely aware that in a community like Arlington, as urbanized 
as we are, we are still likely to get lost in the larger media 
market of the National Capital Region, and citizens in our 
community want to hear specifically from their leaders as to 
what actions they can be taking.
    I do note that I am out of time. All of my written comments 
have been submitted to the Committee. So though I am over my 
time, I would like to go over a couple of recommendations that 
we see as vitally important, and perhaps it will help with the 
discussion as we go on.
    Chairman Lieberman. Go right ahead.
    Mr. Schwartz. Thank you.
    In terms of sharing meaningful information regarding 
threats, as I stated before, the Department of Homeland 
Security and the broader intelligence community must strive 
toward meaningful information sharing and collaboration so that 
those at the local level understand exactly what the threats 
are, and we will be able to make distinctions about the varying 
levels of risk posed by each of these threats.
    We encourage greater cooperation and engagement between the 
Federal Government and non-Federal stakeholders. The Department 
of Homeland Security has improved immensely its attempts to 
reach out to State and local officials and responders. However, 
the Federal Government must devote greater focus to achieving a 
truly collaborative approach to addressing vital preparedness 
and response issues. And, again, I point to the framework 
established by MMRS. It is a fantastic framework to get just 
that kind of information and collaborative sharing.
    In addition to that, to facilitate cooperative engagement, 
the Department of Homeland Security and other agencies should 
consider hosting symposia that can really be focused on shared 
learning. Do regional symposia and bring together responders 
from all levels of government, and let us have a meaningful 
discussion not from a top-down perspective, but a meaningful 
discussion about the threats and what capabilities exist to 
respond to those threats.
    And I would also ask the Committee to review the latest 
white paper of the National Homeland Security Consortium of 
which the IAFC is a member. That paper addresses how to manage 
these threats in the 21st Century. We think it is a very 
valuable approach.
    We need to develop best practices for enhancing medical 
surge capacity and responding to mass casualty events. This is 
a problem that is extremely vexing for all of us dealing with 
the issue of surge capacity and the number of medical 
casualties in an incident like this. Can we put together 
perhaps some groups of experts to develop some templates, some 
guidance that could be handed off to local and State government 
so that they could better prepare for these kinds of incidents?
    And then looking at Federal predictive modeling 
capabilities, especially around plume modeling, how can we 
share that information with critical decisionmakers on the 
ground during an incident?
    Last, I want to commend DOD for their efforts, as I 
mentioned before, around the Defense Consequence Management 
Response Teams. Several of us on the interagency board got a 
briefing by USNORTHCOM on this a couple of weeks ago. We are 
extremely encouraged and think that this is exactly the 
direction that the Department of Defense should be headed in, 
in support of civil authorities. We applaud their efforts and 
we look forward to more information sharing on those efforts.
    And with that, Mr. Chairman, I look forward to your 
questions. Thank you very much again for the opportunity today.
    Chairman Lieberman. Thanks, Chief. And I must say that I am 
impressed by the amount of activity going on in preparation for 
response to a terrorist nuclear attack on a major American 
city. Obviously, there are enormous challenges and things that 
are yet undone, but I appreciate the four opening statements 
because they show that a lot is being done.
    I wanted to ask you, Chief, whether you have ever 
coordinated with local law enforcement in other cities that are 
probably potential targets. I am thinking of New York, Chicago, 
or Los Angeles.
    Mr. Schwartz. I think most of my experience with law 
enforcement is in the National Capital Region.
    Chairman Lieberman. Right.
    Mr. Schwartz. I have regular conversations with fire chiefs 
in other metropolitan areas, and as they get information from 
their police chiefs, there is a lot of information exchange.
    Again, we like to see a framework or a way to sort of 
facilitate some of that collaboration because we do recognize 
that these issues of boundaries, the silos that we all work in 
every single day, are vitally important to the services that we 
deliver to our communities every day. But we are going to have 
to look a lot harder during a crisis.
    Chairman Lieberman. And you accept the responsibility for 
the initial response at the local level. Is that right?
    Mr. Schwartz. Absolutely.
    Chairman Lieberman. And I know Senator Collins mentioned it 
in her opening statement. Over what time period do you think 
that you and your local forces will be primarily responsible 
for a response?
    Mr. Schwartz. All of our assumptions are that we will be 
largely on our own for the first 24 to 72 hours, and that is 
despite our proximity to the Federal city. We see that as a 
given.
    Chairman Lieberman. That is very important. And could you 
itemize the major functions you think you will have to carry 
out during that period of time?
    Mr. Schwartz. They are establishing or isolating the area 
initially involved in the explosion, dealing with the 
casualties on the periphery of that explosion, those that have 
the most survivability--we have, quite frankly, meager 
resources to apply to the number of casualties that we would 
envision initially--and dealing with those casualties. 
Informing the public about what actions we need them to take is 
absolutely vital.
    Chairman Lieberman. Yes, very important. Right.
    Mr. Schwartz. Yes. And then asking for additional 
assistance going directly to the State, getting the governor to 
ask for additional assistance from the Federal Government, and 
getting all of this effort really spun up, getting it moving in 
a positive direction.
    Chairman Lieberman. So at what point would you expect that 
Federal help would arrive?
    Mr. Schwartz. I would see something like a CST probably 
arriving some time along 6 to 8 hours. We have the benefit and 
I think we will see in an incident----
    Chairman Lieberman. And you have one right there in 
Virginia.
    Mr. Schwartz. We have one in Richmond. There is also one in 
the National Capital Region.
    Chairman Lieberman. Right.
    Mr. Schwartz. Actually, it is part of the DC National 
Guard. So we can expect to see that, I think, very quickly and 
get some of that technical expertise, again, because I already 
have the capabilities through our work with Pentagon force 
protection, I have some of that plume modeling that I am going 
to need very early on.
    But I think that I should also note that we will see 
members of the Radiological Assessment Teams (RAT) that come 
out of DOE, we will see those, I think, probably in the first 8 
hours or so. And, that is where we will start to prepare for 
the larger Federal response that I will not anticipate seeing 
for largely another 48 hours or so.
    I am looking forward to the Consequence Management Teams 
coming from DOD, but I understand we are probably 3 days out 
from seeing those 4,500 people at my doorstep.
    Chairman Lieberman. Yes. Let me ask about this question of 
surge capacity because as someone said here earlier, a 
terrorist nuclear attack is a low-probability event, but if it 
happens, of course, it is of an enormously impact. And I want 
to ask you, Admiral, to talk a little about this. You mentioned 
some of the numbers of preparedness to respond. I think you 
said there were 400,000 people nationwide that have the ability 
to be involved in decontamination. But then the question 
obviously is: How do you get an adequate number of people to 
the site attacked quickly enough? Are we capable of doing that?
    Admiral Vanderwagen. Well, I agree with Chief Schwartz that 
a reasonable assumption is that 24- to 72-hour time frame for 
full coverage, and he has already covered some of the 
mitigation effects that he can draw from DOD.
    Our operational plan right now is to begin delivery of 
pharmaceutical supplies, medical supplies, burn supplies, etc., 
within a 12-hour period, and personnel in that 12- to 24-hour 
period. And that would include personnel that are specialized 
in emergency triage capability. That would be the DMAT teams. 
It would include the Disaster Mortuary Assistance Group because 
we are talking about significant numbers of deaths here. It 
would include drawdown against our uniforms that could provide 
more street-corner primary care triage kinds of activities for 
the walking wounded.
    So we think that we can start to deliver pharmaceutical 
supplies and push them in that 12- to 24-hour period.
    Chairman Lieberman. Do you have the transportation 
capability to move people that quickly?
    Admiral Vanderwagen. Transportation for that particular 
charge is there. The challenge here is evacuation of patients 
for definitive care, recognizing that, say, here in the 
National Capital Region, we are going to have a finite number 
of beds for trauma, for burns, and for radiation.
    Chairman Lieberman. Right.
    Admiral Vanderwagen. Our DOD colleagues assist us in that, 
and there is pre-scripted activity built into the operational 
plans. We are working with the----
    Chairman Lieberman. Again, for transportation.
    Admiral Vanderwagen. Right.
    Chairman Lieberman. With Department of Defense assets.
    Admiral Vanderwagen. Exactly, their airframes and some 
medical personnel. We have contracts now for ground and air 
transportation with private air and ground ambulance 
capability. We are working with the Department of 
Transportation on the Civil Reserve Air Fleet for wide-bodied 
mothballed aircraft so that we have the aircraft. We have 
specialized teams now trained in the Disaster Medical 
Assistance Group. In Hawaii, for instance, the Coast Guard 
provides the airframes; we provide the medical personnel.
    We are not there yet, but the operational activity is 
ramping up to assure that we have appropriately trained teams 
and appropriately capable air assets and ground assets to move 
equipment, people, and supplies in an appropriate time frame.
    Chairman Lieberman. In the pre-scripted planning that you 
are doing, do you focus on major American cities that are more 
likely to be the target of a nuclear or radiological attack? Or 
do you have a system set up to move these personnel surge, 
medical personnel anywhere in the country that this might 
happen?
    Admiral Vanderwagen. Well, there are 72 cities identified 
within the Cities Readiness Initiative, which focuses on the 
unique risks of larger urban populations, and, indeed, we are 
trying to regionalize our supply caches so that we are in 
closer proximity rather than depending upon it all to come from 
one or two national caches. And the same thing is true for 
people. There are currently something on the order of magnitude 
of more than 100 teams in the NDMS system, including the 
mortuary folks, the veterinary folks, the emergency medical 
folks, and the DMATs. Those are spotted all around the country, 
and we would pull the people that were closest to the event.
    For the World Trade Center, for instance, we had three 
teams on the ground in New York City within 16 hours, but those 
included teams that came from Connecticut and could get in by 
ground, and teams that came from Massachusetts and New Jersey, 
again, who could get there on the ground. And that is our 
overall strategy, is to pull from the teams that are closest 
proximity initially, and then bring in other teams to fill.
    Chairman Lieberman. My time is up on this round. Senator 
Collins.
    Senator Collins. Thank you.
    Chief Paulison, one of the issues that came up in the 
previous hearings was the importance of communicating 
effective, accurate information about whether people should 
shelter in place or evacuate. And we learned at our previous 
hearing that in many cases, sheltering in place is the right 
decision, and I do not think that is intuitive to people at 
all. I think most people's first reaction is to flee.
    Now, we have talked a lot about the importance of the plume 
modeling so that you know how to make an accurate decision in 
that regard. But what our witnesses told us in the previous 
hearing is that it was not clear who makes that decision and 
who should communicate that decision.
    Tell us what you think or what you are doing to clarify the 
confusion on the very essential communication piece of the 
strategy because accurate, believable, and timely communication 
literally would make the difference in saving potentially 
thousands of lives.
    Mr. Paulison. Senator, no question about it. The 
communication piece in all of our 15 scenarios is extremely 
important. We have laid out a communication plan for each one 
of those, particularly with a nuclear incident. Chief Schwartz 
accurately pointed out that the message has to be to shelter in 
place until your local officials give you information on 
whether to evacuate or not.
    The difficulty is going to be, quite frankly, if you do 
have a large nuclear device, such as a 10-kiloton bomb go off, 
communications systems are not going to be what they should be. 
We do not know if the radios are going to work. We do not know 
if the telephones are going to work or television is going to 
work or what is going to work and what is not going to work.
    So it is really going to fall in those first few hours on 
the local community leaders who have a responsibility for 
making a decision on evacuation to get that message out.
    We are going to be providing and are providing information 
to them of what that should be. We have protective action 
guidelines that are coming out very shortly that will give some 
very clear direction on first responder decisionmaking, on 
exposure guidelines, on clean-up and decontamination procedures 
and things like that, and those will be coming out very 
shortly.
    Senator Collins. Is that the common alerting protocol that 
the Chairman and I have also written to you about?
    Mr. Paulison. That is correct. Again, the Integrated Public 
Alert and Warning (IPAW) system we are talking about in 
Arlington County has most of that already. They have the 
ability to activate BlackBerrys and cell phones. I live in 
Arlington--I actually live in Florida, but my wife says I live 
up here. I get Reverse 911 calls all the time anytime there is 
a weather alert. So they have a very robust system in place. 
What we do not know is if that system is going to work after 
there is an explosion like that. And so that is the thing we 
really do not have a handle on.
    I think your assumption is correct. Most people intuitively 
will want to flee, but, quite frankly, they should shelter in 
place until they are told what to do because we do not know--
they may be going from a safe place into harm's way going 
through a plume.
    Senator Collins. But is it clear who has the responsibility 
for communicating that information?
    Mr. Paulison. I think for the first several hours, it is 
the local community that has that responsibility, and the 
State, if the local community has been decapitated. But very 
shortly after that, the Federal Government is going to have to 
step in and work with the State to provide those lines of 
communication.
    Senator Collins. Chief Schwartz, do you think it is clear 
who has responsibility for, first of all, making the decision 
on what the population should do and, second, communicating 
that?
    Mr. Schwartz. I think in communities such as mine, it is. I 
think there is still more work to be done, again, through these 
collaborative processes so that everybody comes to that common 
understanding because as we said in part of our earlier 
comments, I am not sure that many communities are even focusing 
on this kind of an incident as a potential reality.
    Senator Collins. I think you are very unusual, the level of 
planning that you have done, the preparedness, the experience. 
You are close to the capital area. You are part of the Capital 
Region. And I am impressed with what you have done, extremely 
impressed, but I do not think you are typical.
    Mr. Schwartz. I can appreciate that, Senator. One of the 
things that the IAFC has done--and we are beta testing right 
now something we call the ``Fire Chief's Checklist for 
Terrorism.'' One of the things we are trying to do is get out 
to fire chiefs all across this country their responsibility to 
ask these hard questions, work with their partners in their 
jurisdictions or in their regions, and come to some solutions 
around some of these problems because I appreciate that we may 
be unusual, but we would like to think, too, that we, along 
with some others that have advanced some of these concepts, 
that we can provide a way forward, some guidance for other 
communities that need to do the same thing.
    Again, I would urge that we consider just how real this 
threat is for even some metropolitan communities who are trying 
to make very tough resource decisions, and how they are going 
to apportion their time around threats that they see as 
relatively small in probability.
    Senator Collins. Thank you.
    Mr. Paulison. Senator, can I make one more comment?
    Senator Collins. Yes.
    Mr. Paulison. Under our Emergency Support Function-15 (ESF-
15), we really do have good, solid communication plans in place 
and protocols laid out. And what we really need to do, I think, 
based on what you are observing, is that we need to do a better 
job of getting those protocols out to local communities so 
everyone understands how that system is going to fall in place. 
But they are in place. We do have those. We have been working 
very hard to develop those since Hurricane Katrina and to make 
sure that those--because I think what you said earlier is that 
communication is going to be extremely important. People want 
to know what is going on. They want to know what to do, and 
they want to know what the right thing to do is.
    Senator Collins. Thank you.
    Doctor, you talked about your efforts to educate the 
medical profession and other health care providers about 
radiological issues. And I was impressed that you are using 
specialized medical publications and an online training course. 
For example, are you working with the American Medical 
Association (AMA) and the American Nurses Association (ANA)? It 
seems to me that a way to educate health care professionals is 
through continuing education courses, which all of them have to 
take as a condition of their licensure. When I was in State 
government, I oversaw the licensing board, so I am very 
familiar with that whole aspect.
    Have you thought of developing and disseminating through 
State licensing boards a standard course that could be offered 
in States across this country for which medical professionals 
could receive continuing education credit?
    Admiral Vanderwagen. Well, specifically, no.
    Senator Collins. Good idea, though.
    Admiral Vanderwagen. Yes, good idea. [Laughter.]
    The fact of the matter is that part of the funding that 
went into Public Health Emergency Preparedness went through the 
Centers for Disease Control and Prevention (CDC), part of HHS, 
to schools of public health to develop these kind of curricula 
for various events. The curricula exist, but we have not 
formally reached out to the credentialing organizations, for 
instance, and suggested to them that they make it sort of a 
required part of licensure. Easy enough to do through the 
Federal licensure organization that brings together all the 
State licensure groups to do that.
    I have been impressed--last week, again, when I was in New 
Jersey, I went to Burlington Community College up there, and 
their president is now president of the National Association of 
Community Colleges. And I asked the question: How do we utilize 
community colleges to more effectively outreach this kind of 
educational awareness of issues? Because 85 percent of first 
responder training occurs in a community college environment. 
So we are exploring other means, but that is an idea that we 
had not pursued.
    Could I comment on one or two things? One is the National 
Governors Association (NGA) is working with us now to try to 
develop a non-classified briefing for elected officials so that 
we can help develop a greater understanding among elected 
officials, at least in a non-classified way, what are the risks 
that they really have.
    Second, Chief Schwartz's idea of regional dialogue is 
extremely important here. There are a number of active regional 
organizations in the Northeast. Your State is a participant in 
that. They have already negotiated agreements for mutual aid 
with Nova Scotia and New Brunswick as well as the United 
States. We could use those regional organizations in a much 
more effective way, I think. Those were ideas based on Chief 
Schwartz's recommendation, which I support, and ideas that you 
and the Chairman have brought forth.
    Senator Collins. Thank you. Just so I clarify my comment, I 
was not suggesting that it be a condition of licensure, but it 
could be an available course under continuing education 
requirements of taking so many credits of some continuing 
education courses. I believe that if you developed a course in 
this area, States would be very happy to have that as one of 
the offerings and that you would reach far more medical 
professionals.
    Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    Secretary McHale, let me ask you a question or two. In the 
work that our staff did in preparing for the hearing, perhaps 
you will not be surprised to hear that there was a concern 
expressed by people who think about this that the Department of 
Defense, notwithstanding the commitments that you mentioned in 
your opening statement, treats civil support, which is the 
readiness to come to the response of the civilian population in 
a catastrophic attack of this kind, as secondary mission to its 
warfighting mission. This in some ways seems logical, and yet I 
want to raise the question about whether after September 11, 
2001, that is still appropriate, since that decision to treat 
civil support as a secondary mission probably means the 
Department has limited resources to devote to that. In your own 
testimony today with regard to civil support, you make various 
commitments, and then you say ``as appropriate and consistent 
with the law and the imperative to maintain the Department's 
readiness''--perfectly understandable--``will provide support 
to civil authorities.''
    As you know, the Commission on the National Guard and 
Reserves testified about its report, and made the point that 
the current threats to the homeland mean that the homeland is 
now part of the battlefield. They testified that civil support 
should become a primary mission and recommended that Congress 
codify such civil support as a responsibility of DOD.
    So let me ask you to comment on that, whether civil support 
is considered a secondary mission to the warfighting mission in 
the Department today, whether we ought to codify it as a 
primary mission and, therefore, hopefully set a predicate for 
increased resources to be committed to this critical function. 
Because I think in the end, most of us feel that only the 
Department has the scope of assets available for responding to 
either a catastrophic natural disaster or a catastrophic 
unnatural disaster such as a terrorist nuclear attack.
    Mr. McHale. Senator, about 30 years ago when I was studying 
for my bar exam, I was taught that an attorney, to be ethical, 
had a duty of candor to the tribunal, and I will in that spirit 
be completely candid in my response to your question.
    Chairman Lieberman. Thank you.
    Mr. McHale. Up until September 11, 2001, I believe that 
civil support was considered a secondary mission. I think that 
at that point in time, there was a failure to recognize that in 
the 21st Century, when our adversaries recognized that we have 
conventional military capabilities that are unparalleled, even 
dominant in some ways, that our adversaries would, therefore, 
turn to asymmetric attacks, particularly attacks on the U.S. 
homeland, where the intent would not be to necessarily degrade 
our warfighting capability but, rather, to cripple the American 
spirit, to demoralize the American people through casualties 
that would be seen as unbearable. September 11, 2001, I think, 
was a recognition of that horrific insight on the part of our 
adversaries. And so I think coming out of two centuries of 
warfighting experience where the defense of the Nation really 
meant power projection overseas, our Department was culturally 
resistant to the warfighting concept of the 21st Century, which 
is that, unfortunately, because of our adversaries' 
decisionmaking process, we are now very much a part of a global 
conflict where the preeminent battle space of that conflict is 
the U.S. homeland from their point of view.
    Having, I think, admitted with some candor that pre-
September 11, 2001, our perspective was inappropriate to the 
21st Century, let me give you a rock solid assurance that all 
of that has changed in the last 5 years, and that the 
observations that have been given to you were once true, but 
they are no longer. Arnie Punaro is a very good friend of mine, 
and I worked closely with him during the development of the 
report of the Commission on the National Guard and Reserves. It 
was a very good report. There were some issues where we took 
exception, somewhat heatedly, I think, in a public forum 
initially, but cooler heads have prevailed, and there is now 
recognition that General Punaro and his staff made a fine 
contribution to the public dialogue.
    Secretary Gates agreed with 21 out of the first 23 
recommendations presented in their interim report, and I was 
present in the room when General Punaro asked the Secretary of 
Defense to clarify our Department's assessment of the civil 
support mission, whether we considered it to be equal to our 
warfighting responsibility. And Secretary Gates, without a 
moment's hesitation, said that the domestic security of the 
American people is not simply a mission requirement co-equal 
with overseas warfighting; it is the primary mission of the 
Department of Defense and superior in its importance when 
compared to all other missions. It is ultimately why we exist, 
to protect American citizens here at home.
    And so as far as the issue of statutorily recognizing that 
importance, I am an agnostic on that. There may be some benefit 
in that, but I can tell you that the practical effect has 
already been achieved, which is why we now have capabilities, 
cited in my earlier response, that we did not have. Nobody 
would have believed pre-September 11, 2001, that 20,000 
military personnel would have as their primary mission domestic 
catastrophic response, and yet that is, in fact, the capability 
that we are in the process of developing.
    Chairman Lieberman. I appreciate your response and the 
quote from Secretary Gates because though the focus of the 
American military is different, as you quite accurately restate 
our history, than it was for the preceding couple of centuries, 
it is certainly what the Framers of the Constitution must have 
had in mind when they talked about the responsibility to 
provide for the common defense.
    You also encouraged me to believe--and I appreciate your 
agnosticism--that therefore, in this post-September 11, 2001, 
world, the law ought to catch up with the reality of the 
Department's focus and we ought to codify this civil support 
function, as one at least equal--and, I appreciate what the 
Secretary said--in some real way even superior. So I thank you 
for that.
    I want to, if I may, just go ahead, with your indulgence, 
ask a different question to Chief Paulison. This is about mass 
care, FEMA's responsibility to provide for sheltering and 
feeding of evacuees. At our last hearing, we heard that the Red 
Cross is the Nation's largest provider of mass care but that, 
frankly, they are having financial difficulties, and their 
ability to respond as fully as they have in the past is in some 
question. Certainly their ability to respond to a catastrophic 
incident of this kind is.
    So I want to ask you to talk for a moment, Chief, about 
where you think FEMA is and, therefore, where the country is, 
in our planning and capabilities to shelter and feed evacuees 
from a nuclear attack.
    Mr. Paulison. It is definitely an issue that I have been 
having regular conversations with the Red Cross on. In fact, I 
talked to their new President and CEO yesterday, welcomed her 
on board and committed our continued 100 percent support for 
that agency. They play a tremendous role in sheltering people 
in the aftermath of any type of disaster, and this country 
needs to make sure that agency stays viable because they are 
invaluable to us.
    There are two different issues. I read Mr. Becker's 
testimony when he made those comments, and the sheltering of 
people during a natural disaster is not going to be the major 
issue. The major issue is going to be the capability of 
sheltering people in a nuclear event because of their lack of 
ability to make sure that people who come into the shelter have 
been decontaminated, and how they are going to do that. And 
that is where we need to work with them very closely, and that 
is one of the reasons we made the phone call yesterday to talk 
about that particular issue.
    The Department of Defense is going to be a major player for 
us in any type of event like this because like you very clearly 
pointed out, they have a lot of the resources to help us, 
particularly with the decontamination side.
    We also have put a lot of money into decontamination. If it 
is around the country, it will fall on fire departments like 
Arlington and others, and most of the major cities have plans 
in place to be able to decontaminate people.
    The Red Cross has assured me that they will be able to work 
with us to shelter people. We just need to make sure that we 
can work with them to make sure that we can decontaminate 
people prior to them going into the shelters. So it is an issue 
we are working on. I do not have all the answers yet, but it is 
something--it is right up on top of our dance card as far as 
how we are going to handle this.
    I would like to point out, too, that I do agree with Mr. 
McHale about the primary mission of the military needs to be 
the defense of our country, and particularly the domestic side 
of it. We need to make sure, though, that the lead agency in 
these disasters is still the Department of Homeland Security, 
and I think he will agree with me on that.
    Mr. McHale. Yes.
    Mr. Paulison. I do not think what we want is a military 
takeover just because it was a nuclear event as opposed to a 
natural disaster. I think that would confuse things and not 
work as smoothly as we have put in place over these last couple 
years.
    Chairman Lieberman. It is an important point, and I take it 
you agree, Secretary McHale.
    Mr. McHale. Yes, sir. The Department of Defense has an 
enormously important role to play in rapidly bringing resources 
to bear in response to the catastrophic consequences of the 
attack. There is no need for the Department of Defense to be 
the lead Federal agency in that response. We provide the 
muscle. We provide the capability. We have to be able to 
operationally apply the resources. We can do all of that, as 
Mr. Paulison indicated, in support of a lead Federal agency, in 
this case the Department of Homeland Security. We do not 
believe that their leadership role in this area in any way 
impairs our operational response.
    Chairman Lieberman. Very good. Thank you. Senator Collins.
    Senator Collins. Thank you.
    Secretary McHale, we talked earlier about those first 
responders from the State and local level who first appear on 
the scene. Right behind them is always the National Guard 
because the first thing the governors do when there is a 
catastrophic event, and that they would certainly do in the 
event of a nuclear terrorist attack, is to call up the National 
Guard.
    For the last year or so, the Committee has repeatedly heard 
that the National Guard is seriously underequipped. General 
Blum, for example, testified that 88 percent of the Army 
National Guard were ``very poorly equipped'' to perform a civil 
support function. At a hearing that this Committee held, we had 
the Adjutant Generals from a couple States, including Maine, 
who said that we were at significant risk.
    A year later, I continue to hear troubling assessments 
about the current readiness of the National Guard to provide 
civil support services. You have talked a lot this morning--and 
I agree with you--that we have come a long way when you look at 
the Civil Support Teams or CERFP, but the National Guard's 
readiness is still an issue.
    Could you comment on where you think we are in terms of the 
role that the National Guard would inevitably be called upon to 
play and the preparedness of the Guard?
    Mr. McHale. In our Strategy for Homeland Defense and Civil 
Support, published in June 2005, we placed ``a focused 
reliance'' on our Reserve component forces for these kinds of 
missions with a particular emphasis upon the central role of 
the National Guard. So, Senator, your question is quite 
appropriate in terms of how well prepared is our central 
capability to execute the missions that are reflected in that 
strategy. We have pinned the rose on the National Guard. Have 
we given the National Guard the resources, the capabilities 
that they require to execute the mission?
    Even in the context of Hurricane Katrina, about 70 percent 
of our force that we deployed, which was the largest, fastest 
civil support mission in the United States, came out of the 
National Guard, about 70 percent, 50,000 of the 72,000 forces.
    I checked with the National Guard this morning, and I guess 
the best summary I can give you is that there are indeed unmet 
resourcing requirements, and in my view, there is a critical 
unmet requirement for integrated planning so that National 
Guard capabilities can be correctly fused with State and local 
capabilities in the civilian sector, public and private, and 
the Title 10 capabilities that we would deploy under USNORTHCOM 
command and control.
    We do not have integrated planning yet at the State and 
local level, so let me backstep just a moment. When I asked 
about personnel for the 10-kiloton nuclear mission, I was 
informed by the Guard Bureau this morning that we have 88 
percent of the people that we would need for the foreseeable 
mission requirements associated with a 10-kiloton nuclear 
response. I said, that is fine, but where do we stand in terms 
of equipment? We have the people. Are they properly equipped? 
And the answer is, ``Not yet,'' and that is a truthful, candid 
answer to this Committee. I am sure it is not surprising for 
you to hear it.
    The fact is we have made enormous progress. Steve Blum has 
shown terrific leadership. We have gone from a resourcing and 
equipment availability in the 50 percentiles up to about 62 
percent at the present time, and under his leadership and with 
appropriate funding, hopefully, from the Congress, it will move 
up to about 72 percent. That is the best equipped the Guard 
will ever have been, both in terms of quality and quantity, in 
the National Guard's history. But that does indicate that there 
are shortfalls that would need to be addressed in order to have 
an adequate response to a nuclear event. So we have made 
progress, but consistent with the plan that General Blum has 
laid out, we have further initiatives that have yet to be 
achieved.
    On the second point, if I may very briefly, it is so 
important that we move from the strategic level down to the 
practical level of operational and tactical capabilities, and 
the concept that we are now pushing forward under the 
leadership of DHS is to create a Task Force for Emergency 
Readiness within each State where the Adjutant General would 
play the leadership role, along with other emergency managers, 
to ensure that the plan, let's say, in the State of Maine to 
address a 10-kiloton nuclear detonation would be properly 
integrated into all State and local capabilities to include 
coordination with USNORTHCOM and FEMA.
    We have not yet achieved that--we are pretty good at the 
poetry of strategy. We are not very good at the level of 
practical, tactical planning to deliver the capabilities in a 
timely manner. And so with that candid recognition, I can also 
assure you we are on the cusp of achieving that integrated 
planning through the concept of the Task Force for Emergency 
Readiness, which has received widespread support within the 
National Guard.
    Senator Collins. We are, however, going to have to get 
those planners down to the State level.
    Mr. McHale. Yes.
    Senator Collins. You and I have talked about that before. 
And the problem is that most National Guard bureaus at the 
State level simply do not have that capacity. DOD is awash with 
planners. That is what DOD does in addition to its other 
responsibilities.
    Mr. McHale. The reason why the Adjutants General like this 
approach is that we take DOD planners--we will have about 450 
Reserve component DOD planners, officers who will be trained in 
the planning process and who will as part of their monthly 
drill obligation serve alongside National Guardsmen under the 
immediate supervision of the Adjutant General so that DOD 
planning capacity can migrate to the State level.
    We are a helping hand, but the leadership, the authority, 
and the accountability must ultimately be vested in the State 
government. And so we want to be as helpful as we can be 
without being intrusive in that process, and the Task Force for 
Emergency Readiness creates that kind of integrated planning 
capability.
    Senator Collins. And when do you see that actually going 
into effect? I think it is a great plan. I think it makes a 
great deal of sense, but as far as States actually seeing DOD 
planners working side by side with them.
    Mr. McHale. Again, we are in a supporting role. Mr. 
Paulison and I spoke about it as recently as 10 minutes before 
this hearing. I have also been working very closely with Harvey 
Johnson, Mr. Paulison's deputy, to make this a reality.
    We, in fact, have developed a pilot program, and I would 
anticipate that DHS would announce that the pilot program later 
this year would be initiated in approximately a half-dozen 
States where, frankly, we are going to bend over backwards to 
make sure it is a success in those States because if it is, it 
will be much like the Civil Support Teams. We had nine of them 
back in September 2001. We have 55 of them authorized today. If 
the first half-dozen or so Task Forces for Emergency Readiness 
work in those five States, I have no doubt that the Adjutants 
General and emergency managers will spread the gospel.
    Senator Collins. Thank you.
    Chief Schwartz, my final question is for you. The 
Metropolitan Medical Response System program is a small grant 
program at DHS and FEMA compared to many of the other homeland 
security grant programs. But it is a program that is directly 
relevant to the issues we are talking about today.
    It is my understanding that it provided just $300,000 to 
124 urban areas that it covered this year, including Arlington 
County. It is a program that gives a great deal of discretion 
to local communities about how exactly they use it, which I 
think is a strength. But give us your assessment of the MMRS 
program. How valuable is it to you? Should it be expanded? Are 
we underfunding it at $300,000?
    Mr. Schwartz. I would tell you that it is probably as 
meager as the funds are, they are some of the best-spent funds 
in all of our efforts around homeland security. I would note 
that it is the only Federal program that creates a bridge 
between what government is going to do in a crisis and what the 
private health care community is going to do. We do not have 
anything else that facilitates a collaboration between the 
private health care community as a full partner in a response 
to something like the events we are talking about today, and 
many others that we could envision, and what those of us 
represented at this table are also going to do. So it has great 
strength, great value there.
    This may be a controversial comment, but I would have taken 
a program like the Urban Area Security Initiative and placed it 
under a framework like MMRS as opposed to the other way around. 
We have UASI and then we tell UASI cities to go work with their 
MMRS partners; whereas, the framework of MMRS, the goals that 
it sets out, however they need to be adjusted at the local 
level, I think is a far better approach to the kinds of issues 
that we are discussing today.
    In its original form, it was geared toward the human health 
consequences that result from a weapon of mass destruction. I 
think that whether it is a weapon of mass destruction or a 
naturally occurring crisis, as we said before, in an all-
hazards environment the problems are all virtually the same.
    My job as a fire chief is to come to work in my community 
every single day and focus on the health and well-being of the 
citizens of and visitors to Arlington County. That may be 
because the threat is from a fire or an emergency medical 
incident. It may be because it is a public health outbreak, and 
then my role is slightly different, but no less important, to 
support my partners in public health. And if we have not done a 
good job of integrating our capabilities in that response, then 
we are all going to be going in different directions, and I 
think that ill serves our citizens.
    So I think that the way MMRS is structured, I think that 
the goals that it lays out provide us with a far better 
approach to managing problems like we are talking about today. 
And I oftentimes say it is not about the MM; it is about the 
RS. It is about building a better response system, and as a 
part of that, we obviously focus on the medical well-being of 
those we serve.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    The testimony that you presented today tells me that a lot 
is going on to prepare to respond to a terrorist nuclear attack 
in an American city, but also that none of you thinks we are 
where we want to be or need to be.
    So I want to ask each of you to do this. This is a classic. 
If you had a scale from 1 to 10 and 1 was totally unprepared--
which it is also clear we are not--and 10 was totally 
prepared--which it is clear we are not--tell me where you think 
we are on that scale. And then what are your priorities or what 
should be our priorities for how to get as close to 10 as we 
can? In other words, what are the priorities of unmet needs? 
So, Chief, since you are the top guy and in charge, we are 
going to let you start first.
    Mr. Paulison. I thought you were in charge. [Laughter.]
    Chairman Lieberman. I will answer afterward.
    Mr. Paulison. We are not at a 10, no question about it. I 
think everybody at this table recognizes that and everyone in 
this room recognizes that. But we have made a tremendous amount 
of progress, and the fact that we are focusing on this is an 
important issue.
    I would say, if I had to put us somewhere, between a 7 and 
8. I think we know where we need to go, so that is key. And we 
are putting things in place to try to get there, and we are 
having some significant successes.
    Chairman Lieberman. So what are your priorities for the 
unmet needs?
    Mr. Paulison. Again, in all candor, we have worked very 
hard to develop these partnerships, and that is what made us 
successful in the disasters that we have had. We have not had 
another Hurricane Katrina, but the fact that everyone is at the 
table supporting the effort to respond is important. So my 
priorities would be that as we transition into this next 
Administration, not to lose that. That is going to be the key. 
And in all seriousness, that is going to be the key for this 
government at the local, State, and Federal level to continue 
what we started.
    The surge capacity, getting equipment out there, the 
National Guard, the planning systems--all those things are 
important, but they will not happen if we do not continue the 
partnership that we have developed. And we have taken down the 
barriers. For the most part, we have gotten rid of the 
stovepipes. I wish that you could see the video conferences 
that we have every day at noontime when we are having these 
disasters and see the players at the table. And it is the top 
people from every agency. General Renuart is sitting there, 
General Blum, all of them from the partners we have not 
traditionally had good relationships with--not bad 
relationships, we just----
    Chairman Lieberman. Understood.
    Mr. Paulison. So if I had my number one priority I had to 
pick, that would be it, that this continue on and we keep 
working together to protect this country.
    Chairman Lieberman. Thanks. Admiral where would you put us, 
and what is your top unmet priority?
    Admiral Vanderwagen. Well, thanks for the opportunity. I 
think that we are probably at around a 6, maybe a 5. We are in 
that mid-range where I think we have really started to identify 
assets and so on.
    I think I would echo Chief Paulison's view and what we have 
heard from both Assistant Secretary McHale and from Chief 
Schwartz, that continued collaborative processes in the 
articulation of a National Response Plan, not a State, Federal, 
local, but a National Response Plan is critically important. 
Part of that is through strengthening regional dialogue, 
because, again, for large-scale events like this, resources 
draw across in a regional environment--we saw it with the 
floods.
    Chairman Lieberman. Right.
    Admiral Vanderwagen. They were able to either manage it on 
their own, locally and State, or they reached across with EMAC 
to their neighbors, and they got the help they needed. They did 
not really need a ton of Federal support for certain aspects of 
this. And I think strengthening that regional capability is a 
priority.
    For me, in particular, I am concerned about the development 
of more tools. The research pipeline that I talked about and 
the advanced development of appropriate medical tools to 
advance our capability to be able to more effectively treat 
people, we do not have much in the toolbox at this point for 
dealing with acute radiation sickness. So I think that the two 
things, collaborative processes across our national spectrum 
and the development of some more tools through research and 
advanced development, I think are the two critical pieces.
    Chairman Lieberman. Helpful. Thank you. Assistant Secretary 
McHale.
    Mr. McHale. Sir, I would say that a nuclear event is 
exponentially more challenging than any other scenario that I 
can envision, certainly much more challenging than the other 14 
national planning scenarios. And so specifically in the context 
of a nuclear event, I would say on September 11, 2001, we would 
have struggled to be a 2.
    Chairman Lieberman. Right.
    Mr. McHale. Today we are probably a 5, and to improve our 
capabilities in the face of a challenge that is almost 
impossible to calculate--the consequences of a 10-kiloton 
nuclear detonation in the heart of a major American city, I 
think from a DOD standpoint, now that we have designed the 
right kind of capabilities--we have USNORTHCOM, we have the 
CSTs, the CERFPs, and we are building the CCMRFs--we have to 
bring an operational reality to the concepts that we have 
developed.
    There is some operational reality there today. I do not 
want to communicate to our adversaries that we are ill 
prepared. But we are going to get much better than the 
significant capabilities we have. But then, most importantly, 
to move from a 5 to an 8--and I find an 8 to be an incredible 
achievement in the face of these kinds of challenges--we have 
to get realistic, detailed planning at the State and local 
level so that we properly communicate to our partners at the 
State and local level what it is we can deliver and how fast we 
can deliver it. They can inform us as to where they see their 
shortfalls, and you cannot do that with a virtual presence. You 
need a planning capacity that is a focal point that exists in a 
real building with real people every day doing the planning. 
And if we do that for the first of the 15 scenarios, I believe 
that we can move from a 5 to an 8 with deliverable 
capabilities.
    For the other national planning scenarios, including the 
WMD scenarios, I think that we are much better prepared, 
probably a 6, 7, maybe an 8 today, with the capacity to move to 
a 9 through the same kind of improvements.
    Chairman Lieberman. That is great. Thank you. Chief 
Schwartz.
    Mr. Schwartz. I would say, again, representing the locals, 
that it is probably in the 4 to 5 range. And I realize we are 
being somewhat arbitrary here.
    Chairman Lieberman. Sure. It is an impression.
    Mr. Schwartz. In terms of specific next steps, if you had 
asked me first, I know I would have initiated the same theme 
that you have heard through these three comments, and that is, 
regionalism. And what I would say as a practical action step is 
incentivize regionalism through some of our grant programs and 
stop defining regionalism as two jurisdictions willing to work 
together, and instead incentivize it by asking the States to 
form real response regions within their confines, have those 
regions work collaboratively within the MMRS kind of framework 
to submit to the States as part of their submission to Homeland 
Security for their grants exactly what the threats and risks 
are for each of the regions, be they natural or manmade, what 
capabilities they have to address those, and how they would use 
additional resources to build that capacity.
    And I would ask those regions to do that really on three 
levels. What are the daily threats that they face, everything 
from those things that we serve our communities with every 
day--fires, crime, those sorts of things--and whether or not 
our resources are adequate to do that? Because if we do not 
have adequate capabilities there, we cannot possibly be 
expected to respond adequately to higher levels of emergency. 
Then what are the risks that are inherent to our region? Are 
they coastal storms? Are they flooding? Are they the threat of 
terrorism? And last, put in provisions for how regions will go 
help each other. In a 10-kiloton kind of incident where a 
significant portion of a region would be taken out, where are 
they going to look for assistance, and how can that assistance 
be provided in a meaningful way?
    So I would say incentive regionalism through our grant 
programs, stop just laying it out there and letting people 
decide, force it through the grant guidance, make the States 
come up with real meaningful response regions where there are 
already relationships or where relationships need to be 
facilitated, and go forward from there.
    Chairman Lieberman. That is very helpful. I appreciate it. 
It is interesting, each of you mentioned the partnerships at 
the Federal level, but also across the Federal, State, county, 
and local levels. And I think the regional approach is a very 
practical idea. Obviously, we are going to be able to surge 
more quickly from within a region. As one of you described--I 
think it might have been you, Admiral--some of the first teams 
to surge into New York after the World Trade Center attack were 
from the surrounding region. Thank you.
    Senator Collins.
    Senator Collins. Thank you. I do not have anything further.
    Chairman Lieberman. Well, we thank you all. This is going 
to be a continuing focus of our Committee. In the next hearing 
we are going to go back to the prevention side and take a look 
at the Domestic Nuclear Detection Office (DNDO). But thanks for 
what you are doing.
    Chief, I do not want to miss the opportunity, while we have 
you here, first to say that, as we joked before, the fact that 
nobody is criticizing FEMA and its response to the Midwest 
floods means that you must be doing a great job. And that makes 
Senator Collins and me very proud since we worked so hard post-
Hurricane Katrina to reform FEMA, and you have really carried 
out those reforms. So I wanted to say thank you. In fact, to 
stop being facetious about it, I know that you are doing a 
great job. But do you want to say anything briefly about your 
experience here in response to this latest series of natural 
disasters?
    Mr. Paulison. I do, and I appreciate the opportunity, 
Senator. The unprecedented flooding--and we were lucky that all 
the States affected had a great emergency management system in 
place. All the governors were personally involved, so the 
response piece of it went very well.
    The culture change that we have put in FEMA of leaning 
forward, getting out there early, prepositioning supplies, and 
not waiting for the governors to ask for them before we started 
moving supplies really paid off tremendously in this particular 
event.
    The difficult piece is yet to come. Less than 10 percent of 
the homeowners have flood insurance, so 90 percent of those 
people flooded may not have the funds to rebuild their homes. 
The maximum amount they can get from FEMA is $28,800 if they 
qualify for everything that is there. If they had flood 
insurance, they could have gotten up to $250,000 for the home 
and up to $100,000 for the contents, and that would have 
obviously put their home back in the shape that it was before 
the floods.
    So we are going to have a difficult time. I say ``we,'' and 
that is a collective ``we,'' the State, local, and Federal 
levels. What are we going to do to make sure people have decent 
housing? And where are we going to put people and how are we 
going to get them back on their feet when there was not 
adequate insurance in place for them to do that on their own? 
So that is what we are going to struggle with.
    So I do appreciate the comments, but I am sure that as we 
get into the recovery piece of it, we may get some negative 
comments. [Laughter.]
    So just be prepared. But we are going to do the best we 
can. I have told all the governors that we are going to work as 
hard as we can to do everything we can legally do to help them 
and their States get back in shape.
    Chairman Lieberman. Thanks very much.
    Senator Collins. Mr. Chairman, if I could just second your 
comments. I cannot imagine a greater turnaround than we have 
seen with FEMA. It does not mean that there are not still 
problems. It does not mean that there are not still issues and 
challenges that need to be addressed. But the change in 
leadership combined with the extensive reforms that this 
Committee put in place are paying dividends, and we have seen 
it, and thank goodness we did do all of the reforms and such 
capable new leadership was brought in, because our country has 
been challenged with natural disasters the likes of which I 
have never seen before, including my home State of Maine, where 
we had flooding this spring in northern Maine that was unlike 
anything in the State's history.
    So I want to second your praise and thanks to Chief 
Paulison and to all of the rank-and-file FEMA members who are 
working so hard each and every day.
    As I listen to this panel, it helps me be confident that we 
have so many people who are working so hard for our Nation, and 
you do not get thanked often. There is so much anti-
bureaucracy, anti-Washington feeling in this country. And I 
think if the people of this Nation could all have heard this 
hearing and the seriousness and dedication that is represented 
by each of our panelists and by all the people that you 
represent, the men and women who are working hard each and 
every day to protect this country, it would be very heartening 
to the people of this Nation. We may not get the headlines and 
the attention, and that is typical when you are doing a good 
job, as all of you are. But, in fact, I want you to know that 
this Committee does pay attention to your work, and we do 
appreciate it, and you are making a difference each and every 
day. So thank you.
    Chairman Lieberman. Thanks, Senator Collins. I could not 
agree with you more. I was looking at the four of you thinking 
you are living every day with an awesome responsibility that 
the positions that you hold have given you in terms of daily 
events, but then the unthinkable cataclysmic event may occur, 
and we live with that as a possibility, unfortunately, in our 
time. And, we cannot thank you enough for the way in which you 
are dispatching that responsibility. I was raised with an 
expression that the reward of a good deed is the deed itself. 
So even if you are not getting headlines, I hope you feel the 
satisfaction and the reward of all the good deeds that you do 
to protect the security of the American people every day.
    The record of the hearing will be held open for 15 days if 
you want to add anything to your testimony or we want to ask 
you any more questions, but bottom line, thank you very much, 
and we look forward to working with you in our shared goal of 
protecting the homeland security of the American people.
    The hearing is adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]


                      THE GLOBAL NUCLEAR DETECTION



                    ARCHITECTURE: ARE WE BUILDING



                  DOMESTIC DEFENSES THAT WILL MAKE THE



                  NATION SAFER FROM NUCLEAR TERRORISM?

                              ----------                              


                        WEDNESDAY, JULY 16, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Thank you all for being here.
    This is the sixth in a series of hearings held by this 
Committee to examine the threats posed by nuclear terrorism and 
what our government is doing to protect us from it.
    In previous hearings we have examined our state of 
preparedness if a nuclear detonation occurred in a major 
American city: Who would help the local first responders who 
would be clearly overwhelmed? What kind of follow-up medical 
response capabilities does our Nation have to treat the 
wounded? And the numbers there will run into the thousands, 
perhaps even hundreds of thousands. Do we have a clear 
communication strategy to let the public know exactly what they 
need to do to protect themselves after an attack? Should they 
move or shelter in place, for instance?
    We have learned a lot in all of these hearings, and I would 
say that, speaking in summary, we have learned that a lot of 
work is being done to protect the American people from this 
threat, but we have a lot more work to do before we can rest 
easy, or anything approximating resting easy.
    As we have said in each one of our previous hearings, our 
first priority must continue to be to prevent terrorists from 
obtaining the means, methods, and pathways of attacking us with 
nuclear weapons in the first place. And that is what we are 
going to focus on at today's hearing, which is the first, as 
far as we understand, that any committee of Congress has held 
on the so-called global nuclear detection architecture. We are 
going to review today the Federal Government's efforts to 
detect and thwart trafficking in nuclear materials so the 
terrorists never get their hands on a nuclear weapon or, if 
they do, that we make sure that they are blocked from getting 
into the United States.
    The danger of terrorists acquiring a nuclear weapon is 
real. Between 1993 and 2006, there were 1,080 confirmed 
incidents of illicit trafficking in nuclear materials. Eighteen 
of these cases involved weapons grade materials, and another 
124 involved material capable of making a so-called dirty bomb 
that would use conventional explosives to spread nuclear 
material.
    The Domestic Nuclear Detection Office (DNDO) is charged 
with designing the nuclear detection architecture to protect us 
from this threat. It is a multi-agency effort created by a 
Presidential Directive in April 2005 and housed within the 
Department of Homeland Security (DHS).
    As we will hear from our witnesses, the responsibilities of 
the DNDO are daunting. Its first job was to perform an 
inventory of the 74 different Federal programs spread over the 
Department of Energy, the Department of Defense, and the 
Department of State and to try to create from these a unified 
system where all the different agencies were working together 
to protect America.
    The reach of these programs is wide and layered, including 
efforts abroad, efforts at the border, and, of course, 
activities within our homeland. Many of these programs predate 
the establishment of the DNDO.
    This is a significant effort, certainly as measured in 
dollars spent. During the last fiscal year, these programs cost 
a total of $2.8 billion--$1.1 billion to combat smuggling and 
secure nuclear materials held abroad, $220 million to detect 
materials at the border, $900 million for detection efforts 
within the United States, and $575 million for cross-cutting 
activities that support many of the other programs, like 
research and development, into detection technologies.
    The goal of a layered system, as I understand it, is that 
each point of the system will offer another opportunity to 
detect and thwart terrorists before they can acquire a nuclear 
weapon or to stop them before it can be smuggled into the 
United States.
    But the system we have in place now, I conclude, is 
incomplete. As we are going to hear today, our global nuclear 
detection architecture--this ``system of systems,'' as one of 
our witnesses calls it--may have both needless redundancies 
and/or dangerous gaps, which I suppose in this case is the 
worst of both worlds. Even if each program was working 
precisely as planned, holes apparently exist in this layered 
security net that could allow determined terrorists to get 
their hands on weapons grade nuclear material and bring it into 
the United States.
    DNDO's job is to help find and plug those gaps. But that 
job is made significantly more difficult by the fact that DNDO 
is just a coordinating agency and has no effective power to 
order or implement desired changes.
    DNDO has no authority to alter or direct the spending 
requests for programs that are critical to the architecture and 
little ability to ensure that money is spent efficiently and 
contributes to the overall contours of the architecture that 
DNDO itself has designed.
    Therefore, I think we are at a point where we have got to 
ask today whether DNDO needs more authority to review and 
perhaps even approve budgets and plans of the participating 
agencies as well as having authority to make sure that the 
billions of dollars that we have spent and will spend, must 
spend, are spent effectively.
    So I look forward to our witnesses' testimony. We have an 
excellent panel here. The challenges posed are serious and our 
response to those challenges must be as serious, coordinated, 
and purposive. And I look forward to both hearing from the 
witnesses what is happening now and, of course, any suggestions 
they have, particularly with regard to legislation, about how 
we might improve the status quo to make it better.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    The global nuclear detection architecture overseen by the 
DNDO is a vital component of our Nation's defenses against a 
terrorist nuclear attack. That architecture is an elaborate and 
expansive structure involving the Departments of Defense, 
State, Energy, and Homeland Security. Its operations encompass 
work by crews of Coast Guard vessels, Customs and Border 
Protection cargo screeners at U.S. and foreign seaports, and 
many others, all compromising a multi-layered defensive screen 
to detect nuclear materials.
    The SAFE Port Act, which I co-authored, enhanced such 
efforts by requiring that all cargo containers be scanned for 
radiation at the 22 largest American seaports, covering 98 
percent of cargo coming into this country. That law also 
strengthened the Container Security Initiative, which targets 
inspection of high-risk cargo at foreign ports.
    The architecture's multi-layered, cross-departmental, 
international orientation against multiple and shifting threats 
relies on a ``system of systems.'' Assessing the effectiveness 
of that approach is the purpose of this hearing.
    Today's witnesses can give us valuable insights into the 
challenges that the DNDO confronts, and which Congress must 
consider, as we make additional decisions about structure, 
resources, operations, and authorities of our global nuclear 
detection architecture.
    Detecting nuclear materials in transit, at seaports, and 
ports of entry before they reach target areas and can be 
detonated is obviously of the highest priority. As the recent 
example of drug smugglers using submersibles to smuggle tons of 
cocaine demonstrates, however, our enemies seek ways to avoid 
our efforts. They have many options: Using all-terrain vehicles 
to cross the long stretches of wooded land borders in Maine and 
Minnesota, for example; piloting small boats into isolated 
inlets along our coast; or flying small aircraft low over 
unpopulated areas to land on fields in the Southwest.
    Technologies and multi-layered defenses can help, but we 
can never be sure of blocking every path that determined 
enemies might select to reach targets in our homeland.
    That sobering conclusion clearly underscores the need to 
keep intelligence and law enforcement capabilities at the 
highest levels of skills and readiness. It also highlights the 
importance of reducing the chances that nuclear materials can 
ever be obtained by terrorists.
    Our first line of defense must be working with domestic and 
foreign partners to ensure that nuclear materials are secured 
and accounted for, and to use our best diplomatic efforts to 
prevent or minimize nuclear proliferation. The more effectively 
we can pursue those efforts, the lighter will be the burden 
that rests on our global nuclear detection architecture. 
Nevertheless, we know that those efforts are imperfect, and, 
thus, we must make sure that the architecture is as strong and 
robust as possible.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins, for that 
thoughtful statement.
    We will go now to the panel of witnesses. We have five, so 
we are going to give you all 10 minutes. Please try to keep 
within the 10 minutes. There will be a special award for those 
who come in under 10 minutes. It may not be until the next 
world, as my late mother would say, but you will definitely be 
rewarded.
    We are going to begin with Mark Mullen, Assistant Director 
for Architecture at the DNDO, U.S. Department of Homeland 
Security. Good morning, and thank you for your testimony.

      TESTIMONY OF MARK MULLEN,\1\ ASSISTANT DIRECTOR FOR 
     ARCHITECTURE, DOMESTIC NUCLEAR DETECTION OFFICE, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Mullen. Good morning, Chairman Lieberman, and Ranking 
Member Collins. My name is Mark Mullen. I am the Assistant 
Director for Architecture in the Domestic Nuclear Detection 
Office. Thanks for the invitation to meet with you today and 
tell you about the work we have been doing to develop an 
enhanced global nuclear detection architecture because that, in 
fact, is our main job in my office.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Mullen and Mr. Gallaway 
appears in the Appendix on page 647.
---------------------------------------------------------------------------
    Our job basically is to figure out how to strengthen our 
defenses against nuclear terrorism by improving the detection 
systems around the world that give us opportunities to detect 
and interdict nuclear threats on their way to targets in the 
United States. We do this in partnership with other agencies in 
the U.S. Government as well as other domestic and international 
organizations and partners. We work closely with State and 
local law enforcement agencies in the United States, and we 
also, through our partners and other U.S. Government agencies, 
work closely with other countries that have nuclear detection 
systems. And it is through the integration of all these 
activities that we think we can maximize the effectiveness of 
the nuclear detection architecture.
    Detection is only one of many technical, operational, and 
policy measures that are used to combat nuclear terrorism, but 
it is an important one, and it is one where there are a lot of 
improvements underway. And there is a lot of room for 
strengthening our architecture by focusing on the nuclear 
detection aspects. And that, in fact, is what the Domestic 
Nuclear Detection Office was set up to do.
    In my office, in the Architecture Office, we started our 
work on the global nuclear detection architecture right away, 
as soon as DNDO was set up in April 2005. And the first thing 
we did was to take stock, what we call the ``baseline 
architecture analysis.'' We assembled as much information as we 
could about what was already being done at that time to detect 
and interdict radiological and nuclear threats. Not 
surprisingly, we found a lot was already being done, both 
domestically and internationally. We found, for example, that 
in 2005 there were more than 70 U.S. Government programs across 
multiple agencies, totaling at that time about $2.5 billion a 
year; that number has increased now to where it is approaching 
about $3 billion. All these programs were already in place 
working and contributing in various ways to the global nuclear 
detection architecture.
    We also found that thousands of detectors had already been 
deployed, both domestically and internationally, and plans were 
underway at that time to expand those deployments 
significantly.
    We also found, however, that there were some gaps and 
vulnerabilities that were not being fully addressed and in some 
cases were not being addressed at all. And so that was really 
the starting point for the next stage in our work.
    We immediately began developing solutions to fill the most 
significant gaps that we had identified in our baseline 
analysis, and to do this we partnered with agencies that have 
operational responsibility and the domain expertise to begin 
filling in some of these areas where we had identified 
vulnerabilities. For example, for the land border in between 
the ports of entry, we teamed up with the Border Patrol, and we 
have been working with them to develop solutions for that 
domain. And for the small maritime issues that Senator Collins 
alluded to, we have been working with the Coast Guard in 
particular, and other agencies as well, to try and address the 
small maritime vulnerabilities. Together with our partners, we 
examined these vulnerabilities and various options for starting 
to address them.
    The result of this work was a series of initiatives that 
DNDO has launched with our partners over the last few years. 
Now they are in various stages of implementation to begin to 
reduce the nuclear risks associated with these vulnerable 
pathways. And Dr. Gallaway in a moment will describe briefly 
several of these initiatives and present the status of them as 
they exist today.
    To sum up, I would just like to reiterate that DNDO's work 
to develop and enhance the global nuclear detection 
architecture has proceeded in three stages: First, the baseline 
architecture analysis where we took stock, we took an 
inventory, as the Senator said; second was the options analysis 
phase where we began to try and identify solutions to begin to 
fill the gaps, and we have made considerable progress in that 
direction; third is the implementation phase, and that is what 
we are in right now where, through pilot projects and initial 
deployments, which Dr. Gallaway will elaborate on, we have 
begun to introduce new detection systems and concepts of 
operation into practice, and where we are continuing to improve 
and strengthen the systems based on experience we are gaining 
through the implementations as well as ongoing evaluations.
    I would like to stress one final point, and that is, the 
importance of a phased approach to building and strengthening 
the nuclear detection architecture with a near-term perspective 
and also with a long-term perspective. Not only are 
technologies and systems improving all the time based on 
research and development, testing and evaluation, and practical 
experience that we are gaining in the field, but the threat is 
also evolving in ways that may be difficult to predict if we 
look 5 or 10 years in the future. Therefore, we need to 
continually update and strengthen the architecture in the near 
term and long term as new options and challenges arise. Dr. 
Gallaway in the next presentation will expand on the progress 
we are making and give a status on that.
    Thank you very much.
    Chairman Lieberman. Thanks, Mr. Mullen. Good beginning. 
Just out of curiosity, I always wonder how people get to 
positions like this. What is your own background in terms of 
training and experience?
    Mr. Mullen. I am a nuclear engineer. I have worked in this 
area for more than 30 years. I am actually detailed to DNDO 
from the Los Alamos National Laboratory as a technical adviser, 
and I have worked over many years on a wide range of different 
nuclear security and nuclear threat reduction programs, 
including several that you mentioned in your opening remarks. I 
spent quite a few years in the 1990s, for example, working in 
Russia on the nuclear security and material protection control 
and accounting programs, and I came to DNDO at the beginning 
because I thought there were some important problems there that 
I could contribute to.
    Chairman Lieberman. That is great. It sounds like you are 
actually qualified for this job, which is reassuring. 
[Laughter.]
    Dr. Chuck Gallaway, Deputy Director, Domestic Nuclear 
Detection Office. Thanks, Dr. Gallaway. Please proceed with 
your testimony.

   TESTIMONY OF CHARLES GALLAWAY, PH.D.,\1\ DEPUTY DIRECTOR, 
DOMESTIC NUCLEAR DETECTION OFFICE, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Gallaway. Good morning, Chairman Lieberman and Ranking 
Member Collins. The question you posed--Are we building 
domestic defenses that will make us safer?--is obviously a 
critical one.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Gallaway and Mr. Mullen 
appears in the Appendix on page 647.
---------------------------------------------------------------------------
    To get right to the point, I believe the answer is yes, we 
are safer from nuclear terrorism today than we were 3 years ago 
when we formed the Domestic Nuclear Detection Office. Of 
course, we recognize that there is still a lot of work to be 
done.
    Mr. Mullen's analysis has shown that greater security can 
be achieved by focusing on all three layers of the 
architecture: Overseas, at the border, and within the United 
States. Our colleagues at the Department of Defense, the 
Department of Energy, and the Department of State are 
responsible for implementing the overseas layer. I will briefly 
discuss several programs that DNDO has implemented on the 
domestic front--in other words, at our borders and within the 
United States.
    Starting with the border layer, cargo security has been our 
major emphasis to date. As mentioned just a few moments ago, 3 
years ago only 22 percent of the cargo at seaports was being 
scanned. In December 2007, DHS met the congressionally mandated 
goal in the SAFE Port Act of scanning all incoming 
containerized cargo with radiation portal monitors at the 
Nation's top 22 seaports. That represents 98 percent of all 
incoming containerized cargo. Future work will entail finishing 
the remainder of the port work as well as moving into cargo 
challenges including on-dock rail, bulk cargo, and 
international rail.
    Guided by the analysis of the baseline global nuclear 
detection architecture, we have expanded into the aviation 
pathway. We have equipped every Customs and Border Protection 
(CBP) officer who meets an international general aviation 
flight with detection equipment. This pathway is complicated, 
and we are working with CBP, our Federal partners, and our 
international partners to potentially push out our borders by 
screening flights overseas.
    Another important pathway identified in the architecture 
work is the maritime vector. We have acquired and delivered 
radiological/nuclear detection equipment to all Coast Guard 
boarding teams. We have initiated pilot projects in the Puget 
Sound and the San Diego area. We are currently conducting a 
test campaign to characterize the performance of radiological/
nuclear detection equipment in the maritime environment. This 
work will guide our future maritime programs.
    A third pathway driven by the architecture study and still 
in its formative stage is non-port-of-entry land crossings. We 
are working closely with Customs and Border Protection to 
develop options and conduct field evaluations of relocatable 
and personal detectors for use by the Border Patrol along the 
Southern and the Northern borders. So let's leave the border 
layer and move towards the interior layer of the architecture.
    At the regional level, we have worked closely with nine 
States and the District of Columbia on the Southeast 
Transportation Corridor Pilot. This pilot deployed fixed 
detection systems at weigh stations as well as augmentation by 
mobile systems. Throughout the country, we have a vigorous 
training and exercise program. In the last 3 years, we have 
trained over 7,000 State and local officials in preventative 
radiological/nuclear detection through a host of different 
courses.
    Staying with layered defense concept, we have developed an 
approach to defend a potential high-value target such as the 
New York City region. The Securing the Cities Initiative 
enables State and local jurisdiction, along with Federal 
partners, to coordinate and execute preventative radiological/
nuclear detection screening operations. Lessons learned in the 
New York City region will serve as a model for future work 
across the country.
    In conclusion, we are safer today than we were 3 years ago 
when DNDO was established. Guided by the analysis of the global 
nuclear detection architecture, we are taking a measured, 
balanced approach across multiple layers.
    Our work at DNDO along with the cooperative efforts of our 
partners within DHS, throughout the U.S. Government, and within 
State and local governments, are making our Nation safer from 
nuclear terrorism. Thank you.
    Chairman Lieberman. Thank you very much, Dr. Gallaway. I 
appreciate the statement, and we will now move on to David 
Maurer, Acting Director, Natural Resources and Environment, 
U.S. Government Accountability Office (GAO).

   TESTIMONY OF DAVID C. MAURER,\1\ ACTING DIRECTOR, NATURAL 
   RESOURCES AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Maurer. Thank you. Good morning, Mr. Chairman and 
Ranking Member Collins. I am glad to be here today to testify 
on DNDO's efforts to develop a global nuclear detection 
architecture. As you well know, preventing the smuggling of 
nuclear or radiological materials and devices into the United 
States is one of this country's top national security 
priorities. Several Federal, State, and local agencies as well 
as foreign governments are involved in addressing this threat.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maurer appears in the Appendix on 
page 657.
---------------------------------------------------------------------------
    To better integrate these efforts, DNDO was required to 
develop and enhance global nuclear detection architecture in 
coordination with the Departments of Defense, Energy, State, 
and other Federal agencies. For the past few months, we have 
been reviewing DNDO's progress in developing this architecture. 
Our work is still underway, so my statement today provides our 
preliminary observations on DNDO's efforts. We plan to issue 
our final report to you and other congressional requesters in 
January 2009.
    This morning, I will discuss three facets of DNDO's 
efforts: First, its status; second, the challenges DNDO and 
other Federal agencies face; and, third, the cost of the 
various programs that comprise the architecture.
    Regarding status, we found that DNDO has developed an 
initial architecture but lacks an overarching strategic plan to 
help guide how it will achieve a more comprehensive 
architecture. Specifically, DNDO has coordinated with the 
Departments of Defense, Energy, and State to identify 74 
Federal programs that combat smuggling of nuclear or 
radiological material. DNDO has identified gaps in this 
architecture, such as land border crossings into the United 
States between formal ports of entry and has started to develop 
programs to address these gaps.
    Our preliminary observation is that these pilot programs 
appear to be a step in the right direction. However, DNDO has 
not developed an overarching strategic plan to guide the 
transition from the initial architecture to a more 
comprehensive architecture. As a result, DNDO lacks a strategic 
road map with clearly established goals, responsibilities, 
resource needs, and mechanisms for assessing progress along the 
way.
    It is only fair to point out that developing an enhanced 
architecture is not an easy task. DNDO and other Federal 
agencies face a number of coordination, technological, and 
management challenges. I would like to highlight three.
    First, DNDO will need to avoid the implementation and 
coordination problems that initially plagued U.S.-funded 
nuclear detection programs overseas. Although there have been 
recent improvements in these overseas programs, DNDO will need 
to closely examine its domestic efforts to ensure they do not 
suffer similar problems.
    Second, radiation detection technology has limitations, and 
even improved, more advance equipment would need to be closely 
integrated with proper training, intelligence gathering, and 
law enforcement operations to effectively combat nuclear 
smuggling.
    Third, DNDO has been charged with developing an 
architecture that depends on program implemented by other 
agencies. As a result, DNDO may face challenges, ensuring that 
the individual programs within the architecture are effectively 
integrated and coordinated.
    Finally, there is the important issue of how much this is 
going to cost. Looking back, according to DNDO, approximately 
$2.8 billion was budgeted in fiscal year 2007 for the 74 
programs in the architecture. Of this $2.8 billion, a little 
over $1 billion was for international programs, $220 million 
was for programs at the U.S. border, $900 million was for 
security and detection activities within the United States, and 
$575 million funded a number of cross-cutting activities.
    Looking forward, the future costs for DNDO and the other 
Federal agencies to address the gaps identified in the initial 
architecture are not yet known or included in these amounts. In 
other words, no one really knows what an enhanced architecture 
would cost. What is clear is that DNDO has an important and 
complex task. Developing a global nuclear detection 
architecture involves coordinating a vast array of programs and 
technological resources that span the globe. While DNDO's 
vision of a more comprehensive architecture is laudable, to 
achieve this goal it will need to address a number of key 
challenges. What is more, implementing an enhanced architecture 
will likely cost billions of dollars, take several years, and 
rely on the expertise and resources of agencies and programs 
across the government.
    Moving forward, DNDO should work closely with its 
counterparts within DHS as well as in other departments to 
develop a comprehensive strategic plan to help safeguard the 
investments made to date, more closely link future goals with 
the resources necessary to achieve those goals, and enhance the 
architecture's ability to operate in a more cohesive and 
integrated fashion. Thank you.
    Chairman Lieberman. Thanks, Mr. Maurer. That was an 
excellent statement, and we want to get back to some of the 
questions you raised.
    Next is Dr. Dana Shea, specialist in science and technology 
at the Congressional Research Service (CRS) of the Library of 
Congress. Good morning.

TESTIMONY OF DANA A. SHEA, PH.D.,\1\ SPECIALIST IN SCIENCE AND 
 TECHNOLOGY POLICY, RESOURCES, SCIENCE, AND INDUSTRY DIVISION, 
      CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF CONGRESS

    Mr. Shea. Good morning. Chairman Lieberman, Ranking Member 
Collins, and other Members of the Committee, thank you for the 
opportunity to testify before the Committee today. My testimony 
today has three parts: First, I will provide a brief overview 
of the requirement to develop a global nuclear detection 
architecture; second, I will summarize the approach taken by 
the Domestic Nuclear Detection Office; and, third, I will 
identify several policy issues that may be of interest to the 
Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shea with an attachment appears 
in the Appendix on page 675.
---------------------------------------------------------------------------
    To start with the overview, the SAFE Port Act of 2006 gave 
DNDO the statutory responsibility to develop an ``enhanced 
global nuclear detection architecture.'' This architecture is 
to be implemented by multiple Federal agencies, including the 
Departments of State, Homeland Security, Energy, and Defense. 
Similar language was included in Homeland Security Presidential 
Directive 14. This Directive established the Domestic Nuclear 
Detection Office within the Department of Homeland Security in 
2005. Neither the Presidential Directive nor the SAFE Port Act 
explicitly defined the global nuclear detection architecture. 
To meet their statutory responsibility, DNDO interpreted this 
phrase. Their global nuclear detection architecture consists at 
least of Federal detection systems deployed domestically and 
overseas, the programs that support them, the data they 
generate, the mechanisms that coordinate them, and a systems 
engineering-based process for future growth and development.
    The global nuclear detection architecture aims to prevent 
the detonation of a radiological or nuclear weapon within the 
United States. It is a system of systems, that is, a structure 
that aligns detection systems and the programs that support 
them into geographically based layers. The architecture has 
both physical and conceptual components. The physical component 
is composed of the sensor systems deployed by Federal agencies. 
The conceptual component is the mechanism for organizing and 
analyzing program capabilities in this system-of-systems 
context.
    The DNDO global nuclear detection architecture has three 
layers--exterior, border, and interior--and each layer is 
composed of several sublayers and provides an independent 
opportunity to detect the radiological or nuclear threat. It is 
likely that no single layer will provide perfect detection, but 
the combination of these less than perfect layers may be 
sufficient to detect the threat. Several Federal programs are 
aligned with each architecture layer and experts may compare 
architecture requirements and program capabilities to identify 
gaps in the architecture. Such a gap analysis is one example of 
the benefits of creating an overarching architecture.
    The DNDO has identified baseline funding and participation 
levels in the architecture. According to DNDO, the global 
nuclear detection architecture has been used to identify gaps 
in the Nation's abilities to detect radiological and nuclear 
materials, and these identified gaps are in the process of 
being addressed.
    I will discuss four key issues facing decisionmakers when 
considering the global nuclear detection architecture and its 
use: First, the architecture's ability to meet its primary goal 
of detecting radiological and nuclear material; second, the 
prioritization of current and future investments in the 
architecture; third, the criteria for policymakers to judge the 
architecture's success; and, last, DNDO's ability to sustain 
and evolve the architecture in the future.
    A failure of the architecture will likely become readily 
apparent, and the success of the architecture may not be so 
clear. The success of the architecture will depend on efforts 
beyond detecting these materials. The DNDO has identified the 
protection of radiological and nuclear sources as part of the 
global nuclear detection architecture. These components beyond 
detection require the coordination and cooperation of multiple 
agencies, potentially in multiple countries, and the ability to 
correlate and combine data from multiple sources. Accurate 
information gathered by DNDO regarding the performance and 
benefits of the architecture's programs is essential to the 
architecture's effectiveness. However, such information may be 
difficult to generate, measure, or even estimate. Absent such 
validated information, policymakers may find judgments 
regarding success in meeting architecture goals hard to make. 
Congress may face the issue of what constitutes an acceptable 
level of risk in the architecture. It is unlikely that any 
single sublayer in the architecture will be 100 percent 
effective. What constitutes an acceptable level of risk will 
likely be a major policymaking decision, especially in the case 
where additional small benefit may come at substantial cost.
    The system-of-systems approach embodied in the global 
nuclear detection architecture can be a powerful tool for 
prioritization and planning. If DNDO can establish an overall 
view of radiological and nuclear detection, it may attempt to 
optimize the total architecture. It might do this both by 
refining investment in existing programs as well as identifying 
areas where investment in new programs would yield particular 
benefit. A key component of this approach is the development of 
an accurate representation of the architecture, a model. The 
DNDO might use this model to identify trade-offs and 
alternative approaches, establish the risk reduction benefits 
and economic costs of these approaches, and inform 
policymakers' critical decisions regarding further investment.
    These architecture priorities may not exactly align with 
the priorities of the participating agencies or their 
individual programs. The DNDO is a coordinating office, not an 
implementing agency, and does not control the budgets of other 
agencies or have the ability to require other agencies to 
revise or adjust their funding investments. Therefore, a key 
issue for Congress is priority setting for the global nuclear 
detection architecture's implementation. Policymakers may need 
to choose between future agency priorities and supporting 
architecture needs. Congressional comparison of architecture 
priorities and participating agency program activities may be a 
key component of the architecture's effective implementation.
    One possible mechanism to achieve such oversight is to 
provide the DNDO Director with the authority to review and 
assess the budgets of other participating agencies. Another 
mechanism might be to require the compilation and submission of 
an annual, unified global nuclear detection architecture budget 
supplement. Linking the identification and reporting of the 
architecture to the budget cycle could provide Congress with 
insight into how the priorities of the architecture are being 
implemented by the various participating agencies. Congress 
would also obtain an overarching view of the implications of 
changing funding levels among programs.
    The robustness of the global nuclear detection architecture 
likely depends on three factors: The information DNDO receives 
from other agencies; DNDO's interpretation of that information; 
and DNDO's continual reassessment of the architecture based on 
this information.
    Strategic goals, metrics, and benchmarks for the 
architecture are needed to assure that important aspects of 
other agency activities are provided and incorporated. Without 
these metrics and benchmarks, factors not essential to the 
mission of the architecture may become the criteria by which 
success is judged.
    Congress could solicit from DNDO timelines, milestones, and 
funding estimates for portions of the architecture along with a 
series of implementation alternatives. By identifying the 
different stages for implementation of the architecture, 
Congress may be able to determine what qualifies as a near-term 
success while still allowing for growth and completion of 
longer-term goals.
    The DNDO has identified the architecture as having an 
evolving component to it, where future iterations of the 
architecture may address concerns that cannot be best addressed 
with current technology. The DNDO draws upon subject matter 
experts and detailees from other agencies to provide unique 
expertise and necessary interagency input and coordination. 
This use of detailees may pose challenges to the maintenance of 
the architecture due to the limited duration of their 
positions. Congressional oversight of the architecture's 
evolution is a key component to its maintenance. Congress might 
require DNDO to provide detailed reports identifying DNDO's 
long-term vision for the architecture. Such reports might 
provide Congress with the information necessary to balance the 
long-term goals of the architecture with other policy 
objectives under consideration. Congress might also address the 
issue of maintaining institutional knowledge by requiring DNDO 
to identify those positions best filled by permanent staff and 
to establish specific mechanisms to maintain this knowledge.
    Mr. Chairman, that concludes my prepared statement. I would 
be happy to answer any questions that you or other Members of 
the Committee might have.
    Chairman Lieberman. Thanks very much, Dr. Shea. Really 
through you to CRS and, Mr. Maurer, through you to GAO, thanks 
to both of your agencies for the really extraordinary work that 
you do in assisting this Committee and Congress generally in 
carrying out our oversight responsibilities. I thank you for 
the statements you have made today, which will be very helpful 
to us.
    Our final witness is Robert Nesbit, Senior Vice President 
and General Manager, Center for Integrated Intelligence Systems 
at the MITRE Corporation. Mr. Nesbit has served, as I 
understand it, as chairman of a panel convened by the Defense 
Science Board at the Pentagon to review the specific question 
of protecting our homeland from weapons of mass destruction 
(WMD). So you are an ideal witness for us. We thank you for 
being here and look forward to your testimony now.

  TESTIMONY OF ROBERT F. NESBIT,\1\ SENIOR VICE PRESIDENT AND 
 GENERAL MANAGER, CENTER FOR INTEGRATED INTELLIGENCE SYSTEMS, 
                     THE MITRE CORPORATION

    Mr. Nesbit. Good morning, Chairman Lieberman and Ranking 
Member Collins. My name is Bob Nesbit. I work for the MITRE 
Corporation in Boston, Massachusetts, and have been a member of 
the Defense Science Board for the last 10 years.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nesbit appears in the Appendix on 
page 705.
---------------------------------------------------------------------------
    The Board conducted a study to examine the best strategies 
to employ against the threat of terrorist use of weapons of 
mass destruction. Larry Lynn and I served as the co-chairs with 
members from industry, academia, the Federal Funded Research 
and Development Centers (FFRDCs), and the National 
Laboratories. The findings and recommendations of the Board are 
advisory. They do not represent the official position of the 
Department of Defense.
    We examined attacks in three distinct time frames--during 
the planning and preparation, while the attack would be in 
progress, and in the aftermath of the event. For the nuclear 
terror topic of today's hearing, one finding clearly stands 
out. If a terrorist or rogue state somehow gains possession of 
a nuclear device and intends to use it against the United 
States, we are in big trouble. Our recommendations, therefore, 
stressed doing everything possible to prevent acquisition since 
once this happens it would be most difficult to detect in 
transit, stop, and secure the device prior to detonation.
    We recommend increased effort in three pre-attack areas: 
First, the area of intelligence. The intelligence analysts we 
met with said they have less information on this subject today 
than they did prior to September 11, 2001. We recommend that 
improved intelligence on these threats to include greater 
emphasis on tracking key individuals who have specific 
technical expertise; increased fielding of deep penetration and 
close access intelligence sources and methods; more persistent 
surveillance assets to include tagging tracking and locating; 
and in-depth analysis to create a better understanding of 
adversary motives and intentions.
    Second, we recommend that we develop diplomatic, economic, 
and military response options to serve as a deterrent against 
the original source of the nuclear device or material. The 
President has clearly articulated a policy about this, but we 
do not have response options. To make these options credible 
will require improved forensics to be able to identify the 
original source. Extended planning and publication of the 
outline of the response options will make U.S. intentions 
perfectly clear to all.
    Third, we recommended strengthening and broadening 
international cooperative efforts in non-proliferation and 
increased security of nuclear materials, including the 
Proliferation Security Initiative, the Nunn-Lugar Cooperative 
Threat Reduction Program, and other special diplomatic efforts.
    We were very taken with the take-down of the A.Q. Khan 
network and the Libyan program. It was a remarkable success 
based on intelligence, diplomacy, and, most importantly, 
international cooperation. It is likely the highest value 
nuclear counterproliferation operation in the last 10 years. It 
stands as a real model of what we ought to be doing more and 
more of.
    As a second priority, we recommend increased emphasis in 
consequence management following an attack. I was pleased to 
see that you held a hearing on this subject a couple weeks ago. 
You came to the same conclusion we did, that, unfortunately, if 
you are at the point of the blast, there is not much that can 
be done, but there is a lot that can be done to limit total 
casualties--some estimate by as much as a half if we had the 
proper medical response. We need radically increased medical 
surge capabilities to treat radiation exposure and deal with 
trauma and burns. Many more people with first-level disaster 
training are needed to stabilize the injured until professional 
medical care is available. And DOD personnel may be required to 
deal with quarantine of affected areas and eventual 
decontamination.
    Finally, in our study we determined that detecting a 
nuclear device in transit is very difficult. The physics of the 
situation makes the sensor technology quite challenging, and if 
the perpetrator is clever and uses shielding, non-obvious entry 
paths and transit means, or employs salvage fuzing to initiate 
the weapon upon detection, it would make detection prior to 
detonation even less likely.
    A terrorist group that was adept enough to acquire a 
nuclear device or material should be assumed to have a similar 
skill level in carrying out the attack. While we did not 
endorse deploying a large number of fixed, pre-emplaced 
radiation detectors throughout the United States, we did 
conclude that we ought to make terrorist planning more 
difficult by selectively deploying these detectors to small 
areas cued by intelligence or heightened alerts; near certain 
key portals, high-value targets, or special events; but, most 
particularly, in a mobile randomized, non-overt manner, but the 
existence of which is publicized, to add complexity to the 
offense.
    We derived this strategy using a fairly quantitative 
approach. DHS produced 14 potential scenarios in which 
terrorists might use WMD against the United States. We 
estimated the most probable beneficial impact in terms of lives 
saved and injuries and economic loss avoided if each defensive 
alternative were employed against each scenario. The sum of 
those benefits over all 14 scenarios provided a measure of 
impact. The individual approaches were then ranked based on 
their value, which was a combination of the impact and the cost 
of implementing the defensive approach.
    This concludes my prepared statement, and I thank you very 
much for your invitation to testify.
    Chairman Lieberman. Thanks very much, Mr. Nesbit, for that 
testimony, which was unsettling but if that is the way you see 
it, it is important that you said that to us. We will have 7-
minute rounds of questions.
    I want to go back to something you said in your testimony, 
and I quote, ``If a terrorist or rogue state somehow gains 
possession of a nuclear device and intends to use it against 
the United States, we are in big trouble.'' Just develop that a 
bit more. Are we in big trouble because you are skeptical of 
our ability to stop a terrorist group from getting a device 
into the country?
    Mr. Nesbit. Our reasoning on this was that if a terrorist 
got his hands on a nuclear device, that would be a really big 
deal. That shows a level of skill way beyond the normal 
terrorist that we deal with. And if they have that level of 
skill, expertise, and financing to be able to get their hands 
on the device, they could be really clever about how they got 
it into the United States. It is such a big country, and it is 
so hard to defend against everything. We thought that the 
probability of them getting it in or exploding it upon 
detection was fairly high, that it is likely they could get 
past the defenses.
    Chairman Lieberman. Yes. Let me just ask, how do you, 
therefore, evaluate the progress that we have made so far? For 
instance, screening cargo, as Dr. Gallaway indicated, coming in 
by water and at least radiation monitoring of all flights that 
come in, is that constructive?
    Mr. Nesbit. It is definitely constructive. There is still a 
long way to go there, but, I mean, it has only been 5 or 6 
years, and the progress made in the technology of the devices 
has improved; the false alarm rate has gone down; the 
deployments are up. But it is just really a tough problem.
    Chairman Lieberman. So that leads you obviously to try to 
stop it over there before it gets near here, and the interest 
in expanded or improved intelligence, which I think is very 
well placed. Did your panel meet with the Director of National 
Intelligence (DNI) or other heads of intelligence?
    Mr. Nesbit. Yes, we did.
    Chairman Lieberman. And it is on the basis of that that you 
would argue that they need more help in these areas?
    Mr. Nesbit. Yes.
    Chairman Lieberman. I was interested in your second 
recommendation, developing and deploying diplomatic, economic, 
and military response options. Presumably, we have those. In 
other words, but no, you say not.
    Mr. Nesbit. We could not find in the Department of Defense 
any plans for what we would do if we were attacked with a 
nuclear weapon and we determined the source.
    Chairman Lieberman. In other words, not the option if we 
find out that a terrorist has a nuclear device somewhere in the 
mountains between Pakistan and Afghanistan.
    Mr. Nesbit. No. If a terrorist got a weapon from North 
Korea and it exploded in the United States, what would our 
response be to the North Koreans.
    Chairman Lieberman. So this is by way of deterrence.
    Mr. Nesbit. Yes, sir.
    Chairman Lieberman. In other words, if we found out that 
you, North Korea, were complicit in a terrorist nuclear attack 
against the United States, what could you expect us to do?
    Mr. Nesbit. Right. In the Cold War, as you well know, we 
not only had a policy of deterrence, we had an organization 
that planned, practiced, was well qualified, and had options 
laid out in great detail, and that proved to be a very valuable 
deterrent.
    Chairman Lieberman. I appreciate those answers.
    Dr. Gallaway, let me move to you and ask first for a quick 
general response to what Mr. Nesbit has said.
    Mr. Gallaway. I agree in principle with what he has said. 
We support the idea of deterring a terrorist all the way from 
the point where he may acquire a weapon through interdiction or 
through transit; and then, finally, if, in fact, the weapon is 
used, that we try to mitigate the effects of the detonation as 
much as possible. So I am very much in sync with what he has 
proposed.
    Chairman Lieberman. Mr. Mullen, let me ask you this because 
Dr. Gallaway has reported, and, of course, this Committee has 
followed with appreciation, the increasing efforts to detect 
the movement of radiological material in another country by 
cargo ship and through commercial aviation or established 
aviation. I understand that in developing the baseline 
architecture in 2005, you and your colleagues concluded that 
the general aviation pathway and the small maritime pathways 
posed a serious risk and actually needed to be a priority. In 
other words, we have a big country. There are a lot of places 
where small boats can come in and a lot of places where small 
private aircraft can come in.
    Let me ask you first to discuss, if I am right, that 
conclusion and what the basis of the conclusion was.
    Mr. Mullen. That is correct. We did identify those two 
pathways as particularly important ones for additional work. 
Let me start first with the small maritime craft.
    As you are probably aware, there are more than 13 million 
small boats in the United States, and by small boats, we define 
that as less than 300 gross tons. And we have a very effective 
Coast Guard, but the number of boats and the 95,000 miles of 
coastline and inland waterways present just a huge area to 
cover for the Coast Guard. And so if you look at the number of 
boarding teams and the number of Coast Guard vessels and 
officers compared to the size of the problem, you can see right 
away that it is a very daunting challenge. So we wanted to team 
up with the Coast Guard and see what we could do together to 
try and deal with that pathway, and we have made some progress 
in that direction.
    So that is really what is behind the emphasis on small 
maritime craft--the size of the job compared to the 
capabilities that we have at this time.
    Chairman Lieberman. I presume underlying all this 
discussion is our conclusion that if a terrorist or terrorist 
group got hold of a nuclear device, it would likely be a small 
nuclear device and, therefore, capable of being brought into 
the country by a small boat or a small aircraft. Is that 
correct?
    Mr. Mullen. That is correct. There would not be a 
constraint on the size of the aircraft or the boat for being 
able to transport a nuclear device.
    Now, let me answer the second part of your question on 
aviation. It turns out that there are approximately 400 flights 
a day of generally small--sometimes it is larger aircraft, but 
privately owned--aircraft that enter the United States from 
other countries, most of them from Canada, Mexico, and the 
Caribbean, but also some long-range flights. And in the past, 
this form of aviation was relatively lightly regulated compared 
to commercial aviation, the large airlines that we are most 
familiar with.
    Chairman Lieberman. Sure.
    Mr. Mullen. And so in terms of a programmatic gap, it had 
not gotten the kind of attention that some of the other 
pathways had, and so we identified that as something that 
needed a closer look, and we have, in fact, done that.
    Chairman Lieberman. I am going to ask Senator Collins for 
her indulgence so I can continue this line of questioning, and 
then she can continue as long as she wants in her line of 
questioning.
    I have seen some records that show that in November 2005, 
DNDO staff briefed Vice President Cheney and the Homeland 
Security Council on the need to emphasize defenses against the 
risk that a terrorist group would use a private aircraft or a 
small boat to deliver an improvised nuclear weapon. What would 
you describe in this open setting about the response of the 
Homeland Security Council and the White House to those 
briefings?
    Mr. Mullen. What I think you are referring to, Senator, is 
the briefings that we did on a fairly wide basis on what we 
called our baseline architecture analysis--we completed that 
analysis in November 2005, and we briefed all of our partner 
agencies as well as various officials and committees in the 
administration, and----
    Chairman Lieberman. Right. So these were not----
    Mr. Mullen [continuing]. They basically endorsed our----
    Chairman Lieberman. Let me just interrupt just for clarity. 
You are saying that the two meetings that I have mentioned were 
not exclusive, that you were briefing many people at this time.
    Mr. Mullen. That is correct.
    Chairman Lieberman. Go ahead.
    Mr. Mullen. And in essence, they endorsed our baseline 
analysis and encouraged us, as we have identified these 
vulnerabilities, to go ahead and begin tackling these 
vulnerabilities and attempting to identify solutions that could 
then be implemented.
    Chairman Lieberman. So this is an enormous task, of course, 
because of the enormity of our country and the number of boats 
and small aircraft coming in. In brief, how would you describe 
the progress we are making as a result of those briefings in 
regard to small boats and small planes?
    Mr. Mullen. I think we are making good progress. We have 
put together in the small maritime area a joint program with 
the Coast Guard as well as with State and local partners to 
begin to build out detection capabilities in the major 
seaports. As Dr. Gallaway mentioned, we are launching that 
through a series of pilot projects initially on the West Coast. 
Dr. Gallaway mentioned the Puget Sound area and San Diego. We 
have similar pilot activities in New York City and several 
other locations. And what we are doing through this process is 
expanding the coverage, as we say of radiation detection, so 
that we can get more detectors in the hands of more people, not 
just the Coast Guard but State and local law enforcement, and 
we are also, through the Small Vessel Security Strategy that 
Coast Guard Commandant Thad Allen has talked about, reaching 
out to partners in the private sector who can also serve as 
eyes and ears to help extend our ability to detect suspicious 
activities and perhaps target and focus the radiation detectors 
toward anomalous situations that would be identified there.
    So I think we are making good progress on the small 
maritime front, although certainly we have quite a ways to go 
given the size of the problem. And likewise with aviation, I 
think we are making good headway.
    Chairman Lieberman. Would I be correct in concluding, 
nonetheless, that our priority thus far has been on the ports 
of entry, that is to say, the cargo screening, for instance, at 
our major ports where we have made substantial progress? Or has 
this other work with small boats and small planes come up as an 
equal priority now?
    Mr. Mullen. I would say broadening the architecture to 
cover more pathways, such as the ones that we have just been 
discussing, is a high priority. The ports of entry were 
programs that had started actually before DNDO was even set up 
in 2005, and they had a large amount of momentum behind them, 
and they have been going forward. But I think we are beginning 
to shift the balance to cover more broadly all of the pathways 
instead of a focus on ports of entry only.
    Chairman Lieberman. Thanks very much. Thank you, Senator 
Collins.
    Senator Collins. Thank you.
    Mr. Nesbit, I want to follow up with you on the issue of 
setting priorities. Obviously, part of the challenge that we 
face is allocating limited resources to reduce our 
vulnerabilities to all types of WMDs. And this is an area where 
the Defense Science Board has done a lot of work and discussed 
this topic in terms of prevention, response, mitigation, 
recovery, as well as detection.
    The Defense Science Board report from the summer of 2005 
proposes a system to prevent nuclear attack that obviously 
includes more than just relying on detection. The system that 
you recommended includes enhanced intelligence capabilities, an 
improved counterproliferation regime, and greater domestic 
preparedness, and these are all issues that this Committee has 
been examining and held hearings on.
    Give us your advice on how we should allocate resources 
across those five areas of prevention, response, mitigation, 
recovery, and detection.
    Mr. Nesbit. In the report we had some detailed numbers on 
that very issue across all the WMD modalities. We thought the 
number one area needing increased emphasis was on the 
prevention of acquisition. So in the intelligence area, in the 
diplomatic area, that was far and away, we thought, the most 
under-resourced in this topic. And, second, we thought the 
consequence management following the event would be the second 
priority.
    We had specific numbers in there that across all the 
modalities totaled up to $44.1 billion.
    Senator Collins. Thank you. Now, looking within DNDO, DNDO 
reported to Congress that the Federal Government spent 
approximately $2.8 billion in fiscal year 2007 for 74 programs 
included in the global nuclear detection architecture. And of 
this amount, $1.1 billion was allocated to combating 
international nuclear smuggling and $220 million was devoted to 
border security measures.
    I am going to ask Mr. Shea and Mr. Maurer this question as 
well, but let me start with you, Mr. Nesbit. Looking within 
DNDO on the allocation of funding on fighting nuclear smuggling 
versus border security measures, do you think that the 
priorities are right within DNDO?
    Mr. Nesbit. We recommended that more emphasis be placed on 
mobile non-overt sensing. So instead of these large things that 
sat there every day, you had things that could move around, 
that terrorists would not know where they might be, and that if 
you shipped something and it took 3 weeks to get to the United 
States, you would have no idea whether you would be detected or 
not. We thought that was a critical element that ought to be 
high on their list.
    Senator Collins. Actually, the University of Maine is 
developing a smart sensor that can be placed on a container to 
monitor en route, detect any tampering, and also detect 
radiological, biological, or chemical contamination or danger 
materials. It is fascinating work because that is a big 
challenge.
    Mr. Shea, Mr. Maurer, the same question for you. Within 
DNDO, the allocation of funding for international nuclear 
smuggling versus border security measures, do we have it right? 
Mr. Shea.
    Mr. Shea. Thank you for that question, Senator Collins. As 
I understand DNDO's allocation of program investment to their 
architecture, these are the programmatic budget numbers for the 
programs in other agencies that are aligned to DNDO's baseline 
architecture. And so to a great extent, the budget that is 
being spent in these layers that DNDO has identified are other 
agency budgets, especially in the area outside of the United 
States. And I think what the best balance in the architecture 
is will be an output of further refinement and optimization of 
the global nuclear detection architecture, and it will be an 
identification of priorities from this baseline moving forward. 
And so I think that would be something that would come out of 
DNDO's further analysis of this initial baseline.
    Senator Collins. Mr. Maurer, has GAO looked at that aspect 
of DNDO yet, the allocation across the various programs?
    Mr. Maurer. We have not done a detailed analysis of the 
various allocations of funds, but I think it is difficult to 
really make an assessment of whether or not they are making the 
right resource allocation decisions absent having some kind of 
strategic plan that clearly lays out their priorities. One of 
the things we are calling for today is developing an 
overarching strategic plan that would really initiate a debate 
within the Administration, hopefully involving the Congress as 
well, about where those resource allocation decisions should be 
made. For example, should there be more emphasis on the 
international programs or should there be more emphasis on the 
domestic programs?
    Senator Collins. Thank you.
    Mr. Gallaway, you mentioned that the Coast Guard boarding 
teams are equipped with radiation devices, and that obviously 
is very important. An important layer of the nuclear detection 
architecture is the role played by first responders, by State 
and local police, firefighters and other emergency response 
personnel. Our previous hearings have made very clear that they 
are the ones who are going to be first on the scene if there 
were a nuclear incident or the explosion of a dirty bomb. And, 
thus, they need access to effective radiation detection 
equipment to protect themselves and also to provide situational 
awareness to the public and to the leaders who are making the 
decision.
    What steps has DNDO taken to ensure that State and local 
responders have effective radiation detection equipment 
available?
    Mr. Gallaway. Senator Collins, right now the DNDO mission 
has been pretty much exclusively focused on preventative 
radiological/nuclear detection--in other words, preventing the 
use of a nuclear weapon.
    We have not entered into the response and recovery part, 
which I think is what you are asking about. The Department is 
leading an interagency discussion right now to figure out how 
the Executive Branch should deal with response and the 
different roles and responsibilities, and then within DHS, we 
are going through a discussion to decide who is responsible or 
not for the various components.
    Senator Collins. Is DNDO responsible for testing and 
evaluation of detection equipment in order to make the 
acquisition decisions as far as which equipment should be made 
available to the Coast Guard and CBP, for example?
    Mr. Gallaway. Yes, ma'am. But we are focused on the 
equipment that would be used to detect a weapon before it is 
detonated.
    Senator Collins. But wouldn't that kind of equipment and 
the information about standards and testing be very helpful, 
for example, to the New York Police Department, which has a 
robust effort to detect as well as to respond?
    Mr. Gallaway. I guess I would argue that the detection 
equipment you need before an event is aimed at finding the 
device or finding the radiological materials; whereas, when we 
are doing detection after an event, that is for public safety 
and personal health of the first responders, as you mentioned, 
and also subsequently the public that might come back into the 
area. And so it is two very different missions, the basic 
detection technology might be similar, but I think it would be 
employed in very different ways. And also, the standards are 
very different.
    For example, in response and recovery, many of the 
standards have already been set over many years by Federal 
agencies. I would recommend that we would build on those and 
come up with maybe some overarching ones now.
    Senator Collins. I guess what I would suggest to you is 
that even when we are talking about detection and not looking 
at response, involving State and local first responders is a 
very important part of the architecture and of our ability to 
detect----
    Mr. Gallaway. I am sorry, ma'am. I misunderstood.\1\ We 
engage the State and local folks. For example, with the 
Securing the Cities Initiative in the New York City region, we 
have State involvement, local involvement, as well as Federal 
involvement. And they are working very closely together to 
develop the detection technology that would be used by all of 
the local responders, both police and firefighters but, again, 
from a preventative perspective.
---------------------------------------------------------------------------
    \1\ The post-hearing response for the Record submitted by Mr. 
Galloway appears in the Appendix on page 712.
---------------------------------------------------------------------------
    Senator Collins. Thank you.
    Chairman Lieberman. Thank you very much, Senator Collins. 
Those were good questions and good answers.
    I appreciate the discussion about the budget goals that you 
have, Mr. Nesbit. Dr. Gallaway, do you have any response to 
that? I am sure every Federal Government agency would like more 
money, but this is really a priority concern because of the 
consequences of what we are talking about.
    Mr. Gallaway. I guess I would just like to re-emphasize, 
DNDO has an overarching role, as Mr. Mullen laid out, to 
develop the architecture. But when it comes to what the 
different departments contribute to that architecture, we do 
not have any direct statutory control over that. And so we talk 
with our colleagues in the other departments, and we may 
suggest to them an increased emphasis in the area, but we do 
not have any direct control over that.
    Chairman Lieberman. So that leads to the next obvious 
question about whether DNDO has sufficient authority to do what 
needs to be done. It is doing what it was intended to do, which 
is with regard to the overall architecture. But do you think 
the whole system and basically the goal of protecting the 
American people from a nuclear terrorist attack would be 
benefited if DNDO had other authorities? And let me be 
specific. The first is one you have talked about, whether you 
had some budget authority, at least to approve if not to 
comment on, but ideally to approve the budget submissions of 
the agencies that you are coordinating.
    Mr. Gallaway. Sir, in principle, I think it would be a good 
idea.
    Chairman Lieberman. Right.
    Mr. Gallaway. I think in reality it would be very difficult 
to actually implement and make effective, and the reason I say 
that is we can work informally with our colleagues in the other 
departments, and we can come up with what we think may be the 
best plan. But then each of them will go through their 
respective budgeting process in their departments. Those 
departments will then submit their budgets to their respective 
committees in Congress. And all along the way, there are a 
variety of priorities within each of those stovepipes that are 
all competing.
    Chairman Lieberman. Right. I hear you. Look, I know I have 
put you in an awkward position with your colleagues in the 
other agencies, but this is so important that it seems to me we 
want to make sure that the funding is going where it should, 
and that each of the component agencies will naturally advocate 
for themselves. And just to me it seems that somebody over 
there should have the big view and allocate priorities.
    I wonder if I could invite Mr. Maurer and Dr. Shea to 
comment on this. I know, Mr. Maurer, you have testified that 
DNDO lacks that overarching strategic plan to help guide how it 
will achieve its goals, and I appreciate that and I agree with 
you. What about the next step, which is some kind of budget 
authority?
    Mr. Maurer. We issued a report in January 2005 that 
partially addresses that issue. Back then we were asked to take 
a look at the overall U.S. effort to address nonproliferation. 
We looked specifically at State Department, Defense Department, 
Department of Energy, and what we found then is that there was 
really a need for a White House-level strategy to guide and 
direct those efforts. That may be called for here as well, and 
we have not completed our work looking at DNDO's efforts. But I 
would say that it is a definite challenge for an organization 
within DHS to try to influence or direct the activities of 
other Cabinet departments.
    Chairman Lieberman. Dr. Shea, in offering your answer, I 
want to note that Section 1107 of the Implementing 
Recommendations of the 9/11 Commission Act, which was passed in 
2007, requires that each agency conduct self-assessments 
related to its support of the global nuclear detection 
architecture and that the results of these be reported to 
Congress as part of a joint interagency annual review, and that 
at the request of the Committee, the CRS has evaluated the 
joint interagency annual review. So I wanted to ask you to 
share with us what your evaluation is as you answer the overall 
question of whether DNDO should be strengthened with budget 
authority or perhaps even some greater coordination of 
implementation authority.
    Mr. Shea. Thank you, Mr. Chairman. I think that the issue 
at hand here is whether or not there can be forward planning 
for the global nuclear detection architecture when the 
priorities of the architecture, as GAO has stated, have not 
been set and a strategy document and benchmarks have not been 
laid out in an overarching manner in such a document.
    The self-assessments in the review report that you asked us 
to look at did not provide information with regard to future 
budget years, for example. As a consequence, the optimization 
of these programs in the future, synergies between these 
programs, and the identification of whether or not the programs 
are meeting the goals of the architecture, while they still may 
be meeting their programmatic goals, those issues are somewhat 
still unresolved.
    The point that was brought up by Dr. Gallaway regarding the 
difficulties of organizing budgets across the Federal 
Government might be addressed by, as I mentioned in my 
testimony, a global nuclear detection architecture budget 
supplement which would consolidate all of the information 
regarding these programs and the different agencies in one 
location. That might provide a common ground for all of the 
various parts of Congress that are looking at this issue to 
understand the implications of these program funding decisions.
    Chairman Lieberman. Let me finally on this round, Dr. 
Gallaway, ask whether short of budget authority you are able to 
or have developed plans that might be suggestions for the 
component agencies as to where they should be investing their 
funds to meet the overall goals of the architecture that DNDO 
has described?
    Mr. Gallaway. Mr. Chairman, the annual report that Mr. 
Mullen drafted and we submitted recently brought together for 
the first time all the various components and presented it to 
the Congress. I was pleased by the participation by all the 
departments in that process. I am optimistic that as we do the 
next version of that, we will actually get better. I am also 
hopeful that in that process we will start actually having a 
better dialogue with our partners and that we may actually make 
some progress on our own on working together within the 
departments and improving the overall architecture.
    Chairman Lieberman. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Dr. Gallaway, the Science and Technology Directorate within 
the Department of Homeland Security has expertise and is 
responsible for testing and evaluating a wide range of homeland 
security technology that will be used by the Department to 
respond to a wide range of threats. In light of that, does it 
make sense for DNDO to also have responsibility for testing and 
evaluation?
    Mr. Gallaway. Yes, I think there is a reason for having two 
sets of testing organizations. As we are developing a new 
device, we need to do what we call developmental testing. And 
this is where the program office is making sure that the device 
is progressing logically as it moves towards a final system. I 
think that kind of testing should definitely be done by the 
program office.
    On the other hand, the operational testing to assure that 
the device meets the requirements of the end customer, should 
be done by an independent organization. We are now starting 
down that road with one of our new detection systems where we 
are going to the operational test authority within the Science 
and Technology Directorate, George Ryan, and he will be leading 
the operational testing of our new device. And so I am very 
comfortable with that relationship where we do the 
developmental testing and an independent organization does the 
operational testing.
    Senator Collins. The GAO has been quite critical of DNDO's 
testing of the Advanced Spectroscopic Portal (ASP) monitor, 
which has been going on since 2005. Last year, DHS indicated 
that it was nearing certification of the system, but then 
operational and other concerns were raised by Customs and 
Border Protection, and the Secretary's certification was 
delayed until sometime this year.
    Does that suggest that DNDO does not have a sufficiently 
well-defined and rigorous testing and evaluation program? What 
went wrong on the ASP testing?
    Mr. Gallaway. Well, the ASP testing that was done last year 
was done all within DNDO. We learned a tremendous amount during 
that process. We actually think some of the criticism of the 
testing that was done was not well founded.
    With that said, we are in the process right now of going 
through the ASP test series. We have just come out of system 
qualification testing, which is actually done by the vendors. 
As we speak, we have just moved into technical performance 
testing at the Nevada test site. Very shortly, we will do a 
test readiness review to move into integration testing, which 
will be done at Pacific Northwest National Laboratory, which we 
call integration testing where we see that all the parts work 
together.
    Assuming everything continues to look good at that point, 
the systems will be handed to Customs and Border Protection for 
a field validation where their folks actually run them at ports 
of entry to assure that they are meeting their needs. And then, 
finally, and getting back to the operational test component, an 
independent tester from the Science and Technology Directorate 
will come in and do an operational test to assure that the 
systems are working to meet the requirements that were laid 
down.
    So I think we have laid down a very rigorous series of 
testing. We have run this system through probably the most 
rigorous series of tests that have ever been conducted on a 
nuclear detection device. And we are confident that the systems 
will be well tested.
    Senator Collins. Mr. Mullen, my last question is for you. 
In response to questions from the Chairman, you indicated that 
you were on loan to the DNDO from Lawrence Livermore National 
Laboratory, I believe.
    Mr. Mullen. Los Alamos.
    Senator Collins. Sorry, I meant the Los Alamos National 
Laboratory. I imagine there is competition there, so that was 
probably a terrible error for me to make.
    In any event, that reminded me that DNDO has chosen to be 
staffed with detailees from multiple Federal agencies, 
including the Federal Bureau of Investigation (FBI), the 
Department of Energy, the Coast Guard, and CBP. And on the one 
hand, I think that is a very appropriate approach that 
strengthens the interagency connections that allows, much as 
the National Counterterrorism Center does, analysts to share 
information. It helps form a common culture. It encourages 
information sharing, breaks down those stovepipes. That is on 
the plus side.
    The negative side is that detailees go home, they go back 
to their originating agencies, and you lose some continuity, 
some institutional knowledge within the office being staffed by 
the detailees.
    Since you are a detailee, I am interested in what your 
assessment is of the strengths and weaknesses and, on balance, 
is this a good way for us to be staffing DNDO?
    Mr. Mullen. I think it is a very good way to be staffing 
DNDO provided we do it properly. Just to give my own 
perspective on it, in the work that I have done in the 
Architecture Directorate, we have benefited tremendously from 
having detailees from the Transportation Security 
Administration, the Coast Guard, the Department of Defense, the 
Department of Energy, and their contributions have really been 
indispensable in trying to get our arms around this global 
nuclear detection architecture. It just would not be possible 
to do it properly without having that kind of broad 
participation and input. So that is the plus side, as you say.
    If you had only detailees, then as you say, you would be in 
big trouble when they start to rotate out. So what you need in 
practice is a balance. You need a certain number of permanent 
Federal employees that will provide the institutional memory 
over time, but a continual infusion of detailee expertise is 
also extremely important. In the case of somebody like myself, 
for example, the way we handle that is through succession 
planning so that at a certain point when it is time for me to 
go back home, we will already have groomed and in place people 
that are ready to step in and carry out the job that I have 
been doing.
    So it can be done. It is a question of striking the right 
balance, but it is really indispensable to have that kind of 
input.
    Senator Collins. I agree that having that input from 
detailees enriches the entire organization. In fact, I think we 
need to do more of that throughout the Federal Government, but 
particularly within the intelligence community. But you have 
raised the key issue, which is, have we struck the right 
balance between staffing with detailees versus what you call 
those core employees? From your observations, have we struck 
the right balance in staffing DNDO?
    Mr. Mullen. I would say yes. Both within my own office and 
more broadly across DNDO, we have put a lot of effort over the 
last couple of years into recruiting permanent staff that will 
help us to maintain that balance. In my office, for example, we 
were quite shorthanded in 2005, but we now have a cadre of 
permanent Federal staff to balance the detailee staff. And I 
think it is a good mix now.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins. I just want to 
follow up, and then we are going to have to adjourn the 
hearing.
    Dr. Gallaway, do you want to add anything to Mr. Mullen's 
answer to Senator Collins' question? In other words, speaking 
for DNDO overall, do you have any plans to, for instance, 
increase the permanent staffing as the years go on?
    Mr. Gallaway. Thank you for the opportunity to jump in on 
this issue. We are very comfortable with the mix that we have 
right now. As Mr. Mullen mentioned, it has evolved with time, 
and we think we have struck a good balance at this point. So 
our biggest challenge, quite frankly, is to just stay fully 
manned because employees with the talent set that we are 
looking for or with the skill set that we need are often hard 
to hire into the Federal Government.
    Chairman Lieberman. Do any of you, Mr. Maurer, Dr. Shea, or 
Mr. Nesbit, have an opinion on the balance between the 
permanent staff and the detailees?
    Mr. Maurer. It is certainly something we are going to be 
looking into as we continue our work looking at it.
    Chairman Lieberman. I understand. Dr. Shea.
    Mr. Shea. I think that another aspect could be considered 
by DNDO. Beyond the succession planning that Mr. Mullen 
referred to is documentation. This is another way of 
maintaining institutional knowledge by documenting decisions, 
both the reason why one did make a decision in one way, but 
also the reasons that other alternatives were rejected.
    Chairman Lieberman. Mr. Nesbit.
    Mr. Nesbit. I do not have a real opinion. The only thing I 
would note is on our study we had three people from DHS in the 
DNDO on the study, and they were very impressive individuals. 
Several of them were detailees.
    Chairman Lieberman. Good. I want to thank the five of you. 
It has been a very educational and actually encouraging hearing 
in the sense that there is a lot going on. I hope it is 
encouraging to those in the general public who are maybe paying 
attention to it. And, frankly, I hope it is obviously 
discouraging to any terrorist groups that are attempting to 
gain nuclear weapons capacity. But, of course, we have a lot 
more to do, and in some ways, though this is the stuff of--I 
was going to say ``movies,'' but it is really TV, ``24'' drama. 
There is a very small inner group of people who really care 
about this and worry about this--that is what I really mean--
and work on this every day. We depend on you not only for what 
you do every day--because the consequences of failure here are 
so disastrous for our country--but also to come forward and 
speak to people like Senator Collins and me, if you think that 
you do not have enough authority or you do not have enough 
resources, because we really want to be supportive.
    Do you have anything you would like to say?
    Senator Collins. I do not. Thank you.
    Chairman Lieberman. I thank you, Senator Collins, for your 
cooperation and the joint venture we have on this, and so much 
else.
    We are going to keep the record of this hearing open for 15 
days so that Members of the Committee may submit additional 
questions or you may have additional testimony that you would 
like to include in the record.
    With that, I thank you very much. The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]


                     PREVENTING NUCLEAR TERRORISM:



                      HARD LESSONS LEARNED FROM



                          TROUBLED INVESTMENTS

                              ----------                              


                      THURSDAY, SEPTEMBER 25, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:45 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Akaka.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. The hearing will come to 
order. Sorry not to be here right at 9:30. I apologize, and 
also for the Ranking Member, Senator Collins, who in the press 
of the close of this session will be unable to be with us this 
morning, but will file statements and questions for the record. 
I thank all the witnesses for being here.
    This is the seventh in a series of hearings held by this 
Committee to examine the very real and present threats and 
challenges posed by the possibilities of nuclear terrorism 
against the United States.
    With today's hearing, we will specifically examine the 
Domestic Nuclear Detection Office's management of the two main 
programs designed to detect and thwart the smuggling of nuclear 
materials into the United States: The Advanced Spectroscopic 
Portal (ASP) monitors and the Cargo Automated Advanced 
Radiography System (CAARS).
    I hope we can also use some of our time to examine the 
overall problems the Domestic Nuclear Detection Office (DNDO) 
has experienced with the hope that we can together make it a 
more effective organization and create a blueprint the next 
Administration can use to move forward.
    The programs administered by DNDO are a mission where 
failure is, quite literally, not an option because the danger 
of terrorists acquiring a nuclear weapon, we know from previous 
hearings that we have held on this subject, is real and 
present.
    Between 1993 and 2006 there were 1,080 confirmed incidents 
of illicit trafficking in nuclear materials, with 18 of these 
cases involving weapons-grade materials and another 124 
involving material capable of making a so-called ``dirty bomb'' 
that would use conventional explosives to spread nuclear 
material. This is serious stuff.
    ASP and CAARS were supposed to work in tandem, scanning all 
cargo coming by air, sea, and land for nuclear material.
    ASP was designed to detect unshielded nuclear materials 
with greater accuracy and fewer false alarms than the portal 
monitors now in use.
    CAARS was designed to complement the ASP system by 
detecting high-density materials that terrorists could use to 
shield radiation from nuclear materials from ASP detection.
    These programs looked very promising when announced just a 
few years ago, but it now seems that neither is likely to live 
up to expectations, which does leave our Nation at risk, 
especially the unprotected areas that lay outside of the 
established land, air, and sea ports of entry.
    Let me start by saying a little more about ASP. According 
to a tough and disturbing report from the Government 
Accountability Office (GAO), that we will hear about this 
morning, the price of ASP has ballooned from an estimated $1.2 
billion 2 years ago to as much as $3.8 billion today and 
apparently no less than $3.1 billion. It is also behind 
schedule and, apparently, will not be deployed as aggressively 
as initially planned. For instance, it will not be used to 
screen rail cars and extra-wide trucks, leaving dangerous gaps 
that can be exploited by terrorists that, apparently at this 
point, DNDO does not know how to fill.
    The short life of the ASP program has raised fundamental 
questions that need to be answered, most importantly how much 
can the system be improved to improve our security against 
nuclear terrorism?
    The current generation portal monitors--that is, the ones 
that are being used--apparently do an excellent job of 
detecting radiation. But they do not identify the type of 
radioisotope or determine whether it is harmless or dangerous. 
That much we do know.
    DNDO advocated the ASP program as a means of reducing the 
rate of false alarms from the current portal monitoring system. 
But Customs and Border Protection (CBP) officials, who are the 
ones that will deploy and operate the radiation portal monitors 
system, have concluded that the false alarm rate of the current 
generation of portal monitors does not present a serious 
operational problem.
    Second, I am concerned about the consequences of what the 
GAO's report tells us about DNDO's recent decision not to 
develop the other variations of the ASP system.
    Previously, we had understood that these ASP programs were 
going to provide a ``family'' of 12 systems of various sizes 
and configurations that were supposed to fill other gaps in the 
domestic nuclear detection architecture, by mounting these ASP 
sensors on the roofs, for instance, of Border Patrol trucks or 
building ASP sensors into mobile devices. So I would like to 
know here this morning what DNDO's plans are moving forward.
    I would also like to know how much DNDO now thinks a 
complete system that covers not just ports, but also general 
aviation, small-craft maritime activities, and unprotected land 
border areas, which have to be part of a comprehensive system 
to detect and prevent the smuggling of nuclear material, is 
going to cost and when we can reasonably expect it to be 
deployed.
    I am also concerned about the future of the $1.3 billion 
CAARS program. The CAARS system was supposed to have delivered 
20 units this year, but as far as I can determine, it has 
essentially been abandoned following technical difficulties 
that would have made the system too complex to deploy in 
domestic ports.
    DNDO has called this a ``course correction'' and now refers 
to the effort as the Joint Integrated Non-Intrusive Inspection 
Program (JINII), with dramatically scaled-down goals.
    CAARS was supposed to be the next generation of an 
automated x-ray technology that could detect shielded nuclear 
material, a critically important function. However, this 
program also seems to have failed to live up to its promise.
    DNDO says it has halted the CAARS acquisition, apparently 
decided to start over, and is now considering using already 
available technology. So I want to know what has transpired 
over the last 2 years which has left us basically where we were 
2 years ago.
    I must say I am troubled. Two years ago, ASP and CAARS were 
being described by the DNDO as absolute necessities in the 
quest to secure our Nation from nuclear terrorism. They were 
going to represent DNDO 2.0, if I can put it that way. But now 
both are in jeopardy.
    Finally, on a matter of process, I want to express my 
concern about GAO investigators' claim that DNDO refused to 
provide the kind of detailed documentation needed by GAO to 
prepare an accurate report, and that DNDO also instructed its 
contractors to refuse to cooperate with GAO.
    GAO works for Congress and the American people. These are 
vitally important programs, and the importance of GAO's work in 
helping Congress oversee them cannot be underestimated. So I 
want to say publicly here how important I believe it is that 
DNDO fully cooperate with GAO in its investigations.
    As we explore these questions, I also want the witnesses to 
help us with the broader and really most critical question. 
This Committee is not about ``gotcha'' investigations. It is 
about getting the work of government and homeland security 
right. So the ultimate question is that: How do we get DNDO 
back on the right track?
    I must say with all the criticism of DNDO, I want to note 
that it is a relatively new agency, formed by executive order 
just 3 years ago, and it has an enormously difficult task it 
has been given.
    But the point I want to make finally is that its mission is 
critical to our homeland security against a clear and present 
danger. And as I said at the outset, failure is not an 
acceptable option. So I want to say that I intend to be both 
DNDO's strongest supporter and its toughest critic in the years 
ahead to make sure that together we get this right.
    I welcome our witnesses. I also thank Senator Akaka for 
being here, and I will call on him now if he has an opening 
statement.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman.
    I would like to thank Senator Lieberman and Senator Collins 
for holding this hearing. Nuclear terrorism is among the most 
critical, long-term threats facing the United States. I believe 
that securing nuclear and radioactive materials at their source 
is the most important step we can take in preventing nuclear 
terrorism.
    Our work overseas, especially in the states of the former 
Soviet Union, has dramatically reduced the availability of 
nuclear materials. Ongoing interagency efforts domestically are 
securing radioactive source materials used in civilian 
applications.
    Nuclear detection systems are also a key part of the 
architecture to keep unsecured nuclear materials out of the 
United States. When used alongside intelligence, law 
enforcement, and counterproliferation techniques, and informed 
by risk assessment, we will best deter terrorists from 
smuggling dangerous nuclear material into the United States.
    Finally, our investments in radiography and nuclear 
detection equipment should be developed and deployed in 
accordance with a strategic plan with maximum involvement with 
interagency partners and in a transparent and responsible 
manner.
    I am concerned that the ASP and the CAARS programs have not 
lived up to the expectations of Congress and the American 
people. GAO's findings are especially troubling since they 
indicate that the true program costs of ASP may be over $1 
billion more than DNDO was willing to admit.
    With that, Mr. Chairman, let me add my welcome to the 
witnesses, and I look forward to hearing from them.
    Chairman Lieberman. Thanks very much, Senator Akaka. I 
appreciate your statement very much.
    We will go right to the witnesses now, beginning with 
Eugene Aloise, Managing Director of the Natural Resources and 
Environment Team at the U.S. Government Accountability Office. 
Thanks again for your work on our behalf, and we look forward 
now to your testimony.

 TESTIMONY OF EUGENE E. ALOISE,\1\ DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aloise appears in the Appendix on 
page 715.
---------------------------------------------------------------------------
    Mr. Chairman and Members of the Committee, I am pleased to 
be here today to discuss the plan of the Department of Homeland 
Security (DHS) to develop and deploy advanced portal monitors 
at the Nation's borders to prevent nuclear material from being 
smuggled into the United States.
    According to DHS, the current system of radiation detection 
equipment is effective and does not impede the flow of 
commerce. However, DHS wants to improve the capabilities of the 
existing system with the new equipment.
    One of the major drawbacks of the new equipment, which is 
still undergoing extensive testing, is the substantially higher 
costs compared to their existing system of radiation detection 
equipment. Today I will discuss our recent report on the 
potential cost of deploying radiation detection equipment 
nationwide and the preliminary findings of our ongoing review 
of DNDO's current testing campaign that started in April of 
this year.
    These tests are critically important because they will 
serve as the support for a congressionally mandated 
certification by the Secretary of Homeland Security as to the 
effectiveness of the equipment. Presently, that certification 
is scheduled for late November, although, as I will discuss, 
that date is looking less likely as each day goes by.
    Regarding cost, GAO developed its own cost estimate of 
DNDO's program because DNDO's past and current estimates were 
based on flawed methodologies and, therefore, were not 
reliable. Our analysis shows that from 2007 through 2017, the 
cost of DNDO's program to equip U.S. ports of entry with 
radiation detection equipment will likely be about $3 billion. 
Our estimate is based on the cost of DNDO implementing its 2006 
project execution plan, the most recent official documentation 
of the program.
    DNDO officials have told us that the agency is now 
following a scaled-back ASP deployment strategy; that is, it 
will only be deploying the standard cargo portal and 
eliminating other portal types, such as train and mobile 
portals. Also, DNDO officials told us that even this scaled-
back ASP deployment strategy could change dramatically, 
depending on the outcome of ongoing testing, and that an 
entirely new technology might be needed to cover the areas 
where ASPs may not work.
    We estimate the cost of DHS's scaled-back ASP deployment 
strategy to be about $2 billion. However, this estimate is 
based on limited documentation provided to us by DHS, namely, a 
one-page spread sheet.
    The frequent changes in DNDO's deployment strategy and the 
lack of detailed documentation supporting it makes it difficult 
to assess the cost of the ASP program. Our report recommended 
that the Secretary direct DNDO to update its program plan, 
revise its cost estimate, and communicate these changes to the 
Congress. DHS has agreed with our recommendations.
    Regarding testing, we are pleased that DNDO has made 
progress on a number of problems we identified in the previous 
rounds of ASP testing, of which we were highly critical. In 
particular, it appears that DNDO has improved the procedures 
used at the Nevada test site to provide a fairer comparison 
between ASPs and current-generation equipment. However, we have 
identified some potential areas of concern with the current 
round of testing. We are hopeful these concerns can be resolved 
before certification occurs.
    First, DHS's criteria for a significant increase in 
operational effectiveness seems to set a low bar for 
improvement. Specifically, it requires that ASPs perform at 
least as well as current equipment when nuclear material is 
present in cargo, but does not specify an actual improvement.
    Second, the schedule leading up to certification does not 
allow for completion of some tests that could provide critical 
information on the performance of ASPs. It is our view that DHS 
and the Congress need as much information as possible regarding 
the effectiveness of this equipment before deploying it to our 
borders.
    Finally, the current testing schedule leading up to 
certification is highly compressed and is running about 8 weeks 
or more late. Specifically, DHS has pushed back the 
certification date from September to late November, but this 
still leaves little time for analysis and review of results.
    Furthermore, field validation tests will not start until 
October, which makes it unlikely that DHS can complete field 
validation and still go to certification in November.
    Mr. Chairman, in conclusion, let me state that for over 2 
years now, GAO has been asking three fundamental questions 
regarding the ASPs. One, does the equipment work? Two, how much 
will it cost the taxpayer? And, three, does the marginal 
increase in security gained with the new equipment justify its 
very high cost?
    This last question is particularly important in an era of 
tight budgets because the effort to upgrade equipment that we 
know works, even though it has limitations, may divert scarce 
resources from addressing higher risks.
    That concludes my remarks. We would be happy to respond to 
any questions you may have.
    Chairman Lieberman. Thanks, Mr. Aloise, for the questions 
you have raised and the work you have done.
    Next we will hear directly from Vayl Oxford, who is the 
Director of DNDO, with some answers to those questions.

  TESTIMONY OF VAYL S. OXFORD,\1\ DIRECTOR, DOMESTIC NUCLEAR 
     DETECTION OFFICE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Oxford. Good morning, Chairman Lieberman and Senator 
Akaka.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Oxford with attachments appears 
in the Appendix on page 731.
---------------------------------------------------------------------------
    Chairman Lieberman. Good morning.
    Mr. Oxford. I would like to thank the Committee for the 
opportunity to come before you today and discuss the progress 
we have made regarding our address of the nuclear threat. I am 
also pleased to be joined by my colleague, Assistant 
Commissioner Tom Winkowski, with whom I have worked very 
closely to ensure that the operational user receives the 
capabilities needed to address the threat posed by both nuclear 
and radiological terrorism.
    In respect to the Committee's time, I would like to curtail 
my opening comments and just highlight a few key points.
    The nuclear threat is real and growing, as the Chairman has 
said. The United States has a comprehensive strategy in place 
to put together a layered defense to combat this threat that 
includes several key factors. We have increased intelligence 
collection and analysis against the threat. We have a focused 
interdiction program against illicit trafficking of nuclear 
materials and expertise. We are working to prevent the import 
into and use of nuclear weapons materials against the United 
States. We are improving our nuclear forensic capabilities to 
support both deterrence and attribution. And we are increasing 
our focus on response and recovery capabilities to minimize 
casualties should prevention fail.
    DNDO's role in preventing the import and use of nuclear 
weapons against the United States is a critical component of 
this overall strategy and represents a domestic layered 
strategy to reduce the risk of nuclear terrorism. We are 
working closely with both CBP and the Department of Energy 
(DOE) to address the vulnerabilities of the current systems and 
to evaluate the performance of new systems. We have a rigorous 
process in place, which I will be glad to address during the 
course of the hearing, to test new systems, evaluate their 
cost, and make recommendations to the Secretary that provide 
the best solution to secure the Nation against a nuclear 
threat.
    I am confident that the steps we are taking are sound and 
will lead to a well-reasoned recommendation to the Secretary 
once all of our testing is complete.
    Mr. Chairman, we take this responsibility very seriously, 
and we will ensure that our taxpayer dollars are spent wisely. 
While some may argue that these systems are too costly, we must 
be able to weigh the balance of the capability and cost of 
current systems and the improved capability and cost of new 
systems against the cost and damage of a nuclear weapon 
detonating in a U.S. city.
    Given the threat and known limitations of current systems, 
there is a real sense of urgency to complete the work necessary 
to make a sufficiently informed decision and begin deploying 
these systems to enhance the defense of this Nation.
    Mr. Chairman, this concludes my opening comments. I look 
forward to your questions.
    Chairman Lieberman. OK, Mr. Oxford. Thanks. Obviously, we 
will have a lot of questions for you. Thank you.
    Now we go to Thomas Winkowski, Assistant Commissioner, 
Office of Field Operations, U.S. Customs and Border Protection. 
Thanks for being here.

 TESTIMONY OF THOMAS S. WINKOWSKI,\1\ ASSISTANT COMMISSIONER, 
OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND BORDER PROTECTION, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Winkowski. Thank you and good morning, Chairman 
Lieberman and Senator Akaka. Thank you for the opportunity to 
discuss CBP's efforts to strengthen supply chain security while 
facilitating the flow of legitimate trade and travel.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Winkowski appears in the Appendix 
on page 740.
---------------------------------------------------------------------------
    I would also like to express my gratitude to the Committee 
for the strong support you provided for important CBP 
initiatives over the past year and ask for your continued 
support of other important CBP initiatives, such as the 
Security Filing requirement, better known as ``10+2.'' Your 
support has enabled CBP to make significant progress in 
securing our borders and protect our Nation against the threat 
of terrorism.
    CBP has made tremendous progress in ensuring that supply 
chains importing goods into the United States are more secure 
against potential exploitation by terrorist groups aiming to 
deliver weapons of mass effect. CBP uses a multi-layered 
approach to ensure the integrity of the supply chains from the 
points of loading through arrival at U.S. ports of entry. The 
multi-layered defense is built upon interrelated initiatives, 
which include the 24-hour rule, the Automated Targeting System, 
non-intrusive inspection equipment and radiation portal 
monitors, the Container Security Initiative, and the Customs-
Trade Partnership Against Terrorism (C-TPAT) initiative. These 
complementary layers enhance security and protect our Nation.
    Prior to September 11, 2001, not a single Radiation Portal 
Monitor (RPM) and only 64 large-scale Non-Intrusive Inspection 
(NII) systems were deployed to our Nation's borders. By October 
2002, CBP had deployed the first RPM at the Ambassador Bridge 
in Detroit.
    Currently, 94 percent of trucks arriving through the 
Northern border ports, 100 percent through the Southern border 
ports, and 98 percent of arriving sea containers are scanned by 
our radiation portal technologies. CBP scans 97 percent of all 
cargo arriving in the United States by land and sea using RPMs.
    In addition, CBP officers now scan 100 percent of general 
aviation aircraft arriving in the United States from foreign 
destinations using handheld radiation identification devices. 
We believe this is real progress.
    I also am pleased to report to this Committee that on 
September 8, 2008, our first RPM deployment within the airport 
cargo environment was commissioned at Dulles International 
Airport. This milestone deployment allows CBP to scan 100 
percent of all air cargo terminating at Dulles. CBP plans to 
deploy radiation portal systems to 30 of our Nation's airports, 
which will result in the scanning of 99 percent of all air 
cargo entering the commerce of the United States for nuclear 
and radiological materials.
    In addition to the significant strides made in the area of 
radiation detection technology, CBP also continues to deploy 
non-intrusive inspection systems. NII technology serves as a 
force multiplier that allows officers to detect possible 
anomalies between the contents of the container and the 
manifest. To date, CBP NII systems have been utilized to 
conduct more than 26 million exams resulting in over 6,800 
narcotics seizures with a total weight of in excess of 2.2 
million pounds.
    The CBP NII Acquisition Plan is continuously being 
reevaluated as available technology is constantly being 
assessed against the evolving threat. To help refine our 
acquisition strategy, we consider factors such as traffic 
volume, types and density levels of imported commodities, port 
infrastructure constraints, an appropriate mix of equipment, 
and cost-effectiveness of available technology.
    As you know, in fiscal year 2006, financial management of 
RPM efforts transitioned from CBP to the DNDO. I am happy to 
report that, even though the procurement role changed, the 
collaborative working relationship did not. CBP maintains an 
active consultation role in the research, development, and 
deployment of RPM technology and looks forward to a continued, 
positive relationship with Director Oxford and his staff.
    The first-generation RPM systems, although very sensitive, 
do have limitations. While they alert CBP officers to the 
presence of radiation, a secondary exam is necessary to 
positively identify the location and specific isotope causing 
the alert. In the event that a CBP officer is unable to 
positively resolve the alert, scientific reach-back is 
available 24 hours a day, 7 days a week.
    The ASP system is expected to enhance our detection 
capability, while significantly reducing the number of 
secondary exams due to its ability to distinguish between 
actual threats and natural or medical radiation sources that 
are not security threats.
    It should be noted that, out of the approximately 275 
million conveyances scanned with RPMs to date, CBP officers 
have responded to and resolved over 1.5 million alarms. As a 
specific example, the Port of Los Angeles-Long Beach, our 
Nation's largest seaport, adjudicated nearly 115,000 
radiological alarms last year, which translates to between 400 
and 600 adjudications on a typical weekday. The ASP's ability 
to make the distinction between naturally occurring and real 
security alarms is expected to significantly reduce the burden 
of responding to benign, nuisance alarms--mostly generated by 
everyday products found at a home improvement center--thus, 
allowing us to focus our staffing and resources on high-risk 
shipments and other border security initiatives.
    CBP has worked closely with DNDO in the development and 
operational testing of the ASP. CBP's focus for operational 
testing is to determine that those systems can be deployed and 
are acceptable and effective in our operational environments. 
Specifically, CBP has provided DNDO with functional 
requirements for the ASP and has actively engaged in every step 
of testing, including performance testing at the Nevada test 
site and the integration testing currently ongoing at a mock 
port of entry at the Pacific Northwest National Laboratory.
    Mr. Chairman and Members of the Committee, today I have 
addressed CBP's commitment to investing in new and emerging 
detection technology, along with some of the very positive 
steps we have taken towards enhancing cargo security. As the 
scope of CBP's mission increases, we must continue to maintain 
our tactical edge by integrating new technology into our ports 
of entry. Working in collaboration with DNDO and other agency 
partners to identify emerging technology is a priority for CBP.
    Again, I want to thank you for the opportunity for me to 
testify, and I will be looking forward to answering your 
questions. Thank you, Senator.
    Chairman Lieberman. Thanks, Mr. Winkowski, and I just want 
to say after listening to you and Mr. Oxford, that we are 
focused on shortcomings and cost overruns in these two programs 
that improve the technology--and there is a lot of technical 
vocabulary here. But for anybody listening, the point that both 
of you make, which I do want to stress here for a moment, is 
that our concerns about these two programs does not mean that 
everything is coming in here undetected, that intelligence is 
the first level of defense against nuclear terrorism--and I 
think it is one that we have really improved our capacity on as 
a result of the reforms of our intelligence community in 
response to the 9/11 Commission Report--and interdiction 
obviously abroad is the second. And then the question is to 
stop smuggling into this country.
    As you indicated, Mr. Winkowski, we are checking most of 
what is coming in here. How do you deal with the number of 
radiological false alarms you have? And how do we develop a 
better capacity to see and find radiological material that may 
be shielded and that would not show up in a radiological test? 
And that is what these investments are about. So we will come 
back to that during the question and answer period, but I 
wanted to stress, with all of our concerns about the 
effectiveness of these two programs, notwithstanding those real 
concerns, that we are not saying the Nation is undefended at 
this point. We have considerably raised our defenses since 
September 11, 2001.
    Next we have two witnesses in a sense from outside, and we 
really welcome their independent testimony. First is Dr. Thomas 
Cochran, who is a Senior Scientist at the Nuclear Program of 
the National Resources Defense Council (NRDC).
    Dr. Cochran, thanks for being here, and we invite your 
testimony now.

  TESTIMONY OF THOMAS B. COCHRAN, PH.D.,\1\ SENIOR SCIENTIST, 
    NUCLEAR PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL, INC.

    Mr. Cochran. Thank you, Mr. Chairman and Senator Akaka. 
Thank you for providing the NRDC with the opportunity to 
present our views on the Advanced Spectroscopic Portals that 
are currently being considered for deployment at ports and 
border crossings.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cochran with attachments appears 
in the Appendix on page 746.
---------------------------------------------------------------------------
    Before summarizing our conclusions, please permit me to 
submit for the record several documents I have provided your 
staff, including a recent Scientific American article prepared 
by my colleague, Matthew McKinzie, and myself.
    Chairman Lieberman. Without objection, those will be 
entered into the record in full.
    Mr. Cochran. I will just summarize the summary in my 
written statement.
    The Advanced Spectroscopic Portal monitors are not cost-
effective. Additional units should not be purchased. The 
limited number of ASP monitors already purchased should be used 
for continued field testing and research and development.
    A crude nuclear device constructed with highly enriched 
uranium (HEU) poses the greatest risk of mass destruction by 
terrorists to the United States.
    Neither the ASPs nor the currently deployed RPMs can 
reliably detect lightly shielded, significant quantities of 
highly enriched uranium.
    Mr. Chairman, in your opening statement you mentioned that 
the current generation of detectors does a good job in 
detecting radiation. That is true for many types of radiation, 
but, unfortunately, the physics is against us when it comes to 
the material that is of most importance, and that is highly 
enriched uranium. And these detectors, as well as the newer 
ASPs, do not reliably detect highly enriched uranium--if the 
threat has the wherewithal to develop an improvised nuclear 
explosive device out of HEU, that same threat would have the 
wherewithal to defeat these systems almost 100 percent of the 
time, even if they were guaranteed to be screened.
    Chairman Lieberman. Those are the current systems that you 
are talking about?
    Mr. Cochran. And the advanced.
    Chairman Lieberman. And the advanced, too?
    Mr. Cochran. Where I perhaps part ways is that the current 
systems have two problems, not one problem. They do not 
reliably detect the primary threat material, and they have a 
large false alarm rate. The new systems are designed to reduce 
the wrong problem----
    Chairman Lieberman. The false alarm rate.
    Mr. Cochran. They are designed to reduce the false alarm 
rate, and I think they will be able to do that in due course, 
if not already.
    Chairman Lieberman. But they do not increase our capacity 
to detect highly enriched uranium?
    Mr. Cochran. Not significantly.
    Chairman Lieberman. OK.
    Mr. Cochran. Marginally, yes, but not significantly.
    Therefore, the thrust of my testimony is that the 
priorities of the Federal Government are not right yet, is that 
we need to place a much higher priority on eliminating sources 
of material. As Senator Akaka mentioned, this is the primary 
thing we ought to be doing, and I agree with him.
    I do not think we are going to solve this threat problem by 
pouring more money into advanced methods of detecting radiation 
from materials coming across the borders because the physics is 
simply against us with respect to the material that represents 
by far the greatest threat.
    Now, with regard to the false alarm rate improvements, 
there is no evidence that the potential benefits of the ASP 
monitors in reducing the false alarm rate and improving the 
accuracy of alarm resolution is cost-effective. And as noted by 
Mr. Aloise, the current systems appear to be adequate in terms 
of the fact that they are not delaying commerce significantly 
in the current screening process.
    For purposes of certifying the ASPs, the Department of 
Homeland Security has defined ``significant increase in 
operational effectiveness,'' the requirement for certification, 
primarily in terms of its ability to reduce the false alarm 
rate, rather than in terms of its ability to increase the 
probability of detecting HEU. Consequently, the process is 
rigged to ensure certification of the ASPs even though they 
will not significantly increase the probability of detecting 
nuclear weapon-usable HEU and plutonium; even though the 
reduction in the false alarm rate and an improvement in the 
accuracy of alarm resolution is not cost-effective.
    Some of this I have already covered so I will not repeat 
myself.
    In my view, the President of the United States should 
declare, backed with the full weight of our diplomacy, that the 
United States seeks--in the interest of and in cooperation with 
all nations--to achieve as quickly as possible a global ban on 
the civil use of HEU. I can think of no civil use of HEU that 
justifies the risk associated with its use anywhere on the 
globe.
    Chairman Lieberman. In other words, it is not necessary for 
the production of electricity, for instance.
    Mr. Cochran. It is not. And all of our reactors and most of 
the vast majority of reactors used around the world use low-
enriched uranium. And it is not necessary for research and test 
reactors. We have some that use HEU. Many of those are being 
converted. We have programs to convert them in the government. 
But, I do not think we give enough attention to eliminating for 
all times in the future the civil use of this material. We 
banned nuclear testing. We ought to ban civil use of HEU. It is 
not sufficient just to say we need to improve the security of 
its use abroad. We need to get it out of commerce, period.
    Mr. Chairman, I will stop there and answer your questions.
    Chairman Lieberman. Thanks, Dr. Cochran. Am I hearing you 
correctly that you are saying that at this point not only have 
we not developed these two advanced technology systems to 
detect the most serious threat, highly enriched uranium, but 
from your point of expertise, you are saying it is not really 
possible to do it, that as you said, the physics is against us?
    Mr. Cochran. Well, in theory, given enough time and money, 
you can detect anything. I mean, you can go into the containers 
and take everything out and so forth. In the real world, I 
think the physics is against us in terms of deploying cost-
effective systems and for detection of highly enriched uranium 
because people who would know how to design and construct an 
improved nuclear explosive device will certainly know how to 
defeat these systems.
    Setting aside the first problem, they probably will not 
come through the portals. We have more than 10 million people 
in this country who did not come through the portals. But even 
if you are assured the material is coming through the portals, 
smart people can design ways to beat the system.
    Chairman Lieberman. Yes.
    Mr. Cochran. And so we ought to put the priorities, really 
high priorities at eliminating the material. If there is no 
material, it cannot hurt you.
    Chairman Lieberman. Understood. Eliminating the material, 
and also, if I recall from your Scientific American article, we 
need to do even more aggressively what we are doing now, which 
is through intelligence and law enforcement to stop the 
smuggling.
    Mr. Cochran. Absolutely.
    Chairman Lieberman. That is very helpful to understand.
    Our final witness on the panel is Dr. Richard Wagner, 
Chairman of the Nuclear Defense Working Group at the Center for 
the Study of Presidency, and I want to note for the record, Dr. 
Wagner, that you are testifying this morning in your personal 
capacity. We thank you for being here and look forward to your 
testimony.

   TESTIMONY OF RICHARD L. WAGNER, JR., PH.D.,\1\ CHAIRMAN, 
  NUCLEAR DEFENSE WORKING GROUP, CENTER FOR THE STUDY OF THE 
        PRESIDENCY (TESTIFYING IN HIS PERSONAL CAPACITY)

    Mr. Wagner. Thank you, Senator Lieberman and Senator Akaka. 
Coming last is always an opportunity and a problem. Let me say 
I, too, would like to submit a prepared statement for the 
record, which I will try hard to aim toward the specific 
question of the management of ASP and its utility.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wagner appears in the Appendix on 
page 773.
---------------------------------------------------------------------------
    Let me say a few things which will appear disjointed, but 
then maybe we can weave them together later.
    I agree with Tom Cochran that we ought to do everything 
that the Nation and the international community can do to take 
HEU off the table. I do not think it is a zero sum game between 
doing all those things and doing the things we are talking 
about here this morning. We can do both. Sometimes it is posed 
as an either/or decision. It is not either/or. We have to do 
both.
    I also believe that it is going to be very hard to take HEU 
off the table, and it is going to be hard to eliminate the 
possibility of improvised nuclear devices, as I believe you do 
too, sir. So I think we have to be able to detect and interdict 
attempts to smuggle them.
    Radiation detection is only one of the means. You referred 
to intelligence and what I will call upstream interdiction. I 
think that is crucially important. We are making progress in 
doing that better. There is a long way to go, but we are making 
progress.
    I think there is a kind of a synergism between the ability 
to detect radiation from the threats coming into the country 
and the efficacy of the upstream measures. If you raise the bar 
for what the threat has to do to evade detection, that is in 
some measure increasing the signatures that the threat 
operation has that can then be detected upstream and 
interdicted upstream.
    There is a narrower synergy, and you alluded to it in your 
opening statement, and Mr. Oxford mentioned it, which is 
between radiography and improved radiation detection. If we can 
increase the ability of detectors at portals and elsewhere to 
detect lightly shielded materials, and then detect shields 
themselves through radiography, perhaps we can pin it between 
the two and cover a large part of the threat spectrum.
    We are a long ways from being able to do that. The current 
detectors at portals are deficient in both regards that Dr. 
Cochran mentioned--too many false alarms and not sensitive 
enough.
    I believe that ASP is the right next step to take, but I am 
going to qualify that in just a minute.
    There is a lot more that can be done, I believe, with 
improving radiation detection technology beyond ASP. ASP should 
not be viewed as the last and final step, the best step in 
radiation detection technology for portals or for other 
applications. I think that with research and development (R&D) 
of the sort that DNDO, DOD, and DOE are now really pursuing 
much more vigorously than they were a few years ago, we can get 
radiation detection improvements that are kind of on the order 
of a factor of 10. I cannot exactly say what I mean by a factor 
of 10, but you ought to think that there is a factor of 10 yet 
to go beyond ASP.
    I hope that will come along in time to make ASP 
procurements wasted. I hope it will. But I do not think we 
ought to count on it. So I think that ASP is a good interim 
step, and against this threat, it is worth a billion dollars or 
a couple of billion dollars to take the interim step.
    Now, one reason it is a good interim step is because of the 
history--and there is a history of detecting objects that 
somebody does not want to have detected using radiation 
detection. I think you might want to explore that history, but 
you would have to do it in closed hearings.
    The theme that runs through that history is that operators 
learn from experience. You give them an improved piece of 
hardware, and they go out and they iterate their operations and 
iterate the details of the hardware you have given them, and 
they get better at it--in some cases, better than the theory 
might have predicted. The wet-ware in the operators' heads is 
able to learn how to use the detectors better.
    So the way I would think about the ASP procurement is that 
it should be what I called in my prepared statement ``an 
expanding spiral development,'' not just spiral in the sense of 
one generation after the next, but what I would do is, about 
now, buy--I do not know what the right number is--10 or 30 ASP 
systems, put them in the field with the CBP people, and let 
them start to learn. Get them to think how to modify their 
operations to use them better. Feed that experience back into 
the next spiral, modify the software to improve its 
performance, and make it more in conformance with what the 
operators have learned, and continue that until either we have 
ASP, or something like ASP, fully deployed or something better 
comes along.
    One last thing about the ASP management. I think that the 
contractual arrangements for doing ASP were based on the 
perception that it could be what I will call ``a relatively 
cut-and-dried procurement''--design, specify, lay out a test 
program, go through the test program, if it works buy it all. I 
think that is the wrong contractual model for a thing like ASP. 
Mr. Oxford inherited ASP from a predecessor organization, and 
because it was urgent--and I believe it is urgent, although I 
have not talked to Mr. Oxford about it--but I think he carried 
it on the way it was because that seemed the fastest way.
    I think that the ASP procurement should have been 
structured more like an R&D procurement and less like a ``test 
once and buy it all'' procurement. In an R&D procurement, one 
recognizes the first law of R&D, which is that you cannot 
simultaneously specify the objective of the procurement, what 
it will cost, and its schedule. I think that there are 
contractual mechanisms that allow you to be more flexible among 
those things and not create the expectations that I think have 
been created by the procurement-like nature of the ASP 
contract, that have introduced some heat and noise into the 
process, and made it hard for you to oversee this process.
    That is maybe as much as I can usefully say right now, sir. 
Thank you.
    Chairman Lieberman. Thanks, Dr. Wagner. A very thoughtful 
and helpful statement. We will begin a round of questioning 
now.
    I think I would like to first ask both Mr. Oxford and Mr. 
Aloise to respond to the larger point that Dr. Cochran has 
made, which is that it is not that it is ultimately impossible, 
but it is so difficult to detect and so costly to detect highly 
enriched uranium that in some sense we are spending too much 
money when we would be better off spending money on 
intelligence, interdiction, and, of course, political efforts 
to ban highly enriched uranium. Both of you give me your 
reaction to that as a matter of overall strategy in our nuclear 
counterterrorism program. Mr. Oxford, will you go first?
    Mr. Oxford. Thank you, Mr. Chairman. This is clearly a very 
complex question that requires some attention. First of all, we 
are advocates at DNDO and at DHS for an overall layered 
strategy. We are advocates for helping ensure that we do a 
better job overseas with material security.
    I have quotes from both Governor Kean as the Vice Chairman 
of the 9/11 Commission and former Senator Sam Nunn recently, 
when questioned by the WMD Commission, that I will paraphrase 
instead of reading. In Governor Kean's case, when he testified 
2\1/2\ years ago in front of a Senate committee, he said we had 
been into the work overseas of securing material for 14 years. 
He felt like there was at least another 14 years to get it done 
right. Does this country have 14 years to wait for that to 
evolve?
    Chairman Lieberman. What is your answer to that?
    Mr. Oxford. I think he is right, but I think we have got to 
continue to plod along.
    Chairman Lieberman. You think we do not have 14 years.
    Mr. Oxford. I do not think we have 14 years.
    Chairman Lieberman. Yes.
    Mr. Oxford. And I think we need to continue the layered 
approach. We need to continue to seek progress overseas where 
possible. It is not going to be possible in my mind for the 
United States to mandate that. We have got to continue to work 
collaboratively with a host of nations. There are over 40 
countries that have highly enriched uranium. I know you would 
have to seek cooperative agreements and a time schedule that 
would make sense. Otherwise, I feel like we are outsourcing our 
security to others, and the pace may not be commensurate with 
what we need.
    Senator Nunn recently--as the WMD Commission is going about 
its business for Congress--said he thinks we are worse off than 
we were 7 years ago in this regard. So I think there is a 
reason to support----
    Chairman Lieberman. In regard to the interdiction and 
material security of ``loose nukes.''
    Mr. Oxford. Yes, sir. So I endorse what Dr. Cochran is 
saying in principle. It is the operational practicality of 
getting that done on a timely basis that is in the best 
interest of U.S. security that I would argue with.
    Second, from a technical point of view, as you already 
pointed out in your opening statement, we believe that a 
combination of ASP and not necessarily CAARS but radiography in 
operations at our ports of entry have a high probability of 
success against highly enriched uranium. And, again, I cannot 
give you the details in an open forum. We know what the current 
ASP systems can do. At what point does the shielding now become 
a problem for an ASP-like system? And we are looking at success 
against certain weapon designs that have highly enriched 
uranium about which Dr. Cochran is not privy to the classified 
details.
    We then need to know where we leverage the radiography 
aspects that will get to the high-density materials that are 
indicative of either the shielding that is blocking HEU or the 
highly enriched uranium itself. So we think the combination of 
x-ray systems and the passive detectors are the right approach 
to enhancing domestic security.
    Chairman Lieberman. Mr. Aloise, do you want to enter this 
discussion?
    Mr. Aloise. Yes. GAO has always said that the way to go 
is--and many experts believe, if not all experts--that we 
should secure it at the source first and foremost.
    Chairman Lieberman. Right.
    Mr. Aloise. That is the best thing to do.
    Regarding these systems, we have always thought that the 
ASP was sort of an advanced R&D program that was prematurely 
rolled out into an acquisition program. And I would differ with 
Mr. Oxford on one thing. I do not think we know what the ASPs 
can do yet, and that is what all the testing is about, 
especially when they are in the field. Those were the questions 
we asked from the beginning: Does it work? How much will it 
cost? And is the marginal increase in security worth the cost? 
We have higher risks to address.
    So, we need to go on with the testing. We need to see if 
these things work. And then we need to make the determination 
if ASPs are worth the cost.
    Chairman Lieberman. Let me go to the second part of what 
moves us now to the advanced technologies. Mr. Winkowski, the 
numbers you cited of what we would call false alarms, 
radiological false alarms, are quite large. If I remember 
correctly, 600 a day at Long Beach, California. Is that right?
    Mr. Winkowski. That is correct.
    Chairman Lieberman. So it seems to me what I am hearing 
from GAO and yourself--well, let me just ask the question. How 
much of a problem is that operationally? It seems like a large 
number, but as I indicated in my opening statement, I am under 
the impression that Customs and Border Protection thinks it is 
manageable.
    Mr. Winkowski. Well, it is a large number, and when you are 
looking at 400 to 600 in a place like Los Angeles-Long Beach, 
California, that means you have resources dedicated day in and 
day out to----
    Chairman Lieberman. Take one minute and just describe what 
happens. Describe a false alarm and then what you do.
    Mr. Winkowski. Well, what happens is the container comes 
through the primary RPM.
    Chairman Lieberman. The truck goes through the portal 
monitor, right?
    Mr. Winkowski. Right. And then an alert goes through a 
secondary RPM.
    Chairman Lieberman. The alarm goes off.
    Mr. Winkowski. Right. And if the alarm goes off in the 
secondary, then what we have to do to adjudicate is officers 
have to go with their radioisotope identifier (RIID).
    Chairman Lieberman. Handheld.
    Mr. Winkowski. Handheld.
    Chairman Lieberman. Right.
    Mr. Winkowski. And scan the container.
    Now, a couple issues that concern me is: One, the RIID was 
really never made for that type of business. It was made more 
for vehicles and mail.
    Two, the thing I do not think we talk enough about or 
stress enough is that you just cannot stand there next to the 
container and walk around with it. In order to get a good, 
accurate reading to find the isotope and location, officers 
have to actually get up on a ladder or stairs in order to make 
sure that we are evenly scanning that particular container.
    So when you start multiplying that--and then if there are 
some questions in the reach-back to LSS----
    Chairman Lieberman. What is LSS?
    Mr. Winkowski. That is Laboratory and Scientific Services 
that actually reads it and says this is a false alarm, this is 
just naturally occurring radiation material.
    Chairman Lieberman. Right.
    Mr. Winkowski. That adds delays to the release of that 
freight. And when you are talking about just-in-time 
inventories, and when you are talking about all those types of 
very sensitive issues, that adds up. Plus getting an accurate 
reading with that handheld RIID with an ASP-type system, it is 
read by the panels. You have a good reading from the standpoint 
of that container being saturated by that particular system.
    So from an operator's standpoint, this is important to us. 
Whether it is an ASP or an ASP-like system, that is perhaps one 
of the questions here.
    Chairman Lieberman. Understood. And I understand you have 
to always weigh the interruption to commerce as against, 
obviously, the extraordinary threat of nuclear terrorism.
    Mr. Oxford. Absolutely.
    Chairman Lieberman. And ask some understanding, of course, 
from people in commerce.
    Just a final question because my time has run out. How many 
times do you actually open up the container?
    Mr. Winkowski. Depending on the identification of the 
source, it depends. If it is just a naturally occurring 
material, such as tile, it may not necessarily be opened.
    Chairman Lieberman. Which the handheld monitor would show 
you?
    Mr. Winkowski. That is correct.
    Chairman Lieberman. But other times you do open it.
    Mr. Winkowski. Yes.
    Chairman Lieberman. I will ask Senator Akaka's indulgence 
just for a moment. Mr. Aloise, do you have a point of view on 
this as to the operational feasibility of how much of a problem 
is the high number of false alarms with the current equipment.
    Mr. Aloise. Well, we can only talk about our observations 
of the places we have been.
    Chairman Lieberman. Yes.
    Mr. Aloise. And I do not disagree with anything that has 
been said. But we have been to 14 or so ports. We have visited 
these places all over the world, and we have talked to CBP, and 
obviously it takes time, but no one has ever said that it 
impedes the flow of commerce.
    And regarding this system, CBP's procedures with the reach-
back, if there is anything at all they discover, that 
conveyance does not leave until that is resolved. So they will 
de-van if they have to.
    Chairman Lieberman. Right.
    Mr. Aloise. So, to us that is an advantage of this system. 
We have talked to truck drivers, we have talked to owners of 
trucking companies. In fact, they were happy to have it done 
because they live in this country, too. They do not want to be 
taking anything into this country that they should not be.
    Chairman Lieberman. Yes, that is important to hear, and 
obviously, from our point of view, we would say it is worth 
some slight disruption in the flow of commerce to protect us 
from the potential of a nuclear incident in an American city.
    Thank you.
    Mr. Oxford. Mr. Chairman, could I add something to that? 
Because one of the things that we did respond to from both CBP, 
DOE, and the GAO from the 2007 testing that we conducted to 
what we have done in 2008 is there is a concern that this 
``NORM material,'' as it is referred to, the normally occurring 
radioactive material, can mask actual special nuclear material 
threats. So we have the compounding problem of does the 
handheld device now just react to what the NORM material is and 
still miss the threat. A lot of ASP testing that we have been 
conducting this year is to find out can we make that 
distinction between two types of radiation and make the 
distinction between threat material and then normally occurring 
material that could confuse other detectors.
    Chairman Lieberman. Mr. Winkowski, then Dr. Cochran, and 
then we go to Senator Akaka.
    Mr. Winkowski. Just one moment. I agree that the trade 
community, the people in this country, they want us to do this, 
and there is no argument on that. But when we get down to the 
unnecessary impediment of commerce, my point is these 
containers are going into secondary unnecessarily because the 
RPMs cannot identify it. Otherwise, that container would be on 
the highway down the road.
    Chairman Lieberman. Yes. So if you had a more 
sophisticated, more capable initial monitor, you could avoid 
some of the false alarms.
    Mr. Winkowski. Right. So if I were a member of the trade 
community sitting here and saying you are unnecessarily 
impeding because you are doing things to a container that do 
not necessarily need to be done--it is getting delayed in 
secondary.
    Chairman Lieberman. Right. Dr. Cochran.
    Mr. Cochran. I wish to respond to two comments Mr. Oxford 
made, one about the time it is taking to eliminate some of the 
sources of nuclear weapon materials, HEU in particular. I agree 
that it has been slow. It has been much faster since September 
11, 2001. The programs actually started 30 years ago. It was 
called the Reduced Enrichment for Research and Test Reactors 
(RERTR). But there is a lot more we could do.
    For example, we send highly enriched uranium to Canada to 
make molybdenum-99 to recover technetium-99, which is the most 
dominant medical isotope in the world. And we do it because we 
do not have a domestic source of molybdenum-99 and technetium-
99. And the University of Missouri Research Reactor Center 
would like to get into the commercial business of making it, 
and they do not have the money. We could get out of the 
business of shipping highly enriched uranium to Canada if the 
Congress and the Department of Energy would accelerate that 
program. And we can accelerate that program, and we could have 
done it in this budget cycle, but we did not.
    Now, the President of the United States went on the 
television last night and made about a speech about the urgency 
to solve the economic problem. He has never been on the 
television to make a speech about the urgency of eliminating 
highly enriched uranium from commerce. We can accelerate that 
program if the Federal Government would give it the urgency 
that it requires.
    Finally, Mr. Oxford said that I do not have access to 
classified information, and he knows that a combination of ASP 
and CAARS can find efficiently highly enriched uranium in 
commerce. I will tell you, I do not need access to the 
classified information because I know a little bit of physics, 
and I can beat his ASP and CAARS systems 100 percent of the 
time, virtually, with what I know about how to design 
improvised nuclear explosive devices.
    Chairman Lieberman. Thank you.
    Senator Akaka, I have gone way over on my time, so please 
take as much time as you need on this round.
    Senator Akaka. Thank you very much, Mr. Chairman. You have 
always been generous.
    Thank you for this opportunity to speak about an issue that 
has not been given the proper attention, and that is our 
nuclear and radioactive materials and how we deal with them. I 
thank you for holding this hearing on trying to prevent nuclear 
terrorism and to learn from our witnesses, from their 
experiences and even from some procedures that have not worked 
as well.
    One thing that comes to mind here, Mr. Chairman: Is there a 
strategic plan? I mentioned it in my opening statement, and I 
believe that any one of you can answer this. I believe that 
there are efforts to do that, but I believe that there is not a 
strategic plan.
    Is there a strategic plan? Where is it? Is it coming soon, 
a strategic plan to deal with preventing nuclear terrorism?
    Mr. Oxford. Senator Akaka, I am not sure exactly what is 
referred to as a ``strategic plan,'' because a lot of different 
things come to mind when I think of people putting strategic 
plans together that become coffee table books that do not 
really have much content. They are high, lofty goals. What we 
work on is a layered strategy that looks at each of the 
potential threat pathways, and we identify goals and objectives 
to address each of those threat pathways.
    One of the things that we have acknowledged with CBP and 
others is that we wanted to secure our ports of entry first, 
and as Mr. Winkowski said in his opening statement, we have 
started to address other potential threat pathways into this 
country, like the general aviation threat. We are working the 
small maritime craft threat jointly with CBP and the U.S. Coast 
Guard to look at interdicting threats that may come through 
craft smaller than the large merchant ships that you see, 
things that are below 300 gross vehicle tons.
    So we are addressing this in a layered strategy. It is not 
tied to the ASP program. It is tied to whatever the best 
solution may be associated with how we do both the operations 
and the technical aspects of that. So we look at it as a 
layered approach, and so we do have strategies in each of those 
various layers.
    Senator Akaka. And the reason I pose that question is in my 
statement I mentioned securing nuclear and radioactive material 
at its source, and Dr. Cochran did mention about HEU, highly--
--
    Mr. Cochran. Highly enriched uranium.
    Senator Akaka. Enriched uranium, and that it is one that 
has not been detected. And so I do not know whether something 
like that belongs in a plan and whether a strategic plan would 
be one where we would try to work with other nations as well to 
get to wherever the sources are to try to prevent it from 
happening there.
    Mr. Oxford. And, Senator, if I could, the responsibility 
for doing that as part of the U.S. Government's response to 
this threat is within the Department of Energy that is working 
overseas with a variety of nations to help secure sources 
overseas, so I would invite you to consult with the National 
Nuclear Security Administration (NNSA) in terms of what their 
plan is to do that.
    Senator Akaka. Do you think a strategic plan would be 
needed?
    Mr. Oxford. Again, tying all these different things 
together, it would be a useful thing to do.
    Mr. Aloise. Senator Akaka, if I may?
    Senator Akaka. Yes, Mr. Aloise.
    Mr. Aloise. A couple of years ago, GAO issued a report 
calling for a strategic plan at the top levels of the 
government, combining all of the programs of NNSA, DHS, DOD, 
and the National Research Council (NRC). The State Department 
was supposed to head up that effort, and they have come up with 
one. We have not looked at it recently.
    Also, earlier this year we did call for the development of 
a strategic plan for the global nuclear architecture, which is 
all this radiation detection equipment worldwide we are talking 
about, and I believe DHS agreed that they would do that.
    Senator Akaka. Dr. Wagner, Mr. Oxford stated that there is 
now a director of ASP Operational Test and Evaluation. Based on 
your experience in DOD, do you believe that having an 
Operational Test and Evaluation Office is important to the 
success of the ASP program?
    Mr. Wagner. Yes, sir. I think that is important not only 
for ASP but for the whole ensuing range of developments. There 
is an art, of course, to how you do operational testing and 
development testing and where the line between the two is. And 
I think the question of exactly how you draw the line is maybe 
a little bit deeper than we can go here this morning. But I 
think in general, yes, an Office of Operational Testing is a 
good thing to have.
    It may be a little late for ASP. I think that we ought to 
think about the ASP product as being one of sequential cycles, 
where you deploy a few, get field experience with those, feed 
that back, upgrade the hardware for the next round of buying, 
and so on, until finally you have reached the end.
    The role and the distinction there between development 
testing and operational testing is a little fuzzy.
    Senator Akaka. Let me ask any one of the panelists who wish 
to comment on this, do you think all major acquisition programs 
would benefit from a similar office? Why or why not?
    Mr. Oxford. Senator, if I can address that, first of all, 
this now has become Department policy, so within DHS, this 
Director for Operational Testing would be applied to all major 
acquisitions that go through the Investment Review Board. So we 
just happen to be the first program to overlay the operational 
test feature on this, but you will see that in other endeavors 
within the Department as well. So it is not just a DNDO 
operational testing. It is the Department's operational testing 
entity that would be applied to all major programs.
    Senator Akaka. Mr. Oxford, you mentioned that technology to 
distinguish automatically between low-density, non-threat 
materials and higher-density materials is under development. 
This sounds like important technology to counter the threat 
posed by nuclear smuggling.
    How long will it be until this CAARS technology is ready 
for demonstration testing and evaluation?
    Mr. Oxford. Thank you for the question because I would like 
to refer back to what the Chairman mentioned in his opening 
statement about what we call the CAARS course correction. What 
we recognize is that because we have a variety of R&D elements 
within DNDO, we have the CAARS program that was pursuing some 
rather aggressive technical goals, and we also have some 
exploratory research that is evaluating other radiographical 
concepts. We recognized that the pace of development was moving 
so quickly that we did not want to restrict future acquisitions 
to just the three CAARS contractors. So what we did within the 
CAARS program is we took out some of these sub-goals. For 
example, at one time we were looking for 120-vehicle throughput 
for each CAARS machine per hour in support of CBP operations. 
That was driving the CAARS vendors down certain paths without 
worrying about the detection challenge.
    We had other detection concepts that were proceeding in 
parallel to this, so what we have done with the CAARS program 
and, as the Chairman referred to it, the JINII program, the 
Joint Integrated NII Program, is we have opened up the door for 
additional competition with these other parallel radiography 
systems. We will do a test in 2009 to look at how suitable 
those concepts are to meet the similar goals to what we had in 
the CAARS program. So we have opened up the door for 
competition to help get the best value for the government.
    Senator Akaka. Mr. Oxford, Mr. Aloise in his testimony 
mentioned that your submissions to the Office of Management and 
Budget (OMB) for budget years 2008 and 2009 describe an ASP 
sister program that includes land crossings, seaports, rail 
lines, airports, and other ports of entry. How are you planning 
to provide this type of nuclear detection capability for these 
other potential smuggling routes?
    Mr. Oxford. Again, thank you for the question because we 
are working very closely with CBP as we look at every one of 
these operational issues because one of the things that I like 
to mention is that the developer cannot do this on his own. We 
have got to work with the operational community.
    And let me just mention rail as an example. There are 37 
high-priority rail crossings coming into the United States from 
our northern and southern allies. It is a very difficult 
proposition to do detection at the border once the train is put 
together. So it puts an operational burden on CBP, and I will 
ask Mr. Winkowski to address some of that. But if you do a 
detection, you have an alarm of a long train coming across, for 
example, the Northern border. Now you have to figure out how to 
separate that one car from the entire train.
    So what we chose to do when we did the change in the ASP 
program was to go back and study the rail problem from top to 
bottom, and we may end up in a situation where we have to ask 
our Canadian partners, for example, to do some of the scanning 
of the rail cars before the train is actually assembled so we 
are not putting the burden right at the border itself; we are 
working in cooperation with our allies to deal with the 
problem, as opposed to putting the burden on our partners at 
the Northern border. That is just one example of how we have to 
go back and look at every one of these venues.
    Senator Akaka. Thank you, Mr. Chairman. May I ask one more 
question?
    Chairman Lieberman. Go right ahead.
    Senator Akaka. Mr. Winkowski and Mr. Oxford, the new JINII 
program appears to accommodate both detection for radiological 
threats and contraband. What assurance do we have that the 
JINII program will focus first and foremost on nuclear 
detection for rapid short-term deployment?
    Mr. Oxford. Senator Akaka, I do not think we can choose the 
priorities. I will let Mr. Winkowski talk about it. I think we 
do have to make some priority decisions. I think what we are 
looking for is the ability to do the nuclear mission while not 
diminishing the capability to look at other contraband like 
people, drugs, explosives, and those kinds of things.
    So I think there is a way that we can balance this, and 
that is why we wanted an integrated program to do both the 
nuclear and the conventional mission CBP has.
    Mr. Winkowski. And, Senator, all I would add to that is I 
agree with what the Director is saying, and we need technology 
that can find the shielding piece, as well as making sure that 
we are addressing our traditional mission on the drug side and 
all the other issues that we deal with.
    So, working collaboratively with the DNDO is what we do, 
and as the operator, we will put down our requirements on what 
we need, and then we leave it up to the scientists and the 
scientific community to come in and address that.
    Senator Akaka. Thank you very much for your responses.
    Mr. Chairman, thank you.
    Chairman Lieberman. Thanks, Senator Akaka, for your 
excellent questions. We will do one more round of questions 
this morning.
    Director Oxford, the suggestion was made, I believe by Dr. 
Wagner, about the possibility of putting some of the ASP units 
into deployment as a matter of testing to see how they do and 
to advance the goals that you have.
    Mr. Wagner. As a matter of learning more than testing.
    Chairman Lieberman. I accept the amendment. [Laughter.]
    Thank you. In your filing this year for the office, the so-
called congressional justification, you indicate that DNDO has 
already purchased 76 low-rate production models of the ASP 
monitor, and that approximately 45 of those are now sitting in 
warehouses.
    I wonder what you would say about deploying those monitors 
and letting CBP officers use them for a year or so to find out 
how they perform in a variety of settings. I mean, in a sense, 
would that not be the equivalent of the spiral in the ASP 
program that Dr. Wagner has suggested?
    Mr. Oxford. Based on the way, Mr. Chairman, that you have 
stated it, that would meet his requirement. I am not sure that 
I agree with that kind of spiral approach.
    Chairman Lieberman. So talk about that.
    Mr. Oxford. I do not think the pace of the software 
development is going to be so rapid that we would want to do 
that. Right now, we are trying to accommodate addressing of the 
threat through both our testing as well as the CBP 
functionalities. So when we take the recommendation of the 
Secretary later this year, he will have an option to deploy at 
whatever pace, once he thinks these machines actually do 
represent an increase in operational effectiveness, and clearly 
he could dictate one of kind of deployment strategy versus 
another, and we are going to give him those options.
    We do believe in a spiral approach, and what we would do--
it is a matter of, first of all, these systems will take a 
while to produce. Once we make a production order, for example, 
and the Secretary says go, it is a 6-month period of time 
before the systems actually would show up and be able to be 
deployed.
    So in the interim, we would deploy those first 45. CBP 
would start to get information from those. The software then 
could start to be adapted if there were issues that arose from 
that. But I do not think doing 30 at a time, first of all, 
works from a performance point of view, nor is it cost-
effective for the government to buy small amounts and then have 
to reorder systems. And I think it is awkward for CBP--and I 
will let Mr. Winkowski address this--to deal with small batches 
of systems coming into the field. Now they have to manage 
multiple systems.
    Chairman Lieberman. So you would prefer for now to have 
those 45 units sitting in the warehouse?
    Mr. Oxford. We are prohibited from deploying those by the 
appropriations law that we are living with until the Secretary 
makes the certification decision. But they would be the first 
45 that would be deployed. So they would be available for 
deployment immediately.
    Chairman Lieberman. I see. I understand now that you have 
clarified it. If you did not have that certification 
requirement that the appropriations process has put on you, 
would you more proactively deploy those 45----
    Mr. Oxford. We had actually discussed that at one time with 
CBP to go ahead and get those into the operational environment 
and locations where they would feel comfortable evaluating them 
for a while. We were prohibited by the appropriations law from 
doing a parallel deployment until all testing and certification 
was done.
    Chairman Lieberman. So you did not reach a judgment as to 
whether or not, if the certification process was not there, you 
would deploy those units now?
    Mr. Oxford. Well, again, when the law came out, we did not 
continue the discussion.
    Chairman Lieberman. You never reached a point of judgment.
    Mr. Oxford. Right.
    Chairman Lieberman. Mr. Aloise, do you have an opinion on 
this question about the deployment of these units that are 
sitting there now?
    Mr. Aloise. Well, we think that it would be a good idea to 
deploy some of these for testing, as has been suggested, and 
learning for at least 6 months or a year. And I think most 
experts we talked to thought that was a reasonable period.
    In our view, to rush these out before you know they work 
could cause more havoc at the border than not.
    Chairman Lieberman. Right.
    Mr. Aloise. Last year's validation test did not go well, 
and we are back to doing it again.
    Chairman Lieberman. Do you agree that--I have not spent 
time on this--the certification process that the Appropriations 
Committees put on DNDO prohibits them from doing the testing 
before the certification?
    Mr. Aloise. I would imagine that DNDO could approach the 
Committee staffers and ask them for an exception to that.
    Chairman Lieberman. Is it worth doing that, Mr. Oxford?
    Mr. Oxford. Mr. Chairman, we did that. They were afraid 
that what we would be doing is a slowly phased deployment as 
opposed to an evaluation. So there is actually a phrase in the 
appropriations law that prohibits that.
    Chairman Lieberman. Right.
    Mr. Oxford. And because we could learn some of that even 
while we were going through some of the testing, we would have 
been doing that over the course of this last calendar year.
    Chairman Lieberman. Mr. Winkowski, what is your point of 
view on----
    Mr. Winkowski. Well, as the operator, testing is fine. But 
if I am going to be given a system that is unstable, if I am 
going to be given a system that does not meet some of my 
demands, all that does is add a burden onto the men and women 
that are on the ground making the system go day in and day out. 
And we want a system that is stable. I agree with what Dr. 
Wagner is saying, that sometimes you just have to put it in the 
field, and we ought to see how it works in a real live 
environment. But we have to make sure that we measure that and 
we do not deliver to the men and women of CBP field operations 
in the ports of entry a system that is unstable and is going to 
do nothing but add problems and complications.
    As I said, we are going to be there with the screwdriver 
fixing it day in and day out. So many systems on software, to 
reboot it and to reinstall software can take 7 or 8 minutes. 
That is the kiss of death in my business from the standpoint of 
delays.
    Chairman Lieberman. I think probably most people do not 
know that--you are operating on that quick a time frame. This 
is minutes you are talking about.
    Mr. Winkowski. Absolutely--seconds.
    Chairman Lieberman. Yes.
    Mr. Winkowski. Yes.
    Chairman Lieberman. Dr. Wagner, I would like to get you 
into this discussion, and if I can invite you to elaborate on 
some statements you made in your prepared testimony, which I 
found very interesting, which was to contrast the procurement 
system of the DNDO with the procurement system of the Manhattan 
Project, let us say, and to suggest that, interestingly, these 
are both nuclear related, of course, in this case--not to 
develop a nuclear weapon but to protect us from one being used 
to attack Americans. So talk about that a little bit. If I 
heard you right, you think that we may be too tight in 
procurement in the model that we have now.
    Mr. Wagner. I think that the Federal Government in general, 
as my prepared statement said, over the last 10 or 20 years has 
changed what was once a flexible procurement system into one 
that is too bureaucratic, too rule-bound. There are some 
situations where it is good to do that and other situations 
where it is harmful, and I think in general these technologies 
are a place where it is harmful.
    In my prepared statement, I listed 10 or so characteristics 
of a more flexible procurement process. One of them is getting 
the system developers, the guys in the white coats, out in the 
field with the operators where they can learn together.
    I would say about the CBP people, if they are anything like 
the uniformed military, some of them will welcome the 
opportunity to work with developers and make the system better. 
DOD for years--I am a few years out of date on it--had the 9th 
Infantry Division at Fort Lewis, Washington, that was the 
experimental division. The 9th Infantry Division was supposed 
to be prepared to go to war, and they had to train as if they 
were going to go to war, but they understood that they were 
going to take things to war that were pretty experimental and 
learn how to use them, and learn how to use them in training 
beforehand.
    I think that this nuclear threat should be thought of as so 
much a part of dealing with the normal flow of cargo into this 
country that it would not be a bad idea for CBP to put together 
kind of an operational/experimental entity.
    Chairman Lieberman. That is a very thoughtful and 
provocative and fresh point of view, which I think as we turn 
this problem over to the next Administration, we ought to think 
about part of this problem is that Congress and the Budget 
Office put restrictions on offices like DNDO because we are 
worried about waste. On the other hand, we may be 
overbureaucratizing to the point that we are frustrating the 
realization of the urgent goals that we have.
    So, I am going to go back and look at the specific 
recommendations you make about how we might turn this somewhat 
in the direction of the more flexible procurement model.
    Mr. Wagner. Can I make one other suggestion about how to 
walk down this line a little further?
    Chairman Lieberman. Yes.
    Mr. Wagner. I was in the Pentagon--it was in 1985 or 1986--
when the Competition in Contracting Act was passed and signed 
by the President. It was intended to reduce fraud, waste, and 
abuse and get a better product via competition. It was largely 
aimed at DOD, although I think maybe other agencies too. The 
Congress offered to DOD the opportunity to exempt R&D from many 
of the strictures of the act, and DOD chose not to exempt R&D.
    If I were going to start to delve into this, I would go 
back and look at that particular juncture and see why the 
Congress thought it was a good idea to exempt R&D and maybe why 
DOD thought it was not a good idea. I think that might be a 
good place to start.
    Chairman Lieberman. Good point. Thank you.
    Mr. Oxford. Mr. Chairman, could I address that quickly? 
Because I know Dr. Wagner and I have chatted about this a 
couple of times where he refers to this as ``bending the FAR,'' 
which, of course, as a government official, I cannot bend the 
Federal Acquisition Regulation (FAR). So I think there are some 
flexibilities that may be useful as some of these programs 
across the U.S. Government go forward. But I would like to 
point out that what was talked about as an 8-week delay in the 
program is really because of one of the features that Dr. 
Wagner mentioned, and that is, we have an immersed CBP in the 
program to the point that we are not going forward until the 
operator is comfortable with this system. And we are committed 
to not taking a recommendation to the Secretary until we both 
have met the technical objectives of the program and the 
operational objectives, at least the one feature that Dr. 
Wagner mentions, to make sure the developer and the users are 
hand in hand as a feature of the program.
    Chairman Lieberman. That is a very good point. We know on 
this Committee that some of the problems that we have had with 
the investment we have made in another area, which is the so-
called virtual or electronic fence at the Southern border, are 
the result, some of us conclude, in part of the fact that the 
private contractors went ahead without effectively any 
involvement by the Customs and Border Protection, and they 
would have avoided a lot of problems if they had had that 
consultation.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Winkowski, Mr. Oxford testified that CAARS units are 
too large and complex to be operationally effective. To what 
extent did CBP and DNDO collaborate when this decision was 
made?
    Mr. Winkowski. My understanding--and Senator, this is 
before my time as the Assistant Commissioner--is that we became 
engaged with DNDO on CAARS back in late 2005, worked with DNDO, 
talked about the footprint, and then I believe the course 
correction was in about 2007, if I remember correctly.
    So we were at the table, but our concern was that the 
footprint was too big. As I was saying, for all your trucks to 
go through a car-wash type system, as I call it, and the driver 
comes out and you do your scan, realistically that presents a 
tremendous amount of problems from a cycle time.
    So our position was that we really needed a different 
technology that was more flexible and did not have such a big 
footprint and require so much handling.
    Senator Akaka. In terms of the CAARS system being too 
large, what percentage of our port facilities would not be able 
to accommodate it?
    Mr. Winkowski. It is a big footprint, 60-by-160, as I 
recall. I would say that if you went with the CAARS on the 
blueprint, most of the seaports could not handle the footprint.
    Senator Akaka. In Dr. Wagner's testimony, he stated that 
the United States should be putting even more resources into 
countering the threat of nuclear smuggling, including detection 
and interdiction of attacks. Which threats can be best 
countered by technology like the ASP system?
    Mr. Wagner. That is a tough question. There are a lot of 
different threats and different ways of shielding different 
materials. It is a very complicated question to find that part 
of the threat that you can imagine just barely dealing with 
today and designing a system to deal with that, knowing that 
there is a lot more threat that you cannot deal with today that 
is going to have to come later.
    The art in this game of managing R&D and getting it into 
the field to beat this threat is in properly picking the threat 
you choose to beat this year and putting something in place to 
do that, and at the same time starting development for a threat 
that you know you cannot beat this year, but will hope to beat 
later.
    Forty years ago, I went through that same kind of problem 
in the first phase of missile defense. This is a lot harder 
than missile defense. There is more diversity of possible 
things that an attacker could do. I think that an approach to 
doing it--I think I am not giving you the answer you wanted--is 
to develop better systems analysis tools, computer models, for 
instance, of the whole sequence of how the threat might 
approach and how the defense might choose to defend in-depth 
and begin to learn from what those tell you to develop both 
operational plans and the strategic plans that you talked 
about.
    Mr. Oxford and his counterparts in DOD and DOE are building 
such systems analysis tools. They know that they need to do 
that. They are coming slowly. If there were a single place 
where I would put more emphasis, it is on bringing those along 
so that we could answer those kinds of questions better 2 years 
from now.
    Senator Akaka. Well, let me ask a question that deals with 
resources and money. Do you believe the current resources to 
counter the threat of nuclear smuggling are properly 
distributed?
    Mr. Wagner. Your first question was, I think, are there 
enough, and now you asked are they properly distributed? Let me 
answer the properly distributed part in two ways.
    Mr. Oxford has quite properly, over the last years in DNDO, 
started to put more emphasis on non-cargo flow paths. Senator 
Lieberman referred to civil aviation and small craft and 
maritime approaches. I think that is a proper next thing to 
work on. I might have wanted to start working on it sooner.
    My own opinion is that the Nation as a whole ought to be 
putting even more emphasis on stopping this threat overseas. I 
would not do that to the detriment of defending at our borders 
and in-depth inside the country. But I think more emphasis 
ought to be put on doing it overseas, from intelligence to 
covert operations to whatever.
    On another dimension of whether there are enough resources, 
when I go out to the labs and an occasional contractor and talk 
to the principal investigators of these detector development 
projects, my general sense is that many of those projects are 
underfunded, that the principal investigators and the 
government people who are allocating the funding are required 
to choose among alternative paths prematurely, before they have 
explored them enough.
    Now, that is a matter of judgment on my part, but the way I 
would approach this from this Committee's point of view is to 
expect about a year from now that very good questions be 
addressed on a more analytic basis, and to prepare a year from 
now for the possibility that on the basis of that analysis you 
might want to see the Appropriations Committees increase the 
funding in this area substantially.
    Right now, it is my judgment, I would like to see it--but 
you should not follow that until you can back it up with better 
analysis and you ought to be working hard to get that better 
analysis.
    Senator Akaka. Thank you.
    Mr. Oxford. Senator, could I address one of your questions? 
Because we have enjoyed great support from the Congress. When I 
first stood up DNDO and we brought together some resources that 
had been within the Department from multiple components, we had 
about a $195 million budget, which was probably the most this 
country has spent on nuclear detection in two decades. I cannot 
give you statistics on that per se, but I know there was not 
much money going to the National Laboratories for this specific 
mission. We are now at a level of about $561 million, so we 
have enjoyed good success. We are reluctant to just come in and 
ask for lots of money without some foundation, as Dr. Wagner 
said.
    There are some impending crises in this country, though, 
and that has to do with the nuclear expertise that is rapidly 
dwindling across our entire complex. NNSA Administrator Tom 
D'Agostino and I are working this collectively along with some 
colleagues in DOD. We are losing nuclear engineers; we are 
losing nuclear weapons designers across the complex as the 
support for the nuclear weapons program goes down. These 
programs, like ours, are riding on the backs of the nuclear 
weapons complex. So I think we need to figure out that we do 
not have unintended consequences of going from what has been 
apparently an offensive mission to know that we are in the 
defensive posture, that we do not diminish one to the detriment 
to the other too drastically. We need about 100 Ph.D.s per year 
coming out of our colleges and universities to reinvigorate 
that complex so we can take on the kind of challenges that you 
are asking about. So there are some issues that resource-wise 
that are kind of lower level than the programs we have been 
talking about today, but really portend for the future of this 
country.
    Senator Akaka. I know I have exceeded my time, Mr. 
Chairman. May I ask one more question?
    Chairman Lieberman. Go ahead.
    Senator Akaka. Mr. Winkowski.
    Mr. Winkowski. Senator, if I could just elaborate a little 
bit on what Dr. Wagner said. He had mentioned about doing this 
overseas, and as I had mentioned in my opening statement, we 
have a layered approach, whether it is a 24-hour rule or it is 
an automatic targeting system. But one of those layers is what 
we call the Container Security Initiative (CSI), as well as the 
Secure Freight Initiative (SFI), where we have pushed a lot of 
our processing overseas in 58 locations, and it accounts for 
about 86 percent of the freight that comes into the United 
States now, which has had some type of screening, if you will. 
I am not here to say that everything has gone through a RPM or 
even a NII device, but we are in these 58 countries, and under 
the SAFE Port Act with the Secure Freight Initiative, we are 
doing scanning, for example, in Pakistan, Port of Cortes, 
Honduras, and Southampton. Now, they are small footprints and 
we are doing some in Hong Kong, not all of Hong Kong, but we 
have one lane there in Hong Kong, and we do have the APS system 
up and running in Southampton in secondary. So I think Dr. 
Wagner's point is very important, that we have to look at 
pushing this overseas, and, of course, we have the 100-percent 
standing requirement in July 2012, which is a real challenge, 
but we are looking at our high-trade risk corridors to see if 
we can put in some type of protocols like we have in Pakistan, 
where everything is being scanned and everything is going 
through an RPM type of device.
    Senator Akaka. Mr. Oxford, in DNDO's response to GAO's cost 
estimate report, your office claimed that GAO incorrectly 
assumed that DNDO picks up operation and maintenance costs. 
DNDO asserted that it is U.S. Customs and Border Protection 
that covers these costs. If you consider the operation and 
maintenance costs borne by CBP along with the $2.1 billion cost 
estimate DNDO advocates, is this cost close to the range that 
GAO presented?
    Mr. Oxford. Mr. Aloise and I have chatted about this 
recently. We are conducting a full lifecycle cost estimate that 
will include many of the same elements that their estimate has. 
Some of the documents have been referred to in the past; for 
example, the $1.2 billion number that was really the ceiling on 
the contracts available for acquisition and R&D. So it was not 
representative of the lifecycle cost estimate and never was 
intended to do so. The $2.1 billion that you have seen 
referenced was actually predicated on the OMB 300 requirement 
where we go in and it is the DNDO portion of that program, and 
it spans a different lifecycle than what the GAO analysis did. 
It is only 8 years. That is what OMB requires when we submit 
it.
    So before we go to the Secretary, we are doing a full-blown 
lifecycle cost estimate for the 11-year time period that is 
required to do this, in a way very consistent with what the GAO 
has done. It is premature for me to say what that outcome is 
going to be, because we are also doing it along four pathways, 
and that is, whatever the deployment options the Secretary may 
want to visit, we want a lifecycle cost estimate that would 
account for the current generation of RPMs and ASP systems 
across four different deployment strategies so he has options 
to choose from as opposed to a one-point solution.
    So in the next month or two, we will have something that is 
more of a comparison with GAO, and we will be glad to share 
what the actual relative numbers are at that time.
    Senator Akaka. I really appreciate the responses from the 
panel, and thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. Thanks for 
your excellent questions.
    This is a time here in Congress where we go from urgent 
matter to urgent matter, and I have got to go now to some 
discussions about the national economic crisis. But I want to 
thank all of you. Thank you, Mr. Aloise, at the outset for the 
very important work that GAO has done here.
    I think this has been a very good and constructive 
discussion. I would say for my part it has helped me better 
understand the decisions that have been made and the ones that 
have to be made. And there are many more questions that I have, 
and other Members of the Committee may have as well. So we are 
going to keep the record of the hearing open for 15 days so we 
may submit some questions to you asking you to respond in 
writing.
    We also give you the opportunity during those days to add 
additional testimony as you see fit. But you made a really 
constructive and important contribution to our discussion of 
this critical element of national security. Whenever we deal 
with this problem, I always remember that last year at one of 
the first hearings of this session, Secretary Chertoff was a 
witness, and someone on the Committee asked him the classic and 
perhaps trite, but very important, question: ``What element of 
homeland security keeps you up at night, Mr. Secretary?'' And 
he said, ``It is my concern about a nuclear weapon or dirty 
bomb being smuggled into the United States and exploded in an 
American city.'' And that has led to these seven hearings. They 
have been very helpful. Obviously, Director Oxford, you and 
DNDO play a very important role here, including the 
coordination of other R&D and other efforts going on in other 
departments.
    So my intention is that after we complete the questions and 
answers that we will file, the Committee will make a series of 
observations and recommendations to the incoming 
Administration, particularly the incoming Secretary of Homeland 
Security, as to where we hope that they will go with this to 
expedite this program.
    But for now, I thank all of you for what you have 
contributed certainly this morning, and with that, the hearing 
is adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               PREPARED STATEMENT OF SENATOR BARACK OBAMA
                             April 2, 2008
    Mr. Chairman, thank you for holding this hearing and for giving us 
an opportunity to gather more information on the threat of nuclear 
terrorism. I also appreciate the willingness of the panelists to give 
their perspectives on this critical national security issue.
    We know Al-Qaeda has made it a goal to acquire a nuclear weapon. If 
a sophisticated terrorist group obtained the right amount of plutonium 
or highly enriched uranium, it could potentially construct a crude 
nuclear device that could destroy the heart of any major city in the 
United States. While significant progress has been made in securing 
nuclear materials, there are still large stockpiles that remain 
vulnerable to theft. In the civilian sector alone, there are an 
estimated 60 tons of highly enriched uranium, enough to make over 1,000 
nuclear bombs, spread out at facilities in over 40 countries around the 
world. Many of these facilities do not have adequate physical security.
    There have been an alarming number of attempted exchanges of small 
quantities of dangerous nuclear materials. The International Atomic 
Energy Agency (IAEA) confirmed 16 incidents between 1993 and 2005 that 
involved trafficking in relatively small amounts of highly enriched 
uranium and plutonium. That is 16 incidents too many, in my opinion, 
and 16 incidents that should not have been allowed to happen. And those 
are just the incidents that we know about. How many cases are there 
that we do not know about?
    It is imperative that we build and lead a truly global effort to 
secure, consolidate, and reduce stockpiles of nuclear weapons and 
weapons-usable material to prevent them from falling into the wrong 
hands. It is also essential that we make preventing nuclear terrorism a 
top national security priority--with the resources, diplomatic effort 
and funding to match the threat.
    I traveled to the former Soviet Union with Senator Richard Lugar in 
2005 to investigate the dangers posed by unsecured weapons. Building on 
this experience, Senator Lugar and I introduced legislation that was 
signed into law in January 2007 to help other nations detect and stop 
the transfer of weapons of mass destruction.
    Last year, I worked with Senator Chuck Hagel to introduce a broad 
bill that seeks to prevent nuclear terrorism, reduce global nuclear 
arsenals, and stop the spread of nuclear weapons and related 
technology. One provision, which was signed into law as part of the 
FY2008 omnibus appropriations bill, requires the President to submit to 
Congress a comprehensive plan for ensuring that all nuclear weapons and 
weapons-usable material at vulnerable sites around the world are secure 
by 2012 to keep them out of the hands of terrorists.
    I will continue to push for stronger efforts to secure nuclear 
stockpiles and look forward to working with the committee on a range of 
initiatives to prevent terrorists from acquiring and using a nuclear 
device against our homeland.
    Thank you.
                               __________
             PREPARED OPENING STATEMENT OF SENATOR COLLINS
                           September 25, 2008
    Mr. Chairman, thank you for holding this hearing to continue the 
Committee's work on the threat of nuclear terrorism. Today we will hear 
testimony about a much-criticized DHS program to deploy advanced 
radiation-detection technology at our ports of entry.
    Detecting nuclear materials at ports of entry--before they enter 
the stream of commerce--must be a high priority. The SAFE Port Act, 
which I co-authored, enhanced the Federal Government's ability to 
detect illicit radiological materials by requiring that all cargo 
containers be scanned for radiation at the 22 largest U.S. seaports. 
This mandate covers 98 percent of cargo coming into the United States.
    Customs and Border Protection (CBP) has now completed deployment of 
the required radiation portal monitors. These first-general portal 
monitors detect radiation from any type of material in a cargo 
container and, as a result, are often set off by innocent sources of 
trace radiation such as ceramic tiles or even kitty litter. CBP 
officers then have to resolve the alarms through sometimes time-
consuming measures.
    To avoid these delays and to be able to react more quickly to 
potentially dangerous materials, DHS has spent the last few years 
developing next-generation technology that will determine the type of 
radiation that is being emitted. If effective, this will allow CBP 
officers to know immediately if a cargo container contains innocent or 
potentially threatening materials.
    The DHS office responsible for making decisions about the 
development, testing, evaluation, and acquisition of detection 
equipment is the Domestic Nuclear Detection Office (DNDO). This Office 
must make well-informed and threat-based investment decisions to meet 
the challenge of interdicting illicit material at our Nation's borders 
and within our country. Given our Nation's significant investment in 
this critical area, DNDO must also serve as a responsible steward of 
taxpayers' dollars.
    In the past, DNDO has been criticized for its management of 
technology-development programs. It has responded to concerns of a 
disconnect between laboratory testing and real-world operational use by 
engaging CBP in the development and testing process.
    DNDO's technological development efforts support not only CBP 
screening officers at U.S. ports, but CBP officers at 58 foreign 
seaports, Coast Guard crews on the high seas, and local law enforcement 
cooperating in targeted detection efforts around our major cities. 
Successful development and acquisition of equipment by DNDO is vital 
for nuclear-detection efforts that other DHS components and local 
governments are implementing.
    Our witnesses today can give us valuable insights into the 
challenges that the DNDO and its partners confront--challenges which 
Congress must examine as we consider our Nation's investments in an 
effective nuclear-detection architecture. I look forward to their 
testimony.
[GRAPHIC] [TIFF OMITTED] 41450.001

[GRAPHIC] [TIFF OMITTED] 41450.002

[GRAPHIC] [TIFF OMITTED] 41450.003

[GRAPHIC] [TIFF OMITTED] 41450.004

[GRAPHIC] [TIFF OMITTED] 41450.005

[GRAPHIC] [TIFF OMITTED] 41450.006

[GRAPHIC] [TIFF OMITTED] 41450.007

[GRAPHIC] [TIFF OMITTED] 41450.008

[GRAPHIC] [TIFF OMITTED] 41450.009

[GRAPHIC] [TIFF OMITTED] 41450.010

[GRAPHIC] [TIFF OMITTED] 41450.011

[GRAPHIC] [TIFF OMITTED] 41450.012

[GRAPHIC] [TIFF OMITTED] 41450.013

[GRAPHIC] [TIFF OMITTED] 41450.014

[GRAPHIC] [TIFF OMITTED] 41450.015

[GRAPHIC] [TIFF OMITTED] 41450.016

[GRAPHIC] [TIFF OMITTED] 41450.017

[GRAPHIC] [TIFF OMITTED] 41450.018

[GRAPHIC] [TIFF OMITTED] 41450.019

[GRAPHIC] [TIFF OMITTED] 41450.020

[GRAPHIC] [TIFF OMITTED] 41450.021

[GRAPHIC] [TIFF OMITTED] 41450.022

[GRAPHIC] [TIFF OMITTED] 41450.023

[GRAPHIC] [TIFF OMITTED] 41450.024

[GRAPHIC] [TIFF OMITTED] 41450.025

[GRAPHIC] [TIFF OMITTED] 41450.026

[GRAPHIC] [TIFF OMITTED] 41450.027

[GRAPHIC] [TIFF OMITTED] 41450.028

[GRAPHIC] [TIFF OMITTED] 41450.029

[GRAPHIC] [TIFF OMITTED] 41450.033

[GRAPHIC] [TIFF OMITTED] 41450.034

[GRAPHIC] [TIFF OMITTED] 41450.035

[GRAPHIC] [TIFF OMITTED] 41450.036

[GRAPHIC] [TIFF OMITTED] 41450.037

[GRAPHIC] [TIFF OMITTED] 41450.038

[GRAPHIC] [TIFF OMITTED] 41450.039

[GRAPHIC] [TIFF OMITTED] 41450.040

[GRAPHIC] [TIFF OMITTED] 41450.041

[GRAPHIC] [TIFF OMITTED] 41450.042

[GRAPHIC] [TIFF OMITTED] 41450.043

[GRAPHIC] [TIFF OMITTED] 41450.044

[GRAPHIC] [TIFF OMITTED] 41450.045

[GRAPHIC] [TIFF OMITTED] 41450.046

[GRAPHIC] [TIFF OMITTED] 41450.047

[GRAPHIC] [TIFF OMITTED] 41450.048

[GRAPHIC] [TIFF OMITTED] 41450.049

[GRAPHIC] [TIFF OMITTED] 41450.050

[GRAPHIC] [TIFF OMITTED] 41450.051

[GRAPHIC] [TIFF OMITTED] 41450.052

[GRAPHIC] [TIFF OMITTED] 41450.053

[GRAPHIC] [TIFF OMITTED] 41450.054

[GRAPHIC] [TIFF OMITTED] 41450.055

[GRAPHIC] [TIFF OMITTED] 41450.056

[GRAPHIC] [TIFF OMITTED] 41450.057

[GRAPHIC] [TIFF OMITTED] 41450.058

[GRAPHIC] [TIFF OMITTED] 41450.059

[GRAPHIC] [TIFF OMITTED] 41450.060

[GRAPHIC] [TIFF OMITTED] 41450.061

[GRAPHIC] [TIFF OMITTED] 41450.062

[GRAPHIC] [TIFF OMITTED] 41450.063

[GRAPHIC] [TIFF OMITTED] 41450.064

[GRAPHIC] [TIFF OMITTED] 41450.065

[GRAPHIC] [TIFF OMITTED] 41450.066

[GRAPHIC] [TIFF OMITTED] 41450.067

[GRAPHIC] [TIFF OMITTED] 41450.068

[GRAPHIC] [TIFF OMITTED] 41450.069

[GRAPHIC] [TIFF OMITTED] 41450.070

[GRAPHIC] [TIFF OMITTED] 41450.071

[GRAPHIC] [TIFF OMITTED] 41450.072

[GRAPHIC] [TIFF OMITTED] 41450.073

[GRAPHIC] [TIFF OMITTED] 41450.074

[GRAPHIC] [TIFF OMITTED] 41450.075

[GRAPHIC] [TIFF OMITTED] 41450.076

[GRAPHIC] [TIFF OMITTED] 41450.077

[GRAPHIC] [TIFF OMITTED] 41450.078

[GRAPHIC] [TIFF OMITTED] 41450.079

[GRAPHIC] [TIFF OMITTED] 41450.080

[GRAPHIC] [TIFF OMITTED] 41450.081

[GRAPHIC] [TIFF OMITTED] 41450.082

[GRAPHIC] [TIFF OMITTED] 41450.083

[GRAPHIC] [TIFF OMITTED] 41450.084

[GRAPHIC] [TIFF OMITTED] 41450.085

[GRAPHIC] [TIFF OMITTED] 41450.086

[GRAPHIC] [TIFF OMITTED] 41450.087

[GRAPHIC] [TIFF OMITTED] 41450.088

[GRAPHIC] [TIFF OMITTED] 41450.089

[GRAPHIC] [TIFF OMITTED] 41450.090

[GRAPHIC] [TIFF OMITTED] 41450.091

[GRAPHIC] [TIFF OMITTED] 41450.092

[GRAPHIC] [TIFF OMITTED] 41450.093

[GRAPHIC] [TIFF OMITTED] 41450.094

[GRAPHIC] [TIFF OMITTED] 41450.095

[GRAPHIC] [TIFF OMITTED] 41450.096

[GRAPHIC] [TIFF OMITTED] 41450.097

[GRAPHIC] [TIFF OMITTED] 41450.098

[GRAPHIC] [TIFF OMITTED] 41450.099

[GRAPHIC] [TIFF OMITTED] 41450.100

[GRAPHIC] [TIFF OMITTED] 41450.101

[GRAPHIC] [TIFF OMITTED] 41450.102

[GRAPHIC] [TIFF OMITTED] 41450.103

[GRAPHIC] [TIFF OMITTED] 41450.104

[GRAPHIC] [TIFF OMITTED] 41450.105

[GRAPHIC] [TIFF OMITTED] 41450.106

[GRAPHIC] [TIFF OMITTED] 41450.107

[GRAPHIC] [TIFF OMITTED] 41450.108

[GRAPHIC] [TIFF OMITTED] 41450.109

[GRAPHIC] [TIFF OMITTED] 41450.110

[GRAPHIC] [TIFF OMITTED] 41450.111

[GRAPHIC] [TIFF OMITTED] 41450.112

[GRAPHIC] [TIFF OMITTED] 41450.113

[GRAPHIC] [TIFF OMITTED] 41450.114

[GRAPHIC] [TIFF OMITTED] 41450.115

[GRAPHIC] [TIFF OMITTED] 41450.116

[GRAPHIC] [TIFF OMITTED] 41450.117

[GRAPHIC] [TIFF OMITTED] 41450.118

[GRAPHIC] [TIFF OMITTED] 41450.119

[GRAPHIC] [TIFF OMITTED] 41450.120

[GRAPHIC] [TIFF OMITTED] 41450.121

[GRAPHIC] [TIFF OMITTED] 41450.122

[GRAPHIC] [TIFF OMITTED] 41450.123

[GRAPHIC] [TIFF OMITTED] 41450.124

[GRAPHIC] [TIFF OMITTED] 41450.125

[GRAPHIC] [TIFF OMITTED] 41450.126

[GRAPHIC] [TIFF OMITTED] 41450.127

[GRAPHIC] [TIFF OMITTED] 41450.128

[GRAPHIC] [TIFF OMITTED] 41450.129

[GRAPHIC] [TIFF OMITTED] 41450.130

[GRAPHIC] [TIFF OMITTED] 41450.131

[GRAPHIC] [TIFF OMITTED] 41450.132

[GRAPHIC] [TIFF OMITTED] 41450.133

[GRAPHIC] [TIFF OMITTED] 41450.134

[GRAPHIC] [TIFF OMITTED] 41450.135

[GRAPHIC] [TIFF OMITTED] 41450.136

[GRAPHIC] [TIFF OMITTED] 41450.137

[GRAPHIC] [TIFF OMITTED] 41450.138

[GRAPHIC] [TIFF OMITTED] 41450.139

[GRAPHIC] [TIFF OMITTED] 41450.140

[GRAPHIC] [TIFF OMITTED] 41450.141

[GRAPHIC] [TIFF OMITTED] 41450.142

[GRAPHIC] [TIFF OMITTED] 41450.143

[GRAPHIC] [TIFF OMITTED] 41450.144

[GRAPHIC] [TIFF OMITTED] 41450.145

[GRAPHIC] [TIFF OMITTED] 41450.146

[GRAPHIC] [TIFF OMITTED] 41450.147

[GRAPHIC] [TIFF OMITTED] 41450.148

[GRAPHIC] [TIFF OMITTED] 41450.149

[GRAPHIC] [TIFF OMITTED] 41450.150

[GRAPHIC] [TIFF OMITTED] 41450.151

[GRAPHIC] [TIFF OMITTED] 41450.152

[GRAPHIC] [TIFF OMITTED] 41450.153

[GRAPHIC] [TIFF OMITTED] 41450.154

[GRAPHIC] [TIFF OMITTED] 41450.155

[GRAPHIC] [TIFF OMITTED] 41450.156

[GRAPHIC] [TIFF OMITTED] 41450.157

[GRAPHIC] [TIFF OMITTED] 41450.158

[GRAPHIC] [TIFF OMITTED] 41450.159

[GRAPHIC] [TIFF OMITTED] 41450.160

[GRAPHIC] [TIFF OMITTED] 41450.161

[GRAPHIC] [TIFF OMITTED] 41450.162

[GRAPHIC] [TIFF OMITTED] 41450.163

[GRAPHIC] [TIFF OMITTED] 41450.164

[GRAPHIC] [TIFF OMITTED] 41450.165

[GRAPHIC] [TIFF OMITTED] 41450.166

[GRAPHIC] [TIFF OMITTED] 41450.167

[GRAPHIC] [TIFF OMITTED] 41450.168

[GRAPHIC] [TIFF OMITTED] 41450.169

[GRAPHIC] [TIFF OMITTED] 41450.170

[GRAPHIC] [TIFF OMITTED] 41450.171

[GRAPHIC] [TIFF OMITTED] 41450.172

[GRAPHIC] [TIFF OMITTED] 41450.173

[GRAPHIC] [TIFF OMITTED] 41450.174

[GRAPHIC] [TIFF OMITTED] 41450.175

[GRAPHIC] [TIFF OMITTED] 41450.176

[GRAPHIC] [TIFF OMITTED] 41450.177

[GRAPHIC] [TIFF OMITTED] 41450.178

[GRAPHIC] [TIFF OMITTED] 41450.179

[GRAPHIC] [TIFF OMITTED] 41450.180

[GRAPHIC] [TIFF OMITTED] 41450.181

[GRAPHIC] [TIFF OMITTED] 41450.182

[GRAPHIC] [TIFF OMITTED] 41450.183

[GRAPHIC] [TIFF OMITTED] 41450.184

[GRAPHIC] [TIFF OMITTED] 41450.185

[GRAPHIC] [TIFF OMITTED] 41450.186

[GRAPHIC] [TIFF OMITTED] 41450.187

[GRAPHIC] [TIFF OMITTED] 41450.188

[GRAPHIC] [TIFF OMITTED] 41450.189

[GRAPHIC] [TIFF OMITTED] 41450.190

[GRAPHIC] [TIFF OMITTED] 41450.191

[GRAPHIC] [TIFF OMITTED] 41450.192

[GRAPHIC] [TIFF OMITTED] 41450.193

[GRAPHIC] [TIFF OMITTED] 41450.194

[GRAPHIC] [TIFF OMITTED] 41450.195

[GRAPHIC] [TIFF OMITTED] 41450.196

[GRAPHIC] [TIFF OMITTED] 41450.197

[GRAPHIC] [TIFF OMITTED] 41450.198

[GRAPHIC] [TIFF OMITTED] 41450.199

[GRAPHIC] [TIFF OMITTED] 41450.200

[GRAPHIC] [TIFF OMITTED] 41450.202

[GRAPHIC] [TIFF OMITTED] 41450.203

[GRAPHIC] [TIFF OMITTED] 41450.204

[GRAPHIC] [TIFF OMITTED] 41450.205

[GRAPHIC] [TIFF OMITTED] 41450.206

[GRAPHIC] [TIFF OMITTED] 41450.207

[GRAPHIC] [TIFF OMITTED] 41450.208

[GRAPHIC] [TIFF OMITTED] 41450.209

[GRAPHIC] [TIFF OMITTED] 41450.210

[GRAPHIC] [TIFF OMITTED] 41450.211

[GRAPHIC] [TIFF OMITTED] 41450.212

[GRAPHIC] [TIFF OMITTED] 41450.213

[GRAPHIC] [TIFF OMITTED] 41450.214

[GRAPHIC] [TIFF OMITTED] 41450.215

[GRAPHIC] [TIFF OMITTED] 41450.216

[GRAPHIC] [TIFF OMITTED] 41450.217

[GRAPHIC] [TIFF OMITTED] 41450.218

[GRAPHIC] [TIFF OMITTED] 41450.219

[GRAPHIC] [TIFF OMITTED] 41450.220

[GRAPHIC] [TIFF OMITTED] 41450.221

[GRAPHIC] [TIFF OMITTED] 41450.222

[GRAPHIC] [TIFF OMITTED] 41450.223

[GRAPHIC] [TIFF OMITTED] 41450.224

[GRAPHIC] [TIFF OMITTED] 41450.225

[GRAPHIC] [TIFF OMITTED] 41450.226

[GRAPHIC] [TIFF OMITTED] 41450.227

[GRAPHIC] [TIFF OMITTED] 41450.228

[GRAPHIC] [TIFF OMITTED] 41450.229

[GRAPHIC] [TIFF OMITTED] 41450.230

[GRAPHIC] [TIFF OMITTED] 41450.231

[GRAPHIC] [TIFF OMITTED] 41450.232

[GRAPHIC] [TIFF OMITTED] 41450.233

[GRAPHIC] [TIFF OMITTED] 41450.234

[GRAPHIC] [TIFF OMITTED] 41450.235

[GRAPHIC] [TIFF OMITTED] 41450.236

[GRAPHIC] [TIFF OMITTED] 41450.237

[GRAPHIC] [TIFF OMITTED] 41450.238

[GRAPHIC] [TIFF OMITTED] 41450.239

[GRAPHIC] [TIFF OMITTED] 41450.240

[GRAPHIC] [TIFF OMITTED] 41450.241

[GRAPHIC] [TIFF OMITTED] 41450.242

[GRAPHIC] [TIFF OMITTED] 41450.243

[GRAPHIC] [TIFF OMITTED] 41450.244

[GRAPHIC] [TIFF OMITTED] 41450.245

[GRAPHIC] [TIFF OMITTED] 41450.246

[GRAPHIC] [TIFF OMITTED] 41450.247

[GRAPHIC] [TIFF OMITTED] 41450.248

[GRAPHIC] [TIFF OMITTED] 41450.249

[GRAPHIC] [TIFF OMITTED] 41450.250

[GRAPHIC] [TIFF OMITTED] 41450.251

[GRAPHIC] [TIFF OMITTED] 41450.252

[GRAPHIC] [TIFF OMITTED] 41450.253

[GRAPHIC] [TIFF OMITTED] 41450.254

[GRAPHIC] [TIFF OMITTED] 41450.255

[GRAPHIC] [TIFF OMITTED] 41450.256

[GRAPHIC] [TIFF OMITTED] 41450.257

[GRAPHIC] [TIFF OMITTED] 41450.258

[GRAPHIC] [TIFF OMITTED] 41450.259

[GRAPHIC] [TIFF OMITTED] 41450.260

[GRAPHIC] [TIFF OMITTED] 41450.261

[GRAPHIC] [TIFF OMITTED] 41450.262

[GRAPHIC] [TIFF OMITTED] 41450.263

[GRAPHIC] [TIFF OMITTED] 41450.264

[GRAPHIC] [TIFF OMITTED] 41450.265

[GRAPHIC] [TIFF OMITTED] 41450.266

[GRAPHIC] [TIFF OMITTED] 41450.267

[GRAPHIC] [TIFF OMITTED] 41450.268

[GRAPHIC] [TIFF OMITTED] 41450.269

[GRAPHIC] [TIFF OMITTED] 41450.270

[GRAPHIC] [TIFF OMITTED] 41450.271

[GRAPHIC] [TIFF OMITTED] 41450.272

[GRAPHIC] [TIFF OMITTED] 41450.273

[GRAPHIC] [TIFF OMITTED] 41450.274

[GRAPHIC] [TIFF OMITTED] 41450.275

[GRAPHIC] [TIFF OMITTED] 41450.276

[GRAPHIC] [TIFF OMITTED] 41450.277

[GRAPHIC] [TIFF OMITTED] 41450.278

[GRAPHIC] [TIFF OMITTED] 41450.279

[GRAPHIC] [TIFF OMITTED] 41450.280

[GRAPHIC] [TIFF OMITTED] 41450.281

[GRAPHIC] [TIFF OMITTED] 41450.282

[GRAPHIC] [TIFF OMITTED] 41450.283

[GRAPHIC] [TIFF OMITTED] 41450.284

[GRAPHIC] [TIFF OMITTED] 41450.285

[GRAPHIC] [TIFF OMITTED] 41450.286

[GRAPHIC] [TIFF OMITTED] 41450.287

[GRAPHIC] [TIFF OMITTED] 41450.288

[GRAPHIC] [TIFF OMITTED] 41450.289

[GRAPHIC] [TIFF OMITTED] 41450.290

[GRAPHIC] [TIFF OMITTED] 41450.291

[GRAPHIC] [TIFF OMITTED] 41450.292

[GRAPHIC] [TIFF OMITTED] 41450.293

[GRAPHIC] [TIFF OMITTED] 41450.294

[GRAPHIC] [TIFF OMITTED] 41450.295

[GRAPHIC] [TIFF OMITTED] 41450.296

[GRAPHIC] [TIFF OMITTED] 41450.297

[GRAPHIC] [TIFF OMITTED] 41450.298

[GRAPHIC] [TIFF OMITTED] 41450.299

[GRAPHIC] [TIFF OMITTED] 41450.300

[GRAPHIC] [TIFF OMITTED] 41450.301

[GRAPHIC] [TIFF OMITTED] 41450.302

[GRAPHIC] [TIFF OMITTED] 41450.303

[GRAPHIC] [TIFF OMITTED] 41450.304

[GRAPHIC] [TIFF OMITTED] 41450.305

[GRAPHIC] [TIFF OMITTED] 41450.306

[GRAPHIC] [TIFF OMITTED] 41450.307

[GRAPHIC] [TIFF OMITTED] 41450.308

[GRAPHIC] [TIFF OMITTED] 41450.309

[GRAPHIC] [TIFF OMITTED] 41450.310

[GRAPHIC] [TIFF OMITTED] 41450.311

[GRAPHIC] [TIFF OMITTED] 41450.312

[GRAPHIC] [TIFF OMITTED] 41450.313

[GRAPHIC] [TIFF OMITTED] 41450.314

[GRAPHIC] [TIFF OMITTED] 41450.315

[GRAPHIC] [TIFF OMITTED] 41450.316

[GRAPHIC] [TIFF OMITTED] 41450.317

[GRAPHIC] [TIFF OMITTED] 41450.318

[GRAPHIC] [TIFF OMITTED] 41450.319

[GRAPHIC] [TIFF OMITTED] 41450.320

[GRAPHIC] [TIFF OMITTED] 41450.321

[GRAPHIC] [TIFF OMITTED] 41450.322

[GRAPHIC] [TIFF OMITTED] 41450.323

[GRAPHIC] [TIFF OMITTED] 41450.324

[GRAPHIC] [TIFF OMITTED] 41450.325

[GRAPHIC] [TIFF OMITTED] 41450.326

[GRAPHIC] [TIFF OMITTED] 41450.327

[GRAPHIC] [TIFF OMITTED] 41450.328

[GRAPHIC] [TIFF OMITTED] 41450.329

[GRAPHIC] [TIFF OMITTED] 41450.330

[GRAPHIC] [TIFF OMITTED] 41450.331

[GRAPHIC] [TIFF OMITTED] 41450.332

[GRAPHIC] [TIFF OMITTED] 41450.333

[GRAPHIC] [TIFF OMITTED] 41450.334

[GRAPHIC] [TIFF OMITTED] 41450.335

[GRAPHIC] [TIFF OMITTED] 41450.336

[GRAPHIC] [TIFF OMITTED] 41450.337

[GRAPHIC] [TIFF OMITTED] 41450.338

[GRAPHIC] [TIFF OMITTED] 41450.339

[GRAPHIC] [TIFF OMITTED] 41450.340

[GRAPHIC] [TIFF OMITTED] 41450.341

[GRAPHIC] [TIFF OMITTED] 41450.342

[GRAPHIC] [TIFF OMITTED] 41450.343

[GRAPHIC] [TIFF OMITTED] 41450.344

[GRAPHIC] [TIFF OMITTED] 41450.345

[GRAPHIC] [TIFF OMITTED] 41450.346

[GRAPHIC] [TIFF OMITTED] 41450.347

[GRAPHIC] [TIFF OMITTED] 41450.348

[GRAPHIC] [TIFF OMITTED] 41450.349

[GRAPHIC] [TIFF OMITTED] 41450.350

[GRAPHIC] [TIFF OMITTED] 41450.351

[GRAPHIC] [TIFF OMITTED] 41450.352

[GRAPHIC] [TIFF OMITTED] 41450.353

[GRAPHIC] [TIFF OMITTED] 41450.354

[GRAPHIC] [TIFF OMITTED] 41450.355

[GRAPHIC] [TIFF OMITTED] 41450.356

[GRAPHIC] [TIFF OMITTED] 41450.357

[GRAPHIC] [TIFF OMITTED] 41450.358

[GRAPHIC] [TIFF OMITTED] 41450.359

[GRAPHIC] [TIFF OMITTED] 41450.360

[GRAPHIC] [TIFF OMITTED] 41450.361

[GRAPHIC] [TIFF OMITTED] 41450.362

[GRAPHIC] [TIFF OMITTED] 41450.363

[GRAPHIC] [TIFF OMITTED] 41450.364

[GRAPHIC] [TIFF OMITTED] 41450.365

[GRAPHIC] [TIFF OMITTED] 41450.366

[GRAPHIC] [TIFF OMITTED] 41450.367

[GRAPHIC] [TIFF OMITTED] 41450.368

[GRAPHIC] [TIFF OMITTED] 41450.369

[GRAPHIC] [TIFF OMITTED] 41450.370

[GRAPHIC] [TIFF OMITTED] 41450.371

[GRAPHIC] [TIFF OMITTED] 41450.372

[GRAPHIC] [TIFF OMITTED] 41450.373

[GRAPHIC] [TIFF OMITTED] 41450.374

[GRAPHIC] [TIFF OMITTED] 41450.375

[GRAPHIC] [TIFF OMITTED] 41450.376

[GRAPHIC] [TIFF OMITTED] 41450.377

[GRAPHIC] [TIFF OMITTED] 41450.378

[GRAPHIC] [TIFF OMITTED] 41450.379

[GRAPHIC] [TIFF OMITTED] 41450.380

[GRAPHIC] [TIFF OMITTED] 41450.381

[GRAPHIC] [TIFF OMITTED] 41450.382

[GRAPHIC] [TIFF OMITTED] 41450.383

[GRAPHIC] [TIFF OMITTED] 41450.384

[GRAPHIC] [TIFF OMITTED] 41450.385

[GRAPHIC] [TIFF OMITTED] 41450.386

[GRAPHIC] [TIFF OMITTED] 41450.387

[GRAPHIC] [TIFF OMITTED] 41450.388

[GRAPHIC] [TIFF OMITTED] 41450.389

[GRAPHIC] [TIFF OMITTED] 41450.390

[GRAPHIC] [TIFF OMITTED] 41450.391

[GRAPHIC] [TIFF OMITTED] 41450.392

[GRAPHIC] [TIFF OMITTED] 41450.393

[GRAPHIC] [TIFF OMITTED] 41450.394

[GRAPHIC] [TIFF OMITTED] 41450.395

[GRAPHIC] [TIFF OMITTED] 41450.396

[GRAPHIC] [TIFF OMITTED] 41450.397

[GRAPHIC] [TIFF OMITTED] 41450.398

[GRAPHIC] [TIFF OMITTED] 41450.399

[GRAPHIC] [TIFF OMITTED] 41450.400

[GRAPHIC] [TIFF OMITTED] 41450.401

[GRAPHIC] [TIFF OMITTED] 41450.402

[GRAPHIC] [TIFF OMITTED] 41450.403

[GRAPHIC] [TIFF OMITTED] 41450.404

[GRAPHIC] [TIFF OMITTED] 41450.405

[GRAPHIC] [TIFF OMITTED] 41450.406

[GRAPHIC] [TIFF OMITTED] 41450.407

[GRAPHIC] [TIFF OMITTED] 41450.408

[GRAPHIC] [TIFF OMITTED] 41450.409

[GRAPHIC] [TIFF OMITTED] 41450.410

[GRAPHIC] [TIFF OMITTED] 41450.411

[GRAPHIC] [TIFF OMITTED] 41450.412

[GRAPHIC] [TIFF OMITTED] 41450.413

[GRAPHIC] [TIFF OMITTED] 41450.414

[GRAPHIC] [TIFF OMITTED] 41450.415

[GRAPHIC] [TIFF OMITTED] 41450.416

[GRAPHIC] [TIFF OMITTED] 41450.417

[GRAPHIC] [TIFF OMITTED] 41450.418

[GRAPHIC] [TIFF OMITTED] 41450.419

[GRAPHIC] [TIFF OMITTED] 41450.420

[GRAPHIC] [TIFF OMITTED] 41450.421

[GRAPHIC] [TIFF OMITTED] 41450.422

[GRAPHIC] [TIFF OMITTED] 41450.423

[GRAPHIC] [TIFF OMITTED] 41450.424

[GRAPHIC] [TIFF OMITTED] 41450.425

[GRAPHIC] [TIFF OMITTED] 41450.426

[GRAPHIC] [TIFF OMITTED] 41450.516

[GRAPHIC] [TIFF OMITTED] 41450.517

[GRAPHIC] [TIFF OMITTED] 41450.518

[GRAPHIC] [TIFF OMITTED] 41450.519

[GRAPHIC] [TIFF OMITTED] 41450.520

[GRAPHIC] [TIFF OMITTED] 41450.521

[GRAPHIC] [TIFF OMITTED] 41450.522

[GRAPHIC] [TIFF OMITTED] 41450.523

[GRAPHIC] [TIFF OMITTED] 41450.524

[GRAPHIC] [TIFF OMITTED] 41450.525

[GRAPHIC] [TIFF OMITTED] 41450.526

[GRAPHIC] [TIFF OMITTED] 41450.527

[GRAPHIC] [TIFF OMITTED] 41450.528

[GRAPHIC] [TIFF OMITTED] 41450.529

[GRAPHIC] [TIFF OMITTED] 41450.530

[GRAPHIC] [TIFF OMITTED] 41450.531

[GRAPHIC] [TIFF OMITTED] 41450.532

[GRAPHIC] [TIFF OMITTED] 41450.533

[GRAPHIC] [TIFF OMITTED] 41450.534

[GRAPHIC] [TIFF OMITTED] 41450.535

[GRAPHIC] [TIFF OMITTED] 41450.536

[GRAPHIC] [TIFF OMITTED] 41450.537

[GRAPHIC] [TIFF OMITTED] 41450.538

[GRAPHIC] [TIFF OMITTED] 41450.539

[GRAPHIC] [TIFF OMITTED] 41450.540

[GRAPHIC] [TIFF OMITTED] 41450.541

[GRAPHIC] [TIFF OMITTED] 41450.542

[GRAPHIC] [TIFF OMITTED] 41450.543

[GRAPHIC] [TIFF OMITTED] 41450.544

[GRAPHIC] [TIFF OMITTED] 41450.545

[GRAPHIC] [TIFF OMITTED] 41450.546

[GRAPHIC] [TIFF OMITTED] 41450.547

[GRAPHIC] [TIFF OMITTED] 41450.548

[GRAPHIC] [TIFF OMITTED] 41450.549

[GRAPHIC] [TIFF OMITTED] 41450.550

[GRAPHIC] [TIFF OMITTED] 41450.551

[GRAPHIC] [TIFF OMITTED] 41450.552

[GRAPHIC] [TIFF OMITTED] 41450.553

[GRAPHIC] [TIFF OMITTED] 41450.554

[GRAPHIC] [TIFF OMITTED] 41450.555

[GRAPHIC] [TIFF OMITTED] 41450.556

[GRAPHIC] [TIFF OMITTED] 41450.557

[GRAPHIC] [TIFF OMITTED] 41450.558

[GRAPHIC] [TIFF OMITTED] 41450.559

[GRAPHIC] [TIFF OMITTED] 41450.560

[GRAPHIC] [TIFF OMITTED] 41450.561

[GRAPHIC] [TIFF OMITTED] 41450.562

[GRAPHIC] [TIFF OMITTED] 41450.563

[GRAPHIC] [TIFF OMITTED] 41450.564

[GRAPHIC] [TIFF OMITTED] 41450.565

[GRAPHIC] [TIFF OMITTED] 41450.566

[GRAPHIC] [TIFF OMITTED] 41450.567

[GRAPHIC] [TIFF OMITTED] 41450.568

[GRAPHIC] [TIFF OMITTED] 41450.569

[GRAPHIC] [TIFF OMITTED] 41450.570

[GRAPHIC] [TIFF OMITTED] 41450.571

[GRAPHIC] [TIFF OMITTED] 41450.572

[GRAPHIC] [TIFF OMITTED] 41450.573

[GRAPHIC] [TIFF OMITTED] 41450.574

[GRAPHIC] [TIFF OMITTED] 41450.575

[GRAPHIC] [TIFF OMITTED] 41450.576

[GRAPHIC] [TIFF OMITTED] 41450.577

[GRAPHIC] [TIFF OMITTED] 41450.578

[GRAPHIC] [TIFF OMITTED] 41450.579

[GRAPHIC] [TIFF OMITTED] 41450.580

[GRAPHIC] [TIFF OMITTED] 41450.581

[GRAPHIC] [TIFF OMITTED] 41450.582

[GRAPHIC] [TIFF OMITTED] 41450.583

[GRAPHIC] [TIFF OMITTED] 41450.584

[GRAPHIC] [TIFF OMITTED] 41450.585

[GRAPHIC] [TIFF OMITTED] 41450.586

[GRAPHIC] [TIFF OMITTED] 41450.587

[GRAPHIC] [TIFF OMITTED] 41450.588

[GRAPHIC] [TIFF OMITTED] 41450.589

[GRAPHIC] [TIFF OMITTED] 41450.590

[GRAPHIC] [TIFF OMITTED] 41450.591

[GRAPHIC] [TIFF OMITTED] 41450.592

[GRAPHIC] [TIFF OMITTED] 41450.593

[GRAPHIC] [TIFF OMITTED] 41450.594

[GRAPHIC] [TIFF OMITTED] 41450.595

[GRAPHIC] [TIFF OMITTED] 41450.596

[GRAPHIC] [TIFF OMITTED] 41450.597

[GRAPHIC] [TIFF OMITTED] 41450.598

[GRAPHIC] [TIFF OMITTED] 41450.599

[GRAPHIC] [TIFF OMITTED] 41450.600

[GRAPHIC] [TIFF OMITTED] 41450.601

[GRAPHIC] [TIFF OMITTED] 41450.602

[GRAPHIC] [TIFF OMITTED] 41450.603

[GRAPHIC] [TIFF OMITTED] 41450.604

[GRAPHIC] [TIFF OMITTED] 41450.605

[GRAPHIC] [TIFF OMITTED] 41450.606

[GRAPHIC] [TIFF OMITTED] 41450.648

[GRAPHIC] [TIFF OMITTED] 41450.649

[GRAPHIC] [TIFF OMITTED] 41450.607

[GRAPHIC] [TIFF OMITTED] 41450.608

[GRAPHIC] [TIFF OMITTED] 41450.609

[GRAPHIC] [TIFF OMITTED] 41450.610

[GRAPHIC] [TIFF OMITTED] 41450.611

[GRAPHIC] [TIFF OMITTED] 41450.612

[GRAPHIC] [TIFF OMITTED] 41450.613

[GRAPHIC] [TIFF OMITTED] 41450.614

[GRAPHIC] [TIFF OMITTED] 41450.615

[GRAPHIC] [TIFF OMITTED] 41450.616

[GRAPHIC] [TIFF OMITTED] 41450.617

[GRAPHIC] [TIFF OMITTED] 41450.618

[GRAPHIC] [TIFF OMITTED] 41450.619

[GRAPHIC] [TIFF OMITTED] 41450.628

[GRAPHIC] [TIFF OMITTED] 41450.629

[GRAPHIC] [TIFF OMITTED] 41450.630

[GRAPHIC] [TIFF OMITTED] 41450.631

[GRAPHIC] [TIFF OMITTED] 41450.632

[GRAPHIC] [TIFF OMITTED] 41450.633

[GRAPHIC] [TIFF OMITTED] 41450.634

[GRAPHIC] [TIFF OMITTED] 41450.635

[GRAPHIC] [TIFF OMITTED] 41450.636

[GRAPHIC] [TIFF OMITTED] 41450.637

[GRAPHIC] [TIFF OMITTED] 41450.638

[GRAPHIC] [TIFF OMITTED] 41450.639

[GRAPHIC] [TIFF OMITTED] 41450.640

[GRAPHIC] [TIFF OMITTED] 41450.641

[GRAPHIC] [TIFF OMITTED] 41450.642

[GRAPHIC] [TIFF OMITTED] 41450.643

[GRAPHIC] [TIFF OMITTED] 41450.644

[GRAPHIC] [TIFF OMITTED] 41450.645

[GRAPHIC] [TIFF OMITTED] 41450.646

[GRAPHIC] [TIFF OMITTED] 41450.647

[GRAPHIC] [TIFF OMITTED] 41450.620

[GRAPHIC] [TIFF OMITTED] 41450.621

[GRAPHIC] [TIFF OMITTED] 41450.622

[GRAPHIC] [TIFF OMITTED] 41450.623

[GRAPHIC] [TIFF OMITTED] 41450.624

[GRAPHIC] [TIFF OMITTED] 41450.625

[GRAPHIC] [TIFF OMITTED] 41450.626

[GRAPHIC] [TIFF OMITTED] 41450.627

[GRAPHIC] [TIFF OMITTED] 41450.427

[GRAPHIC] [TIFF OMITTED] 41450.428

[GRAPHIC] [TIFF OMITTED] 41450.429

[GRAPHIC] [TIFF OMITTED] 41450.430

[GRAPHIC] [TIFF OMITTED] 41450.431

[GRAPHIC] [TIFF OMITTED] 41450.432

[GRAPHIC] [TIFF OMITTED] 41450.433

[GRAPHIC] [TIFF OMITTED] 41450.434

[GRAPHIC] [TIFF OMITTED] 41450.435

[GRAPHIC] [TIFF OMITTED] 41450.436

[GRAPHIC] [TIFF OMITTED] 41450.437

[GRAPHIC] [TIFF OMITTED] 41450.438

[GRAPHIC] [TIFF OMITTED] 41450.439

[GRAPHIC] [TIFF OMITTED] 41450.440

[GRAPHIC] [TIFF OMITTED] 41450.441

[GRAPHIC] [TIFF OMITTED] 41450.442

[GRAPHIC] [TIFF OMITTED] 41450.443

[GRAPHIC] [TIFF OMITTED] 41450.444

[GRAPHIC] [TIFF OMITTED] 41450.445

[GRAPHIC] [TIFF OMITTED] 41450.446

[GRAPHIC] [TIFF OMITTED] 41450.447

[GRAPHIC] [TIFF OMITTED] 41450.448

[GRAPHIC] [TIFF OMITTED] 41450.449

[GRAPHIC] [TIFF OMITTED] 41450.450

[GRAPHIC] [TIFF OMITTED] 41450.451

[GRAPHIC] [TIFF OMITTED] 41450.452

[GRAPHIC] [TIFF OMITTED] 41450.453

[GRAPHIC] [TIFF OMITTED] 41450.454

[GRAPHIC] [TIFF OMITTED] 41450.455

[GRAPHIC] [TIFF OMITTED] 41450.456

[GRAPHIC] [TIFF OMITTED] 41450.457

[GRAPHIC] [TIFF OMITTED] 41450.458

[GRAPHIC] [TIFF OMITTED] 41450.459

[GRAPHIC] [TIFF OMITTED] 41450.460

[GRAPHIC] [TIFF OMITTED] 41450.461

[GRAPHIC] [TIFF OMITTED] 41450.462

[GRAPHIC] [TIFF OMITTED] 41450.463

[GRAPHIC] [TIFF OMITTED] 41450.464

[GRAPHIC] [TIFF OMITTED] 41450.465

[GRAPHIC] [TIFF OMITTED] 41450.466

[GRAPHIC] [TIFF OMITTED] 41450.467

[GRAPHIC] [TIFF OMITTED] 41450.468

[GRAPHIC] [TIFF OMITTED] 41450.469

[GRAPHIC] [TIFF OMITTED] 41450.470

[GRAPHIC] [TIFF OMITTED] 41450.471

[GRAPHIC] [TIFF OMITTED] 41450.472

[GRAPHIC] [TIFF OMITTED] 41450.473

[GRAPHIC] [TIFF OMITTED] 41450.474

[GRAPHIC] [TIFF OMITTED] 41450.475

[GRAPHIC] [TIFF OMITTED] 41450.476

[GRAPHIC] [TIFF OMITTED] 41450.477

[GRAPHIC] [TIFF OMITTED] 41450.478

[GRAPHIC] [TIFF OMITTED] 41450.479

[GRAPHIC] [TIFF OMITTED] 41450.480

[GRAPHIC] [TIFF OMITTED] 41450.481

[GRAPHIC] [TIFF OMITTED] 41450.482

[GRAPHIC] [TIFF OMITTED] 41450.483

[GRAPHIC] [TIFF OMITTED] 41450.484

[GRAPHIC] [TIFF OMITTED] 41450.485

[GRAPHIC] [TIFF OMITTED] 41450.486

[GRAPHIC] [TIFF OMITTED] 41450.487

[GRAPHIC] [TIFF OMITTED] 41450.488

[GRAPHIC] [TIFF OMITTED] 41450.489

[GRAPHIC] [TIFF OMITTED] 41450.490

[GRAPHIC] [TIFF OMITTED] 41450.491

[GRAPHIC] [TIFF OMITTED] 41450.492

[GRAPHIC] [TIFF OMITTED] 41450.493

[GRAPHIC] [TIFF OMITTED] 41450.494

[GRAPHIC] [TIFF OMITTED] 41450.495

[GRAPHIC] [TIFF OMITTED] 41450.496

[GRAPHIC] [TIFF OMITTED] 41450.497

[GRAPHIC] [TIFF OMITTED] 41450.498

[GRAPHIC] [TIFF OMITTED] 41450.499

[GRAPHIC] [TIFF OMITTED] 41450.500

[GRAPHIC] [TIFF OMITTED] 41450.501

[GRAPHIC] [TIFF OMITTED] 41450.502

[GRAPHIC] [TIFF OMITTED] 41450.503

[GRAPHIC] [TIFF OMITTED] 41450.504

[GRAPHIC] [TIFF OMITTED] 41450.505

[GRAPHIC] [TIFF OMITTED] 41450.506

[GRAPHIC] [TIFF OMITTED] 41450.507

[GRAPHIC] [TIFF OMITTED] 41450.508

[GRAPHIC] [TIFF OMITTED] 41450.509

[GRAPHIC] [TIFF OMITTED] 41450.510

[GRAPHIC] [TIFF OMITTED] 41450.511

[GRAPHIC] [TIFF OMITTED] 41450.512

[GRAPHIC] [TIFF OMITTED] 41450.513

[GRAPHIC] [TIFF OMITTED] 41450.514

[GRAPHIC] [TIFF OMITTED] 41450.515

[GRAPHIC] [TIFF OMITTED] 41450.650

[GRAPHIC] [TIFF OMITTED] 41450.651

[GRAPHIC] [TIFF OMITTED] 41450.652

[GRAPHIC] [TIFF OMITTED] 41450.653

[GRAPHIC] [TIFF OMITTED] 41450.654

[GRAPHIC] [TIFF OMITTED] 41450.655

[GRAPHIC] [TIFF OMITTED] 41450.656

[GRAPHIC] [TIFF OMITTED] 41450.657

[GRAPHIC] [TIFF OMITTED] 41450.658

[GRAPHIC] [TIFF OMITTED] 41450.659

[GRAPHIC] [TIFF OMITTED] 41450.660

[GRAPHIC] [TIFF OMITTED] 41450.661

[GRAPHIC] [TIFF OMITTED] 41450.662

[GRAPHIC] [TIFF OMITTED] 41450.663

[GRAPHIC] [TIFF OMITTED] 41450.664

[GRAPHIC] [TIFF OMITTED] 41450.665

[GRAPHIC] [TIFF OMITTED] 41450.666

[GRAPHIC] [TIFF OMITTED] 41450.667

[GRAPHIC] [TIFF OMITTED] 41450.668

[GRAPHIC] [TIFF OMITTED] 41450.669

[GRAPHIC] [TIFF OMITTED] 41450.670

[GRAPHIC] [TIFF OMITTED] 41450.671

[GRAPHIC] [TIFF OMITTED] 41450.672

[GRAPHIC] [TIFF OMITTED] 41450.673

[GRAPHIC] [TIFF OMITTED] 41450.674

[GRAPHIC] [TIFF OMITTED] 41450.675

[GRAPHIC] [TIFF OMITTED] 41450.676

[GRAPHIC] [TIFF OMITTED] 41450.677

[GRAPHIC] [TIFF OMITTED] 41450.678

[GRAPHIC] [TIFF OMITTED] 41450.679

[GRAPHIC] [TIFF OMITTED] 41450.680

[GRAPHIC] [TIFF OMITTED] 41450.681

[GRAPHIC] [TIFF OMITTED] 41450.682

[GRAPHIC] [TIFF OMITTED] 41450.683

                                 <all>

</pre></body></html>
